No. ______

In the Supreme Court of the United States
_________________
JAMES DWIGHT PAVATT, PETITIONER
v.
TOMMY SHARP, INTERIM WARDEN,
OKLAHOMA STATE PENITENTIARY
(CAPITAL CASE)
________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________
PETITION FOR A WRIT OF CERTIORARI
________________
SARAH JERNIGAN MCGOVERN
PATTI PALMER GHEZZI
Assistant Federal Public
Defenders Office of the Federal
Public Defender
Western District of Oklahoma
Capital Habeas Unit
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
Tel. (405) 609-5975
Sarah_Jernigan@fd.org

PETER KARANJIA
Counsel of Record
MICHAEL GELLER
JEAN CAMILLE GABAT
DLA PIPER LLP (US)
500 Eighth Street, NW
Washington, D.C. 20004
Tel. (202) 799-4000
peter.karanjia@dlapiper.com

Counsel for Petitioner James Dwight Pavatt

i
CAPITAL CASE
QUESTIONS PRESENTED
A divided panel of the Tenth Circuit, sitting en
banc, vacated a panel opinion that reversed a capital
sentence on the ground that the sentence rested on an
unconstitutionally
overbroad
and
arbitrary
application of Oklahoma’s aggravating factor for
“especially
heinous,
atrocious,
or
cruel”
homicides. The en banc court refused to reach the
merits of Petitioner’s Eighth Amendment challenge to
his capital sentence, ruling that the claim was
procedurally barred—even though the State had
explicitly waived any procedural objection and
Petitioner had timely presented his claim to the state
court.
The questions presented are:
1. Whether this Court should summarily reverse
the Tenth Circuit’s clearly erroneous procedural
ruling.
2. If the Court grants plenary review, whether a
State’s application of an aggravating factor to justify
the death penalty violates the Eighth and Fourteenth
Amendments—and conflicts with both this Court’s
precedents prohibiting the arbitrary imposition of
capital sentences and the decisions of other appellate
courts—when it makes punishable by death any
homicide where the victim does not die immediately.

ii
RELATED PROCEEDINGS
•

Pavatt v. Carpenter, No. 14-6117, United States
Court of Appeals for the Tenth Circuit. Judgment
entered June 27, 2019.

•

Pavatt v. Royal, No. 14-6117, United States Court
of Appeals for the Tenth Circuit. Judgment
entered June 9, 2017.

•

Pavatt v. Trammell, No. CIV-08-470-R, United
States District Court for the Western District of
Oklahoma. Judgment entered May 1, 2014.

•

Pavatt v. State, No. PCD-2009-777, Oklahoma
Court of Criminal Appeals. Judgment entered
February 2, 2010.

•

Pavatt v. State, No. PCD-2004-25, Oklahoma
Court of Criminal Appeals. Judgment entered
April 11, 2008.

•

Pavatt v. State, No. D-2003-1186, Oklahoma Court
of Criminal Appeals. Judgment entered May 8,
2007.

iii
TABLE OF CONTENTS
Page(s)
Questions Presented .................................................. i
Related Proceedings .................................................. ii
Opinions Below ......................................................... 1
Jurisdiction................................................................ 1
Constitutional And Statutory Provisions
Involved .......................................................... 1
Statement .................................................................. 2
A.

Victim’s Non-Instantaneous Death
And Pavatt’s Conviction. ........................ 6

B.

Current Habeas Case. ............................ 7
1. On Direct Appeal, The
Oklahoma Court Of Criminal
Appeals Affirmed Pavatt’s
Capital Sentence. .............................. 7
2. The District Court Followed
The OCCA’s Reasoning,
Emphasizing The Victim’s NonInstantaneous Death. ....................... 8
3. The Tenth Circuit Reversed
Pavatt’s Capital Sentence,
Concluding This Case Is
Controlled By Godfrey. ..................... 9
4. Over Three Dissents, The En
Banc Tenth Circuit Reinstated
The Capital Sentence. ..................... 11

iv

Reasons For Granting The Petition ....................... 12
I.

II.

This Court Should Summarily Reverse
The Tenth Circuit’s Manifestly
Erroneous Procedural Ruling. ..................... 14
A.

As The Original Panel Opinion Held,
The State Waived Any Objections To
Preservation And Exhaustion. ............. 14

B.

In Any Event, Pavatt Timely Raised
His Eighth Amendment Argument. .... 20

The Tenth Circuit’s Holding Conflicts
With This Court’s Precedents And The
Decisions Of Various Appellate Courts
On An Important And Recurring
Constitutional Question. .............................. 23
A.

The Tenth Circuit’s Holding Flouts
This Court’s Precedents. ...................... 23

B.

The Tenth Circuit’s Holding Conflicts
With Other Appellate Decisions. ......... 28

C.

The Eighth Amendment Issue Is
Important, Recurring, and Squarely
Presented By This Case. ...................... 31

CONCLUSION ........................................................ 36

v
TABLE OF APPENDICES
Page(s)
APPENDIX A — EN BANC OPINION OF
T H E U N I T ED S T A T E S C O U RT O F
APPEALS FOR THE TENTH CIRCUIT,
FILED JUNE 27, 2019 ...................................... 1a
APPENDIX B — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JUNE
9, 2017, AMENDED JULY 2, 2018 ................ 70a
APPENDIX C — CASE MANAGEMENT
ORDER AND CERTIFICATE OF
APPEALABILITY OF THE UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED
NOVEMBER 24, 2014 ................................... 156a
APPENDIX D — MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT
OF OKLAHOMA, FILED MAY 1, 2014 ........ 160a
APPENDIX E — OPINION DENYING
SECOND APPLICATION FOR POST CONVICTION RELIEF AND
APPLICATION FOR EVIDENTIARY
HEARING IN THE OKLAHOMA COURT
OF CRIMINAL APPEALS, FILED
FEBRUARY 2, 2010 ...................................... 304a

vi

APPENDIX F — OPINION DENYING FIRST
APPLICATION FOR POST-CONVICTION
RELIEF IN THE OKLAHOMA COURT OF
CRIMINAL APPEALS, FILED
APRIL 11, 2008 .............................................. 313a
APPENDIX G — OPINION OF THE
OKLAHOMA COURT OF CRIMINAL
APPEALS, FILED MAY 8, 2007 ................... 323a
APPENDIX H — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED
OCTOBER 2, 2018 ......................................... 383a
APPENDIX I — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JULY 2, 2018 ..... 389a
APPENDIX J — EXCERPTS OF
RESPONDENT-APPELLEE’S ANSWER
BRIEF IN THE UNITED STATES COURT
OF APPEALS FOR THE TENTH
CIRCUIT, FILED AUGUST 10, 2015 ........... 391a
APPENDI X K — EXCERPTS OF THE
APPELLANT’S OPENING BRIEF IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT, FILED
JUNE 8, 2015 ................................................. 407a

vii
APPENDIX L — EXCERPTS OF SECOND
APPLICATION FOR POST-CONVICTION
RELIEF IN THE OKLAHOMA COURT OF
CRIMINAL APPEALS, DATED
SEPTEMBER 2, 2009 .................................... 422a
APPENDIX M — EXCERPTS OF
RESPONSE TO PETITION FOR WRIT OF
HABEAS CORPUS IN THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA,
FILED JULY 31, 2009 ................................... 427a
APPENDIX N — EXCERPTS OF PETITION
FOR WRIT OF HABEAS CORPUS IN THE
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
OKLAHOMA, FILED APRIL 1, 2009 ........... 456a
APPENDIX O — EXCERPTS OF FIRST
APPLICATION FOR POST-CONVICTION
RELIEF IN THE OKLAHOMA COURT OF
CRIMINAL APPEALS, FILED
APRIL 17, 2006 .............................................. 470a
APPENDIX P — EXCERPTS OF BRIEF OF
APPELLANT IN THE OKLAHOMA
COURT OF CRIMINAL APPEALS, FILED
JANUARY 31, 2005 ....................................... 478a

viii

TABLE OF AUTHORITIES
Page(s)
Cases:
Agostini v. Felton,
521 U.S. 203 (1997) ............................................26
Arave v. Creech,
507 U.S. 463 (1993) ........................................4, 24
Baldwin v. Reese,
541 U.S. 27 (2004) ........................................20, 21
California v. Davenport,
710 P.2d 861 (1986) ............................................30
Connecticut v. Johnson,
751 A.2d 298 (Conn. 2000) .................................29
Cotto v. Herbert,
331 F.3d 217 (2d Cir. 2003) ................................21
Davis v. State,
888 P.2d 1018 (Okla. Crim. App. 1995) .............32
DeRosa v. State,
89 P.3d 1124 (Okla. Crim. App. 2004) .................7
Ellis v. Oklahoma,
941 P.2d 527 (Okla. Crim. App. 1997) ...............22
Godfrey v. Georgia,
446 U.S. 420 (1980) .................................... passim
Hooker v. Mullin,
293 F.3d 1232 (10th Cir. 2002) ..........................26

ix
Jackson v. Virginia,
443 U.S. 307 (1979) .......................... 11, 17, 18, 22
Lewis v. Jeffers,
497 U.S. 764 (1990) ......................................19, 21
Louisiana v. Monroe,
397 So. 2d 1258 (La. 1981) .................................29
Lowenfield v. Phelps,
484 U.S. 231 (1988) ............................................27
Marquez v. Oklahoma,
890 P.2d 980 (Okla. Crim. App. 1995) ......... 32-33
Maynard v. Cartwright,
486 U.S. 356 (1988) .................................... passim
Medlock v. Ward,
200 F.3d 1314 (10th Cir. 2000) ..........................34
North Carolina v. Lloyd,
552 S.E.2d 596 (N.C. 2001) ................................28
North Carolina v. Stanley,
312 S.E.2d 393 (N.C. 1984) ................................28
Pennsylvania v. Johnson,
42 A.3d 1017 (Pa. 2012) .....................................31
Picard v. Connor,
404 U.S. 270 (1971) ............................................20
Pike v. Guarino,
492 F.3d 61 (1st Cir. 2009) .................................17
Rimmer v. Florida,
825 So. 2d 304 (Fla. 2002) ..................................34
Rohan ex rel. Gates v. Woodford,
334 F.3d 813 (9th Cir. 2003) ..............................30

x
Romano v. Gibson,
239 F.3d 1156 (10th Cir. 2001) ................ 5, 25, 33
Ryan v. Gonzales,
568 U.S. 57 (2013) ..............................................30
Simpson v. Oklahoma,
230 P.3d 888, 903 (Okla. Crim. App. 2010),
reh’g granted and motion to recall
mandate denied, 239 P.3d 155
(Okla. Crim. App. 2010) .....................................32
Smith v. Moore,
137 F.3d 808 (4th Cir. 1998) ..............................31
South Carolina v. Burdette,
832 S.E.2d 575 (S.C. 2019) .................................31
South Carolina v. Elmore,
308 S.E.2d 781 (S.C. 1983) .................................31
Stouffer v. Oklahoma,
742 P.2d 562 (Okla. Crim. App. 1987) ...............25
Tennessee v. Pritchett,
621 S.W.2d 127 (Tenn. 1981) .............................35
Thomas v. Gibson,
218 F.3d 1213 (10th Cir. 2000) .............. 20, 21, 34
Tryon v. Oklahoma,
423 P.3d 617 (Okla. Crim. App. 2018) ...............33
Wade v. Calderon,
29 F.3d 1312 (9th Cir. 1994). .............................30
Welch v. Workman,
639 F.3d 980 (10th Cir. 2011) ......................26, 32
Wood v. Milyard,
566 U.S. 463 (2012) ............................................19

xi
Wyldes v. Hundley,
69 F.3d 247 (8th Cir. 1995). ...............................20
Zant v. Stephens,
462 U.S. 862 (1983) ......................................23, 31
Constitution:
U.S. Const.:
amend. VIII................................................. passim
amend. XIV ................................................. passim
§ 1 ......................................................................2
Rule:
Okla. R. Crim. App. 3.14 ....................................22
Statutes:
Antiterrorism and Effective Death Penalty Act of
1996:
28 U.S.C. § 2254(b)(3) ............................. 2, 15, 17
28 U.S.C. § 2254(d)............................................10
Ala. Code § 13A-5-49(8) ..........................................34
Ariz. Rev. Stat. § 13-751(F)(4) ...............................34
Idaho Code Ann. § 19-2515(9)(e) ............................34
Kan. Stat. Ann. § 21-6624(f) ..................................34
42 Pa. Cons. Stat. Ann. § 9711(d)(8) ......................34
Tenn. Code Ann. § 39-13-204(i)(5) .........................34
Utah Code Ann. § 76-5-202(1)(r) ............................34

1
PETITION FOR A WRIT OF CERTIORARI
James Pavatt respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Tenth Circuit in this case.
OPINIONS BELOW
The en banc opinion of the court of appeals (App.
1a–69a) is reported at 928 F.3d 906. The original
panel opinion of the court of appeals (App. 70a–155a)
is reported at 859 F.3d 920. The opinion of the district
court denying Pavatt’s petition for habeas corpus
(App. 160a–303a) is unreported. The opinions of the
Oklahoma
Court
of
Criminal
Appeals
denying post-conviction relief (App. 304a–312a) are
unreported. The opinion of the Oklahoma Court of
Criminal Appeals on Pavatt’s direct appeal from his
conviction and capital sentence (App. 323a–382a) is
reported at 159 P.3d 272.
JURISDICTION
The judgment of the en banc court of appeals was
entered on June 27, 2019. On September 11, 2019,
Justice Sotomayor extended the time within which to
file a petition for a writ of certiorari to and including
November 25, 2019.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Eighth Amendment to the United States
Constitution provides:

2
“Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.”
Section 1 of the Fourteenth Amendment to the
United States Constitution provides in pertinent
part:
“[N]or shall any State deprive any person of
life, liberty, or property, without due process of
law[.]”
28 U.S.C. § 2254(b)(3) provides in pertinent part:
“A State shall not be deemed to have waived
the exhaustion requirement or be estopped
from reliance upon the requirement unless the
State, through counsel, expressly waives the
requirement.”
STATEMENT
This capital case, which involves a fatal shooting
in which the victim died seconds or minutes after he
was shot, presents an important and recurring
question of Eighth Amendment law: whether a State’s
application of its aggravating factor to justify the
death penalty for “especially heinous, atrocious, or
cruel” homicides violates the Eighth and Fourteenth
Amendments when it authorizes capital punishment
for all cases where the victim’s death was noninstantaneous. The issue divided a panel of the Tenth
Circuit, which initially granted Petitioner James
Pavatt habeas relief and overturned his capital
sentence on Eighth Amendment grounds. Sitting en
banc, however, the Tenth Circuit reversed, with three
judges dissenting. The en banc court’s decision

3
conflicts with this Court’s precedents—including
Maynard v. Cartwright, 486 U.S. 356 (1988), which
found Oklahoma’s same “especially heinous,
atrocious, or cruel” aggravator unconstitutional
absent a proper limiting construction by state
courts—as well as the decisions of multiple courts of
appeals.
The en banc court refused to reach the merits of
Pavatt’s Eighth Amendment claim, maintaining that
it was procedurally barred. But, as the original panel
opinion (and en banc dissent) pointed out, the State
explicitly waived any procedural objection. App. 101a,
62a–68a. In any event, Pavatt’s claim was timely and
fairly presented to the Oklahoma court and was well
within the scope of the Tenth Circuit’s Certificate of
Appealability. As a result, this Court should
summarily reverse the Tenth Circuit’s clearly
erroneous procedural ruling. In the alternative, the
Court should grant plenary review to restore
uniformity to the law on the life-and-death
constitutional question presented by this case.
As to that core constitutional question, this
Court’s precedents have long established that capitalsentencing schemes must provide a “meaningful basis
for distinguishing the few cases in which [the death
penalty] is imposed from the many cases in which it
is not.” Godfrey v. Georgia, 446 U.S. 420, 427 (1980)
(opinion of Stewart, J., joined by Blackmun, Powell,
and Stevens, JJ.) (citation omitted). Thus, a State’s
use of an aggravating circumstance—such as
Oklahoma’s “especially heinous, atrocious, or cruel”
factor here—“must provide a principled basis” for
“distinguish[ing] those who deserve capital

4
punishment from those who do not.” Arave v. Creech,
507 U.S. 463, 474 (1993) (citing, inter alia, Godfrey,
446 U.S. at 433) (emphasis added).
In conflict with this precedent and decisions of
various appellate courts, the Tenth Circuit’s en banc
ruling rejects an Eighth Amendment challenge to
Pavatt’s capital sentence and allows an Oklahoma
Court of Criminal Appeals decision to stand based on
the theory that any non-instantaneous death—in this
instance, the victim was conscious for anywhere
between a few seconds and up to five minutes before
his death—satisfies the State’s aggravating factor for
“especially heinous, atrocious, or cruel” conduct
necessary to justify the death penalty. As the
Oklahoma court reasoned, “[e]vidence that the victim
was conscious and aware of the attack [in the
moments before death] supports a finding of
torture.” App. 372a. That is particularly troubling
because this Court has previously held that, absent a
proper limiting construction, Oklahoma’s “especially
heinous, atrocious, or cruel” aggravator was
unconstitutionally vague and overbroad because it
failed to give a capital sentencer sufficient guidance:
“[A]n ordinary person could honestly believe that
every unjustified, intentional taking of human life is
‘especially heinous.’ ” Maynard, 486 U.S. at 364
(emphasis added).
In the wake of Maynard, Oklahoma purported to
limit its aggravator to cases involving torture or
serious physical abuse, but decisions of the Oklahoma
Court of Criminal Appeals have increasingly “begun
to blur the common understanding of the requisite
torture and conscious serious physical suffering, more

5
and more often finding the existence of these elements
in almost every murder.” Romano v. Gibson, 239 F.3d
1156, 1176 (10th Cir. 2001). And despite increasing
concerns expressed by individual members of the
Tenth Circuit about the Oklahoma court’s overbroad
application of its aggravator in capital cases, that
circuit continues to follow the Oklahoma court’s
flawed approach.
The present case exacerbates that trend,
requiring this Court’s intervention. As the dissenting
judges below point out, under the State’s logic, “the
very act of committing the murder makes one eligible
for the death penalty unless the victim was rendered
unconscious immediately upon receiving the fatal
blow.” App. 61a. In conflict with Maynard and
Godfrey, a rule that makes the death penalty turn on
the mere happenstance of whether the victim dies
instantly fails to “distinguish[ ] in a principled
manner those deserving the death penalty from the
many first-degree murderers who do not.” Id.
The Tenth Circuit’s decision rests on a clearly
erroneous procedural ruling and leaves the door open
to a “sharpshooter bonus” (App. 62a) that allows the
death penalty to apply to any murder in which the
victim does not die instantly. This application of the
State’s aggravator for “especially heinous, atrocious,
or cruel” homicides transforms the death sentence
from an extraordinary punishment to a default rule—
indeed, one that would govern the vast majority of
murders. In doing so, the Tenth Circuit not only
contravenes
the
Eighth
and
Fourteenth
Amendments, but also runs afoul of this Court’s
precedent and the decisions of multiple appellate

6
courts on a vital constitutional issue. This Court
should summarily reverse or grant the petition and
conduct plenary review to bring national uniformity
to the law.
A. Victim’s Non-Instantaneous Death And
Pavatt’s Conviction.
In 2001, the State of Oklahoma charged Pavatt, a
decorated U.S. Air Force veteran who was honorably
discharged in 1992, with the murder of his girlfriend’s
husband. App. 10a; Attachment 14 to Pet. for Writ of
Habeas Corpus at 23. The State later added a charge
of conspiracy to commit murder. App. 10a.
As the Oklahoma Court of Criminal Appeals
(“OCCA”) recounted, the victim, who was shot twice,
did not die “instantaneous[ly].” App. 373a. Rather, he
“remained conscious” for anything from seconds to up
to five minutes after being shot. App. 139a (citing
medical examiner’s testimony that it was possible the
victim died more or less than one minute after being
shot and likely was unconscious within five minutes).
On that basis, following a trial in 2003, the jury found
that the State had established that the murder was
“especially heinous, atrocious, or cruel”—one of
Oklahoma’s aggravating factors for capital-eligible
offenses—and therefore, together with another
aggravating circumstance, justified the death
penalty. App. 10a.

7
B. Current Habeas Case.
1. On Direct Appeal, The Oklahoma
Court Of Criminal Appeals Affirmed
Pavatt’s Capital Sentence.
Pavatt filed a direct appeal to the OCCA. Among
other things, he argued that “[t]he evidence does not
support the fact that the murder was ‘especially’
heinous, atrocious or cruel.” App. 479a.
The OCCA acknowledged that this aggravating
factor applies only if the victim’s death was preceded
by either “serious physical abuse or torture.” App.
372a. The OCCA had adopted that interpretation of
the aggravator to perform the narrowing function
required by the Eighth Amendment. See DeRosa v.
Oklahoma, 89 P.3d 1124, 1156 (Okla. Crim. App.
2004). But the OCCA concluded that the aggravator
was established in this case because “[e]vidence that
the victim was conscious and aware of [the] attack
supports a finding of torture.” App. 372a (citing
Oklahoma cases). In particular, the OCCA
emphasized that the victim’s “death was not
instantaneous,” and the facts “tend[ed] to show that
[the victim] . . . was conscious of the fatal attack for
several minutes.” App. 374a.1 In other words, because
1 The court cited the following to support this conclusion: (1)
the medical examiner’s testimony that “death was not
instantaneous”; (2) evidence that the victim died while
“clutching a trash bag of empty aluminum cans” (which the court
construed as evidence that the victim was conscious and trying
to shield himself); and (3) the victim’s wife’s claim in a 911 call
that the victim was “still conscious and attempting to talk to
her.” App. 373a–374a.

8
the shooting did not result in the victim’s
instantaneous unconsciousness, it was deemed to be a
form of especially heinous torture that makes the
defendant eligible for the death penalty. The OCCA,
therefore, rejected Pavatt’s challenge to the
application of this aggravator, as well as Pavatt’s
other arguments, and affirmed his conviction and
capital sentence. App. 380a.2
2. The District Court Followed The
OCCA’s Reasoning, Emphasizing The
Victim’s Non-Instantaneous Death.
Pavatt sought habeas relief in the Western District
of Oklahoma. Among other things, he argued that his
capital sentence violated the Eighth Amendment
because the OCCA “applied an incorrect standard of
review” when applying its “especially heinous,
atrocious, or cruel” aggravator. App. 458a. In
particular, Pavatt argued that “[t]hough the
Oklahoma court concluded that ‘these facts tend to
show [the victim] suffered serious physical abuse,’ the
court failed to identify what serious physical abuse
occurred, beyond what naturally occurs in any
shooting.” App. 459a. As a result, “the Oklahoma
court’s approach of finding ‘serious physical abuse’ . . .

2 In 2008, this Court denied a petition seeking direct review
of the OCCA’s 2007 judgment based on unrelated arguments
that are separate from the Eighth Amendment and procedural
issues presented here. See Pavatt v. Oklahoma, 552 U.S. 1181
(2008); Pet. for a Writ of Certiorari, Pavatt v. Oklahoma, No. 07703, 2007 WL 4207141, at *i (U.S. Nov. 23, 2007) (presenting due
process and Confrontation Clause arguments based on the state
court’s exclusion of evidence).

9
simply does not comport with the narrowing process
[for capital-eligible murders] that the Constitution
requires.” App. 467a.
Echoing the OCCA’s reasoning, the district court
rejected Pavatt’s Eighth Amendment claim and
denied the writ in its entirety. App. 278a–279a, 303a.
The district court emphasized that the victim “did not
die instantaneously” and “could have suffered for
several minutes.” App. 267a.
3. The Tenth Circuit Reversed Pavatt’s
Capital Sentence, Concluding This
Case Is Controlled By Godfrey.
The Tenth Circuit granted Pavatt a Certificate of
Appealability on several issues, including “[w]hether
there was sufficient evidence to support the
‘especially heinous, atrocious, or cruel’ aggravator
(raised in Ground 10 of Mr. Pavatt’s habeas
petition)[.]” App. 156a.
That
cross-referenced
ground in Pavatt’s habeas petition argued that the
capital sentence violated the Eighth and Fourteenth
Amendments. Based on the COA, Pavatt argued to
the Tenth Circuit that the evidence presented against
him at trial was “constitutionally insufficient” under
the Eighth Amendment’s narrowing restraints
because it failed to show “that the homicide was any
more heinous, atrocious, or cruel than any other
homicide.” App. 421a.
After comprehensively reviewing this Court’s
precedents, the Tenth Circuit concluded that “we
have a case controlled by the Supreme Court’s holding
in Godfrey.” App. 100a (citing Godfrey, 446 U.S. 420).
In particular, the panel held, over Judge Briscoe’s

10
dissent, that Pavatt had raised a “meritorious” Eighth
Amendment challenge and that “the OCCA no longer
construes ‘conscious physical suffering’ so that it
distinguishes in a principled way between crimes
deserving the death penalty and the many cases in
which the death penalty is not imposed.” App. 101a–
102a. As the panel explained, “[v]irtually any murder
in which the victim did not die instantly could qualify
for the enhancement as presently construed if there is
a possibility that the act of murder did not
immediately render the victim unconscious and the
wounds could have caused pain.” App. 102a.
The Tenth Circuit concluded that Oklahoma’s
“especially heinous, atrocious, or cruel” aggravator
“cannot constitutionally be applied in this case” and
the OCCA’s rejection of Pavatt’s challenge to his
sentence was therefore “ ‘ contrary to clearly
established federal law’ ” —requiring habeas relief
under the Antiterrorism and Effective Death Penalty
Act of 1996, 28 U.S.C. § 2254(d). App. 106a–107a. The
Tenth Circuit accordingly reversed Pavatt’s capital
sentence and affirmed his conviction. App. 108a.
The Tenth Circuit rejected the State’s effort to
foreclose review of the merits of Pavatt’s Eighth
Amendment claim. It concluded that, at a minimum,
the State had waived any procedural objections to
Pavatt’s timely presentation of his Eighth
Amendment claim to the OCCA. App. 101a–102a.

11
4. Over Three Dissents, The En Banc
Tenth Circuit Reinstated The Capital
Sentence.
The State filed a petition for rehearing en banc,
which the Tenth Circuit granted. The en banc court—
over a three-judge dissent—vacated the prior opinion
and reinstated Pavatt’s capital sentence. App. 59a.
The en banc majority declined to reach the merits of
Pavatt’s Eighth Amendment claim, finding it
“procedurally barred.” App. 3a. The majority stated
that it was “not persuaded” that Pavatt had “fairly
presented to the OCCA” his challenge to the State’s
application of the “especially heinous, atrocious, or
cruel” aggravator. App. 33a. The majority also
construed the State’s waiver of any procedural
objections as limited to a purportedly different
constitutional challenge to the aggravator (under
Jackson v. Virginia, 443 U.S. 307 (1979)) that,
according to the majority, “only hinted at the
possibility of an as-applied challenge to the . . .
aggravator.” App. 35a. Finally, the majority asserted
that the Tenth Circuit’s COA did not cover “any asapplied challenge to the . . . aggravator.” App. 37a.
Judge Hartz (the author of the original panel
decision), joined by Judges Kelly and Lucero,
dissented. They pointed to this Court’s decision in
Maynard—holding that, absent a proper limiting
construction, Oklahoma’s “especially heinous,
atrocious, or cruel” aggravator failed to distinguish
“in a principled way” capital-eligible cases from other
murders—and noted that despite Oklahoma’s
attempt to supply the narrowing construction
required, “several members of this [circuit] have

12
expressed concern that the aggravating factor is being
interpreted by the OCCA too broadly to satisfy the
Eighth Amendment.” App. 60a–61a.
The dissenting judges also noted that, under the
State’s logic—which was adopted by the OCCA, and
which the en banc opinion allows to stand—“the very
act of committing the murder makes one eligible for
the death penalty unless the victim was rendered
unconscious immediately upon receiving the fatal
blow.” App. 61a. But “no fairminded jurist could think
that this requirement distinguishes in a principled
manner those deserving the death penalty from the
many first-degree murderers who do not.” Id. Indeed,
this application of the aggravator—which turns on
the “merely fortuitous” fact of whether the victim was
“rendered unconscious upon receiving the fatal
blow”—is entirely “arbitrary” and at odds with “the
Supreme Court’s ‘narrowing jurisprudence.’” 61a–
62a.
Finally, the dissenting judges disputed the
majority’s conclusion that Pavatt had not timely
presented (or “exhausted”) his Eighth Amendment
claim before the OCCA, see App. 62a, 65a–68a, and
recounted in detail the State’s waiver of any such
objection. App. 62a–65a.
REASONS FOR GRANTING THE PETITION
Over a three-judge dissent, the en banc court of
appeals fundamentally erred in refusing to reach the
merits of the life-and-death constitutional question in
this case based on a clearly erroneous ruling that
Pavatt’s Eighth Amendment claim was procedurally
barred. As the panel (and en banc dissent) explained,

13
at a minimum, the State expressly waived any
failure-to-exhaust objection to Pavatt’s claim. And
that claim was fairly and timely presented to the
OCCA in any event. This Court, therefore, should
summarily reverse.
In the alternative, the Court should grant the
petition and conduct plenary review to restore
uniformity to the law on an important and frequently
recurring Eighth Amendment issue. Under the
decision below, Oklahoma is free to apply a
sentencing regime that allows the death penalty to
hinge on the happenstance of an instantaneous—
rather than a non-instantaneous—death. If a gunshot
results in an immediate death, the assailant cannot
be executed, but if the shot goes a little wide of the
mark, resulting in death a few minutes later, he can.
That arbitrary regime runs afoul of this Court’s
precedents, and conflicts with numerous other
appellate decisions (including decisions of the Ninth
Circuit and Supreme Courts of California,
Connecticut, Louisiana, North Carolina, and Utah).
Absent this Court’s intervention, Pavatt will be
executed in violation of the Eighth Amendment.

14
I.

THIS COURT SHOULD SUMMARILY
REVERSE
THE
TENTH
CIRCUIT’S
MANIFESTLY ERRONEOUS PROCEDURAL
RULING.
A. As The Original Panel Opinion Held, The
State Waived Any Objections To
Preservation And Exhaustion.

This Court should summarily reverse the en banc
court of appeals’ clearly erroneous refusal to reach the
merits of Pavatt’s Eighth Amendment claim.
The en banc majority held that Pavatt’s claim was
“procedurally barred,” App. 3a, noting it was “not
persuaded” that Pavatt had “fairly presented to the
OCCA” his Eighth Amendment challenge to the
State’s application of the “especially heinous,
atrocious, or cruel” aggravator. App. 33a. The
majority acknowledged that the State had explicitly
waived procedural objections to at least one of
Pavatt’s claims, App. 36a, but misconstrued that
waiver as limited to a different constitutional
challenge to the aggravator that, according to the
majority, “only hinted at the possibility of an asapplied challenge.” App. 35a. Based on those
procedural rulings, coupled with a misreading of the
Tenth Circuit’s COA, the en banc majority refused to
address the merits of Pavatt’s Eighth Amendment
claim. That conclusion was manifestly incorrect as a
matter of federal law, results in an especially grave
injustice in this capital case, and warrants summary
reversal.
“A State shall not be deemed to have waived the
exhaustion requirement or be estopped from reliance

15
upon the requirement unless the State, through
counsel, expressly waives the requirement.” 28 U.S.C.
§ 2254(b)(3) (emphasis added). The State of Oklahoma
did exactly that here. As the original panel decision
correctly held, see App. 101a, the State expressly
waived the exhaustion requirement as to Pavatt’s
Eighth Amendment claim by conceding that Pavatt
had exhausted that claim before the state court. The
State’s waiver was clear, express, and unequivocal.
Its response to Pavatt’s habeas petition included the
following statement:
In Ground Ten, Petitioner alleges that
insufficient evidence was presented at trial to
support the jury’s finding of the especially
heinous, atrocious or cruel aggravator. Doc. 42
at 147–57.
A. Exhaustion.
This claim was raised on direct appeal and
the OCCA rejected it on the merits. Pavatt, 159
P.3d at 294–95. It is therefore exhausted for
purposes of federal habeas review.
App. 442a (emphases added). This express waiver
cross-referenced Ground Ten of Pavatt’s habeas
petition, which was captioned, “Petitioner’s Sentence
Does Not Comport with the Eighth and Fourteenth
Amendments to the United States Constitution
Because There is Insufficient Evidence to Support
that the Murder was ‘Especially Heinous, Atrocious,
or Cruel.’ ” App. 458a (original in all caps and bold).
And, in the text of Ground Ten, Pavatt clearly argued
that the OCCA applied the State’s aggravator in a

16
manner inconsistent with the Eighth Amendment. He
contended, for example:
•

“[F]or the ‘especially heinous, atrocious, or
cruel’ aggravator to be constitutionally
supported, ‘the evidence must support anguish
that goes beyond that which necessarily
accompanies the underlying killing,’” App.
466a–467a
(internal
quotation
marks
omitted);

•

“[T]he Oklahoma court’s approach of finding
‘serious physical abuse’ . . . simply does not
comport with the narrowing process [for
capital-eligible murders] that the Constitution
requires,” App. 467a;

•

The victim “died within minutes of being shot,
and . . . his murder, while tragic, was not the
‘most egregious’ kind of murder that would set
it apart from other murders,” App. 468a;

•

“Even if [the victim] experienced ‘some
conscious suffering,’ he clearly was not
tortured, and there was no physical abuse
beyond that accomplished with all murders,”
App. 468a;

•

“[T]he court failed to identify what serious
physical abuse occurred, beyond what
naturally occurs in any shooting,” App. 459a;
and

•

The evidence did not support application of the
aggravator to justify the death penalty and
“the OCCA applied an incorrect standard of

17
review when addressing this claim,” App.
458a.
Finely parsing Pavatt’s arguments, the en banc
majority reasoned that the State’s explicit waiver of
any procedural objections did not cover Pavatt’s
Eighth Amendment claim—which the majority
asserted was “only hinted at.” App. 35a. According to
the majority, the waiver was somehow limited to a
sufficiency-of-the-evidence claim under Jackson, 443
U.S. 307. See App. 35a–37a. But the majority failed to
grasp that a sufficiency-of-the-evidence challenge and
a challenge to the OCCA’s application of the
“especially heinous, atrocious, or cruel” aggravator
are merely part and parcel of the same Eighth
Amendment claim.3 See, e.g., Pike v. Guarino, 492
F.3d 61, 72 (1st Cir. 2007) (concluding that State’s
“waiver” of failure-to-exhaust objection under 28
U.S.C. § 2254(b)(3) “extend[ed] to the claim stated and
any variants of the claim that [we]re readily
ascertainable from the language of the petition,” and
“[a] party who chooses to waive a defense surrenders
3 For the same reason, the en banc majority erred in
construing the COA as excluding Pavatt’s Eighth Amendment
challenge to the OCCA’s application of the “especially heinous,
atrocious, or cruel” aggravator. See App. 37a. One of the issues
on which a COA was granted included “[w]hether there was
sufficient evidence to support the ‘especially heinous, atrocious,
or cruel’ aggravator (raised in Ground 10 of Mr. Pavatt’s habeas
petition)[.]” App. 156a. As shown above, Ground Ten of Pavatt’s
habeas petition unequivocally raised his Eighth Amendment
claim and was therefore well within the scope of the COA. In any
event, as the original Tenth Circuit panel decision explained, the
State waived any objection based on scope of the COA. See App.
101a–102a.

18
that defense to the claim asserted and any claim
fairly encompassed within it.”) (emphases added).
Moreover, as the original panel opinion pointed
out, the State clearly understood that Pavatt was
challenging the arbitrary and overbroad application
of the aggravator under the Eighth Amendment.
“[T]he State included substantial references to the
Eighth Amendment constraints on aggravators” in its
response to Ground Ten of Pavatt’s habeas petition
(the portion raising what the en banc majority
construed as a freestanding Jackson claim). App.
101a; see also App. 64a (Hartz, J., joined by Kelly and
Lucero, JJ., dissenting).4 And, “although the State’s
4 For example, the State argued: “To the extent Petitioner
suggests, by citing to these other cases, that the OCCA’s
application of the especially heinous, atrocious or cruel
aggravator in this case renders it unconstitutional, he is not
entitled to relief.” App. 450a. Directly responding to Pavatt’s
challenge to the OCCA’s arbitrary and overbroad application of
the aggravator, the State added: “To be constitutional, an
aggravating circumstance may not apply to every defendant
convicted of a murder; it must apply only to a subclass of
defendants convicted of murder.” App. 451a–452a. The State
also acknowledged, quoting Arave, that “[i]f the sentencer fairly
could conclude that an aggravating circumstance applies to every
defendant eligible for the death penalty, the circumstance is
constitutionally infirm.” App. 452a. And the State asserted that
“[n]othing about the OCCA’s discussion of the legal or factual
basis for its conclusion here in any way suggests an overbroad or
an erroneous interpretation, let alone application, of Oklahoma’s
aggravator.” App. 452a.

The State’s briefing before the Tenth Circuit similarly
recognized how Pavatt’s argument based on the sufficiency of the
evidence and his argument that the OCCA applied the State’s
aggravator in an unprincipled and unconstitutional way were

19
brief on appeal argued procedural bar with respect to
several of Mr. Pavatt’s claims, it did not argue” that
either Pavatt’s sufficiency-of-the-evidence argument
or his related argument challenging the State’s
application of its aggravator as unconstitutionally
arbitrary and overbroad was procedurally barred.
App. 101a–102a. To the contrary, the State addressed
the Eighth Amendment claim at length on the merits.
See supra note 4.
In that respect, this case is like Wood v. Milyard,
566 U.S. 463 (2012), where this Court held that the
State waived a statute of limitations defense under
Section 2254(b)(3) where it “deliberately steered the
District Court away from the question and towards the
merits of [the petitioner’s] petition” and “chose . . . to
refrain from interposing a timeliness ‘challenge.’” Id.
at 474. There, like here (see App. 262a–267a, 278a–
279a), “[t]he District Court therefore reached and
decided the merits of the petition” and “[t]he Tenth
Circuit should have done so as well.” Id.
For all these reasons, the State’s express waiver
applied to Pavatt’s Eighth Amendment claim
challenging the State’s overbroad and arbitrary

inextricably intertwined elements of his overarching Eighth
Amendment claim. See, e.g., App. 402a–403a (“[I]f a State has
adopted a constitutionally narrow construction of a facially
vague aggravating circumstance, and if the State has applied
that construction to the facts of the particular case, then the
‘fundamental constitutional requirement’ of ‘channeling and
limiting . . . the sentencer’s discretion in imposing the death
penalty,’ [Maynard v.] Cartwright, 486 U.S. [356], 362, has been
satisfied.”) (quoting Lewis v. Jeffers, 497 U.S. 764, 779 (1990)).

20
application of its aggravator. This is one independent
reason why there is no procedural obstacle to
reviewing the constitutional question presented and
summary reversal is warranted.
B. In Any Event, Pavatt Timely Raised His
Eighth Amendment Argument.
Another independent reason is that, as the above
discussion shows, Pavatt timely raised and exhausted
his Eighth Amendment claim. “Resolving whether a
petitioner has fairly presented his claim to the state
courts, thus permitting federal review of the matter,
is an intrinsically federal issue that must be
determined by the federal courts.” Wyldes v. Hundley,
69 F.3d 247, 251 (8th Cir. 1995). A petitioner need not
cite “book and verse on the federal constitution” to
fairly present his argument to the court. Picard v.
Connor, 404 U.S. 270, 278 (1971). A “citation of any
case that might have alerted the court to the alleged
federal nature of the claim” is sufficient for fair
presentation purposes. Baldwin v. Reese, 541 U.S. 27,
33 (2004).
In his initial direct appeal to the OCCA, Pavatt
argued (among other things) that “[t]he evidence does
not support the fact that the murder was ‘especially’
heinous, atrocious or cruel” and noted (quoting the
closing argument of Pavatt’s trial counsel) that “[t]o
some degree I suppose all homicides are heinous,
atrocious or cruel.” App. 479a. He also relied on the
Tenth Circuit’s decision in Thomas v. Gibson, 218
F.3d 1213 (10th Cir. 2000). Id. That case addressed
(1) an Eighth Amendment “argu[ment] that
Oklahoma’s heinous, atrocious, or cruel aggravating

21
circumstance is unconstitutionally vague in that it
fails to adequately narrow the class of murders
wherein the perpetrator is subject to the death
penalty,” 218 F.3d at 1226 (citing Maynard and
Godfrey), and (2) an intertwined sufficiency-of-theevidence claim: “Even assuming the heinous,
atrocious, or cruel aggravator is constitutional on its
face, [petitioner] asserts that the state did not present
sufficient evidence that his conduct during the
murder of [the victim] fell within the parameters of
the aggravator.” Id. (citing Lewis v. Jeffers, 497 U.S.
764 (1990)). This was sufficient for Pavatt to “alert”
the OCCA to his Eighth Amendment claim. See
Baldwin, 541 U.S. at 33; Cotto v. Herbert, 331 F.3d
217, 237 (2d Cir. 2003) (“[A] state defendant may
fairly present to the state courts the constitutional
nature of his claim, even without citing chapter and
verse of the Constitution[,] so long as he relies on
pertinent federal cases.”) (citations and internal
quotation marks omitted).
Further, in his second post-conviction application,
Pavatt explicitly argued that Oklahoma has failed to
apply its “especially heinous, atrocious, or cruel”
aggravator in a rational way that performs the
requisite narrowing function. See App. 425a
(“Inexplicably, this Court found serious physical abuse
in Mr. Pavatt’s case, even though there was no
gratuitous violence, and the killing was much like that
in [Maynard v.] Cartwright.”). Again, Pavatt fairly
presented his Eighth Amendment claim to the state
court.
The en banc majority faults Pavatt for failing to
raise in his first direct appeal an as-applied Eighth

22
Amendment argument that specifically “focuse[d] on
the manner in which the OCCA applied the . . .
aggravator in rejecting Pavatt’s Jackson claim.” App.
33a. But that makes no sense. As Judge Hartz pointed
out in his dissenting opinion, “Mr. Pavatt could not
have argued in his original postconviction application
that the OCCA opinion in this case construed the . . .
aggravator in an unconstitutional manner, because
he filed the original application before the OCCA
decided his direct appeal.” App. 66a (emphases
added). Indeed, the majority conceded that this
particular argument “could not have been” made “in
[the] direct appeal.” App. 33a.5 In effect, the en banc
majority held Pavatt to an impossible standard—
requiring not just “fair presentation” of an argument,
but clairvoyance.
Pavatt’s Eighth Amendment claim was not
procedurally barred, and the Tenth Circuit was
required to address the issue on the merits. At a
5 Judge Hartz also explained that it is doubtful Pavatt could
have raised this particular Eighth Amendment claim (i.e., a
challenge to the OCCA’s reasoning in this case) on a petition for
rehearing. See App. 66a–67a. Petitions for rehearing may be
filed only if “[s]ome question decisive of the case . . . has been
overlooked by the Court, or . . . [t]he decision is in conflict with
an express statute or controlling decision to which the attention
of this Court was not called.” Okla. R. Crim. App. 3.14. The
OCCA has held that, with regard to whether the court was on
notice “in the brief or in oral argument,” defendants “clearly
c[annot] raise a new issue in a petition for rehearing.” Ellis v.
Oklahoma, 941 P.2d 527, 530 (Okla. Crim. App. 1997). Under
the en banc majority’s own logic, Pavatt’s Eighth Amendment
claim would be a new issue, and thus could not have been raised
in a petition for rehearing.

23
minimum, its contrary decision should be summarily
reversed.
II.

THE
TENTH
CIRCUIT’S
HOLDING
CONFLICTS
WITH
THIS
COURT’S
PRECEDENTS AND THE DECISIONS OF
VARIOUS APPELLATE COURTS ON AN
IMPORTANT
AND
RECURRING
CONSTITUTIONAL QUESTION.
A. The Tenth Circuit’s Holding Flouts This
Court’s Precedents.

If the Court does not summarily reverse, it should
instead grant certiorari and conduct plenary review
on the important constitutional question presented.
This Court has long held that, under the Eighth
Amendment, a State’s capital-sentencing scheme
“must genuinely narrow the class of persons eligible
for the death penalty and must reasonably justify the
imposition of a more severe sentence on the defendant
compared to others found guilty of murder.” Zant v.
Stephens, 462 U.S. 862, 877 (1983) (emphasis added).
“A capital sentencing scheme must, in short, provide
a ‘meaningful basis for distinguishing the few cases in
which [the death penalty] is imposed from the many
cases in which it is not.’ ” Godfrey, 446 U.S. at 427
(opinion of Stewart, J., joined by Blackmun, Powell,
and Stevens, JJ.) (citation omitted). States frequently
use aggravating circumstances to “narrow[ ] the class
of death-eligible persons and thereby channel[ ] the
jury’s discretion.” Lowenfield v. Phelps, 484 U.S. 231,
244 (1988). But their use of these aggravators—such
as Oklahoma’s “especially heinous, atrocious, or
cruel” factor here—“must provide a principled basis”

24
for “distinguish[ing] those who deserve capital
punishment from those who do not.” Arave, 507 U.S.
at 474 (citing, inter alia, Godfrey, 446 U.S. at 433)
(emphasis added). If an aggravating circumstance
may apply “to every defendant eligible for the death
penalty, the circumstance is constitutionally infirm.”
Id. (citing Maynard, 486 U.S. at 364, and Godfrey, 446
U.S. at 428–29).
Godfrey illustrates the Eighth Amendment
requirement of a principled and rational capitalsentencing scheme. In that case, this Court reversed
a Georgia Supreme Court decision that upheld a
capital sentence based on a broad application of the
State’s aggravating factor that the offense was
“outrageously or wantonly vile, horrible or inhuman
in that it involved torture, depravity of mind, or an
aggravated battery to the victim.” 446 U.S. at 422.
Although the Court had previously rejected a facial
challenge to the aggravating factor, the Godfrey Court
held that the Georgia Supreme Court’s overbroad
application of the factor violated the Eighth
Amendment. As the plurality opinion explained:
There is nothing in these few words, standing
alone, that implies any inherent restraint on
the arbitrary and capricious infliction of the
death sentence. A person of ordinary
sensibility
could
fairly
characterize
almost every murder as “outrageously or
wantonly vile, horrible and inhuman.”
Id. at 428–29 (emphasis added).
In Maynard, this Court applied Godfrey to find
Oklahoma’s “especially heinous, atrocious, or cruel”

25
aggravating factor unconstitutional. See Maynard,
486 U.S. at 363–64. Oklahoma argued that it had
avoided an unbounded application of the aggravator,
but this Court rejected that argument. The Court
started with the premise that “our cases have insisted
that the channeling and limiting of the sentencer’s
discretion in imposing the death penalty is a
fundamental
constitutional
requirement
for
sufficiently minimizing the risk of wholly arbitrary
and capricious action.” Id. at 362. The Court then held
that Oklahoma’s approach—allowing the jury to
conduct a freewheeling totality-of-the-circumstances
type of analysis of the Oklahoma aggravator—was
constitutionally deficient: “To say that something is
‘especially heinous’ merely suggests that the
individual jurors should determine that the murder is
more than just ‘heinous,’ whatever that means, and
an ordinary person could honestly believe that every
unjustified, intentional taking of human life is
‘especially heinous.’ ” Id. at 364 (citing Godfrey, 446
U.S. at 428–29) (emphasis added).
In the wake of Maynard, Oklahoma purported to
limit its aggravator to cases involving torture or
serious physical abuse. Stouffer v. Oklahoma, 742
P.2d 562, 563 (Okla. Crim. App. 1987). But the Tenth
Circuit has acknowledged that the OCCA’s decisions
have increasingly “begun to blur the common
understanding of the requisite torture and conscious
serious physical suffering, more and more often
finding the existence of these elements in almost
every murder.” Romano, 239 F.3d at 1176 (citing
cases). Moreover, despite the misgivings of many
Tenth Circuit judges, the court as a whole has

26
affirmatively embraced the OCCA’s arbitrary and
unprincipled application of the “especially heinous,
atrocious, or cruel” aggravator. See, e.g., Welch v.
Workman, 639 F.3d 980, 1006 (10th Cir. 2011)
(following OCCA cases relying on the State’s failure
to prove that “the victim was conscious” or that the
victim’s “death was not nearly instantaneous”);
Hooker v. Mullin, 293 F.3d 1232, 1242–43 (10th Cir.
2002) (finding the aggravator was met because the
death was not instantaneous where the victim “died
between one and ten minutes after the attack,” and
the medical examiner inferred that the victim was
conscious).
The en banc opinion here deepens and
exacerbates this trend, requiring this Court’s urgent
intervention to ensure that its precedent is respected,
see, e.g., Agostini v. Felton, 521 U.S. 203, 237 (1997),
and to vindicate the proposition that “the channeling
and limiting of the sentencer’s discretion in imposing
the death penalty is a fundamental constitutional
requirement.” Maynard, 486 U.S. at 362. Here, too,
the linchpin of the OCCA’s reasoning justifying the
death penalty—the most serious of all punishments—
was that “[e]vidence that the victim was conscious
and aware of the attack [in the moments before death]
supports a finding of torture.” App. 372a. But, as
Judge Hartz (joined by two other judges) pointed out
in his dissent from the en banc opinion, under the
State’s logic, “the very act of committing the murder
makes one eligible for the death penalty unless the
victim was rendered unconscious immediately upon
receiving the fatal blow.” App. 61a.

27
In direct conflict with Maynard, Godfrey, and
other precedents of this Court, this untrammeled
application of Oklahoma’s aggravator fails to
“distinguish[] in a principled manner those deserving
the death penalty from the many first-degree
murderers who do not.” Id. Instead, whether the
victim is conscious after the attack is often “purely a
matter of chance”—providing “what could be
described as a ‘sharpshooter bonus.’ ” App. 103a, 62a
(emphasis added). As the en banc dissent explained,
“[i]f the perpetrator has the skill to render an
immediately fatal blow, he or she escapes the death
penalty under this aggravator,” but “[s]uch an
arbitrary aggravator is not consistent with the
Supreme Court’s ‘narrowing jurisprudence, which
seeks to ensure that only the most deserving of
execution are put to death.’ ” App. 62a.
The Tenth Circuit had it right the first time. “By
expanding the meaning of ‘conscious physical
suffering’ to encompass ‘the brief period of conscious
suffering necessarily present in virtually all murders,’
. . . —as it did in this case—Oklahoma has construed
the [torture] aggravator in a constitutionally
impermissible manner.” App. 103a. And, for the
reasons explained in the original panel opinion, the
OCCA’s affirmance of the capital sentence relied on
an unreasonable interpretation of clearly established
federal law, namely, this Court’s Eighth Amendment
jurisprudence. App. 100a–108a. The Court should
grant certiorari to ensure that its precedents are
followed.

28
B. The Tenth Circuit’s Holding Conflicts
with Other Appellate Decisions.
Given the inherently arbitrary nature of the
Tenth Circuit and OCCA’s heavy reliance on the
instantaneous versus non-instantaneous nature of
the victim’s death in capital cases, it should come as
no surprise that several other appellate courts reject
this approach.
The Supreme Court of North Carolina, for
example, rejected the State’s attempt to apply its
identically worded “especially heinous, atrocious, or
cruel” aggravator in a case involving a noninstantaneous shooting death. North Carolina v.
Lloyd, 552 S.E.2d 596 (N.C. 2001). In Lloyd, the State
argued that the aggravator applied because “the
victim did not lose consciousness immediately after
being shot and consequently was aware of the
inevitability of death,” id. at 629, but the court
disagreed, explaining that “[it] ha[s] never held that
the fact that death was somewhat lingering
necessarily makes a murder especially heinous,
atrocious, or cruel.” Id. Indeed, the court noted that in
cases involving fatal shootings “frequently death is
not instantaneous and the victim remains conscious
for at least a few minutes before expiring.
Accordingly, the fact that a victim’s death is not
immediate does not by itself establish that a killing
was especially heinous, atrocious, or cruel.” Id. at
629–30; see also North Carolina v. Stanley, 312 S.E.2d
393, 397–98, 401 (N.C. 1984) (overturning capital
sentence in case involving fatal shooting where
victim’s death from multiple shots “was not
instantaneous,” though the victim was rendered

29
“unconscious within minutes”; the fact that the death
was “not instantaneous . . . does not alone make a
murder especially heinous, atrocious or cruel,” nor did
the fact that the victim “might have remained
conscious for a matter of minutes after being shot . . .
distinguish this case from the ordinary death-byshooting cases”).
Similar reasoning guided the Supreme Court of
Louisiana in another case whose core holding conflicts
with the OCCA’s and Tenth Circuit’s approach here.
As the court explained, “[a]lthough the jury found the
instant offense to have been committed in an
‘especially heinous, atrocious or cruel manner,’ this
finding cannot stand.” Louisiana v. Monroe, 397 So.
2d 1258, 1274 (La. 1981). The court acknowledged
“the murder was brutal, the victim lost over two
quarts of blood, her lungs were punctured and one of
her ribs was severed. Her death was not
instantaneous, and she lived long enough to call out
for her daughter and reach for the telephone.” Id. at
1275. Nevertheless, the court explained, “in order for
a murder to be ‘especially heinous,’ there must exist
evidence that there was ‘torture or the pitiless
infliction of unnecessary pain on the victim.’ ” Id.
(citation omitted). Mere consciousness for minutes
preceding a non-instantaneous death, in other words,
was insufficient to justify the death penalty under the
“especially heinous, atrocious, or cruel” aggravator.
The Supreme Court of Connecticut’s precedent is
along similar lines. See Connecticut v. Johnson, 751
A.2d 298 (Conn. 2000). As the court explained, “[t]o
qualify for the imposition of the death penalty, a
murder by shooting must be distinguished somehow

30
from the ‘norm’ of murders.” Id. at 340 (citation
omitted). Thus, the aggravator was not met where the
victim was conscious for ninety seconds after being
shot once because an instantaneous death “is quite
rare, occurring only when there is a direct injury to
the brain stem or sufficient trauma to the brain
cavity,” and “virtually any gunshot wound will involve
some pain.” Id. at 342.
Finally, the Tenth Circuit and OCCA’s approach
here is fundamentally at odds with that of the Ninth
Circuit and California Supreme Court. Those courts
have concluded that, to comport with the Eighth
Amendment, California’s torture aggravator must be
interpreted to require proof of intent to cause
“extreme pain to the victim.” Wade v. Calderon,
29 F.3d 1312, 1320 (9th Cir. 1994) (citing California
v. Davenport, 710 P.2d 861, 875 (1986)), overruled on
other grounds, Rohan ex rel. Gates v. Woodford, 334
F.3d 813 (9th Cir. 2003), abrogated on other grounds,
Ryan v. Gonzales, 568 U.S. 57 (2013). Quoting the
California Supreme Court with approval, the Ninth
Circuit explained that a contrary rule (i.e., one that
merely required proof of an intent to kill “with the
possible exception of those occasions on which the
victim’s death was instantaneous”) would rely on a
distinction that fails to provide “a principled basis for
distinguishing capital murder from any other
murder” and, therefore, would violate the Eighth
Amendment. Id. Without the lower court’s narrowing
construction, the Ninth Circuit held that the
aggravator “would fail to provide a principled basis for
distinguishing capital murder from any other
murder” and would contravene “the Eighth

31
Amendment standard prescribed by Zant . . . and
Godfrey.” Id.6
Taken together, these cases confirm that the
Tenth Circuit and OCCA’s approach is both untenable
as a practical matter and directly conflicts with
controlling precedent of this Court and the approach
of other appellate courts. Indeed, if Pavatt had been
sentenced in a court subject to the Ninth Circuit’s
jurisdiction (or in the States of Connecticut,
Louisiana, North Carolina, and Utah), he would not
face the death penalty based on the fact that his
victim did not die instantly. This Court’s guidance is
needed to restore uniformity to the law.
C. The Eighth Amendment Issue Is
Important, Recurring, And Squarely
Presented By This Case.
If Pavatt had been the sort of “sharpshooter”
described by the en banc dissent—or if, due to some
other happenstance, the victim in this case had
instantly lost consciousness and died—the Oklahoma

6 Other courts also require a finding of intent to torture the
victim in order to apply the relevant aggravating factor. See, e.g.,
Smith v. Moore, 137 F.3d 808, 814 (4th Cir. 1998) (holding that
South Carolina law requires “intent to torture,” which does not
apply to every defendant who intended to kill his victim)
(quoting South Carolina v. Elmore, 308 S.E.2d 781, 785 n.2 (S.C.
1983) (per curiam), overruled on other grounds, South Carolina
v. Burdette, 832 S.E.2d 575 (S.C. 2019)); Pennsylvania v.
Johnson, 42 A.3d 1017, 1036–37 (Pa. 2012) (“the Commonwealth
. . . carries the burden of proving the defendant acted with ‘an
intent to cause pain and suffering in addition to the intent to
kill’ ” ) (citations and some internal quotation marks omitted).

32
court would have been unable to find the death
penalty justified based on the “especially heinous,
atrocious, or cruel” aggravator.
As Judge Briscoe (the author of the Tenth
Circuit’s en banc opinion) acknowledged in her
dissent from the prior panel opinion, the “distinction”
that the OCCA has “dr[awn]” is “between murders in
which the victim’s death is instantaneous and
murders in which the victim experiences conscious
physical suffering for some period of time after being
wounded.” App. 148a; see also Welch, 639 F.3d at 1006
(recognizing that “the OCCA’s decisions reached a
different result because the state had failed to show
the victim was conscious or establish the death was
not nearly instantaneous”).
On the one hand, in “many cases,” the OCCA “has
refused to allow application of the [especially heinous,
atrocious, or cruel] aggravating circumstance where a
murder victim’s death was instantaneous or nearly
so.” App. 148a (Briscoe, J., dissenting). See, e.g.,
Simpson v. Oklahoma, 230 P.3d 888, 903 (Okla. Crim.
App. 2010) (death was “nearly immediate” for one of
two shooting victims; because “he likely died within
seconds after being shot,” the “evidence d[id] not
show” that his death “was preceded by torture or that
he endured conscious physical suffering” and the
aggravator therefore did not justify a capital
sentence), reh’g granted and motion to recall mandate
denied, 239 P.3d 155 (Okla. Crim. App. 2010)
(denying relief); Davis v. Oklahoma, 888 P.2d 1018,
1021 (Okla. Crim. App. 1995) (“No testimony
indicated that the victims who died were conscious or
suffered pain at any time.”); Marquez v. Oklahoma,

33
890 P.2d 980, 987 (Okla. Crim. App. 1995) (noting
that two of three shots that hit the victim “would have
caused death nearly instantaneously”).
In contrast, another line of cases holds that noninstantaneous deaths—like the victim’s death here—
are eligible for capital punishment because the victim
was conscious for some moments before dying. See,
e.g., Tryon v. Oklahoma, 423 P.3d 617, 651 (Okla.
Crim. App. 2018) (applying aggravator where victim
would have experienced pain and “surveillance video
show[ed] the victim’s death was not instantaneous”);
Simpson, 230 P.3d at 902–03 (applying aggravator
where one of the victims, who was shot four times,
“was initially conscious after being shot, his breathing
became labored and he made gurgling sounds” before
death). Indeed, this was precisely why the OCCA
found the “especially heinous, atrocious, or cruel”
aggravator was established and therefore justified
the death penalty here. As the OCCA reasoned in its
decision rejecting Pavatt’s Eighth Amendment
challenge to his sentence, “[e]vidence that the victim
was conscious and aware of the attack supports a
finding of torture.” App. 372a.
The arbitrary and unconstitutional distinction on
which these two lines of cases hinge presents a
recurring issue that calls for this Court’s intervention.
As noted above, various members of the Tenth Circuit
have expressed increasing concern about Oklahoma’s
application of its “especially heinous, atrocious, or
cruel” aggravator. See, e.g., Romano, 239 F.3d at 1176
(“There is certainly a concern that Oklahoma’s
interpretation of its narrowing language could again
render this aggravating factor unconstitutional.”)

34
(citing cases); Medlock v. Ward, 200 F.3d 1314, 1324
(10th Cir. 2000) (per curiam) (Lucero, J., concurring)
(application of Oklahoma’s aggravator based on
whether the victim briefly suffered, a condition
“present in virtually all murders[,] would fail to
narrow the sentencer’s discretion as required
by Godfrey . . . and Maynard”); Thomas, 218 F.3d at
1228 n.17 (Oklahoma’s application of its aggravator
“appears to raise serious constitutional questions
about whether [the] . . . aggravator legitimately
narrows the class of those eligible for death”).
Nevertheless, the Tenth Circuit continues to hew
to the Oklahoma court’s approach, and the issue
continues to arise with frequency. As Judge Hartz
pointed out below, “the [State’s “especially heinous,
atrocious, or cruel”] aggravator is commonplace in
Oklahoma death-penalty cases,” App. 68a. Moreover,
other courts across the country continue to grapple
with similar issues, and numerous other States use
identically worded “especially heinous, atrocious or
cruel” aggravators. See, e.g., Ala. Code § 13A-5-49(8)
(Alabama); Ariz. Rev. Stat. § 13-751(F)(4) (Arizona);
Idaho Code Ann. § 19-2515(9)(e) (Idaho); Kan. Stat.
Ann. § 21-6624(f) (Kansas); 42 Pa. Cons. Stat. Ann. §
9711(d)(8) (Pennsylvania); Tenn. Code Ann. § 39-13204(i)(5) (Tennessee); Utah Code Ann. § 76-5202(1)(r) (Utah). Indeed, in contrast with the Ninth
Circuit and state supreme court decisions cited above,
some courts have adopted reasoning in line with the
OCCA’s. See, e.g., Rimmer v. Florida, 825 So. 2d 304,
327 (Fla. 2002) (per curiam) (“[W]e have consistently
held that instantaneous or near instantaneous deaths
by gunshot, which are unaccompanied by any

35
additional acts by the defendant to mentally or
physically torture the victims, are not heinous,
atrocious, or cruel.”); Tennessee v. Pritchett, 621
S.W.2d 127, 139 (Tenn. 1981) (“heinous, atrocious, or
cruel” aggravator not satisfied because victim’s
“death was instantaneous from the first gunshot” and
the “firing of the second shot did not inflict torture or
physical abuse . . . before death”).
This case squarely presents this important and
recurring issue. The OCCA found the “especially
heinous, atrocious, or cruel” aggravator was
established because “[e]vidence that the victim was
conscious and aware of the attack supports a finding
of torture.” App. 372a. This Court therefore has an
ideal opportunity to reject Oklahoma’s arbitrary
approach to capital sentencing and restore uniformity
to the law.

36
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari and summarily
reverse. Alternatively, the Court should grant the
petition and conduct plenary review.
Respectfully submitted,
SARAH JERNIGAN MCGOVERN
PATTI PALMER GHEZZI
Assistant Federal Public
Defenders
Office of the Federal Public
Defender
Western District of Oklahoma
Capital Habeas Unit
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
Tel. (405) 609-5975
Sarah_Jernigan@fd.org

PETER KARANJIA*
MICHAEL GELLER
JEAN CAMILLE GABAT
DLA PIPER LLP (US)
500 Eighth Street, NW
Washington, D.C. 20004
Tel. (202) 799-4000
peter.karanjia@dlapiper.com
*Counsel of Record

Counsel for James Dwight Pavatt

NOVEMBER 25, 2019

APPENDIX

1a
Appendix
APPENDIX A — EN
BANCA
OPINION OF THE
UNITED STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JUNE 27, 2019
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-6117
JAMES DWIGHT PAVATT,
Petitioner-Appellant,
v.
MIKE CARPENTER, WARDEN,
OKLAHOMA STATE PENITENTIARY,
Respondent-Appellee.
June 27, 2019, Filed
Appeal from the United States District Court
for the Western District of Oklahoma.
(D.C. No. 5:08-CV-00470-R).
Before TYMKOVICH, Chief Judge, KELLY, BRISCOE,
LUC ER O , H A R T Z , HOL M E S , M A T H E S ON,
BACHARACH, PHILLIPS, McHUGH, MORITZ, EID,
and CARSON, Circuit Judges.
BRISCOE, Circuit Judge.

2a
Appendix A
Petitioner James Pavatt was convicted by an Oklahoma
jury of first degree murder and conspiracy to commit first
degree murder. Pavatt was sentenced to death for the first
degree murder conviction and ten years’ imprisonment for
the conspiracy conviction. After exhausting his state court
remedies, Pavatt filed a petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254. The district court denied
Pavatt’s petition, and also denied Pavatt a certificate of
appealability (COA). Pavatt sought and was granted a
COA by this court with respect to five issues.
The original hearing panel affirmed the district
court’s denial of relief with respect to Pavatt’s convictions,
but in a divided decision reversed the denial of relief
with respect to Pavatt’s death sentence and remanded
to the district court for further proceedings. In doing
so, the panel majority concluded that the Oklahoma
Court of Criminal Appeals (OCCA) “did not apply a
constitutionally acceptable interpretation of Oklahoma’s
[especially heinous, atrocious, or cruel (HAC)] aggravator
in determining [on direct appeal] that the aggravator was
supported by sufficient evidence.” Pavatt v. Royal, 859
F.3d 920, 936 (10th Cir. 2017) (Pavatt Federal Appeal).1
1. The original panel decision issued on June 9, 2017. Pavatt v.
Royal, 859 F.3d 920 (10th Cir. 2017). Later, a majority of the panel
members denied panel rehearing, but filed an amended decision
sua sponte and nunc pro tunc to the original filing date. Pavatt
Federal Appeal (859 F.3d 920). In an order dated October 2, 2018,
the respondent’s petition for rehearing en banc was granted. Pavatt
v. Carpenter, 904 F.3d 1195 (10th Cir. 2018). The grant of en banc
rehearing vacated the original judgment and stayed the mandate.
10th Cir. R. 35.6.

3a
Appendix A
Respondent filed a petition for rehearing en banc. 2 We
granted respondent’s petition and directed the parties to
file supplemental briefs addressing a number of questions
concerning Pavatt’s challenges to the HAC aggravator.
Having received those briefs and after additional oral
arguments addressing those questions, we conclude that
Pavatt’s Eighth Amendment “as-applied” challenge to
the HAC aggravator—the issue that the original panel
majority relied on in granting him relief—is, for a number
of reasons, procedurally barred. We also conclude that
the other issues raised by Pavatt on appeal lack merit.
Consequently, we vacate the prior panel opinion and affirm
the district court’s denial of federal habeas relief with
respect to both Pavatt’s convictions and death sentence.
We also deny Pavatt’s request for an additional COA.
I
Factual background
The background facts of Pavatt’s crimes were outlined
by the OCCA in resolving Pavatt’s direct appeal:
[Pavatt] and his co-defendant, Brenda Andrew,
were each charged with conspiracy and firstdegree capital murder following the shooting
death of Brenda’s husband, Robert (“Rob”)
Andrew, at the Andrews’ Oklahoma City
home on November 20, 2001. [Pavatt] met the
2. We note that Pavatt did not seek rehearing of the original
panel’s unanimous affirmance of his convictions.

4a
Appendix A
Andrews while attending the same church,
and [Pavatt] and Brenda taught a Sunday
school class together. [Pavatt] socialized with
the Andrews and their two young children in
mid-2001, but eventually began having a sexual
relationship with Brenda. Around the same
time, [Pavatt], a life insurance agent, assisted
Rob Andrew in setting up a life insurance
policy worth approximately $800,000. [Pavatt]
divorced his wife in the summer of 2001. In
late September, Rob Andrew moved out of the
family home, and Brenda Andrew initiated
divorce proceedings a short time later.
Janna Larson, [Pavatt]’s adult daughter,
testified that in late October 2001, [Pavatt]
told her that Brenda had asked him to murder
Rob Andrew. On the night of October 25-26,
2001, someone severed the brake lines on
Rob Andrew’s automobile. The next morning,
[Pavatt] and Brenda Andrew concocted a false
“emergency,” apparently in hopes that Rob
would have a traffic accident in the process.
[Pavatt] persuaded his daughter to call Rob
Andrew from an untraceable phone and claim
that Brenda was at a hospital in Norman,
Oklahoma, and needed him immediately. An
unknown male also called Rob that morning
and made the same plea. Rob Andrew’s cell
phone records showed that one call came
from a pay phone in Norman (near Larson’s
workplace), and the other from a pay phone

5a
Appendix A
in south Oklahoma City. The plan failed; Rob
Andrew discovered the tampering to his car
before placing himself in any danger. He then
notified the police.
One contentious issue in the Andrews’ divorce
was control over the insurance policy on Rob
Andrew’s life. After his brake lines were
severed, Rob Andrew inquired about removing
Brenda as beneficiary of his life insurance
policy. However, [Pavatt], who had set up the
policy, learned of Rob’s intentions and told
Rob (falsely) that he had no control over the
policy because Brenda was the owner. Rob
Andrew spoke with [Pavatt]’s supervisor, who
assured him that he was still the record owner
of the policy. Rob Andrew then related his
suspicions about [Pavatt] and Brenda to the
supervisor. When [Pavatt] learned of this, he
became very angry and threatened to harm
Rob for putting his job in jeopardy. At trial, the
State presented evidence that in the months
preceding the murder, [Pavatt] and Brenda
actually attempted to transfer ownership of
the insurance policy to Brenda without Rob
Andrew’s knowledge, by forging his signature
to a change-of-ownership form and backdating
it to March 2001.
On the evening of November 20, 2001, Rob
Andrew drove to the family home to pick up
his children for a scheduled visitation over

6a
Appendix A
the Thanksgiving holiday. He spoke with a
friend on his cell phone as he waited in his
car for Brenda to open the garage door. When
she did, Rob ended the call and went inside to
get his children. A short time later, neighbors
heard gunshots. Brenda Andrew called 911
and reported that her husband had been shot.
Emergency personnel arrived and found Rob
Andrew’s body on the floor of the garage; he
had suffered extensive blood loss and they
were unable to revive him. Brenda Andrew
had also suffered a superficial gunshot wound
to her arm. The Andrew children were not,
in fact, packed and ready to leave when Rob
Andrew arrived; they were found in a bedroom,
watching television with the volume turned up
very high, oblivious to what had happened in
the garage.
Brenda was taken to a local hospital for
treatment. Her behavior was described by
several witnesses, experienced in dealing
w ith people in traumatic situations, as
uncharacteristically calm for a woman whose
husband had just been gunned down. One
witness saw Brenda chatting giddily with
[Pavatt] at the hospital later that night.
Rob Andrew was shot twice with a shotgun.
A spent shotgun shell found in the garage fit
a 16-gauge shotgun, which is a rather unusual
gauge. Andrew owned a 16-gauge shotgun, but

7a
Appendix A
had told several friends that Brenda refused
to let him take it from the home when they
separated. Rob Andrew’s shotgun was missing
from the home when police searched it. One
witness testified to seeing Brenda Andrew
engaging in target practice at her family’s rural
Garfield County home about a week before the
murder. Several 16-gauge shotgun shells were
found at the site.
Brenda told police that her husband was
attacked in the garage by two armed, masked
men, dressed in black, but gave few other
details. Brenda’s superficial wound was caused
by a .22-caliber bullet, apparently fired at
close range, which was inconsistent with her
claim that she was shot at some distance as
she ran from the garage into the house. About
a week before the murder, [Pavatt] purchased
a .22-caliber handgun from a local gun shop.
On the day of the murder, [Pavatt] borrowed
his daughter’s car and claimed he was going to
have it serviced for her. When he returned it the
morning after the murder, the car had not been
serviced, but his daughter found a .22-caliber
bullet on the floorboard. In a conversation later
that day, [Pavatt] told Larson never to repeat
that Brenda had asked him to kill Rob Andrew,
and he threatened to kill Larson if she did. He
also told her to throw away the bullet she had
found in her car.

8a
Appendix A
Police also searched the home of Dean Gigstad,
the Andrews’ next-door neighbor. There they
found evidence that someone had entered the
Gigstads’ attic through an opening in a bedroom
closet. A spent 16-gauge shotgun shell was found
on the bedroom floor, and several .22-caliber
bullets were found in the attic itself. There were
no signs of forced entry into the Gigstads’ home.
Gigstad and his wife were out of town when
the murder took place, but Brenda Andrew
had a key to their home. The .22-caliber bullet
found in Janna Larson’s car was of the same
brand as the three .22-caliber bullets found in
the Gigstads’ attic; the .22-caliber bullet fired
at Brenda and retrieved from the Andrews’
garage appeared consistent with them in
several respects. These bullets were capable
of being fired from the firearm that [Pavatt]
purchased a few weeks before the murder;
further testing was not possible because that
gun was never found. The shotgun shell found
in the Gigstads’ home was of the same brand
and odd gauge as the 16-gauge shell found in
the Andrews’ garage. Ballistics comparison
showed similar markings, indicating that they
could have been fired from the same weapon.
Whether these shells were fired from the
16-gauge shotgun Rob Andrew had left at the
home was impossible to confirm because, as
noted, that gun also turned up missing.
In the days following the murder, [Pavatt]
registered his daughter as a signatory on his

9a
Appendix A
checking account, and asked her to move his
belongings out of his apartment. He obtained
information over the Internet about Argentina,
because he had heard that country had no
extradition agreement with the United States.
Larson also testified that after the murder,
Brenda and [Pavatt] asked her to help them
create a document, with the forged signature
of Rob Andrew, granting permission for the
Andrew children to travel with Brenda out
of the country. Brenda also asked Larson
to transfer funds from her bank account to
Larson’s own account, so that Larson could wire
them money after they left town.
Brenda Andrew did not attend her husband’s
funeral. Instead, she and [Pavatt] drove to
Mexico, and took the Andrew children with
them. [Pavatt] called his daughter several
times from Mexico and asked her to send
them money. Larson cooperated with the FBI
and local authorities in trying to track down
[Pavatt] and Brenda. In late February 2002,
having run out of money, [Pavatt] and Brenda
Andrew re-entered the United States at the
Mexican border. They were promptly placed
under arrest.
Pavatt v. State, 2007 OK CR 19, 159 P.3d 272, 276-78 (Okla.
Crim. App. 2007) (paragraph numbers and footnotes
omitted) (Pavatt I).

10a
Appendix A
State trial proceedings
On November 29, 2001, the State of Oklahoma filed
an information in the District Court of Oklahoma County
charging Pavatt and Brenda Andrew jointly with first
degree murder. An amended information was filed on July
19, 2002, charging Pavatt and Brenda Andrew with one
count of first degree murder and one count of conspiracy
to commit first degree murder. At that same time, the
State filed a bill of particulars alleging the existence
of three aggravating circumstances: (1) that Pavatt
committed the murder for remuneration or the promise of
remuneration or employed another to commit the murder
for remuneration or the promise of remuneration; (2) the
murder ‘was especially heinous, atrocious, or cruel; and
(3) the existence of a probability that Pavatt would commit
criminal acts of violence that would constitute a continuing
threat to society.
The case against Pavatt proceeded to trial on August
25, 2003. 3 At the conclusion of the first-stage evidence,
the jury found Pavatt guilty of both counts charged in the
amended information. At the conclusion of the second-stage
evidence, the jury found the existence of two aggravating
circumstances: (1) that Pavatt committed the murder, or
employed another to commit the murder, for remuneration
or the promise thereof; and (2) that the murder was
especially heinous, atrocious, or cruel. The jury also
found that these aggravating circumstances outweighed
3. Brenda Andrew was tried separately, convicted of both
counts, and sentenced to death. Her federal habeas appeal is
currently pending in this court.

11a
Appendix A
the mitigating circumstances and it recommended that
Pavatt be sentenced to death for the first degree murder
conviction.
Pavatt was sentenced in accordance with the jury’s
recommendations on each count of conviction.
Pavatt’s direct appeal
Pavatt filed a direct appeal asserting eighteen
propositions of error. The OCCA rejected all of Pavatt’s
propositions of error and affirmed his convictions and
sentences. Pavatt I, 159 P.3d at 297. Pavatt filed a petition
for rehearing, which was denied by the OCCA.
Pavatt filed a petition for writ of certiorari with
the United States Supreme Court. The Supreme Court
denied Pavatt’s petition on February 19, 2008. Pavatt v.
Oklahoma, 552 U.S. 1181, 128 S. Ct. 1229, 170 L. Ed. 2d
62 (2008).
Pavatt’s application for post-conviction relief
On April 17, 2006, Pavatt filed with the OCCA an
application for post-conviction relief asserting three
propositions of error. Approximately two years later, on
April 11, 2008, the OCCA issued an unpublished opinion
denying Pavatt’s application. Pavatt v. State, No. PCD2004-25 (Okla. Crim. App. Apr. 11, 2008) (Pavatt II).

12a
Appendix A
The filing of Pavatt’s federal habeas petition
Pavatt initiated these federal habeas proceedings on
May 5, 2008, by filing a motion for appointment of counsel.
The district court granted that motion and appointed
counsel to represent Pavatt. On April 1, 2009, Pavatt’s
appointed counsel filed a petition for writ of habeas corpus
asserting fifteen grounds for relief. In his petition, Pavatt
conceded that certain of the claims asserted therein
were “newly developed” and “m[ight] require further
exhaustion.” ROA, Vol. 1 at 243 (Dist. Ct. Docket No. 42
at 213). As a result, Pavatt requested that his petition “be
held in abeyance so that he [could] return to state court
to accomplish any necessary exhaustion.” Id. At no point,
however, did the district court stay the case or otherwise
hold it in abeyance to allow Pavatt to exhaust his state
court remedies.
Pavatt’s second application for post-conviction relief
On September 2, 2009, while his federal habeas
petition was pending in federal district court, Pavatt filed
with the OCCA a second application for post-conviction
relief asserting six propositions of error. On February 2,
2010, the OCCA issued an unpublished opinion denying
Pavatt’s second application. Pavatt v. State, No. PCD2009-777 (Okla. Crim. App. Feb. 2, 2010) (Pavatt III).
The denial of Pavatt’s federal habeas
petition and the instant appeal
On May 1, 2014, the district court issued an order
denying Pavatt’s petition. On that same date, the district

13a
Appendix A
court entered final judgment in the case and also issued
an order denying Pavatt a COA with respect to all of the
issues raised in his habeas petition.
Pavatt filed a notice of appeal on June 2, 2014. In a
case management order issued on November 24, 2014,
we granted Pavatt a COA on the following issues: (1)
“[w]hether there was sufficient evidence to support the
[HAC] aggravator (raised in Ground 10 of . . . Pavatt’s
habeas petition)”; (2) “whether the trial court’s failure to
provide an adequate instruction to the jury that it must find
‘conscious physical suffering’ beyond a reasonable doubt
before finding that the murder was ‘especially heinous,
atrocious, or cruel’ violated . . . Pavatt’s constitutional
rights to a fair trial, a reliable sentencing determination,
and due process (raised in Ground 11 of . . . Pavatt’s
habeas petition)”; (3) “[w]hether there was constitutionally
ineffective assistance of trial counsel regarding the
investigation of mitigating evidence or the presentation
of a meaningful case for life imprisonment (raised in
Ground 15, Claim I.I., of . . . Pavatt’s habeas petition)”; (4)
“whether appellate counsel was constitutionally ineffective
in failing to raise a claim that trial counsel was ineffective”
regarding the investigation of mitigating evidence or the
presentation of a meaningful case for life imprisonment;
and (5) “[w]hether trial counsel provided constitutionally
ineffective assistance regarding the introduction of a
camping video, live photographs of the victim, or testimony
regarding the victim’s good traits (raised in Ground 15,
Claim I.E., of . . . Pavatt’s habeas petition), and whether
appellate counsel was constitutionally ineffective in failing
to raise a claim that trial counsel was ineffective in these
regards.” Case Mgmt. Order at 1-2.

14a
Appendix A
The original hearing panel affirmed the district
court’s denial of relief with respect to Pavatt’s convictions,
but in a divided decision reversed the denial of relief with
respect to Pavatt’s death sentence and remanded to the
district court for further proceedings. Respondent filed a
petition for rehearing en banc, which we granted.4
II
Standard of review
“The Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA) requires a state prisoner seeking federal
habeas relief first to ‘exhaus[t] the remedies available in
the courts of the State.’” Kernan v. Hinojosa, 136 S. Ct.
1603, 1604, 194 L. Ed. 2d 701 (2016) (per curiam) (alteration
in original) (quoting 28 U.S.C. § 2254(b)(1)(A)). “If the
state courts adjudicate the prisoner’s federal claim ‘on
the merits,’ § 2254(d), then AEDPA mandates deferential,
rather than de novo, review . . . .” Id. Specifically, this court
cannot grant relief unless that adjudication:
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
4. Because we are vacating the original panel opinion, we
must address all of the issues originally raised by Pavatt in his
opening appellate brief. That said, Pavatt did not seek rehearing
of the original panel’s unanimous affirmance of his convictions.
Consequently, our analysis of the issues related to his conviction
adheres closely to the original panel opinion.

15a
Appendix A
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceedings.
28 U.S.C. § 2254(d)(1)-(2).
“‘Clearly established Federal Law’ refers to the
Supreme Court’s holdings, not its dicta.” Wood v.
Carpenter, 907 F.3d 1279, 1289 (10th Cir. 2018) (citing
Williams v. Taylor, 529 U.S. 362, 412, 120 S. Ct. 1495,
146 L. Ed. 2d 389 (2000)), petition for cert. filed, No. 188666 (U.S. Mar. 29, 2019). “A state-court decision is only
contrary to clearly established federal law if it ‘arrives
at a conclusion opposite to that reached by’ the Supreme
Court, or ‘decides a case differently’ than the Court on
a ‘set of materially indistinguishable facts.’” Id. (quoting
Williams, 529 U.S. at 412-13). “But a state court need not
cite the Court’s cases or, for that matter, even be aware
of them.” Id. “So long as the state-court’s reasoning and
result are not contrary to the Court’s specific holdings,
§ 2254(d)(1) prohibits [this court] from granting relief.”
Id. (citing Early v. Packer, 537 U.S. 3, 9, 123 S. Ct. 362,
154 L. Ed. 2d 263 (2002) (per curiam)).
“A state court’s decision unreasonably applies federal
law if it ‘identifies the correct governing legal principle’
from the relevant Supreme Court decisions but applies
those principles in an objectively unreasonable manner.”
Id. (quoting Wiggins v. Smith, 539 U.S. 510, 520, 123
S. Ct. 2527, 156 L. Ed. 2d 471 (2003)). “Critically, an
‘unreasonable application of federal law is different from

16a
Appendix A
an incorrect application of federal law.’” Id. (quoting
Williams, 529 U.S. at 410 (emphasis in original)). “[A] state
court’s application of federal law is only unreasonable if
‘all fairminded jurists would agree the state court decision
was incorrect.’” Id. (quoting Frost v. Pryor, 749 F.3d 1212,
1225 (10th Cir. 2014)).
“Finally, a state-court decision unreasonably
det er mines the facts i f the state cou r t ‘pla inly
misapprehend[ed] or misstate[d] the record in making
[its] findings, and the misapprehension goes to a material
factual issue that is central to petitioner’s claim.’” Id.
(quoting Byrd v. Workman, 645 F.3d 1159, 1170-72 (10th
Cir. 2011)). “But this ‘daunting standard’ will be ‘satisfied
in relatively few cases.’” Id. (quoting Byrd, 645 F.3d at
1172).
Sufficiency of evidence challenge
to the HAC aggravator
In Proposition One of his appellate brief, Pavatt
challenges the sufficiency of the evidence supporting the
HAC aggravator found by the jury at the conclusion of
the second-stage proceedings. Aplt. Br. at 20. According
to Pavatt, the evidence presented at his trial was
“constitutionally insufficient” to establish that the murder
of Rob Andrew was “especially heinous, atrocious, or
cruel,” and, he asserts, “[t]he OCCA’s determination” to
the contrary was “unreasonable.” Id. at 20-21.

17a
Appendix A
a) Clearly established federal law applicable to the
claim
It is clearly established that “the fundamental
protection of due process of law” requires that the
evidence presented at a criminal trial, viewed in the light
most favorable to the prosecution, be sufficient to allow
“any rational trier of fact [to] have found the essential
elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781,
61 L. Ed. 2d 560 (1979) (emphasis in original). Because
most states’ “enumerated aggravating factors” for capital
cases “operate as ‘the functional equivalent of an element
of a greater offense,’” Ring v. Arizona, 536 U.S. 584,
609, 122 S. Ct. 2428, 153 L. Ed. 2d 556 (2002) (quoting
Apprendi v. New Jersey, 530 U.S. 466, 494 n. 19, 120 S.
Ct. 2348, 147 L. Ed. 2d 435 (2000)), this same due process
requirement applies to any aggravating factor alleged by
the prosecution and found by the jury in a capital case.
Thus, in sum, a state capital defendant seeking federal
habeas relief from his or her death sentence can assert
a sufficiency-of-the-evidence challenge to any of the
aggravating factors found by the jury.
b) The OCCA’s general construction of the HAC
aggravator
Before we examine whether and how the OCCA
addressed Pavatt’s sufficiency-of-evidence challenge to
the HAC aggravator, we pause briefly to review how the
OCCA has generally construed the HAC aggravator.
In Stouffer v. State, 1987 OK CR 166, 742 P.2d 562, 563

18a
Appendix A
(Okla. Crim. App. 1987), the OCCA expressly “restrict[ed]
. . . application” of the HAC aggravator “to those murders
in which torture or serious physical abuse is present.”
More specifically, the OCCA “identified two kinds of cases
in which ‘torture or serious physical abuse’ [will be deemed
to be] present: those characterized by the infliction of
‘great physical anguish’ and those characterized by the
infliction of ‘extreme mental cruelty.’” Medlock v. Ward,
200 F.3d 1314, 1324 (10th Cir. 2000) (Lucero, J., concurring)
(quoting Cheney v. State, 1995 OK CR 72, 909 P.2d 74, 80
(Okla. Crim. App. 1995)). “In the mental cruelty context,
the OCCA has emphasized that the torture required
for finding the ‘heinous, atrocious, or cruel’ aggravator
must produce mental anguish in addition to that which
of necessity accompanies the underlying killing.” Id.
(quotation marks omitted). And, with respect to the
physical anguish branch of its test, the OCCA has held
that, “[a]bsent evidence of conscious physical suffering by
the victim prior to death, the required torture or serious
physical abuse standard is not met.” Battenfield v. State,
1991 OK CR 82, 816 P.2d 555, 565 (Okla. Crim. App. 1991).
In Nuckols v. State, 1991 OK CR 10, 805 P.2d 672,
674 (Okla. Crim. App. 1991), the OCCA held that the
HAC aggravator “contemplates a two-step analysis.” The
first step of this analysis, the OCCA stated, requires the
jury to determine whether the death of the victim was
preceded by torture or serious physical abuse. Id. “Once
this foundational assessment is made,” the OCCA stated,
“then the jury may apply the definitions given to them
. . . to measure whether or not the crime can be considered
to have been heinous, atrocious or cruel.” Id.

19a
Appendix A
c) The OCCA’s resolution of Pavatt’s challenge to the
HAC aggravator
In his direct appeal, Pavatt challenged the sufficiency
of the evidence supporting the HAC agg ravator.
Proposition XIV of Pavatt’s direct appeal brief was titled:
“There was insufficient evidence to support the ‘especially
heinous, atrocious or cruel’ aggravating circumstance.”
Direct Appeal Br. at iv (capitalization omitted). In the
body of his direct appeal brief, Pavatt argued, in support
of Proposition XIV, that “[t]he evidence does not support
the fact that the murder was ‘especially’ heinous, atrocious
or cruel.” Id. at 47. He in turn quoted the following
statement made by his defense counsel during the secondstage closing arguments: “‘To some degree I suppose all
homicides are heinous, atrocious or cruel. I think that’s
the reason why our legislature has inflicted the term
especially to that phrase.’” Id. Lastly, Pavatt commented
briefly on the evidence presented by the state in support
of the HAC aggravator:
Interestingly, the State attempts to prove the
existence of the aggravating circumstance on
the basis of the information provided by Brenda
Andrew in her 911 call to the police. (Tr. 3763)
The medical examiner’s testimony was that
either of the two wounds could have been fatal.
Death occurred in a matter of minutes. The
medical examiner could not tell how long Mr.
Andrew was conscious. (Tr. 3764)
Id.

20a
Appendix A
The OCCA rejected this claim on the merits:
In Propositions 14 and 15, [Pavatt] challenges
the sufficiency of the evidence to support the
two aggravating circumstances alleged by
the State as warranting the death penalty.
Such challenges are reviewed under the
same standard as challenges to the evidence
supporting a criminal conviction. We consider
the evidence in a light most favorable to the
State, and determine whether any rational
juror could have found the existence of the
challenged aggravating circumstance beyond
a reasonable doubt. DeRosa [v. State], 2004 OK
CR 19 at ¶ 85, 89 P.3d at 1153; Lockett v. State,
2002 OK CR 30, ¶ 39, 53 P.3d 418, 430.
In Proposition 14, [Pavatt] claims the evidence
was insufficient to support the jury’s finding
that the murder of Rob Andrew was “especially
heinous, atrocious, or cruel.” To establish this
aggravator, the State must present evidence
from which the jury could find that the victim’s
death was preceded by either serious physical
abuse or torture. Evidence that the victim was
conscious and aware of the attack supports a
finding of torture. Davis v. State, 2004 OK CR
36, ¶ 39, 103 P.3d 70, 81; Black v. State, 2001
OK CR 5, ¶ 79, 21 P.3d 1047, 1074 (evidence that
victim consciously suffered pain during and
after stabbing was sufficient to support this
aggravating circumstance); Le [v. State], 1997

21a
Appendix A
OK CR 55 at ¶ 35, 947 P.2d at 550; Romano v.
State, 1995 OK CR 74, ¶ 70, 909 P.2d 92, 118;
Berget v. State, 1991 OK CR 121, ¶ 31, 824 P.2d
364, 373. Our evaluation is not a mechanistic
exercise. As we stated in Robinson v. State,
1995 OK CR 25, ¶ 36, 900 P.2d 389, 401:
As much as we would like to point to
specific, uniform criteria, applicable
to all murder cases, which would
make the application of the “heinous,
atrocious or cruel” aggravator a
mechanical procedure, that is simply
not possible. Rather, the examination
of the facts of each and every case is
necessary in determining whether the
aggravator was proved. Unfortunately,
no two cases present identical fact
scenar ios for our consideration,
therefore the particulars of each
case become the focus of our inquiry,
as opposed to one case’s similarity
to another, in resolving a sufficiency
of the evidence claim supporting the
heinous, atrocious or cruel aggravator.
The evidence presented at trial showed that
Rob A ndrew suffered numerous wounds
resulting from two shotgun blasts, which
damaged his internal organs. The medical
examiner testified that either wound would have
caused sufficient blood loss to be independently

22a
Appendix A
fatal, but that death was not instantaneous.
When emergency personnel arrived, Andrew
was still clutching a trash bag full of empty
aluminum cans, which reasonably suggested
that he either tried to ward off his attacker or
shield himself from being shot. Brenda Andrew
called 911 twice after the shooting; together,
the two calls spanned several minutes. During
the second call, she claimed that her husband
was still conscious and attempting to talk to
her as he lay bleeding to death on the garage
floor. All of these facts tend to show that Rob
Andrew suffered serious physical abuse, and
was conscious of the fatal attack for several
minutes. See Ledbetter v. State, 1997 OK CR 5,
¶ 53, 933 P.2d 880, 896 (evidence that murder
victim was likely aware that she was about to
be assaulted because defendant had attempted
to kill her one week earlier, that she tried to
defend herself from the fatal attack, and that
she attempted to communicate with a neighbor
after the attack was sufficient to show that the
murder was especially heinous, atrocious or
cruel).
After finding that the murder was accompanied
by torture or serious physical abuse, the jury
may also consider the attitude of the killer
and the pitiless nature of the crime. Lott [v.
State], 2004 OK CR 27 at ¶ 172, 98 P.3d at 358;
Phillips v. State, 1999 OK CR 38, ¶ 80, 989
P.2d 1017, 1039. That the victim was acquainted

23a
Appendix A
with his killers is a fact relevant to whether
the murder was especially heinous, atrocious,
or cruel. In finding the murder in Boutwell v.
State, 1983 OK CR 17, ¶ 40, 659 P.2d 322, 329 to
be especially heinous, atrocious, or cruel, this
Court observed:
In this case the killing was merciless.
The robbers planned well in advance
to take the victim’s life. Even more
abhorrent and indicative of cold
pitilessness is the fact that the
appellant and the victim knew each
other.
We find the situation in the present case even
more pitiless. Rob Andrew correctly suspected
his wife of having an affair with a man he
trusted as his insurance agent. He correctly
suspected his wife and her lover of trying to
wrest control of his life insurance away from
him. He correctly suspected his wife and her
lover of attempting to kill him several weeks
before by severing the brake lines on his car.
He confided in others that he was in fear of
his life. Having separated from his wife, Rob
Andrew was murdered as he returned to the
family home to pick up his children for the
Thanksgiving holiday. From the evidence, a
rational juror could have concluded, beyond a
reasonable doubt, that Rob Andrew had time
to reflect on this cruel state of affairs before he

24a
Appendix A
died. The evidence supported this aggravating
circumstance, and this proposition is denied.
Pavatt I, 159 P.3d at 294-95 (paragraph numbers omitted).
d) Pavatt’s challenge to the OCCA’s decision
In challenging the OCCA’s decision, Pavatt begins by
offering his own summary of the relevant evidence, arguing
that the crime at issue resulted in “[a] shotgun death” that
involved “no conscious suffering beyond what accompanies
any murder.” Aplt. Br. at 21. According to Pavatt, “[t]here
was no gratuitous violence,” “no torture,” and “no anguish
or suffering beyond that which necessarily accompanied
the underlying killing.” Id. Further, Pavatt argues that
“[t]he two shotgun blasts were both independently fatal”
and Rob Andrew “could not have remained conscious
for more than a few moments, before going into shock
and quickly bleeding to death.” Id. at 21-22. In sum,
Pavatt argues, “[i]f Rob Andrew’s homicide was ‘heinous,
atrocious or cruel,’ then any murder in which the victim
does not die instantly satisfies this factor.” Id. at 22.
The problem with Pavatt’s description of the evidence,
however, is that it wholly ignores not only the evidence the
jury heard, but also the standard of review mandated by
the Supreme Court in Jackson. As we have noted, Jackson
requires a reviewing court to “view[] the evidence in the
light most favorable to the prosecution.” 443 U.S. at 319.
When that standard is applied to the evidence presented in
Pavatt’s case, it simply does not support his description of
what occurred. Although it is true that each of the shotgun

25a
Appendix A
blasts were independently lethal, Pavatt is incorrect in
asserting that Rob Andrew “could not have remained
conscious for more than a few moments.” Aplt. Br. at 21.
Indeed, the medical examiner who testified on behalf of
the prosecution conceded it was possible that Rob Andrew
remained conscious for several minutes after sustaining
the wounds. And that testimony, combined with Brenda
Andrew’s statements to the 911 operator regarding Rob
Andrew’s condition (which we will discuss in greater
detail below), would have allowed the jury to reasonably
find that he indeed remained conscious far longer than “a
few moments.”
Pavatt also argues that the OCCA “relied on irrelevant
speculation about what Rob [Andrew] was feeling.” Id. at
24. In support, Pavatt examines and attempts to discredit
each of the factors cited by the OCCA in support of its
determination. To begin with, Pavatt asserts that “[t]he
‘numerous wounds’ referred to by the OCCA were caused
by pellets from the same shotgun, shot at nearly the same
time.” Id. at 32. Although Pavatt is correct on this point,
that does not prove the OCCA’s determination to be wrong.
Indeed, the medical examiner testified at trial that the two
shotgun blasts damaged Rob Andrew’s right lung, aorta,
and liver. In addition, the photographs of Rob Andrew’s
body quite clearly indicate that the shotgun pellets caused
numerous, separate entry and exit wounds on his body.
And, although Pavatt asserts that these wounds “did
not contribute to an inordinate amount of conscious pain
prior to death,” id. at 30, the medical examiner testified
to the contrary, noting the wounds would, indeed, have
been painful.

26a
Appendix A
Pavatt in turn argues that, contrary to the OCCA’s
determination, “the quick loss of blood from both wounds
resulted in shock and loss of consciousness within one
minute.” Id. But this argument ignores, and is ultimately
contrary to, the testimony of the medical examiner. The
medical examiner testified that, as a result of the blood
loss associated with the wounds, Rob Andrew would have
lost consciousness before he actually died. The medical
examiner opined that Rob Andrew would have died
“[l]ess than ten” minutes after sustaining the gunshot
wounds, but could have survived for five or six minutes.
Tr., Vol. X at 2457-58. The medical examiner declined
on direct examination to “give . . . an exact time” frame
that Rob Andrew would have maintained consciousness.
Id. at 2458. On cross-examination, the medical examiner
agreed that it was possible that Rob Andrew died less
than one minute after sustaining the wounds. Id. at 2466.
On redirect, the medical examiner testified it was also
possible that Rob Andrew remained conscious for more
than one minute after sustaining the wounds. Ultimately,
the medical examiner’s testimony, construed in the light
most favorable to the prosecution, and considered together
with other evidence presented by the prosecution, would
have allowed the jury to find that Rob Andrew remained
conscious for several minutes after sustaining the wounds.
Pavatt argues that the fact that Rob Andrew was
found “clutching the plastic trash bag was meaningless in
determining whether [he] consciously suffered and thus,
it was unreasonable for the OCCA to speculate about why
[he] may have been holding the bag.” Aplt. Br. at 30. We
disagree. At trial, the prosecution presented testimony

27a
Appendix A
from two witnesses on this very point. The first witness,
Norman Nunley, was a longtime friend of the Andrews.
Tr., Vol. V at 1363. Nunley testified that he first learned
of Rob Andrew’s death from Brenda Andrew, when she
called him the morning after the murder. Id. at 1381.
According to Nunley, Brenda Andrew gave him a brief
description of the shooting and, in particular, “said [that]
prior to the second shot [Rob Andrew] had grabbed a
trash bag full of, like, pop cans or something and tried
to hold it up between him and the gun.” Id. at 1382. The
second witness, Roger Frost, was an Oklahoma City police
officer and one of the first people to respond to Brenda
Andrew’s 911 call. Frost testified that when he arrived
at the Andrews’ house, he discovered Brenda Andrew
sitting in the doorway to the garage, approximately three
feet from Rob Andrew’s body. Id., Vol. IX at 2170. Frost
further testified that he removed Brenda Andrew from the
crime scene, walked her to an area outside of her house,
and had her sit on the curb so that the paramedics could
treat her. Id. at 2174-75. Frost testified that he asked
Brenda Andrew for information about what had happened
and that she told him, in pertinent part, that Rob Andrew
had grabbed the plastic bag full of cans as an apparent
means of self-defense. Id. at 2176. Because the OCCA
was obligated under Jackson to view the evidence in the
light most favorable to the prosecution, it was entirely
reasonable for it to accept this testimony of Nunley and
Frost as true. And that determination was relevant to
the OCCA’s assessment of the sufficiency of the evidence
supporting the HAC aggravator because it would have
supported a finding that Rob Andrew remained not only
conscious, but mobile and acting defensively, after the
first shotgun blast.

28a
Appendix A
Somewhat relatedly, Pavatt complains that it was
unreasonable for the OCCA “to conclude that Rob
[Andrew] consciously suffered based on Brenda[ Andrew]’s
statements in her 911 calls, when everything she said in
those calls was determined to be false.” Aplt. Br. at 30. The
fallacy of this argument, however, is the notion that all of
Brenda Andrew’s statements to the 911 operator (or, for
that matter, her statements to other people, such as Mr.
Nunley) were proven to be false. The fact of the matter
is that at least some of Brenda Andrew’s statements
during the two 911 calls were obviously true. For example,
it is undisputed that she was physically present with
Rob Andrew after he suffered the two shotgun blasts
and during at least the second 911 call. Further, her
statements to the 911 operator that she and Rob Andrew
had been shot were indisputably true. Likewise, some of
her statements describing what she was witnessing, such
as the arrival of police officers to her house, were also
quite clearly true (indeed, officers’ voices can be heard in
the background during the second 911 call at the precise
time that Brenda Andrew tells the 911 operator that the
police have arrived on the scene). Thus, the jury, having
listened to recordings of both 911 calls, was left to decide
whether her statements to the 911 operator regarding Rob
Andrew’s condition, including her statement that he was
conscious and attempting to talk to her, and her repeated
statements that he was breathing, were credible or not.
Although the jury was not bound to give credence to those
statements, it was certainly within the jury’s province
to do so. See Perry v. New Hampshire, 565 U.S. 228,
252, 132 S. Ct. 716, 181 L. Ed. 2d 694 (2012) (Sotomayor,
J., dissenting) (noting it is “the jury’s task [to] assess[]

29a
Appendix A
witness credibility and reliability”). Consequently, we
conclude it was in turn reasonable for the OCCA, applying
the standard of review mandated by Jackson, to treat as
credible Brenda’s statements regarding Rob Andrew’s
condition in assessing the sufficiency of the evidence to
support the HAC aggravator.
Finally, Pavatt argues that no “deference [should
be] afforded [the jury’s verdict] under Jackson” because
“[t]here were no conflicting facts about how Rob [Andrew]
died.” Aplt. Br. at 22. We reject that argument. Jackson
provides, in relevant part, that “a federal habeas corpus
court faced with a record of historical facts that supports
conflicting inferences must presume—even if it does not
affirmatively appear in the record—that the trier of fact
resolved any such conflicts in favor of the prosecution, and
must defer to that resolution.” 443 U.S. at 326. That is
precisely the situation we have here. As we have already
explained, the evidence presented at Pavatt’s trial most
certainly “supports conflicting inferences” regarding how
long Rob Andrew remained conscious after sustaining the
first and then the second shotgun blasts. We therefore
must presume that the jury in Pavatt’s trial, having found
the existence of the HAC aggravator, resolved these
conflicts in favor of the prosecution. And, in turn, we, like
the OCCA, must defer to that resolution.
In sum, we conclude that Pavatt has failed to establish
that the OCCA’s determination that the evidence was
sufficient to support the HAC aggravator was contrary
to, or involved an unreasonable application of, clearly
established federal law. Thus, Pavatt is not entitled to
federal habeas relief on this claim.

30a
Appendix A
Pavatt’s as-applied challenge to the HAC aggravator
As part of Proposition One of his appellate brief,
Pavatt also attempts to assert an as-applied challenge to
the HAC aggravator. Specifically, Pavatt argues that the
OCCA, in considering his Jackson challenge to the HAC
aggravator on direct appeal, “unreasonably failed to follow
its own precedent” that had adopted a constitutionally
narrow construction of the HAC aggravator, “compounded
its historically inconsistent approach to what Oklahoma
requires to support the HAC aggravator,” and, ultimately,
applied an unconstitutionally overbroad definition of the
HAC aggravator in affirming his death sentence. Aplt.
Br. at 24.
In our October 2, 2018 order granting respondent’s
petition for rehearing en banc, we directed the parties to
file supplemental briefs addressing a number of questions
concerning whether this as-applied challenge to the HAC
aggravator is properly before us. To begin with, we asked
the parties whether Pavatt’s as-applied challenge was
“presented to and addressed by the OCCA,” i.e., “did
Pavatt exhaust th[is] claim[] in the Oklahoma state courts,”
and, relatedly, whether the claim was procedurally barred.
Order at 2, Oct. 2, 2018.
A threshold question in any case involving a request
for federal habeas relief under § 2254 is whether “the
applicant has exhausted the remedies available in the
courts of the State.” 28 U.S.C. § 2254(b)(1)(A). Generally
speaking, “[a] federal court may not grant” an application
for federal habeas relief “unless . . . the applicant has

31a
Appendix A
exhausted state remedies before filing his petition.”
Simpson v. Carpenter, 912 F.3d 542, 564 (10th Cir.
2018). “[T]o exhaust state remedies, a petitioner must
give the state courts an opportunity to act on his claims
before he presents those claims to a federal court in a
habeas petition.” Id. at 565 (quotations omitted). “This
is accomplished by providing the state courts one full
opportunity to resolve any constitutional issues by
invoking one complete round of the State’s established
appellate review process.” Id. (quotations omitted). “A
claim is exhausted only after it has been fairly presented
to the state court.” Id. (quotations omitted). “Fair
presentation requires that the substance of the federal
claim was raised in state court.” Id. (quotations omitted).
Pavatt, as we have noted, asserted a Jackson challenge
to the HAC aggravator in his direct appeal and the
OCCA rejected that Jackson challenge. Pavatt’s original
application for state postconviction relief did not assert any
issue relating to the HAC aggravator. Proposition Five of
Pavatt’s second application for state postconviction relief
asserted the following challenge to the HAC aggravator:
“The Eighth and Fourteenth Amendments to the United
States Constitution are violated by Oklahoma’s continued
use of the facially vague aggravating circumstance that a
murder is: especially heinous, atrocious, or cruel.” Second
Appl. for Post-Conviction Relief, at vii (capitalization
omitted). In support, Pavatt cited to various OCCA cases
applying the HAC aggravator, and he argued that, “[i]
nexplicably,” the OCCA “found serious physical abuse in
[his] case, even though there was no gratuitous violence,
and the killing was much like that in Cartwright[ v.

32a
Appendix A
Maynard, 822 F.2d 1477 (10th Cir. 1987) (en banc)].”5 Id.
at 32. The OCCA concluded that Proposition Five was
procedurally barred. Specifically, the OCCA concluded
5. In Cartwright, the defendant “fire[d] two blasts from [a]
shotgun” into the victim, resulting in the victim’s death. Cartwright
v. State, 1985 OK CR 4, 695 P.2d 548, 550 (Okla. Crim. App. 1985). On
direct appeal, the OCCA concluded that the evidence presented at
trial supported the jury’s finding of the HAC aggravator. Id. at 554.
In doing so, however, the OCCA did not discuss whether the victim
remained conscious after the two shotgun blasts. Instead, the OCCA
considered “the circumstances attendant to the murder,” including
the fact that the defendant had expressed the intention to get even
with the victims, that the defendant had hid inside the victims’ home
waiting for them to return, that he attacked the female victim (who
survived the attack) upon being discovered, that the murder victim
“doubtless heard” his wife being shot and “quite possibly experienced
a moment of terror as he was confronted by the [defendant] and
realized his impending doom,” that the defendant “again attempted
to kill [the female victim] in a brutal fashion upon discovery that
his first attempt was unsuccessful,” that the defendant “attempted
to conceal his deeds by disconnecting the telephone and posting a
note on the door,” and that the defendant attempted to steal goods
belonging to the victims. Id.
On federal habeas review, this court, sitting en banc, held that
the OCCA “failed to apply a constitutionally required narrowing
construction of [the HAC aggravator] in this case.” Cartwright, 822
F.2d at 1491. The Supreme Court subsequently granted certiorari in
the case and affirmed this court’s decision. Maynard v. Cartwright,
486 U.S. 356, 366, 108 S. Ct. 1853, 100 L. Ed. 2d 372 (1988).
Following this court’s decision in Cartwright, the OCCA
“restricted the [HAC aggravator] to those murders in which torture
or serious physical abuse is present.” Id. at 365 (citing Stouffer, 1987
OK CR 166, 742 P.2d 562).

33a
Appendix A
that this “legal argument could have been raised in prior
proceedings, but was not,” and was “therefore waived.”
Pavatt III, No. PCD-2009-777 at 6 (citing Okla. Stat. tit.
22, § 1089(D)(8)).
We are not persuaded, after reviewing the state court
pleadings, that Pavatt fairly presented to the OCCA the
as-applied arguments that he now seeks to assert in
this federal habeas appeal. To begin with, we reject the
notion that the Jackson challenge that Pavatt asserted in
his direct appeal necessarily incorporated an as-applied
challenge to the HAC aggravator. 6 Indeed, Pavatt’s
Jackson claim could not have incorporated the as-applied
arguments that he now attempts to make in this federal
habeas appeal because his as-applied arguments challenge
only the manner in which the OCCA, in disposing of his
Jackson challenge on direct appeal, construed the HAC
aggravator. We further conclude that Pavatt’s second
application for post-conviction relief plainly asserted a
facial vagueness challenge to the HAC aggravator, but,
at best, only hinted at an as-applied challenge to the HAC
aggravator. Consequently, we conclude that the as-applied
6. A Jackson challenge to a jury’s finding of the HAC
aggravator, which relies on the Due Process Clause of the Fourteenth
Amendment, is a separate and distinct legal claim from an Eighth
Amendment challenge to the HAC aggravator. That said, we do not
foreclose the possibility that a petitioner may, depending on the
circumstances, assert a Jackson claim and an Eighth Amendment
claim in the same proceeding. We hold only that the Eighth
Amendment as-applied claim that Pavatt now seeks to assert was
not, and could not have been, asserted in his direct appeal because
it focuses on the manner in which the OCCA applied the HAC
aggravator in rejecting Pavatt’s Jackson claim on direct appeal.

34a
Appendix A
arguments Pavatt now presents in his federal appellate
brief were not fairly presented to the OCCA and are
thus unexhausted and, in turn, subject to an anticipatory
procedural bar.7 See Moore v. Schoeman, 288 F.3d 1231,
1233 n.3 (10th Cir. 2002).
That is not the end of the matter, however, because
in our October 2, 2018 order we directed the parties to
address whether “respondent, through counsel, expressly
waived the exhaustion requirement for purposes of 28
U.S.C. § 2254(b)(3)” with respect to Pavatt’s as-applied
challenge to the HAC aggravator. Order at 2, Oct. 2,
2018. We also directed the parties to address whether
“respondent expressly waived [procedural bar] as a
defense.” Id.
Section 2254(b)(3), which we referenced in our order,
provides that “[a] State shall not be deemed to have waived
the exhaustion requirement or be estopped from reliance
upon the requirement unless the State, through counsel,
expressly waives the requirement.” 28 U.S.C. § 2254(b)
(3). Having reviewed the parties’ supplemental briefs
and the record in this case, we conclude that respondent
7. In our October 2, 2018 order, we directed the parties to
address the question of whether “this court [should] sua sponte
raise the exhaustion issue.” Order at 2. Pavatt concedes, as he must,
that we possess the authority to consider the issue of exhaustion sua
sponte. Aplt. Supp. Br. at 19; see United States v. Mitchell, 518 F.3d
740, 746 n.8 (10th Cir. 2008) (noting that “[s]ua sponte consideration
of exhaustion of state remedies . . . is explicitly permitted by Supreme
Court precedent.”) (citing Granberry v. Greer, 481 U.S. 129, 133
(1987), and Caspari v. Bohlen, 510 U.S. 383, 389, 114 S. Ct. 948, 127
L. Ed. 2d 236 (1994)).

35a
Appendix A
did not expressly waive the exhaustion requirement with
respect to the arguments that Pavatt now seeks to assert
on appeal.
Ground Ten of Pavatt’s federal habeas petition plainly
asserted a Jackson challenge to the HAC aggravator,
but at best (similar to his second application for state
postconviction relief) only hinted at the possibility of an
as-applied challenge to the HAC aggravator. In particular,
Ground Ten of Pavatt’s federal habeas petition, in addition
to discussing in detail why the evidence presented at trial
was insufficient to allow the jury to reasonably find the
HAC aggravator, mentioned but did not discuss the Eighth
and Fourteenth Amendments, and also mentioned, but did
not discuss the meaning of, “a constitutionally narrowed
construction of the [HAC] aggravator.” ROA, Vol. 1 at 185
(Dist. Ct. Docket No. 42 at 155).
Not surprisingly, neither respondent nor the district
court read Ground Ten as asserting a separate, as-applied
challenge to the HAC aggravator, i.e., that the OCCA
failed, on direct appeal, to apply the HAC aggravator
in a constitutionally permissible manner. 8 Thus, neither
8. The district court interpreted Ground Ten as asserting a
Jackson claim and also an argument “that the OCCA applied the
incorrect standard of review” in assessing Pavatt’s insufficiency-ofevidence challenge on direct appeal. ROA, Vol. 3 at 1128 (Dist. Ct.
Docket No. 91 at 80). More specifically, the district court interpreted
Ground Ten of Pavatt’s habeas petition as arguing, in part, “that the
OCCA should have applied the reasonable hypothesis test instead
of Jackson” in reviewing the evidence presented at trial, including
the statements made by Brenda Andrew during the 911 call. Id. at
1131 (Dist. Ct. Docket No. 91 at 83 n.40). In rejecting this latter

36a
Appendix A
respondent nor the district court addressed the question
of whether Pavatt had exhausted his state court remedies
with respect to an as-applied challenge to the HAC
aggravator. And, accordingly, at no time did respondent
expressly waive the exhaustion requirement with respect
to an as-applied challenge to the HAC aggravator.
To be sure, Pavatt argues in his supplemental
response brief that respondent “expressly waived” the
exhaustion requirement with respect to Pavatt’s asapplied arguments. Aplt. Supp. Br. at 18. In support,
Pavatt cites to page 128 of respondent’s answer to Pavatt’s
habeas petition. A review of that cited page, however,
reveals that respondent conceded exhaustion only as
to Pavatt’s Jackson claim. ROA, Vol. 3 at 560 (Dist. Ct.
Docket No. 69 at 128) (“In Ground Ten, Petitioner alleges
that insufficient evidence was presented at trial to support
the jury’s finding of the [HAC] aggravator.); id. (“This
claim was raised on direct appeal and the OCCA rejected it
on the merits. Pavatt [I], 159 P.3d at 294-95. It is therefore
exhausted for purposes of federal habeas review.”). Thus,
Pavatt’s assertion that respondent expressly waived the
exhaustion requirement with respect to Pavatt’s asapplied arguments is without merit.
We likew ise conclude that respondent did not
expressly waive procedural bar as a defense. As we have
discussed, it was far from clear that Pavatt intended to
assert an as-applied challenge to the HAC aggravator in
argument, the district court noted: “it is clear that the OCCA applied
Jackson and that it was the correct (and constitutional) standard to
be applied.” Id. at 1130-31 (Dist. Ct. Docket No. 91 at 82-83).

37a
Appendix A
his federal habeas petition, and, in fact, both respondent
and the district court reasonably interpreted Pavatt’s
habeas petition as asserting only a Jackson challenge to
the HAC aggravator. Consequently, we do not construe
any of respondent’s district court pleadings as expressly
waiving procedural bar as a defense to the as-applied
claim.
Finally, our October 2, 2018 order directed the parties
to address the questions of whether Pavatt’s as-applied
challenge was “resolved by the district court,” whether
“a COA [was] granted on th[is] claim[],” and whether the
claim was “included in this court’s case management
order as [an] issue[] to be raised by Pavatt.” Order at 2,
Oct. 2, 2018. Because the district court reasonably did
not perceive Pavatt’s habeas petition as asserting an
as-applied challenge to the HAC aggravator, it did not
address, let alone resolve, that claim, and it did not grant
a COA on the claim. Nor, in turn, did this court grant a
COA on any as-applied challenge to the HAC aggravator.
Consequently, the as-applied claim was not included in this
court’s case management order as an issue to be raised
by Pavatt and briefed by the parties.
For all of these reasons, we conclude that the asapplied challenge to the HAC aggravator that Pavatt
asserts in his federal appellate brief is not properly before
us and cannot serve as the basis for the grant of federal
habeas relief.9
9. Consequently, we do not reach the issues outlined in
Questions 2(h), (i), (j), or (k) of our October 2, 2018 Order directing
the parties to file supplemental briefs, all of which concerned the
merits of Pavatt’s as-applied challenge to the HAC aggravator.

38a
Appendix A
Facial challenge to the HAC aggravator
In both Ground Eleven and Ground Thirteen of his
federal habeas petition, Pavatt referred to the HAC
aggravator as being facially vague. ROA, Vol. 1 at 191,
202 (Dist. Ct. Docket No. 42 at 161, 172). Neither Ground
Eleven nor Ground Thirteen, however, directly asserted a
facial challenge to the HAC aggravator. Instead, Ground
Eleven focused on the adequacy of the instructions given
to the jury in Pavatt’s case regarding the HAC aggravator,
and Ground Thirteen asserted that Oklahoma’s Uniform
Jury Instruction defining the terms “heinous,” “atrocious,”
and “cruel” failed to adhere to the constitutionally
narrowing construction that had been adopted by the
OCCA following this court’s decision in Cartwright.
Respondent did not interpret Pavatt’s habeas petition
as asserting a facial challenge to the HAC aggravator. But
the district court, perhaps out of an abundance of caution,
construed Ground Thirteen as challenging the HAC
aggravator “on the ground that it is unconstitutionally
vague on its face.” Id., Vol. 3 at 1138 (Dist. Ct. Docket No.
91 at 90). The district court concluded, however, that this
facial challenge was “barred from federal review” because
it was “not presented to the OCCA until [Pavatt’s] second
post-conviction application.” Id. The district court also
noted, in any event, that the OCCA had, in response to this
court’s decision in Cartwright, adopted a constitutionally
narrowing construction of the HAC aggravator.
The district court did not grant a COA as to Ground
Thirteen. Likewise, we did not grant a COA as to

39a
Appendix A
Ground Thirteen (or to any facial challenge to the HAC
aggravator) or include it in our case management order
as an issue to be raised by Pavatt on appeal. And, in
turn, Pavatt’s opening appellate brief makes no mention
of Ground Thirteen or any facial challenge to the HAC
aggravator.
For these reasons, we conclude that there is no facial
challenge to the HAC aggravator that is properly before
us.
Adequacy of instruction on the HAC aggravator
In Proposition Two of his appellate brief, Pavatt
contends that the state trial court’s instructions to the jury
regarding the HAC aggravator failed to adequately inform
them that they must find “conscious physical suffering”
before concluding that the murder was “especially heinous,
atrocious, or cruel.”
a) Facts relevant to this claim
Prior to trial, Pavatt filed an objection “to the pattern
verdict form, OUJI-CR 2d 4-84, on the grounds [that]
the special findings, i.e., the aggravating circumstances,
[we]re ill-defined, vague and d[id] not check the unbridled
discretion of the sentencer.” State R., Vol. VII at 1286.
Pavatt subsequently filed an objection to the uniform
instruction and verdict form regarding the HAC
aggravator, arguing “that [they were] unconstitutional”
in light of the Supreme Court’s decision in Cartwright.
Id., Vol. VIII at 1471.

40a
Appendix A
The state trial court overruled Pavatt’s objections
and, at the conclusion of the second-stage proceedings,
gave the jury the following instruction regarding the
HAC aggravator:
Instruction Number 5
As used in these instructions, the term “heinous”
means extremely wicked or shockingly evil;
“atrocious” means outrageously wicked and
vile: “cruel” means pitiless, or designed to
inflict a high degree of pain, utter indifference
to, or enjoyment of, the sufferings of others.
The phrase “especially heinous, atrocious, or
cruel” is directed to those crimes where the
death of the victim was preceded by torture of
the victim or serious physical abuse.
Id., Vol. XI at 2052. As for the second-stage verdict form,
it simply asked the jury to check whether or not they
found the existence of each of the alleged aggravating
circumstances. Id. at 2063. The verdict form did
not otherwise explain or attempt to define the HAC
aggravator.
The jury, after deliberating, indicated that they
found the existence of the HAC aggravator. The jury also
indicated that it found that Pavatt committed the murder
for remuneration or the promise of remuneration or
employed another to commit the murder for remuneration
or the promise of remuneration.

41a
Appendix A
b) Pavatt’s presentation of the issue to the OCCA
Although Pavatt argued on direct appeal that the
evidence presented at trial was insufficient to support the
HAC aggravator, he did not challenge on direct appeal
the adequacy of the HAC instruction or the verdict form.
Nor did he raise the issue in his initial application for
post-conviction relief. Instead, Pavatt waited until he filed
his second application for post-conviction relief to raise
the issue. In Proposition Four of that application, Pavatt
argued that the state trial court violated his constitutional
rights by failing to provide an adequate instruction that
informed the jury that it must find “conscious physical
suffering” beyond a reasonable doubt before concluding
that the murder was “especially heinous, atrocious, or
cruel.” Second Appl. for Post-Conviction Relief, at 27-31.
c) The OCCA’s resolution of the claim
In its opinion denying Pavatt’s second application
for post-conviction relief, the OCCA concluded that this
claim was procedurally barred: “Because this argument is
based on the trial record, it could have been made in prior
proceedings, and may not be considered now.” Pavatt III,
No. PCD-2009-777 at 5 (citing Okla. Stat. tit. 22, § 1089(D)
(8)). In a related footnote, the OCCA also stated:
In any event, we have rejected the same
argument several times in the past. [Pavatt]
essentially asks this Court to retroactively
require an instruction that we promulgated—
after [Pavatt]’s conviction — in DeRosa v.

42a
Appendix A
State, 2004 OK CR 19, ¶¶ 91-97, 89 P.3d 1124,
1154-57. That instruction elaborates on the
meaning of “heinous, atrocious, or cruel,”
and the relevant Uniform Jury Instruction
already in existence (No. 4-73) was amended a
year later. DeRosa was handed down several
months after [Pavatt]’s trial. DeRosa does
not hold that the Uniform Jury Instruction on
this issue, being used at the time of DeRosa’s
and [Pavatt]’s trials, was materially deficient.
DeRosa, 2004 OK CR 19, ¶ 97, 89 P.3d at 1156
(“This opinion should not be interpreted as a
ruling that the former uniform instruction was
legally inaccurate or inadequate”). This same
attack on the pre-DeRosa version of OUJI-CR
(2nd) No. 4-73 has been rejected several times
by this Court. Jackson v. State, 2006 OK CR
45, ¶¶ 36-38, 146 P.3d 1149, 1161-63; Browning
v. State, 2006 OK CR 8, ¶¶ 52-56, 134 P.3d 816,
843-45; Rojem v. State, 2006 OK CR 7, ¶¶ 68-73,
130 P.3d 287, 300-01.
Id. at 5 n.5.
In DeRosa, the OCCA incorporated the two-step
analysis into its uniform jury instruction defining the
HAC aggravator and directed that this instruction was
to “be used in all future capital murder trials in which
the” HAC aggravator was alleged. 89 P.3d at 1156. The
instruction read as follows:
The State has alleged that the murder was
“especially heinous, atrocious, or cruel.” This

43a
Appendix A
aggravating circumstance is not established
unless the State proves beyond a reasonable
doubt:
First, that the murder was preceded
by either torture of the victim or
serious physical abuse of the victim;
and
Second, that the facts and
circumstances of this case establish
that the murder was heinous, atrocious,
or cruel.
You are instructed that the term “torture”
means the infliction of either great physical
anguish or extreme mental cruelty. You are
further instructed that you cannot find that
“serious physical abuse” or “great physical
anguish” occurred unless you also find that the
victim experienced conscious physical suffering
prior to his/her death.
In addition, you are instructed that the
term “heinous” means extremely wicked or
shockingly evil; the term “atrocious” means
outrageously wicked and vile; and the term
“cruel” means pitiless, designed to inflict a
high degree of pain, or utter indifference to or
enjoyment of the suffering of others.
Id. The OCCA emphasized that “[t]his instruction
d[id] not change any of the legal requirements of the

44a
Appendix A
[HAC aggravator].” Id. “Rather,” the OCCA noted, “it
[wa]s intended to more fully inform the jury regarding
the findings that must be made in order to properly apply
the aggravator and to ensure that a jury determination is
made regarding each of these findings.” Id.
d) The district court’s procedural bar ruling
The district court concluded that Pavatt’s challenge to
the state trial court’s HAC instruction was “barred from
federal review.” ROA, Vol. 3 at 1138 (Dist. Ct. Docket No.
91 at 90). In support, the district court stated that “[t]he
Tenth Circuit has repeatedly recognized the application
of a procedural bar to claims which could have been raised
in an initial post-conviction application but were not.” Id.
at 1079 (Dist. Ct. Docket No. 91 at 31). The district court
also concluded that “the OCCA’s procedural bar here
[wa]s adequate and independent.” Id. at 1080 (Dist. Ct.
Docket No. 91 at 32). Lastly, the district court concluded
that Pavatt had “not made any showing of cause and
prejudice to excuse his default of th[is] claim[],” nor had he
shown “that a fundamental miscarriage of justice w[ould]
occur if the claim [wa]s not heard.” Id. at 1081 (Dist. Ct.
Docket No. 91 at 33).
e) Pavatt’s challenge to the district court’s procedural
bar ruling
Pavatt contends that “[t]he district court erred in
finding this claim procedurally barred from federal
review.” Aplt. Br. at 41. In support, Pavatt asserts that
“Valdez v. State, 2002 OK CR 20, 46 P.3d 703 (Okla.

45a
Appendix A
Crim. App. 2002), gives the OCCA the option to permit
consideration on the merits ‘when an error complained of
has resulted in a miscarriage of justice, or constitutes a
substantial violation of a constitutional or statutory right.’”
Id. (quoting Valdez, 46 P.3d at 710). “The merits inquiry,”
Pavatt asserts, “is thus part of the default consideration,
and therefore, lacks independence as in Ake v. Oklahoma,
470 U.S. 68, 74-75, 105 S. Ct. 1087, 84 L. Ed. 2d 53 (1985).”
Id.
In Ake, “the OCCA held that [the defendant] had
waived his claims that he was entitled to a court-appointed
psychiatrist to assist him in an insanity defense because
he had not renewed his request for a psychiatrist in a
new-trial motion.” Black v. Workman, 682 F.3d 880, 918,
485 Fed. Appx. 917 (10th Cir. 2012). “But under Oklahoma
law there was no procedural bar if the alleged error was
‘fundamental trial error’; and federal constitutional error
was considered an error of that type.” Id. (quoting Ake, 470
U.S. at 74-75). “Thus, the OCCA could not apply the waiver
rule without first addressing the federal constitutional
error.” Id. “The Supreme Court concluded that the state
waiver rule was therefore not an independent state ground
for barring review.” Id.
In Pavatt’s case, the OCCA based its denial upon
Oklahoma’s Post-Conviction Procedure Act, Okla. Stat.
tit. 22, § 1089(D)(8). That statute provides, in pertinent
part, that “if a subsequent application for post-conviction
relief is filed after filing an original application,” the OCCA
“may not consider the merits of or grant relief based on
the subsequent . . . application unless” it “contains claims

46a
Appendix A
and issues that have not been and could not have been
presented previously in a timely original application
. . . because the legal basis for the claim was unavailable.”
Okla. Stat. tit. 22, § 1089(D)(8).
“Federal habeas courts generally refuse to hear claims
‘defaulted . . . in state court pursuant to an independent
and adequate state procedural rule.’” Johnson v. Lee, 136
S. Ct. 1802, 1803-04, 195 L. Ed. 2d 92 (2016) (per curiam)
(quoting Coleman v. Thompson, 501 U.S. 722, 750, 111 S.
Ct. 2546, 115 L. Ed. 2d 640 (1991)). “State [procedural]
rules count as ‘adequate’ if they are ‘firmly established
and regularly followed.’” Id. at 1804 (quoting Walker v.
Martin, 562 U.S. 307, 316, 131 S. Ct. 1120, 179 L. Ed. 2d
62 (2011)).
We have repeatedly held that the Oklahoma statute
that was relied on by the OCCA in this case—§ 1089(D)(8)
of Oklahoma’s Post-Conviction Procedure Act—”satisfies
both adequacy criteria.” Id. at 1804; see Williams v.
Trammell, 782 F.3d 1184, 1212 (10th Cir. 2015) (holding
“that the OCCA’s ban on successive post-conviction
applications is . . . a firmly established and consistently
followed rule.”); Thacker v. Workman, 678 F.3d 820, 83536 (10th Cir. 2012) (same); Moore v. Reynolds, 153 F.3d
1086, 1097 (10th Cir. 1998) (same).
But Pavatt asserts, like some other Oklahoma capital
defendants have in the past, that in light of Valdez, the
exception makes the rule and the OCCA’s reliance on
§ 1089(D)(8) “does not preclude merits review because
the state bar is not independent of federal law.” Fairchild

47a
Appendix A
v. Trammell, 784 F.3d 702, 719 (10th Cir. 2015). More
specifically, Pavatt “is asserting that the OCCA will not
impose a procedural bar [pursuant to § 1089(D)(8)] unless
it first determines that any federal claims lack merit.” Id.
We have held, however, “the Valdez exception only
applies in cases involving an exceptional circumstance,
and it is insufficient to overcome Oklahoma’s regular and
consistent application of its procedural-bar rule in the vast
majority of cases.”10 Williams, 782 F.3d at 1213 (quotations
and citations omitted). In this case, Pavatt’s challenge
to the HAC jury instruction is far from exceptional: it is
a claim that was readily apparent from the trial record
and that could and arguably should have been raised on
direct appeal. Moreover, although the OCCA opined in
a footnote that there was no merit to Pavatt’s claim, the
clear and unequivocal basis for its denial of his claim was
procedural bar under § 1089(D)(8). See Cole v. Trammell,
755 F.3d 1142, 1158-59 (10th Cir. 2014) (acknowledging and
applying the OCCA’s procedural bar ruling, even though
the OCCA, on an alternative basis, briefly addressed and
rejected the merits of the petitioner’s claim); Thacker, 678
F.3d at 834 n.5 (same). We therefore agree with the district
court that Pavatt’s challenge to the HAC instruction is
procedurally barred.

10. “Valdez was special because the lawyers there knew
that their client was a citizen of Mexico and nonetheless failed to
comply with the Vienna Convention when they failed to contact the
Mexican Consulate, thereby depriving the Consulate [of] the ability
to intervene and present its discovery that the defendant suffered
from organic brain damage.” Williams, 782 F.3d at 1213.

48a
Appendix A
f) The merits of Pavatt’s claim
Even if we were to conclude that the claim is not
procedurally barred, it cannot provide Pavatt with a valid
basis for federal habeas relief. In Workman v. Mullin,
342 F.3d 1100 (10th Cir. 2003) and Wilson v. Sirmons,
536 F.3d 1064 (10th Cir. 2008), we considered HAC jury
instructions identical to the one utilized in Pavatt’s case
and rejected claims identical to the one now asserted by
Pavatt. In doing so, we concluded that the language of the
instructions was sufficient to narrow the jury’s discretion,
as required by Supreme Court precedent. Mullin, 342
F.3d at 1116; Wilson, 536 F.3d at 1108.
Ineffective assistance of trial and appellate counsel
We granted a COA in our case management order
on three distinct ineffective assistance of counsel claims.
Pavatt addresses these claims in Proposition Three of
his opening brief. First, he argues that his trial counsel
was ineffective for failing to prevent the prosecution
from presenting what he describes as pervasive victimimpact evidence in both stages of trial. Second, Pavatt
contends that his trial counsel was also ineffective in
failing to investigate and present a compelling mitigation
case. Lastly, Pavatt contends that his counsel on direct
appeal was ineffective for failing to assert these claims
of ineffective assistance of trial counsel.

49a
Appendix A
a) Clearly established federal law applicable to the
claims
The clearly established federal law applicable to these
claims is the Supreme Court’s decision in Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d
674 (1984). In Strickland, the Supreme Court held that “[a]
convicted defendant’s claim that counsel’s assistance was
so defective as to require reversal of a conviction or death
sentence has two components.” 466 U.S. at 687. “First,”
the Court noted, “the defendant must show that counsel’s
performance was deficient.” Id. “This requires showing
that counsel made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant by
the Sixth Amendment.” Id. “Second,” the Court noted,
“the defendant must show that the deficient performance
prejudiced the defense.” Id. “Unless a defendant makes
both showings,” the Court held, “it cannot be said that the
conviction or death sentence resulted from a breakdown in
the adversary process that renders the result unreliable.”
Id. In other words, “[t]o prevail on a Sixth Amendment
claim of ineffective assistance of counsel under Strickland
. . . , a defendant must show both that (1) counsel committed
serious errors in light of prevailing professional norms
such that his legal representation fell below an objective
standard of reasonableness, and (2) there is a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Grant v. Trammell, 727 F.3d 1006, 1017 (10th Cir. 2013)
(quotations omitted).
The right to effective assistance of counsel extends to
direct appeals, Evitts v. Lucey, 469 U.S. 387, 396-97, 105 S.

50a
Appendix A
Ct. 830, 83 L. Ed. 2d 821 (1985), and the same standards
apply in this context, see Smith v. Robbins, 528 U.S. 259,
285, 120 S. Ct. 746, 145 L. Ed. 2d 756 (2000) (holding
that “the proper standard for evaluating [a] claim that
appellate counsel was ineffective . . . is that enunciated
in Strickland”). This means that a defendant asserting a
claim of ineffective assistance of appellate counsel “must
show a reasonable probability that, but for his counsel’s
unreasonable failure to” raise a particular nonfrivolous
issue, “he would have prevailed on his appeal.” Id.
b) Trial counsel’s failure to challenge the
a dmission of testimony regarding Rob
Andrew’s religious beliefs and practice and his
good, moral character, as well as photographs
and a video-recording showing Rob Andrew
while alive
Pavatt complains that dur ing the f irst-stage
proceedings, the State, “[w]ithout objection from
[his] defense counsel, . . . elicited from Rob Andrew’s
friends and family detailed and glowing accounts of
him as a husband, father, and friend.” Aplt. Br. at 49.
As a result, Pavatt complains, “[t]he trial was saturated
with descriptions of Rob [Andrew] as a young, healthy,
and successful professional who pursued active and
wholesome interests.” Id. Pavatt also complains that
“[t]he jury was repeatedly informed regarding the extent
of Rob[ Andrew]’s religious faith, including details of his
Bible study.” Id. “This evidence,” Pavatt asserts, “was
designed to describe Rob [Andrew] in especially devout
terms and in marked contrast to Pavatt, who according to

51a
Appendix A
the prosecution’s theory, abandoned his Christian values
to follow Brenda [Andrew] into the sins of adultery and
murder.” Id. Finally, Pavatt complains that “[t]he verbal
descriptions of Rob [Andrew] were magnified by visual
images,” including “four photographs of Rob in life and a
video-recording of him with his brother and friends and
Pavatt during a hunting excursion during the winter prior
to his death.” Id.
Pavatt in turn argues that his “[t]rial counsel’s
failures to object to inadmissible evidence continued in
the punishment phase of the trial.” Id. Specifically, he
notes, “[t]he prejudicial and improper evidence” that
was admitted during the first-stage proceedings “was
incorporated into the sentencing stage without objection.”
Id. “This emotion-driven evidence,” Pavatt argues,
“compounded by the victim-impact testimony from Rob[
Andrew]’s father and brothers, presented much more
than the quick glimpse of the life of Rob Andrew that is
constitutionally allowed.” Id. at 49-50.
In his original application for state post-conviction
relief, Pavatt asserted a host of claims alleging ineffective
assistance of trial and appellate counsel. Included was a
claim that his appellate counsel failed to challenge the
admission of a pre-mortem studio photograph of Rob
Andrew in a suit and tie (State’s Exhibit 219), and that
the admission of that photograph “rendered . . . Pavatt’s
trial fundamentally unfair, depriving him of the Due
Process of Law, and unconstitutionally injected passion,
prejudice, and other arbitrary factors into the sentencing
proceeding.” Original Appl. for Post-Conviction Relief at

52a
Appendix A
54 (citations omitted). The OCCA concluded that this claim
was “not accompanied by newly-discovered facts or new
controlling case law” and was “therefore barred by res
judicata.” Pavatt II, No. PCD-2004-25 at 6. The OCCA
also noted that it had rejected a similar claim in MarquezBurrola v. State, 2007 OK CR 14, 157 P.3d 749, 760 (Okla.
Crim. App. 2007). Pavatt II, No. PCD-2004-25 at 6 n.6.
In his second application for post-conviction relief,
Pavatt alleged that he was denied the effective assistance
of trial, direct appeal, and post-conviction counsel. In
support, Pavatt alleged, in pertinent part, that “[t]rial
counsel objected to the admission of the video recording
of the hunting trip,”11 but “failed to object to the admission
of the other live photographs of Rob Andrew and of Rob
and Brenda Andrew together.” Second Application for
Post-Conviction Relief at 37-38. Pavatt further alleged
“that trial counsel allowed multiple witnesses, who were
friends and family of Rob Andrew, to testify to entirely
irrelevant matters that could only raise sympathy in the
minds of jurors.” Id. at 38. Pavatt in turn alleged that
“[d]irect appeal counsel and post-conviction counsel were
ineffective in failing to raise this part of trial counsel’s
deficiencies.” Id.

11. The hunting trip video was relevant to show that Rob
Andrew owned a 16-gauge shotgun and that Pavatt, who accompanied
Rob Andrew on the trip, was familiar with and had actually used that
particular shotgun. As the OCCA outlined in its description of the
underlying facts, Rob Andrew was shot and killed with a 16-gauge
shotgun, and the 16-gauge shotgun that Rob Andrew owned was
found missing from Brenda Andrew’s house after the murder.

53a
Appendix A
In its opinion denying Pavatt’s second application
for post- conv iction relief, the OCCA noted that,
under Oklahoma’s Post-Conviction Procedure Act,
its “consideration of successive applications for relief
[wa]s even more limited than the review afforded to initial
applications,” and that it could “not consider the merits
of any claim made in a subsequent application for postconviction relief, unless (1) the legal basis for that claim
was previously unavailable, or (2) the facts supporting
the claim were not previously ascertainable through the
exercise of reasonable diligence.” Pavatt III, No. PCD2009-777 at 2-3. Turning to Pavatt’s claims of ineffective
assistance of counsel, the OCCA noted that Pavatt
“concede[d] that none of these claims [we]re based on
newly-discovered evidence, or on any material change in
the law.” Id. at 7. As a result, the OCCA concluded it was
“barred by the provisions of [Oklahoma’s] Post-Conviction
Procedure Act from considering these arguments and
materials.” Id. (citing Okla. Stat. tit. 22, § 1089(D)(8)).
The federal district court in this case considered on the
merits only Pavatt’s claim that his appellate counsel was
ineffective for failing to challenge the admission of a premortem photograph of Rob Andrew (State’s Exhibit 219).
With respect to that claim, the district court concluded
that Pavatt had failed to demonstrate that the OCCA’s
decision was contrary to or an unreasonable application
of Strickland. ROA, Vol. 3 at 1125 (Dist. Ct. Docket No.
91 at 77). More specifically, the district court concluded
it was “clear that based on the case cited by the OCCA in
its denial of [Pavatt]’s claim, Marquez-Burrola, 157 P.3d
at 759-61, as well as other cases decided by the OCCA

54a
Appendix A
prior to [Pavatt]’s appeal, . . . that [Pavatt] would not have
prevailed on appeal had the claim been raised.” Id. As for
the remaining claims of ineffective assistance asserted by
Pavatt, the district court concluded that they were either
procedurally barred from federal habeas review, id. at
1146-47 (Dist. Ct. Docket No. 91 at 98-99) (addressing
Pavatt’s claim that his trial counsel was ineffective for
failing to object to the admission of live photographs of
Rob Andrew, other than State’s Exhibit 219), or were
inadequately presented by Pavatt in his habeas petition,
id. at 1152-53 (Dist. Ct. Docket No. 91 at 104-05).
In this appeal, Pavatt argues that we should review
his claims de novo for two reasons. First, he contends that
“[t]he OCCA did not clearly impose a procedural bar of
these claims, but instead stated the ‘current arguments
merely modify or expand the claims made, and rejected, in
prior proceedings.’” Aplt. Br. at 50 (quoting Pavatt III, No.
PCD-2009-777 at 4). As discussed above, however, and as
Pavatt ultimately concedes in a related footnote, the OCCA
quite clearly concluded that these claims were procedurally
barred under Oklahoma’s Post-Conviction Procedure Act.
Id. at 50-51 n.14. And, as we have previously discussed,
this procedural bar ruling is considered both independent
and adequate and thus serves to preclude federal habeas
review. See Johnson, 136 S. Ct. at 1803-04.
That leads to Pavatt’s second argument: “[e]ven if
this Court determines the OCCA imposed a procedural
bar, such a bar is not without exception,” and “[p]ostconviction counsel’s ineffectiveness in not fully challenging
the failures of prior counsel to object to the inadmissible

55a
Appendix A
sympathy evidence is the ‘cause’ that excuses any default.”
Id. at 50-51. In other words, Pavatt argues that the
ineffectiveness of his post-conviction counsel establishes
the “cause” for his failure to comply with Oklahoma’s
procedural requirements. Pavatt contends that his
position on this point is supported by Martinez v. Ryan,
566 U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012), and
Trevino v. Thaler, 569 U.S. 413, 133 S. Ct. 1911, 185 L.
Ed. 2d 1044 (2013).
In Martinez, the Supreme Court held that if
under state law, claims of ineffective assistance
of trial counsel must be raised in an initialreview collateral proceeding, a procedural
default will not bar a federal habeas court
from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.
566 U.S. at 17. In Trevino, the Supreme Court explained
that, in determining whether Martinez applies in a
particular case, four requirements must be met:
(1) the claim of “ineffective assistance of trial
counsel” was a “substantial” claim; (2) the
“cause” consisted of there being “no counsel”
or only “ineffective” counsel during the state
collateral review proceeding; (3) the state
collateral review proceedings was the “initial”
review proceeding in respect to the “ineffective-

56a
Appendix A
assistance-of-trial-counsel claim”; and (4) state
law requires that an “ineffective assistance of
trial counsel [claim] . . . be raised in an initialreview collateral proceeding.
569 U.S. at 423 (alterations and emphasis in original)
(quoting Martinez, 566 U.S. at 13-18). And the Court
in Trevino ultimately extended the rule in Martinez
to circumstances in which state law does not expressly
require claims of ineffective assistance of trial counsel
to be brought in collateral proceedings, but, by way of its
“structure and design . . . make[s] it virtually impossible
for an ineffective assistance claim to be presented on
direct review.” Id. at 417 (quotations omitted).
Pavatt argues that the rule outlined in Martinez and
Trevino should be applied in his case because (a) he was
represented at trial and on direct appeal by the same
attorney, (b) consequently, his initial application for state
post-conviction relief was his first real opportunity to
assert ineffective assistance of trial counsel claims, and
(c) his post-conviction counsel was ineffective for failing to
raise these claims of ineffective assistance of trial counsel
and appellate counsel.12
Martinez and Trevino are distinguishable from
Pavatt’s case, however, because in both of those cases,
the Supreme Court focused on whether the “structure
and design” of the state system at issue actually or
12. Attorney Michael Arnett represented Pavatt both at trial
and on direct appeal. On direct appeal, Pavatt was also represented
by another attorney, Gloyd McCoy.

57a
Appendix A
effectively prevented the petitioner from raising his or
her ineffective assistance claim for the first time until
state post-conviction proceedings. We are not persuaded
that the same holds true with respect to Oklahoma’s
system and Pavatt does not argue otherwise.13 Indeed,
Pavatt’s argument is based exclusively on his own unique
circumstances, i.e., the fact that he was represented at
trial and on appeal by the same attorney. Thus, Pavatt has
not established an exception to the procedural bar rule
that would otherwise apply to his ineffective assistance
of trial counsel claims.
Pavatt also, as previously noted, asserts in this appeal
that his appellate counsel was ineffective for failing to
raise these ineffective assistance of trial counsel claims
on direct appeal. The OCCA rejected these ineffective
assistance of appellate counsel claims as procedurally
barred under Oklahoma’s Post-Conviction Procedure Act.
Because the OCCA treated these claims as procedurally
barred, and because Martinez and Trevino do not apply
to ineffective assistance of appellate counsel claims, we
conclude that those claims are also barred from federal
habeas review.

13. Oklahoma law generally requires that a claim of ineffective
assistance of trial counsel be raised on direct appeal. See Cole,
755 F.3d at 1159. But we do not treat this procedural bar rule as
“adequate” if the petitioner was represented by the same counsel
at trial and on direct appeal. Id.

58a
Appendix A
c) Trial counsel’s failure to investigate and present
a compelling mitigation case
Pavatt also complains that his trial counsel failed to
investigate and present sufficient mitigating evidence
during the second-stage proceedings. Pavatt argues
that trial “[c]ounsel’s meager presentation of mitigation,
based on a last-minute and superficial investigation, was
an afterthought.” Aplt. Br. at 65. According to Pavatt,
his trial counsel, “believing [Pavatt] would be acquitted,
put his time and resources into the guilt/innocence stage
of trial” and “operated under the unreasonable belief
that residual doubt of Pavatt’s guilt would be enough to
persuade jurors to spare his life.” Id. Pavatt argues that
his “[t]rial counsel had no reasonable strategy to shun the
thorough investigation that would have uncovered Pavatt’s
significant psychological impairments and explained how
those impairments, and his unique background, caused
him to be easily influenced by Brenda Andrew.” Id. at
65-66.
Pavatt first raised this claim in his second application
for state post-conviction relief. The OCCA concluded that,
because the claim was not “based on newly-discovered
evidence . . . or on any material change in the law,” it was
“barred by the provisions of [Oklahoma’s] Post-Conviction
Procedure Act from considering” this claim. Pavatt III,
No. PCD-2009-777 at 7.
For the same reasons discussed above, we conclude
that the OCCA’s procedural bar ruling precludes federal
habeas review of this ineffective assistance of trial

59a
Appendix A
counsel claim, and that Pavatt has failed to satisfy the
requirements outlined in Martinez and Trevino in order
to establish an exception to this procedural bar rule.
d) Ineffective assistance of appellate counsel
Finally, Pavatt contends that his appellate counsel
was ineffective for failing to “raise the claims of trial
counsel’s ineffectiveness” outlined above. Aplt. Br. at 99.
This claim, like his ineffective assistance of trial counsel
claims, is procedurally barred due to Pavatt’s failure
to raise the claim in his original application for state
post-conviction relief. Further, this claim of ineffective
assistance of appellate counsel does not fall within the
Martinez/Trevino exception.
III
We VACATE the prior panel opinion, AFFIRM the
judgment of the district court, and DENY Pavatt’s request
for an additional COA.

60a
Appendix A
HARTZ, Circuit Judge, dissenting, joined by KELLY, J.
and LUCERO, J. Circuit Judges.
I respectfully dissent.
In Maynard v. Cartwright, 486 U.S. 356, 363, 108 S.
Ct. 1853, 100 L. Ed. 2d 372 (1988), the Supreme Court
held that Oklahoma’s statutory HAC aggravator was
too vague to satisfy the Eighth Amendment absent a
limiting construction from the state courts, because
under the statutory language there was “no principled
way to distinguish this case, in which the death penalty
was imposed, from the many cases in which it was not.”
In response, the Oklahoma Court of Criminal Appeals
(OCCA) construed the statutory aggravator to require
that one of several alternatives must be satisfied. One
of those alternatives was that the victim experienced
conscious physical suffering. See Cheney v. State, 1995 OK
CR 72, 909 P.2d 74, 80 (Okla. Crim. App. 1995) (“Absent
evidence of conscious physical suffering of the victim prior
to death, the required torture or serious physical abuse
standard is not met.”)
This court upheld the constitutionality of the
aggravator in Hatch v. Oklahoma, 58 F.3d 1447, 1468-69
(10th Cir. 1995). Early on, the OCCA sent some signals that
the necessary conscious physical suffering must be more
than merely the natural consequence of being murdered.
See Cudjo v. State, 1996 OK CR 43, 925 P.2d 895, 901-02
(Okla. Crim. App. 1996) (“[T]he manner of [the victim’s]
killing did not involve any acts of injury or cruelty beyond
the scope of the act of killing itself.”); Cheney, 909 P.2d at

61a
Appendix A
80 (“The torture must produce mental anguish in addition
to that which of necessity accompanies the underlying
killing.”); Booker v. State, 1993 OK CR 16, 851 P.2d 544,
548 (Okla. Crim. App. 1993) (“The record does not support
a finding of mental anguish beyond that which necessarily
accompanied the underlying killing.”). Since then, however,
several members of this court have expressed concern that
the aggravator is being interpreted by the OCCA too
broadly to satisfy the Eighth Amendment. See Romano
v. Gibson, 239 F.3d 1156, 1176 (10th Cir. 2001); Thomas v.
Gibson, 218 F.3d 1213, 1228 n.17 (10th Cir. 2000); Medlock
v. Ward, 200 F.3d 1314, 1324 (10th Cir. 2000) (Lucero,
J., concurring). I now agree that the Oklahoma HAC
aggravator, as presently construed by the OCCA, does
not satisfy the Eighth Amendment requirement that the
aggravator distinguish in a principled way those firstdegree murderers who deserve the death penalty from
the many who do not.
At oral argument before the en banc court, counsel for
the State acknowledged what is apparent from the OCCA
opinion in this case: a defendant “qualifies for the [HAC]
aggravator if the victim was conscious for some period of
time (a couple minutes) after receiving the fatal blow and
experienced some pain during that time.” Oral argument
at 39:20-38. In other words, the very act of committing
the murder makes one eligible for the death penalty
unless the victim was rendered unconscious immediately
upon receiving the fatal blow. In my view, no fairminded
jurist could think that this requirement distinguishes in
a principled manner those deserving the death penalty
from the many first-degree murderers who do not. To

62a
Appendix A
the extent that it is not merely fortuitous that the victim
remains conscious, this test provides what could be
described as a “sharpshooter bonus.” If the perpetrator
has the skill to render an immediately fatal blow, he or
she escapes the death penalty under this aggravator.
Such an arbitrary aggravator is not consistent with the
Supreme Court’s “narrowing jurisprudence, which seeks
to ensure that only the most deserving of execution are
put to death.” Atkins v. Virginia, 536 U.S. 304, 319, 122
S. Ct. 2242, 153 L. Ed. 2d 335 (2002).
The majority opinion does not address this issue. It
holds that Mr. Pavatt did not exhaust in state court his
Eighth Amendment challenge to the HAC aggravator
and therefore he is procedurally barred from raising it
here. I respectfully disagree. It is not clear to me that it
was not exhausted. But in any event, the State waived the
exhaustion defense.
The majority of the panel that heard this case
understood Mr. Pavatt’s briefs in this court as arguing
that the OCCA, in affirming his sentence, had construed
the HAC aggravator in a way that violated the Eighth
Amendment. As pointed out in the original panel opinion,
Pavatt v. Royal, 859 F.3d 920, 935 (10th Cir. 2017), Mr.
Pavatt’s original appellate briefs raised this issue in
three places. Page 21 of the opening brief said: “[T]he
evidence here—as related to the core element of conscious
suffering—is constitutionally insufficient.” The argument
on pages 35-36 was more developed:
The Eighth and Fourteenth Amendments
require that an aggravator serve a narrowing

63a
Appendix A
function rather than become a standardless
catch-all. Arave v. Creech, 507 U.S. 463, 474,
113 S. Ct. 1534, 123 L. Ed. 2d 188 (1993) and
Godfrey v. Georgia, 446 U.S. 420, 428-29, 100 S.
Ct. 1759, 64 L. Ed. 2d 398 (1980). Oklahoma has
veered off the course forced on it by Cartwright,
coming full circle and no longer limiting this
clearly vague aggravating circumstance in
a manner that minimizes “the risk of wholly
arbitrary and capricious action.” Maynard, 486
U.S. at 362-63.
And the reply brief at 5 challenged “whether there was
sufficient evidence to support a constitutional reading and
application of the [HAC] aggravator.” Yet, as noted in the
original panel opinion:
Although the State has argued procedural bar
with respect to several of Mr. Pavatt’s claims,
it did not argue in its appellate brief that the
sufficiency-of-the-evidence claim or any of its
components was procedurally barred, nor did
it argue procedural bar when questioned at
oral argument about the insufficient-narrowing
component of that claim.
859 F.3d at 936 n.4.
The failure of the State’s original appellate briefing
to raise exhaustion should not be surprising because in
federal district court the State had explicitly conceded
exhaustion. Its brief in response to the § 2254 application

64a
Appendix A
said that Mr. Pavatt’s Ground Ten had been “exhausted for
purposes of federal habeas review.” Resp. to Pet. for Writ
of Habeas Corpus, Pavatt v. Workman, No. Civ-08-470-R
(D. Okla. Jul. 31, 2009), ECF No. 69 at 128. The majority
opinion says that the State was conceding exhaustion of
only a Jackson challenge to the sufficiency of the evidence.
See En Banc. Op. at 30; Jackson v. Virginia, 443 U.S.
307, 324, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979). But the
State brief’s 10-page discussion of Ground Ten clearly
indicates otherwise. It included substantial references to
the Eighth Amendment constraints on aggravators. For
example, one paragraph begins: “To be constitutional,
an aggravating circumstance may not apply to every
defendant convicted of a murder; it must apply only to a
subclass of defendants convicted of murder. It must not
also be unconstitutionally vague.” Resp. to Pet. for Writ
of Habeas Corpus at 135. The paragraph ends: “Nothing
about the OCCA’s discussion of the legal or factual basis
for its conclusion here in any way suggests an overbroad
or an erroneous interpretation, let alone application, of
Oklahoma’s [HAC] aggravator.” Id. at 136. In discussing
the Eighth Amendment, the State’s brief included nary a
hint that its acknowledgment of exhaustion of Mr. Pavatt’s
Ground Ten did not encompass this component of the issue.
Further, even after the panel dissent argued that Mr.
Pavatt’s Eighth Amendment claim had not been exhausted,
the State was at best halfhearted in arguing in its original
petition for rehearing that it had not waived exhaustion.
It wrote: “It is debatable whether Respondent waived
an exhaustion defense by asserting in district court that
Petitioner’s sufficiency claim is exhausted.” Pet. for Panel

65a
Appendix A
Reh’g or Reh’g En Banc at 5 n.1. This sentence is followed
by a “compare” citation that notes one published opinion
in which we held that exhaustion was not waived and one
unpublished case in which we held that exhaustion was
waived. There is no real argument on the issue. Moreover,
the perfunctory statement is only in a footnote, which
under this court’s precedent is not adequate to preserve
an issue. See United States v. Hardman, 297 F.3d 1116,
1131 (10th Cir. 2002) (en banc) (“Arguments raised in a
perfunctory manner, such as in a footnote, are waived.”)
Perhaps the State thought that Mr. Pavatt had a good
argument for exhaustion. 1 But the State may also have
1. Mr. Pavatt clearly raised an Eighth Amendment claim in
his second application to the OCCA for postconviction relief. A fair
construction of that argument is that the OCCA decision in his
case demonstrated that the OCCA had expanded the meaning of
“conscious physical suffering” so broadly that the requirements of
Maynard were no longer satisfied. This strikes me as an appropriate
argument under the Eighth Amendment. To determine how a state
court construes an aggravating circumstance, we can examine
that court’s opinions. See Arave, 507 U.S. at 477. The opinions we
examine can include the opinion rendered in the very case before
us. If we could not consider that opinion in determining whether
the state courts have improperly expanded the meaning of the
state aggravator, then state courts would have one “freebie” that is
immune from Eighth Amendment review.
The OCCA rejected the claim in the second application on the
ground that it was waived because the “legal argument could have
been raised in prior proceedings, but was not.” Op. Den. Second
Appl. at 6. But the only authority cited in support was Okla. Stat.
tit. 22, § 1089(D)(8) (2019), which did not apply. That statutory
provision permits review of “claims and issues that have not been

66a
Appendix A
and could not have been presented previously in a timely original
application or in a previously considered application filed under
this section, because the legal basis for the claim was unavailable,
or . . . because the factual basis for the claim was unavailable as it
was not ascertainable through the exercise of reasonable diligence
on or before that date.” And Mr. Pavatt could not have argued in
his original postconviction application that the OCCA opinion in his
case construed the HAC aggravator in an unconstitutional manner,
because he filed the original application before the OCCA decided
his direct appeal.
At the en banc oral argument, counsel for the State asserted that
the issue was barred from consideration in the second postconviction
application because it could have been raised in a petition for
rehearing in the direct appeal. Counsel was apparently relying on
Okla. Stat. tit. 22, § 1089(C) (2019), which states that the only issues
that can be raised in an application for postconviction relief are those
that “[w]ere not and could not have been raised in a direct appeal.”
But it is not at all clear that a petition for rehearing would have
been a proper way to raise a claim that the OCCA opinion on appeal
adopted an unconstitutional interpretation of the HAC aggravator.
OCCA Rule 3.14 provides, in relevant part: “A petition for rehearing
shall not be filed, as a matter of course, but only for the following
reasons: (1) Some question decisive of the case and duly submitted by
the attorney of record has been overlooked by the Court, or (2) The
decision is in conflict with an express statute or controlling decision
to which the attention of this Court was not called either in the brief
or in oral argument.” Apparently, the OCCA has interpreted the
second alternative as limited to issues raised in the brief in chief
or at oral argument. See White v. State, 1995 OK CR 15, 900 P.2d
982, 995-96 (Okla. Crim. App. 1995) (petition for rehearing did not
satisfy the rule because “the decision upon which [defendant] relies
is not controlling of the issues presented in his brief-in-chief.”).
Thus, in Ellis v. State, 1997 OK CR 36, 941 P.2d 527, 530 (Okla.
Crim. App. 1997), the court said that the defendant “clearly could not
raise a new issue in a petition for rehearing.” In keeping with this

67a
Appendix A
interpretation of the rehearing rule, on at least two occasions the
OCCA on postconviction review has heard constitutional challenges
to the way that the OCCA had addressed issues on direct appeal, even
though the challenges had not been raised in petitions for rehearing.
See Cannon v. State, 1997 OK CR 13, 933 P.2d 926, 929 (Okla. Crim.
App. 1997) (The defendant argued that “his constitutional rights
were violated when this Court held that reversing his rape and
sodomy convictions did not require reversal or modification of his
murder conviction or death sentence.”); Nguyen v. State, 1992 OK
CR 81, 844 P.2d 176, 180-81 (Okla. Crim. App. 1992) (The defendant
argued that the OCCA violated his constitutional rights when it
upheld his death sentence even after determining that there was
insufficient evidence to support the HAC aggravator.) A member of
this court has also expressed this view of Oklahoma procedure. In
his dissent in Bear v. Boone, 173 F.3d 782, 783-84 (10th Cir. 1999),
Judge Ebel contended that the defendant could properly raise in a
postconviction application a claim that the OCCA on direct appeal
had unconstitutionally assumed the rule of a jury in modifying his
conviction to that of a lesser-included offense. He wrote: “[T]he first
opportunity [the defendant] had to raise his due process challenge
to the modification of his crime of conviction arose after the Court
of Criminal Appeals issued its opinion. Because I believe it would
have been inappropriate for [the defendant] to raise his due process
claim under the limited rehearing procedures set out in Oklahoma
Court of Criminal Appeals Rule 3.14, I believe [the defendant] can
now present his due process claim by way of an application for
postconviction relief in the Oklahoma courts.” Id. at 786. The panel
majority in Bear did not address the issue.
In short, the second application to the OCCA for postconviction
relief was the first occasion on which Mr. Pavatt could have raised
his claim that the decision by the OCCA on direct appeal established
that the court had adopted an unconstitutional construction of the
HAC aggravator. The OCCA’s procedural bar of the claim on the
ground that it “could have been raised in prior proceedings, but was
not,” Op. Den. Second Appl. at 6, appears to be unsupported by the

68a
Appendix A
had strategic reasons for waiving exhaustion. The HAC
aggravator is a commonplace in Oklahoma death-penalty
cases. If new challenges to the aggravator are going to be
made, it may be advantageous to deal with them sooner
rather than later. A successful challenge years down the
road could be extremely disruptive. If the State believes
that the defendant is even more unsympathetic than
usual and that the present composition of the courts is
favorable, it may welcome an early challenge even if there
is a respectable exhaustion argument. There is nothing
wrong with that approach. It would be wrong, however,
to waive exhaustion and then, after losing on the merits,
argue that it is so plain that the prisoner failed to exhaust
remedies that the State cannot possibly have meant what
it said when it conceded exhaustion.
I continue to believe that the State waived its
exhaustion argument, and I think there is a reasonable
arg ument that Mr. Pavatt exhausted his Eighth
Amendment claim in state court and was procedurally
barred on an inadequate state ground. I would therefore
relevant rule and statute as interpreted in state-court precedent.
For a state procedural bar to bind a federal court, it must rest on
“independent and adequate” state-law grounds. Walker v. Martin,
562 U.S. 307, 316, 131 S. Ct. 1120, 179 L. Ed. 2d 62 (2011). “To
qualify as an adequate procedural ground, a state rule must be
firmly established and regularly followed.” Id. (internal quotation
marks omitted); see Johnson v. Mississippi, 486 U.S. 578, 587-89,
108 S. Ct. 1981, 100 L. Ed. 2d 575 (1988). One may therefore question
the adequacy of the OCCA’s procedural bar of Mr. Pavatt’s Eighth
Amendment issue in the second application. Unfortunately, this issue
has not been developed in this court because exhaustion was raised
at such a late stage.

69a
Appendix A
address the merits of the Eighth Amendment issue and
hold that no reasonable jurist could say that the OCCA’s
interpretation of the HAC aggravator satisfies Eighth
Amendment standards set by the Supreme Court.

70a
Appendix b — Appendix
opinionBof the UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JUNE 9, 2017,
AMENDED JULY 2, 2018
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-6117
JAMES DWIGHT PAVATT,
Petitioner-Appellant,
v.
TERRY ROYAL, Warden, Oklahoma
State Penitentiary,
Respondent-Appellee.
June 9, 2017, Filed
July 2, 2018, Amended
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF
OKLAHOMA (D.C. No. 5:08-CV-00470-R)
Before KELLY, BRISCOE and HARTZ, Circuit Judges.
HARTZ, Circuit Judge.
James Pavatt was convicted by an Oklahoma jury
of first-degree murder and conspiracy to commit firstdegree murder. He was sentenced in accordance with

71a
Appendix B
the jury’s recommendations to death on the first-degreemurder conviction and ten years’ imprisonment on the
conspiracy conviction. After exhausting his state-court
remedies, he filed an application for relief under 28 U.S.C.
§ 2254. The district court denied the application, and also
denied a certificate of appealability (COA). See 28 U.S.C.
§ 2253(c)(1) (requiring COA to appeal denial of relief under
§ 2254). Mr. Pavatt sought from this court and was granted
a COA on several issues. Exercising jurisdiction under 28
U.S.C. § 1291, we affirm the district court’s denial of relief
with respect to his conviction, but we reverse the denial
of relief with respect to his sentence and remand to the
district court for further proceedings.
I. 	FACTUAL BACKGROUND
The Oklahoma Court of Criminal Appeals (OCCA)
summarized the crime:
[Pavatt] and his co-defendant, Brenda Andrew,
were each charged with conspiracy and firstdegree capital murder following the shooting
death of Brenda’s husband, Robert (“Rob”)
Andrew, at the Andrews’ Oklahoma City home
on November 20, 2001. [Pavatt] met the Andrews
while attending the same church, and [Pavatt]
and Brenda taught a Sunday school class
together. [Pavatt] socialized with the Andrews
and their two young children in mid—2001, but
eventually began having a sexual relationship
with Brenda. Around the same time, [Pavatt],
a life insurance agent, assisted Rob Andrew

72a
Appendix B
in setting up a life insurance policy worth
approximately $800,000. [Pavatt] divorced his
wife in the summer of 2001. In late September,
Rob Andrew moved out of the family home, and
Brenda Andrew initiated divorce proceedings
a short time later.
Janna Larson, [Pavatt’s] adult daughter,
testified that in late October 2001, [Pavatt]
told her that Brenda had asked him to murder
Rob Andrew. On the night of October 25-26,
2001, someone severed the brake lines on
Rob Andrew’s automobile. The next morning,
[Pavatt] and Brenda Andrew concocted a false
“emergency,” apparently in hopes that Rob
would have a traffic accident in the process.
[Pavatt] persuaded his daughter to call Rob
Andrew from an untraceable phone and claim
that Brenda was at a hospital in Norman,
Oklahoma, and needed him immediately. An
unknown male also called Rob that morning
and made the same plea. Rob Andrew’s cell
phone records showed that one call came
from a pay phone in Norman (near Larson’s
workplace), and the other from a pay phone
in south Oklahoma City. The plan failed; Rob
Andrew discovered the tampering to his car
before placing himself in any danger. He then
notified the police.
One contentious issue in the Andrews’ divorce
was control over the insurance policy on Rob

73a
Appendix B
Andrew’s life. After his brake lines were
severed, Rob Andrew inquired about removing
Brenda as beneficiary of his life insurance
policy. However, [Pavatt], who had set up the
policy, learned of Rob’s intentions and told
Rob (falsely) that he had no control over the
policy because Brenda was the owner. Rob
Andrew spoke with [Pavatt’s] supervisor, who
assured him that he was still the record owner
of the policy. Rob Andrew then related his
suspicions about [Pavatt] and Brenda to the
supervisor. When [Pavatt] learned of this, he
became very angry and threatened to harm
Rob for putting his job in jeopardy. At trial, the
State presented evidence that in the months
preceding the murder, [Pavatt] and Brenda
actually attempted to transfer ownership of
the insurance policy to Brenda without Rob
Andrew’s knowledge, by forging his signature
to a change-of-ownership form and backdating
it to March 2001.
On the evening of November 20, 2001, Rob
Andrew drove to the family home to pick up
his children for a scheduled visitation over
the Thanksgiving holiday. He spoke with a
friend on his cell phone as he waited in his
car for Brenda to open the garage door. When
she did, Rob ended the call and went inside to
get his children. A short time later, neighbors
heard gunshots. Brenda Andrew called 911
and reported that her husband had been shot.

74a
Appendix B
Emergency personnel arrived and found Rob
Andrew’s body on the floor of the garage; he
had suffered extensive blood loss and they
were unable to revive him. Brenda Andrew
had also suffered a superficial gunshot wound
to her arm. The Andrew children were not,
in fact, packed and ready to leave when Rob
Andrew arrived1; they were found in a bedroom,
watching television with the volume turned up
very high, oblivious to what had happened in
the garage.
Brenda was taken to a local hospital for
treatment. Her behavior was described by
several witnesses, experienced in dealing
w ith people in traumatic situations, as
uncharacteristically calm for a woman whose
husband had just been gunned down. One
witness saw Brenda chatting giddily with
[Pavatt] at the hospital later that night.
Rob Andrew was shot twice with a shotgun. A
spent shotgun shell found in the garage fit a
16—gauge shotgun, which is a rather unusual
gauge. Andrew owned a 16—gauge shotgun,
but had told several friends that Brenda refused
to let him take it from the home when they
1. In its opinion reviewing the conviction of Brenda Andrews,
the OCCA corrected this statement. There was not evidence that
the bags were not packed. See Order Denying Appellant’s Motion
for Rehearing, But Ordering That The Opinion Be Corrected
(Okla. Crim. App. Sept. 11, 2017, at 3).

75a
Appendix B
separated. Rob Andrew’s shotgun was missing
from the home when police searched it. One
witness testified to seeing Brenda Andrew
engaging in target practice at her family’s rural
Garfield County home about a week before the
murder. Several 16—gauge shotgun shells were
found at the site.
Brenda told police that her husband was
attacked in the garage by two armed, masked
men, dressed in black, but gave few other
details. Brenda’s superficial wound was caused
by a .22—caliber bullet, apparently fired at
close range, which was inconsistent with her
claim that she was shot at some distance as
she ran from the garage into the house. About
a week before the murder, [Pavatt] purchased
a .22—caliber handgun from a local gun shop.
On the day of the murder, [Pavatt] borrowed
his daughter’s car and claimed he was going to
have it serviced for her. When he returned it the
morning after the murder, the car had not been
serviced, but his daughter found a .22—caliber
bullet on the floorboard. In a conversation later
that day, [Pavatt] told Larson never to repeat
that Brenda had asked him to kill Rob Andrew,
and he threatened to kill Larson if she did. He
also told her to throw away the bullet she had
found in her car.
Police also searched the home of Dean Gigstad,
the Andrews’ next-door neighbor. There they

76a
Appendix B
found evidence that someone had entered the
Gigstads’ attic through an opening in a bedroom
closet. A spent 16—gauge shotgun shell was
found on the bedroom floor, and several .22—
caliber bullets were found in the attic itself.
There were no signs of forced entry into the
Gigstads’ home. Gigstad and his wife were
out of town when the murder took place, but
Brenda Andrew had a key to their home. The
.22—caliber bullet found in Janna Larson’s
car was of the same brand as the three .22—
caliber bullets found in the Gigstads’ attic;
the .22—caliber bullet fired at Brenda and
retrieved from the Andrews’ garage appeared
consistent with them in several respects. These
bullets were capable of being fired from the
firearm that [Pavatt] purchased a few weeks
before the murder; further testing was not
possible because that gun was never found.
The shotgun shell found in the Gigstads’ home
was of the same brand and odd gauge as the
16—gauge shell found in the Andrews’ garage.
Ballistics comparison showed similar markings,
indicating that they could have been fired from
the same weapon. Whether these shells were
fired from the 16—gauge shotgun Rob Andrew
had left at the home was impossible to confirm
because, as noted, that gun also turned up
missing.
In the days following the murder, [Pavatt]
registered his daughter as a signatory on his

77a
Appendix B
checking account, and asked her to move his
belongings out of his apartment. He obtained
information over the Internet about Argentina,
because he had heard that country had no
extradition agreement with the United States.
Larson also testified that after the murder,
Brenda and [Pavatt] asked her to help them
create a document, with the forged signature
of Rob Andrew, granting permission for the
Andrew children to travel with Brenda out of
the country.
Brenda also asked Larson to transfer funds
from her bank account to Larson’s own account,
so that Larson could wire them money after
they left town. Brenda Andrew did not attend
her husband’s funeral. Instead, she and [Pavatt]
drove to Mexico, and took the Andrew children
with them. [Pavatt] called his daughter several
times from Mexico and asked her to send
them money. Larson cooperated with the FBI
and local authorities in trying to track down
[Pavatt] and Brenda. In late February 2002,
having run out of money, [Pavatt] and Brenda
Andrew re-entered the United States at the
Mexican border. They were promptly placed
under arrest.
Pavatt v. State (Pavatt I), 2007 OK CR 19, 159 P.3d 272,
276-78 (Okla. Crim. App. 2007) (paragraph numbers and
footnotes omitted).

78a
Appendix B
On November 29, 2001, nine days after the murder,
an information was filed in state court charging Mr.
Pavatt and Brenda Andrew with first-degree murder.
An amended information was filed on July 19, 2002,
charging them with one count of first-degree murder
and one count of conspiracy to commit firstdegree
murder. The prosecution also filed a bill of particulars
alleging three aggravating circumstances for Mr. Pavatt:
(1) that he committed the murder for remuneration or
the promise of remuneration or employed another to
commit the murder for remuneration or the promise of
remuneration (the remuneration aggravator); (2) that the
murder was especially heinous, atrocious, or cruel (the
HAC aggravator); and (3) that he constituted a continuing
threat to society.
Mr. Pavatt was tried separately from Ms. Andrew
(who was also convicted on both counts and sentenced
to death). His trial, which began on August 25, 2003,
included a guilt phase followed by a sentencing phase.
The jury found him guilty on both counts and found
the remuneration and HAC aggravators. It also found
that these aggravating circumstances outweighed the
mitigating circumstances, and it recommended that Mr.
Pavatt be sentenced to death on the first-degree-murder
conviction.
Mr. Pavatt f iled a direct appeal asserting 18
propositions of error. On May 8, 2007, the OCCA rejected
Mr. Pavatt’s arguments and affirmed his convictions and
sentences. See Pavatt I, 159 P.3d at 297. Mr. Pavatt’s
petition for rehearing was denied by the OCCA on June 26,

79a
Appendix B
and the United States Supreme Court denied his petition
for a writ of certiorari on February 19, 2008. See Pavatt
v. Oklahoma, 552 U.S. 1181, 128 S. Ct. 1229, 170 L. Ed.
2d 62 (2008).
On April 17, 2006, while his direct appeal was
pending, Mr. Pavatt filed with the OCCA an application
for postconviction relief asserting three propositions of
error (one of which, ineffective assistance of appellate and
trial counsel, included 23 subpropositions). On April 11,
2008, the OCCA issued an unpublished opinion denying
the application. See Pavatt v. State (Pavatt II), No. PCD2004-25 (Okla. Crim. App. Apr. 11, 2008).
Mr. Pavatt initiated his § 2254 proceedings on May
5, 2008, by filing a motion for appointment of counsel,
which the district court granted. On April 1, 2009, his
counsel filed a § 2254 application asserting 15 grounds for
relief. The application conceded that some of the claims
were “newly developed” and “m[ight] require further
exhaustion.” R. Vol. 3 at 335. For that reason, Mr. Pavatt
requested that his application “be held in abeyance so
that he [could] return to state court to accomplish any
necessary exhaustion.” Id. But the district court declined
to stay the case or otherwise hold it in abeyance. Briefing
in the case was completed on October 14, 2009, when Mr.
Pavatt filed a reply brief in support of his application.
Meanwhile, on September 2, 2009, Mr. Pavatt filed
with the OCCA a second application for postconviction
relief asserting six propositions of error. On February 2,
2010, the OCCA issued an unpublished opinion denying

80a
Appendix B
the application. See Pavatt v. State (Pavatt III), No. PCD2009-777 (Okla. Crim. App. Feb. 2, 2010).
On May 1, 2014, the federal district court issued an
order denying Mr. Pavatt’s § 2254 application, entered
final judgment in the case, and issued an order denying a
COA with respect to all issues raised in the application.
Mr. Pavatt filed a notice of appeal on June 2, 2014. In
a case-management order issued on November 24, 2014,
we granted Mr. Pavatt a COA on the following issues:
A. [1] Whether there was sufficient evidence
to support the “especially heinous, atrocious,
or cruel” aggravator . . . and [2] whether the
trial court’s failure to provide an adequate
instruction to the jury that it must find
“conscious physical suffering” beyond a
reasonable doubt before finding that the murder
was “especially heinous, atrocious, or cruel”
violated Mr. Pavatt’s constitutional rights to a
fair trial, a reliable sentencing determination,
and due process . . .
B. W hether there was const itut iona l ly
ineffective assistance of trial counsel regarding
the investigation of mitigating evidence or
the presentation of a meaningful case for life
imprisonment . . . [,] and whether appellate
counsel was constitutionally ineffective in
failing to raise a claim that trial counsel was
ineffective in these regards; and

81a
Appendix B
C. W hether tr ial counsel provided
constitutionally ineffective assistance of counsel
regarding the introduction of a camping video,
live photographs of the victim, or testimony
regarding the victim’s good traits . . . and
whether appellate counsel was constitutionally
ineffective in failing to raise a claim that trial
counsel was ineffective in these regards.
(Case Management Order, Nov. 24, 2014). Because we
reverse on issue A[1], we need not address issues A[2] and
B. We affirm on issue C.
II. STANDARD OF REVIEW
In a challenge to a state-court conviction under
§ 2254, “the appropriate standard of review depends
upon whether a claim was decided on the merits in state
court.” Stouffer v. Trammell, 738 F.3d 1205, 1213 (10th
Cir. 2013) (citation omitted). When, as here, the claims we
must resolve on the merits were addressed on the merits,
our standard of review is governed by 28 U.S.C. § 2254(d),
which provides:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—

82a
Appendix B
(1) r e su lt ed i n a dec i sion t hat
was contrar y to, or involved an
unreasonable application of, clearly
established Federal law, as determined
by the Supreme Court of the United
States; or
(2) re su lt ed i n a dec i sion t hat
wa s ba sed on a n u n rea sonable
determination of the facts in light of
the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d).
“[A] state-court decision is contrary to [Supreme
Court] precedent if the state court arrives at a conclusion
opposite to that reached by [the Supreme Court] on a
question of law,” or “if the state court confronts facts that
are materially indistinguishable from a relevant Supreme
Court precedent and arrives at a result opposite to the
[Supreme Court’s].” Williams v. Taylor, 529 U.S. 362,
405, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000). “On the
other hand, a run-of-the-mill state-court decision applying
the correct legal rule from [Supreme Court] cases to the
facts of a prisoner’s case would not fit comfortably within
§ 2254(d)(1)’s ‘contrary to’ clause.” Id. at 406.
As for the “unreasonable application” clause of
§ 2254(d)(1), the Supreme Court has said, “A state-court
decision that correctly identifies the governing legal rule
but applies it unreasonably to the facts of a particular

83a
Appendix B
prisoner’s case certainly would qualify as a decision
involving an unreasonable application of clearly established
Federal law.” Id. at 407-08 (brackets and ellipsis omitted)
(internal quotation marks omitted). “[A] federal habeas
court making the ‘unreasonable application’ inquiry
should ask whether the state court’s application of clearly
established federal law was objectively unreasonable.”
Id. at 409. Notably, “an unreasonable application of
federal law is different from an incorrect application of
federal law.” Id. at 410. Thus, “a federal habeas court may
not issue the writ simply because that court concludes
in its independent judgment that the relevant statecourt decision applied clearly established federal law
erroneously or incorrectly.” Id. at 411.
III.	PAVATT’S CHALLENGES TO VERDICT OF
GUILTY
Mr. Pavatt’s sole challenge to his conviction is that
his trial counsel was ineffective in failing to object to
the admission of three categories of evidence allegedly
designed to evoke sympathy for the victim, Rob Andrew:
(1) a videotape showing Mr. Pavatt and Mr. Andrew on a
hunting trip, (2) “glowing accounts” of Mr. Andrew from
his friends and family, and (3) four photographs of him
taken before his death. Aplt. Br. at 49. The first two claims
are procedurally barred, and the third lacks merit.
The claim of inadequate assistance with respect to
the first two categories of evidence was not adequately
raised in federal district court. The only challenge at all
related to category 1 in Mr. Pavatt’s amended petition

84a
Appendix B
under § 2254 was headed: “Counsel Failed to Object to the
Admission of Live Photographs of Rob Andrew.” App., Vol.
3 at 317. But that section of the 216-page petition (which
served as the brief in support) does not claim ineffective
assistance with respect to the video. Indeed, it begins with
the sentence, “Trial counsel objected to the admission of
the video recording of the hunting trip.” Id. In this court
Mr. Pavatt argues that the trial objection to the video was
inadequate; but that claim was not made below.
A s for categor y 2, one sentence in the “Live
Photographs” section of the petition states, “A review
of his conduct further reveals that trial counsel allowed
multiple witnesses, who were friends and family of Rob
Andrew, to testify to entirely irrelevant matters that could
only raise sympathy in the minds of jurors. See Grounds
2, 7, infra.” Id. at 318. 2 But this one sentence, which is not
developed further, and which is buried in a section whose
heading does not encompass the point, does not adequately
preserve this ineffectiveness issue. The district court, not
perceiving it as an issue, did not address it in the 112-page
opinion denying relief.
Thus, the only ineffectiveness claim relating to the
guilt phase of the trial that was preserved in federal
2. Ground 2 of the petition is a Confrontation Clause challenge
to alleged hearsay introduced at trial; the word sympathy does
not appear in the petition’s discussion of that ground. Ground
7 addresses alleged prosecutorial misconduct. The petition
contains a section under that ground entitled “First Stage Victim
Sympathy,” but it does not say anything about what, if any,
sympathy evidence was objected to by trial counsel. Id. at 224.

85a
Appendix B
district court is that trial counsel did not adequately object
to the admission of the photographs (and that appellate
counsel did not raise on appeal this deficiency of trial
counsel). Mr. Pavatt has not argued that admission of
this evidence during the guilt phase violated any federal
constitutional right. The alleged ineffectiveness was only
counsel’s failure to argue that the evidence should have
been excluded under Oklahoma law. This ineffectiveness
challenge clearly fails with respect to one of the pictures
(State’s Exhibit 219). In his first state postconviction
petition, Mr. Pavatt argued that his trial and appellate
counsel should have objected to the admission of the
exhibit. But the OCCA rejected the argument, holding
that the claim was barred by res judicata and noting that
it had sustained the admissibility of a similar photograph
in a prior case. See Pavatt II, No. PCD-2004-25 at 6 n.6.
A claim of ineffective assistance of counsel for failure to
object to evidence cannot be sustained if the objection was
doomed to fail. See Williams v. Trammell, 782 F.3d 1184,
1198 (10th Cir. 2015).
That leaves only a challenge to the failure to object to
three other photographs taken of Mr. Andrew during his
life. But even if competent counsel should have objected
to the evidence, Mr. Pavatt’s ineffectiveness claim fails
for lack of prejudice. To prevail on such a claim, he must
show that “there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the [guilt
phase] would have been different.” Id. at 1197-98 (internal
quotation marks omitted). We are at a total loss to see
how, in light of the compelling evidence of guilt, the three
photographs could have been a significant factor in the

86a
Appendix B
verdict; and Mr. Pavatt offers no argument in support. We
therefore reject this portion of the claim on the merits.
IV. “HEINOUS, ATROCIOUS, OR CRUEL” (HAC)
AGGRAVATOR
At the conclusion of the second-stage proceedings the
jury found the murder to be “especially heinous, atrocious,
or cruel.” 3 The jury instruction on the HAC aggravating
circumstance defined the terms as follows:
As used in these instructions, the term “heinous”
means extremely wicked or shockingly evil;
“atrocious” means outrageously wicked and
vile; “cruel” means pitiless, or designed to inflict
a high degree of pain, utter indifference to, or
enjoyment of, the sufferings of others.
The phrase “especially heinous, atrocious, or
cruel” is directed to those crimes where the
death of the victim was preceded by torture of
the victim or serious physical abuse.
R. Vol. 1 at 188. According to Mr. Pavatt, the evidence
presented at his trial was “constitutionally insufficient”
to establish the HAC aggravator, Aplt. Br. at 21, and the
OCCA’s determination to the contrary was “contrary to
or an unreasonable application of Supreme Court law,”
id. at 36.
3. The jury also found the remuneration aggravator. The
parties have not presented arguments on what effect that has on
the disposition of this case. We leave the matter to the district
court on remand.

87a
Appendix B
“To assess the sufficiency of the evidence, we first
determine the elements of the offense and then examine
whether the evidence suffices to establish each element.”
Anderson-Bey v. Zavaras, 641 F.3d 445, 448 (10th Cir.
2011). Due process requires that the evidence presented at
trial, viewed in the light most favorable to the prosecution,
be sufficient to allow a “rational trier of fact [to] have
found the essential elements of the crime beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307,
319, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979). In a capital
case the aggravating factors necessary for imposition of
the death penalty “operate as the functional equivalent
of an element of a greater offense.” Ring v. Arizona, 536
U.S. 584, 609, 122 S. Ct. 2428, 153 L. Ed. 2d 556 (2002)
(internal quotation marks omitted).
The elements of a state offense are ordinarily purely a
matter of state law. In reviewing a state conviction under
§ 2254, we do not second guess whether the state courts
have correctly interpreted their law. See Estelle v.
McGuire, 502 U.S. 62, 67-68, 112 S. Ct. 475, 116 L. Ed.
2d 385 (1991) (“[I]t is not the province of a federal habeas
court to reexamine state-court determinations on statelaw questions.”). But States do not have a totally free hand
in deciding how to define their aggravating circumstances
for capital cases. The United States Constitution sets
some limits. Since the Supreme Court held in Furman
v. Georgia, 408 U.S. 238, 92 S. Ct. 2726, 33 L. Ed. 2d 346
(1972), that then-current capital-sentencing procedures
were unconstitutional, the underlying principle guiding
Supreme Court doctrine has been that “the Eighth and
Fourteenth Amendments cannot tolerate the infliction

88a
Appendix B
of a sentence of death under legal systems that permit
this unique penalty to be . . . wantonly and . . . freakishly
imposed.” Lewis v. Jeffers, 497 U.S. 764, 774, 110 S.
Ct. 3092, 111 L. Ed. 2d 606 (1990) (brackets, ellipsis,
and internal quotation marks omitted). To prevent that
intolerable result, discretion in imposing the death penalty
“must be suitably directed and limited so as to minimize
the risk of wholly arbitrary and capricious action.” Id.
(internal quotation marks omitted). The State must
“channel the sentencer’s discretion by clear and objective
standards that provide specific and detailed guidance, and
that make rationally reviewable the process for imposing a
sentence of death.” Id. (internal quotation marks omitted).
Thus, a defendant challenging the sufficiency of the
evidence to support a capital aggravator may, as Mr.
Pavatt does here, raise both a Jackson challenge to the
sufficiency of the evidence to establish the aggravator as
defined by state law and an Eighth Amendment challenge
to the constitutionality of the aggravator as so defined.
Our focus is on the Eighth Amendment challenge. This
requires a thorough review of Supreme Court precedent
regarding how federal courts are required to examine
a State’s aggravating circumstances to see if they pass
muster.
We start with Gregg v. Georgia, 428 U.S. 153, 96 S.
Ct. 2909, 49 L. Ed. 2d 859 (1976), where the Supreme
Court considered Georgia’s outrageously-or-wantonlyvile aggravator, which included any murder that was
“‘outrageously or wantonly vile, horrible or inhuman in that
it involved torture, depravity of mind, or an aggravated

89a
Appendix B
battery to the victim,’” id. at 210 (White, J., concurring)
(quoting Georgia statute). The prevailing plurality stated
that it was “arguable that any murder involves depravity
of mind or an aggravated battery.” Id. at 201 (joint opinion
of Justices Stewart, Powell, and Stevens). But, in the view
of those Justices, the aggravator’s “language need not
be construed in this way,” and they would not invalidate
the aggravator because “there [was] no reason to assume
that the Supreme Court of Georgia [would] adopt such an
open-ended construction.” Id.; see Lewis, 497 U.S. at 775
(construing this as the holding in Gregg).
Later, however, in Godfrey v. Georgia, 446 U.S. 420,
100 S. Ct. 1759, 64 L. Ed. 2d 398 (1980), the Court took
another look at the State’s application of the aggravator.
The prevailing plurality (two other Justices would have
set aside the death sentence on broader grounds) framed
the issue before the court as “whether, in affirming the
imposition of the sentences of death in the present case,
the Georgia Supreme Court has adopted such a broad
and vague construction of the [pertinent] aggravating
circumstance as to violate the Eighth and Fourteenth
Amendments to the United States Constitution.” Id. at
423. Godfrey murdered his wife and mother-in-law after
his wife, who had moved in with her mother, had ended a
telephone conversation by telling him that reconciliation
would be impossible. The Court described the facts of the
murder as follows:
At this juncture, the petitioner got out his
shotgun and walked with it down the hill from
his home to the trailer where his mother-in-law

90a
Appendix B
lived. Peering through a window, he observed
his wife, his mother-in-law, and his 11-yearold daughter playing a card game. He pointed
the shotgun at his wife through the window
and pulled the trigger. The charge from the
gun struck his wife in the forehead and killed
her instantly. He proceeded into the trailer,
striking and injuring his fleeing daughter with
the barrel of the gun. He then fired the gun at
his mother-in-law, striking her in the head and
killing her instantly.
Id. at 425.4 The Georgia Supreme Court rejected Godfrey’s
challenge to the aggravator as unconstitutionally vague,
noting its prior rejection of such challenges and stating
that the evidence supported the jury’s finding of the
aggravating circumstances. See id. at 427.
The United States Supreme Court reversed. Although
it acknowledged that in prior cases the Georgia Supreme
4. Justice White’s dissent also described Godfrey’s murder of
his mother-in-law: “[After Godfrey killed his wife with a shotgun
blast that left a hole in her head the size of a silver dollar,] he took
out time not only to strike his daughter on the head, but also to
reload his single-shot shotgun and to enter the house. Only then
did he get around to shooting his mother-in-law, . . . whose last
several moments as a sentient being must have been as terrifying
as the human mind can imagine.” 446 U.S. at 449 (White, J.,
dissenting). He continued, “[W]ho among us can honestly say
that [the mother-in-law] did not feel ‘torture’ in her last sentient
moments. . . . What terror must have run through her veins as she
first witnessed her daughter’s hideous demise and then came to
terms with the imminence of her own.” Id. at 449-50.

91a
Appendix B
Court had applied constitutionally valid narrowing
constructions of the aggravator, it said that there was no
evidence that the Georgia court had applied a narrowing
construction in that case. See id. at 429-32; Lewis, 497
U.S. at 775 (paraphrasing Godfrey). In particular, the
state court had upheld the death sentence even though,
in contrast to prior cases in which the sentence had been
upheld, there was no claim of torture and no evidence
that the defendant had “committed an aggravated battery
upon [either victim] or, in fact, caused either of them to
suffer any physical injury preceding their deaths.” 446
U.S. at 432. The prevailing plurality said that there was
“no principled way to distinguish this case, in which the
death penalty was imposed, from the many cases in which
it was not.” 446 U.S. at 433; see also id. at 428-29 (“a person
of ordinary sensibility could fairly characterize almost
every murder as ‘outrageously or wantonly vile, horrible
and inhuman.’”)
The Supreme Court’s standard was succinctly stated
in Zant v. Stephens, 462 U.S. 862, 877, 103 S. Ct. 2733,
77 L. Ed. 2d 235 (1983): “[A]n aggravating circumstance
must genuinely narrow the class of persons eligible for the
death penalty and must reasonably justify the imposition
of a more severe sentence on the defendant compared to
others found guilty of murder”; see also Lewis, 497 U.S.
at 776 (“aggravating circumstances must be construed
to permit the sentencer to make a principled distinction
between those who deserve the death penalty and those
who do not”). The Court held that the two aggravating
circumstances in that case (the defendant had escaped
from lawful confinement and had a prior conviction for

92a
Appendix B
a capital felony) “adequately differentiate this case in an
objective, evenhanded, and substantively rational way
from the many Georgia murder cases in which the death
penalty may not be imposed.” 462 U.S. at 879.
Of particular significance to this appeal is Maynard
v. Cartwright, 486 U.S. 356, 359, 108 S. Ct. 1853, 100 L.
Ed. 2d 372 (1988), affirming Cartwright v. Maynard, 822
F.2d 1477 (10th Cir. 1987) (en banc), which considered
Oklahoma’s HAC aggravator. The operative language of
the aggravator was the same as for this case—”especially
heinous, atrocious, or cruel.” And the jury had been
instructed that “‘the term “heinous” means extremely
wicked or shockingly evil; “atrocious” means outrageously
wicked and vile; “cruel” means pitiless, or designed to
inflict a high degree of pain, utter indifference to, or
enjoyment of, the sufferings of others.’” Cartwright, 822
F.2d at 1488. The Supreme Court said that in applying
the aggravator, the OCCA “simply had reviewed all the
circumstances of the murder and decided whether the
facts made out the aggravating circumstance.” 486 U.S.
at 360. It held that the OCCA’s approach did not satisfy
the Eighth Amendment (1) because the statutory language
“fail[ed] adequately to inform juries what they must find
to impose the death penalty and as a result [left] them and
appellate courts with the kind of open-ended discretion
which [had been] held invalid in [Furman],” 486 U.S. at
361-62, and (2) because the OCCA had not construed
the HAC aggravator in a manner sufficient “to cure
the unfettered discretion of the jury and to satisfy the
commands of the Eighth Amendment,” id. at 364. “Court
precedents,” it said, “have insisted that the channeling

93a
Appendix B
and limiting of the sentencer’s discretion in imposing
the death sentence is a fundamental constitutional
requirement for sufficiently minimizing the risk of wholly
arbitrary and capricious action.” Id. at 362. The Court
compared the language of the Oklahoma aggravator to
the “outrageously or wantonly vile, horrible and inhuman”
language considered in Godfrey, where the Court had
said: “There is nothing in these few words, standing alone,
that implies any inherent restraint on the arbitrary and
capricious infliction of the death sentence. A person of
ordinary sensibility could fairly characterize almost every
murder as ‘outrageously or wantonly vile, horrible and
inhuman.’” Id. at 363 (internal quotation marks omitted).
The vague language of the aggravator resulted in there
being “no principled way to distinguish this case, in which
the death penalty was imposed, from the many cases in
which it was not.” Id. (internal quotation marks omitted).
The Court further rejected “[t]he State’s contention that
the addition of the word ‘especially’ somehow guides the
jury’s discretion, even if the term ‘heinous’ does not.” Id. at
364. The contention was “untenable” because “[t]o say that
something is ‘especially heinous’ merely suggests that the
individual jurors should determine that the murder is more
than just ‘heinous,’ whatever that means, and an ordinary
person could honestly believe that every unjustified,
intentional taking of human life is ‘especially heinous.’”
Id. The Court indicated, however, that Oklahoma could
cure the problem by providing a limiting construction of
the statutory language. It mentioned that this court had
noted cases stating that imposing a requirement of torture
or serious physical abuse is adequate but the Court left
open the possibility that other limiting instructions could
also suffice. See id. at 364-65.

94a
Appendix B
In response to this court’s Cartwright opinion, the
OCCA narrowed its construction of the HAC aggravator.
It required that “the murder of the victim [be] preceded
by torture or serious physical abuse, which may include
the infliction of either great physical anguish or extreme
mental cruelty.” Cheney v. State, 1995 OK CR 72, 909 P.2d
74, 80 (Okla. Crim. App. 1995); see Medlock v. Ward, 200
F.3d 1314, 1324 (10th Cir. 2000) (Lucero, J., concurring)
(summarizing Oklahoma law). “Absent evidence of
conscious physical suffering of the victim prior to death,
the required torture or serious physical abuse standard is
not met.” Cheney, 909 P.2d at 80 (internal quotation marks
omitted). As for extreme mental cruelty, “torture creating
extreme mental distress must be the result of intentional
acts by the defendant” and “must produce mental anguish
in addition to that which of necessity accompanies the
underlying killing.” Id.
Consequently, the HAC aggravator “contemplates
a two-step analysis.” Nuckols v. State, 1991 OK CR 10,
805 P.2d 672, 674 (Okla. Crim. App. 1991). The first step
requires the jury to determine whether the “death of
the victim was preceded by torture or serious physical
abuse.” Id. (internal quotation marks omitted). “Once this
foundational assessment is made, . . . the jury may apply
the definitions given to them . . . to measure whether or
not the crime can be considered to have been heinous,
atrocious or cruel.” Id.
This two-step analysis is reflected in the uniform jury
instruction set forth in DeRosa v. State, 2004 OK CR 19,
89 P.3d 1124 (Okla. Crim. App. 2004), decided after Mr.
Pavatt’s trial. The instruction—to “be used in all future

95a
Appendix B
capital murder trials” in which the HAC aggravator is
alleged—states:
The State has alleged that the murder was
“especially heinous, atrocious, or cruel.” This
aggravating circumstance is not established
unless the State proves beyond a reasonable
doubt:
First, that the murder was preceded
by either torture of the victim or
serious physical abuse of the victim;
and
Second, that the facts and
circumstances of this case establish
that the murder was heinous, atrocious,
or cruel.
You are instructed that the term “torture”
means the infliction of either great physical
anguish or extreme mental cruelty. You are
further instructed that you cannot find that
“serious physical abuse” or “great physical
anguish” occurred unless you also find that
the victim experienced conscious physical
suffering prior to his/her death.
In addition, you are instructed that the
term “heinous” means extremely wicked or
shockingly evil; the term “atrocious” means
outrageously wicked and vile; and the term

96a
Appendix B
“cruel” means pitiless, designed to inflict a
high degree of pain, or utter indifference to or
enjoyment of the suffering of others.
Id. at 1156. “This instruction [did] not change any of the
legal requirements of the ‘heinous, atrocious, or cruel’
aggravating circumstance as it ha[d] existed up until
[that] time.” Id. Its purpose was “to more fully inform the
jury regarding the findings that must be made in order to
properly apply the aggravator and to ensure that a jury
determination is made regarding each of these findings.”
Id.
In short, the OCCA has confined the HAC aggravator,
in the absence of extreme mental cruelty, to murders in
which “the victim experiences conscious physical suffering”
before death. This court has responded favorably. We first
approved the Cheney narrowing construction in Hatch v.
State of Oklahoma, 58 F.3d 1447, 1468-69 (10th Cir. 1995).
In further holding that the trial judge properly applied the
enhancement, we quoted the following from the judge’s
remarks at the sentencing proceeding:
When the law talks of torturing people, that
doesn’t mean you have to put them on the rack
or twist their arms or something. I can’t think
of anymore [sic] torture than to tie a man and a
woman up, hog-tie them where they can’t move
and at the same time while they’re laying there
waiting to be shot, they listen to their twelveyear-old daughter crying and pleading not to
be raped by two grown men.

97a
Appendix B
Id. at 1469. We said that the judge “found the necessary
facts to indicate that the crime involved torture or physical
abuse.” Id.
We repeated our endorsement of the narrowing
construction in Medlock v. Ward, 200 F.3d 1314, 1321
(10th Cir. 2000), stating: “We have held that the ‘heinous,
atrocious, or cruel’ aggravating circumstance as narrowed
by the Oklahoma courts after Maynard to require torture
or serious physical abuse characterized by conscious
suffering can provide a principled narrowing of the class
of those eligible for death.” And we concluded that the
defendant in that case had “fail[ed] to demonstrate that
Oklahoma ha[d] applied its narrowing construction in an
unconstitutional manner.” Id. In support of that conclusion,
we set forth the following evidence:
[The defendant] repeatedly grabbed his victim
by the arm, wrestled with her, struck her in the
face, threw her onto his bed, and covered her
mouth when she began screaming. He choked
her until she temporarily passed out, then
dragged her to the toilet and stuck her head into
the bowl while she was conscious and gasping
for air, keeping her there for ten minutes until
she passed out again. When he noticed she was
still breathing and alive, he used a steak knife to
stab her in the back of the neck and, when that
knife bent, took a hunting knife and stabbed
her in the back of the neck again until she died.
Id. at 1322 (citations omitted); see also Duvall v. Reynolds,
139 F.3d 768, 792-94 (10th Cir. 1998) (after defendant

98a
Appendix B
stabbed the victim more than 25 times on her head, chest,
abdomen, and back, the victim asked for help, and he
responded, “Well . . . , it’s just too late for that,” before
proceeding to suffocate her with a pillow).
But our prior opinions are not an open-ended
endorsement of any possible interpretation or application
of the narrowing construction. On the contrary, in 2000,
although reversing a death penalty based on the HAC
aggravator for lack of evidence, we said that “we would be
remiss if we failed to note” that Oklahoma’s construction of
the HAC aggravator in that case “appears to raise serious
constitutional questions about whether [the] aggravator
legitimately narrows the class of those eligible for death.”
Thomas v. Gibson, 218 F.3d 1213, 1228 n.17 (10th Cir.
2000). The following year we expressed a more general
concern about Oklahoma’s construction of the aggravator.
We wrote:
Recent Oklahoma cases . . . have begun
to blur the common understanding of the
requisite torture and conscious serious physical
suffering, more and more often finding the
existence of [the HAC] elements in almost
every murder. . . . There is certainly a concern
that Oklahoma’s interpretation of its narrowing
language could again render this aggravating
factor unconstitutional. See Thomas, 218 F.3d
at 1228 & n. 17; see also Medlock, 200 F.3d at
1324 (Lucero, J., concurring) (noting that if
Oklahoma permitted capital sentencers to find
the [HAC] aggravator, based merely on the
brief period of conscious suffering necessarily

99a
Appendix B
present in virtually all murders it would
fail to narrow the sentencer’s discretion, as
constitutionally required [by] Godfrey).
Romano v. Gibson, 239 F.3d 1156, 1176 (10th Cir. 2001)
(original brackets and internal quotation marks omitted).
With this background, we turn to the case before us.
The State agrees that it had to prove that Mr. Andrew
experienced conscious physical suffering. But the
supporting evidence is slim. The State points to three
items of evidence. First, the testimony of the medical
examiner. All he said, however, was that it was possible
(he did not testify that it was probable) that Mr. Andrew
could have been conscious for a time after the shooting;
regarding pain, he said only that Mr. Andrew could
have experienced pain while dying. See Tr. at 2457-67.
Second, the conversation between Mrs. Andrew and the
911 operator. While reciting her fabricated account of the
murder, Mrs. Andrew, prompted by the operator, said that
Mr. Andrew was still breathing and trying to talk to her.
(She did not mention any sign of suffering or pain.) Finally,
Mr. Andrew’s body was found holding a plastic bag of cans,
which, in the OCCA’s view, “reasonably suggested that he
either tried to ward off his attacker or shield himself from
being shot.” Pavatt I, 159 P.3d at 294.
Perhaps a reasonable juror could have found this
to be sufficient evidence of conscious physical suffering
(although we note that the jury was never instructed that
it needed to make that finding). But this is not the sort of
suffering that could in a “principled way . . . distinguish

100a
Appendix B
this case, in which the death penalty was imposed,
from the many cases in which it was not.” Godfrey, 446
U.S. at 433. To repeat what Judge Lucero stated in his
concurrence in Medlock,
Under the Eighth Amendment, applying the
narrowing construction of the aggravating
circumstance in a manner that permitted
Oklahoma courts to find ‘torture or serious
physical abuse’ based merely on the brief period
of conscious suffering necessarily present in
virtually all murders would fail to narrow the
sentencer’s discretion as required by [Godfrey]
and [Maynard], leaving the sentencer “with the
kind of open-ended discretion which was held
invalid in [Furman].”
200 F.3d at 1324 (Lucero, J., concurring) (quoting
Maynard, 486 U.S. at 361- 62). Indeed, the OCCA
apparently recognized as much in one context, stating that
“[t]he torture must produce mental anguish in addition
to that which of necessity accompanies the underlying
killing.” Cheney, 909 P.2d at 80. For example, in Cudjo v.
State, 1996 OK CR 43, 925 P.2d 895, 901 (OCCA 1996), the
victim “did experience some conscious physical or mental
suffering prior to his death,” but the court nevertheless
held that “the evidence fails to demonstrate that his
murder was preceded by torture or serious physical
abuse.”
Thus, we have a case controlled by the Supreme
Court’s holding in Godfrey. The State has an aggravator

101a
Appendix B
that at one time it had been construing in a constitutionally
acceptable manner. But, as in Godfrey, that does not
immunize its decisions from review of whether it has
departed from that acceptable construction. Mr. Pavatt
has challenged “whether there was sufficient evidence to
support a constitutional reading and application of the
[HAC aggravator].” Reply Br. at 5; see Aplt. Br. at 21 (“the
evidence here—as related to the core element of conscious
suffering—is constitutionally insufficient”); id. at 35-36
(“The Eighth and Fourteenth Amendments require that
an aggravator serve a narrowing function rather than
become a standardless catch-all. Arave v. Creech, 507
U.S. 463, 474, 113 S. Ct. 1534, 123 L. Ed. 2d 188 (1993) and
Godfrey. . . . Oklahoma has veered off the course forced on
it by Cartwright, coming full circle and no longer limiting
this clearly vague aggravating circumstance in a manner
that minimizes ‘the risk of wholly arbitrary and capricious
action.’ Maynard, 486 U.S. at 362-63.”). We hold that this
Eighth Amendment challenge is meritorious. 5
5. The dissent appears to contend that the Eighth Amendment
component of Mr. Pavatt’s sufficiency-of-the-evidence claim is
procedurally barred because it was inadequately briefed in his
direct appeal to the OCCA. But we decline to sua sponte address
the issue of procedural bar. In district court the State said that
Mr. Pavatt’s Ground Ten had been “exhausted for purposes of
federal habeas review.” Response to Petition for Writ of Habeas
Corpus at 128. In its response to that ground the State included
substantial references to the Eighth Amendment constraints on
aggravators. And although the State’s brief on appeal argued
procedural bar with respect to several of Mr. Pavatt’s claims, it did
not argue in its appellate brief that the sufficiency-of-the-evidence
claim or any of its components was procedurally barred, nor did
it argue procedural bar when questioned at oral argument about

102a
Appendix B
Maynard and other Supreme Court precedents have
held that the Oklahoma HAC aggravator would not be
constitutional absent a narrowing construction that would
distinguish in a principled manner those cases meriting
the death penalty under the aggravator from the many
cases in which it was not imposed. See 486 U.S. at 363. And
Godfrey established that even when a State has previously
applied a constitutionally valid narrowing construction
of an aggravator, a death penalty imposed under the
aggravator must still be based on a construction that in a
“principled way” can distinguish the case from the many
in which the penalty was not imposed. 446 U.S. at 433.
This case illustrates that the OCCA no longer construes
“conscious physical suffering” so that it distinguishes in
a principled way between crimes deserving death and the
many cases in which the death penalty is not imposed.
Virtually any murder in which the victim did not die
instantly could qualify for the enhancement as presently
construed if there is a possibility that the act of murder
did not immediately render the victim unconscious and
the wounds could have caused pain. The State has not
offered any reason to believe, or even bothered to argue,
that “the brief period of conscious suffering necessarily
present in virtually all murders,” Medlock, 200 F.3d at
1324 (Lucero, J., concurring), could provide a “principled
way to distinguish this case, in which the death penalty
the insufficient-narrowing component of that claim. Likewise,
the State has not objected to the Eighth Amendment component
of Mr. Pavatt’s sufficiency-of-the-evidence claim on the ground
that our grant of COA did not encompass the issue. Of course,
our opinion implicitly (and now explicitly) grants a COA if such a
grant is necessary.

103a
Appendix B
was imposed, from the many cases in which it was not,”
Maynard, 486 U.S. at 363. Even if, though we doubt, many
murder victims do not experience even a brief period of
conscious physical suffering between the time of the fatal
blow and death, that possibility would so often be purely
a matter of chance that we think it is not a principled
way to determine who should suffer the penalty of death
and who should not. (Of course, the murderer’s intent to
cause such suffering would be another matter altogether.)
Thus, the OCCA did not apply a constitutionally
acceptable interpretation of Oklahoma’s HAC aggravator
in determining that the aggravator was supported by
sufficient evidence.
An important point requires emphasis. We are not
saying that the OCCA in this case unconstitutionally
applied a constitutionally acceptable na r row ing
construction of the State’s HAC aggravator. We are
saying that it did not apply the narrowing construction
that we previously approved. By expanding the meaning
of “conscious physical suffering” to encompass “the
brief period of conscious suffering necessarily present
in virtually all murders,” Medlock, 200 F.3d at 1324
(Lucero, J., concurring)—as it did in this case—Oklahoma
has construed the HAC aggravator in a constitutionally
impermissible manner. Lewis distinguished Godfrey on
the ground that “[u]nlike in Godfrey, there is no dispute
in this case that the Arizona Supreme Court applied its
narrowing construction of Arizona’s . . . aggravating
circumstance to the facts of respondent’s case.” 497 U.S.
at 776-77. In this case, however, there is such a dispute,
and it is the heart of the matter. We are unwilling to hold
that once we have held that an aggravator has been or

104a
Appendix B
could be constitutionally construed, we cannot revisit the
issue after it is clear that the state court has not adopted
a constitutionally acceptable construction. That is the
lesson of Godfrey, and Lewis did not reject that lesson.
We recognize that our standard of review in this
appeal is established by AEDPA. We can grant relief “with
respect to [a] claim that was adjudicated on the merits
in State court proceedings,” only if that adjudication
“resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States.” 28 U.S.C. § 2254(d)(1). Here, however, the decision
of the OCCA failed to pass muster under this provision.
To properly decide whether there was sufficient evidence
to sustain the aggravator, the court needed to determine
that the evidence would support a finding of conscious
physical suffering under a definition of that term that
satisfied both Oklahoma law and the Eighth Amendment.
Although it could certainly determine how conscious
physical suffering should be defined under Oklahoma
law and (we will assume) it properly concluded that the
evidence at trial satisfied that definition, it totally failed
to consider the other component of the analysis—whether
the definition it applied satisfies the Eighth Amendment.
As Mr. Pavatt puts it, the OCCA did not address “whether
there was sufficient evidence to support a constitutional
reading and application of the [HAC] aggravator.” Reply
Br. at 5.
As we understand recent Supreme Court authority,
the OCCA’s rejection of Mr. Pavatt’s sufficiency-of-theevidence claim without applying or even considering

105a
Appendix B
controlling Supreme Court precedent (or at least engaging
in an equivalent analysis even if not citing Supreme Court
precedent) rendered its decision contrary to clearly
established federal law. In Lafler v. Cooper, 566 U.S. 156,
132 S. Ct. 1376, 182 L. Ed. 2d 398 (2012), the Court reviewed
a decision of the Michigan appellate court denying the
defendant’s ineffective-assistance-of-counsel claim based
on counsel’s alleged incompetence in advising him to reject
a prosecution plea offer. The defendant proceeded to trial
and ultimately received a sentence much harsher than
what had been offered. See id. at 161. The Court applied
the two-part test for ineffective assistance set forth in
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052,
80 L. Ed. 2d 674 (1984), which requires the defendant
to establish deficient performance and prejudice from
that deficiency. See Lafler, 566 U.S. at 162-63. Because
there was no dispute that counsel’s performance was
deficient, “[t]he question for [the] Court [was] how to apply
Strickland’s prejudice test where ineffective assistance
results in a rejection of the plea offer and the defendant is
convicted at the ensuing trial.” Id. at 163. This was a new
issue for the Court. It had “never held that a defendant in
[that] position can establish Strickland prejudice.” Id. at
183 (Scalia, J., dissenting); see Williams v. Jones, 571 F.3d
1086, 1097-1101 (10th Cir 2009) (Gorsuch, J., dissenting)
(arguing, in same circumstances, that defendant suffered
no prejudice to a constitutional interest, given that he
received a fair trial). But “AEDPA [did] not present a bar
to granting [the defendant] relief.” 566 U.S. at 173. The
Court explained:

106a
Appendix B
That is because the [state court] identified [the
defendant’s] ineffective-assistance-of-counsel
claim but failed to apply Strickland to assess
it. Rather than applying Strickland, the state
court simply found that [the defendant’s]
rejection of the plea was knowing and voluntary.
An inquiry into whether the rejection of a plea
is knowing and voluntary, however, is not the
correct means by which to address a claim of
ineffective assistance of counsel. . . . By failing
to apply Strickland to assess the ineffectiveassistance-of-counsel claim [the defendant]
raised, the state court’s adjudication was
contrary to clearly established federal law.
Id. (citations omitted) (emphasis added).
Likewise, in this case the OCCA’s adjudication was
“contrary to clearly established federal law” because its
analysis did not discuss, apply, or even cite the Supreme
Court decisions governing the constitutional requirements
limiting death-penalty aggravators. The opinion did
not address at all whether the evidence presented was
sufficient to support a constitutionally acceptable HAC
aggravator.6 Therefore, “AEDPA does not present a bar to
granting [Mr. Pavatt] relief.” Id. “[I]n [this] circumstance,
6. Moreover, upholding the OCCA’s construction of conscious
physical suffering in this case as satisfying constitutional
standards would be an “unreasonable application” of Supreme
Court decisions. 28 U.S.C. § 2254(d)(1). The Supreme Court’s
oft-applied principles governing aggravators that have been set
forth above compels our conclusion in this case.

107a
Appendix B
the federal courts in this habeas action can determine the
principles necessary to grant relief.” Id. This we have
done. Applying Supreme Court precedent, we hold that
the HAC aggravator cannot constitutionally be applied
in this case.
In following Lafler we are not proceeding contrary to
Harrington v. Richter, 562 U.S. 86, 131 S. Ct. 770, 178 L.
Ed. 2d 624 (2011). That opinion held that “§ 2254(d) applies
when a state court’s order is unaccompanied by an opinion
explaining the reasons relief has been denied.” Id. at 98. It
did not say that when the state court provides some reasons
why a claim for relief has been denied, we should presume
that it also had additional, more persuasive, reasons. The
author of Lafler, who had written the Court’s opinion in
Richter a year earlier, did not speculate that the lower
court had silently applied Strickland in denying relief.
And there was much stronger reason to assume that the
lower court in Lafler had silently applied Strickland than
there is to believe that the OCCA in this case considered
Eighth Amendment constraints on its construction of the
HAC aggravator. As the dissent in Lafler pointed out, the
state court in that case had recited the requirements of
Strickland in the paragraph preceding the one relied on
by the majority in concluding that the state court had not
applied those requirements. Lafler, 566 U.S. at 182-83
(Scalia, J., dissenting). In our case, the OCCA resolved
Mr. Pavatt’s sufficiency-of-the-evidence issue without any
mention of the Eighth Amendment or its principles.

108a
Appendix B
V. CONCLUSION
We AFFIRM the judgment of the district court
regarding Mr. Pavatt’s conviction but REVERSE and
REMAND with respect to his sentence. We DENY Mr.
Pavatt’s request for an additional COA.

109a
Appendix B
BRISCOE, Circuit Judge, concurring in part and
dissenting in part.
I concur in part and dissent in part. I agree with
Part III of the majority’s opinion, which rejects certain
of Pavatt’s ineffective assistance of counsel claims and
affirms the denial of federal habeas relief on Pavatt’s
convictions for first degree murder and conspiracy to
commit first degree murder. As I explain in greater
detail below, however, I would add that there is no merit
to any of Pavatt’s ineffective assistance claims, or to his
additional argument urging us to recognize an exception
to the procedural bar that applies to most of his ineffective
assistance of counsel claims.
As for Part IV of the majority’s opinion, I disagree
with it in full. As I shall discuss in greater detail below,
Pavatt’s appellate brief in this case attempts to assert
three distinct challenges to the jury’s second-stage finding
that the murder was especially heinous, atrocious or cruel
(the HAC aggravating circumstance): (1) that the jury was
not properly instructed regarding the HAC aggravating
circumstance; (2) that the evidence presented at his
sentencing proceeding was constitutionally insufficient
to support the HAC aggravating circumstance; and
(3) that the HAC aggravator, as applied in his case,
is unconstitutionally vague in violation of the Eighth
Amendment. Part IV of the majority’s opinion only briefly
touches on and does not ultimately resolve the first and0
second of these issues. Instead, Part IV focuses on and
ultimately grants federal habeas relief on the basis of the
Eighth Amendment claim. In doing so, however, Part IV

110a
Appendix B
ignores the undisputed fact that the Eighth Amendment
claim is unexhausted because Pavatt never presented
it to the OCCA. Part IV also ignores the undisputed
fact that this court never granted Pavatt a certificate of
appealability (COA) as to the Eighth Amendment claim.
In short, Part IV grants Pavatt federal habeas relief on
the basis of a claim that was never presented to or decided
by the OCCA and that is not properly before this court.
Thus, in sum, I would affirm the judgment of the
district court denying Pavatt’s petition for writ of habeas
corpus in its entirety.
I
Pavatt asserts a number of claims of ineffective
assistance of counsel and appellate counsel, including
the claims of ineffective assistance of trial counsel that
are addressed and rejected in Part III of the majority
opinion. Although I agree with the majority that Pavatt
is not entitled to federal habeas relief on the basis of
these claims, I would conclude that only one of Pavatt’s
ineffective assistance claims is properly before us, and that
the remainder are procedurally barred due to Pavatt’s
failure to present them to the OCCA “in compliance with
relevant state procedural rules.” Cone v. Bell, 556 U.S.
449, 465, 129 S. Ct. 1769, 173 L. Ed. 2d 701 (2009).
In his original application for state post-conviction
relief, Pavatt asserted a host of claims alleging ineffective
assistance of trial and appellate counsel. Only one of those
claims, however, is now at issue in this appeal. That was

111a
Appendix B
a claim that his appellate attorneys failed to challenge
on direct appeal the admissibility of a photograph of Rob
Andrew taken prior to his death (State’s Exhibit 219),
and that the admission of that photograph “rendered
. . . Pavatt’s trial fundamentally unfair, depriving him of
the Due Process of Law, and unconstitutionally injected
passion, prejudice, and other arbitrary factors into the
sentencing proceeding.” Original App. for Post-Conviction
Relief at 54 (citations omitted). The OCCA denied relief
on the claim, noting in part that it had rejected a similar
claim in Marquez-Burrola v. State, 2007 OK CR 14, 157
P.3d 749, 760 (Okla. Crim. App. 2007). Pavatt v. State, No.
PCD-2004-25 at 6 n.6 (Okla. Crim. App. Apr. 11, 2008).
The OCCA also stated that this claim was “barred by res
judicata.” Id. at 6. Presumably, this was a reference to
Pavatt’s argument on direct appeal that the trial court
erred in admitting gruesome photographs of Rob Andrew
at the crime scene and his accompanying request that the
OCCA review the premortem photographs of Rob Andrew.
In any event, respondent does not argue that the claim is
procedurally barred for purposes of federal habeas review.
The district court reviewed the claim on the merits
and concluded that Pavatt had failed to demonstrate that
the OCCA’s decision was contrary to or an unreasonable
application of Strickland v. Washington, 466 U.S. 668, 104
S. Ct. 2052, 80 L. Ed. 2d 674 (1984). ROA, Vol. 3 at 1125
(ECF No. 91 at 77). More specifically, the district court
concluded “it [wa]s clear that based on the case cited by the
OCCA in its denial of [Pavatt]’s claim, Marquez-Burrola,
as well as other cases decided by the OCCA prior to
[Pavatt]’s appeal, that [Pavatt] would not have prevailed on
appeal had the claim been raised.” Id. (citations omitted).

112a
Appendix B
I agree with the district court. In Marquez-Burrola,
the OCCA considered and rejected a challenge to the
constitutionality of § 2403 of the Oklahoma Evidence
Code, which states, in pertinent part, that “an appropriate
photograph of the victim while alive shall be admissible
evidence when offered by the district attorney to show
the general appearance and condition of the victim while
alive.” Okla. Stat. tit. 12, § 2403 2016); see MarquezBurrola, 157 P.3d at 760. The OCCA in that case also
rejected the defendant’s argument that the trial court
abused its discretion by admitting, pursuant to § 2403, a
single, premortem photograph of the victim. Id. at 76061. Notably, the premortem photograph of Rob Andrew
was admitted at Pavatt’s trial without objection pursuant
to § 2403, and I see nothing about that photograph or
the facts of Pavatt’s trial that would distinguish it from
Marquez-Burrola. Further, the OCCA itself explicitly
stated that, in light of Marquez-Burrola, it would not have
granted relief to Pavatt had he challenged the admission
of Exhibit 219 on direct appeal. Consequently, Pavatt has
failed to establish that he was prejudiced by the failure of
his appellate counsel to raise the issue on direct appeal.
All of the remaining ineffective assistance claims
asserted by Pavatt in this appeal—trial counsel’s failure
to prevent the admission of pervasive victim-impact
evidence in both stages of trial (other than Exhibit
219), trial counsel’s failure to investigate and present a
compelling mitigation case, and appellate counsel’s failure
to assert these claims of ineffective assistance on direct
appeal—were first presented by Pavatt to the OCCA in
his second application for state post-conviction relief. The
OCCA concluded that these claims were procedurally

113a
Appendix B
barred under the provisions of the Oklahoma PostConviction Procedure Act, Okla. Stat. tit. 22, §§ 1080 et
seq. In reaching this conclusion, the OCCA noted that,
under that Act, “[c]laims which could have been raised
on direct appeal, but were not, are generally considered
waived.” Pavatt v. State, No. PCD-2009-777 at 2 (Okla.
Crim. App. Feb. 2, 2010). Further, the OCCA noted
that it could “not consider the merits of any claim made
in a subsequent application for post-conviction relief,
unless (1) the legal basis for that claim was previously
unavailable, or (2) the facts supporting the claim were
not previously ascertainable through the exercise of
reasonable diligence.” Id. at 2-3. The OCCA determined
that all of Pavatt’s ineffective assistance claims could have
been raised at an earlier time, and it in turn concluded that
it was “barred by the provisions of the Post-Conviction
Procedure Act from considering these arguments.” Id.
at 7.
Despite the OCCA’s ruling, Pavatt argues that we
should review his claims de novo for two reasons. First,
he contends that “[t]he OCCA did not clearly impose a
procedural bar of these claims, but instead stated the
‘current arguments merely modify or expand the claims
made, and rejected, in prior proceedings.’” Aplt. Br. at 50
(quoting Pavatt, No. PCD-2009-777 at 4). This argument
makes little sense when one recalls that the ineffective
assistance of counsel claims he now asserts were first
raised in his second application for state post-conviction
relief. Further, as discussed above and as Pavatt
ultimately concedes in a related footnote, the OCCA quite
clearly concluded that these claims were procedurally

114a
Appendix B
barred under Oklahoma’s Post-Conviction Procedure Act.
Id. at 50-51 n.14.
That leads to Pavatt’s second argument: “Even if
this Court determines the OCCA imposed a procedural
bar, such a bar is not without exception. Post-conviction
counsel’s ineffectiveness in not fully challenging the
failures of prior counsel to object to the inadmissible
sympathy evidence is the ‘cause’ that excuses any default.”
Id. at 50-51 (citations omitted). In other words, Pavatt
argues that the ineffectiveness of the attorney who
represented him in filing his original application for postconviction relief establishes the “cause” for his failure to
comply with Oklahoma’s procedural requirements.
In support of this argument, Pavatt relies on the
Supreme Court’s decisions in Martinez v. Ryan, 566 U.S.
1, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012) and Trevino v.
Thaler, 569 U.S. 413, 133 S. Ct. 1911, 185 L. Ed. 2d 1044
(2013). Aplt. Br. at 51. In Martinez, the Supreme Court
held that if,
under state law, claims of ineffective assistance
of trial counsel must be raised in an initialreview collateral proceeding, a procedural
default will not bar a federal habeas court
from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.
Id. at 1320 (emphasis added).

115a
Appendix B
In Trevino, the Supreme Court explained that, in
determining whether the Martinez exception to Coleman
v. Thompson, 501 U.S. 722, 729-30, 753-54, 111 S. Ct.
2546, 115 L. Ed. 2d 640 (1991) (holding that a defendant’s
state-law procedural default ordinarily prevents a federal
habeas court from considering the defendant’s federal
constitutional claim, and that an attorney’s errors in a
post-conviction proceeding do not qualify as cause for such
a default), applies in a particular case, four requirements
must be met:
(1) the claim of “ineffective assistance of trial
counsel” was a “substantial” claim; (2) the
“cause” consisted of there being “no counsel”
or only “ineffective” counsel during the state
collateral review proceeding; (3) the state
collateral review proceedings was the “initial”
review proceeding in respect to the “ineffectiveassistance-of-trial-counsel claim”; and (4) state
law requires that an “ineffective assistance of
trial counsel [claim] . . . be raised in an initialreview collateral proceeding.
133 S. Ct. at 1918 (alteration in original) (quoting Martinez,
132 S. Ct. at 1318-19, 1320-21). The Court in Trevino
ultimately extended the rule in Martinez to circumstances
in which state law does not expressly require claims of
ineffective assistance of trial counsel to be brought in
collateral proceedings, but, by way of its “structure and
design . . . make[s] it virtually impossible for an ineffective
assistance claim to be presented on direct review.” Id. at
1915 (internal quotation marks omitted).

116a
Appendix B
Pavatt argues that the rules outlined in Martinez
and Trevino should be applied in his case because (a)
he was represented at trial and on direct appeal by the
same attorney, (b) consequently, his original application
for post-conviction relief was his first real opportunity to
assert ineffective assistance of trial counsel claims, and
(c) the attorney who represented him in filing his original
application for post-conviction relief was ineffective for
failing to raise these claims of ineffective assistance of
trial counsel and appellate counsel.
I disagree. Martinez and Trevino are distinguishable
because, in both of those cases, the Supreme Court
focused on whether the “structure and design” of the state
system at issue, i.e., what the Supreme Court in Trevino
characterized as the state’s “procedural regime,” 133 S. Ct.
at 1915, expressly or effectively prevented the petitioner
from raising his or her ineffective assistance claim for the
first time until state post-conviction proceedings. Notably,
in Fairchild v. Trammell, 784 F.3d 702, 721 (10th Cir.
2015), we differentiated Oklahoma’s procedural regime
from the state systems that were at issue in Martinez and
Trevino. In particular, we noted that “Oklahoma provides
a reasonable time to investigate a claim of ineffective
assistance before raising it on direct appeal” and that,
under Oklahoma law, “[a] claim of ineffective assistance
can be raised with the opening brief on [direct] appeal.”1
Id. Thus, consistent with our holding in Fairchild, I would
1. Indeed, we have recognized that Oklahoma law generally
requires that a claim of ineffective assistance of trial counsel be
raised on direct appeal. See Cole v. Trammell, 755 F.3d 1142, 1159
(10th Cir. 2014).

117a
Appendix B
conclude that neither Martinez nor Trevino allow us to
bypass the OCCA’s procedural bar ruling and review
Pavatt’s ineffective assistance claims on the merits. To
hold otherwise would be to adopt an entirely new, and
potentially much broader, rule than was announced in
Martinez and Trevino.
II
As noted, Pavatt also asserts three distinct challenges
to the HAC aggravating circumstance found by the jury:
(1) that the jury in his case was not properly instructed
regarding the HAC aggravating circumstance; (2) that
the evidence presented at his sentencing proceeding
was constitutionally insufficient to support the HAC
agg ravating circumstance; and (3) that the HAC
aggravator, as applied by the Oklahoma Court of Criminal
Appeals (OCCA), is unconstitutionally vague in violation
of the Eighth Amendment. As discussed below, I conclude
that all of these challenges lack merit, and that we must
affirm the district court’s denial of federal habeas relief
with respect to those claims.
A
The Oklahoma leg islature has outlined eight
aggravating circumstances that may be found by a jury in
the sentencing phase of a capital trial. See Okla. Stat. tit.
21, § 701.12. Included among those is the HAC aggravating
circumstance. Id. § 701.12(4) (“The murder was especially
heinous, atrocious, or cruel.”).

118a
Appendix B
In 19 8 8 , t he Supreme Cou r t a dd ressed t he
constitutionality of Oklahoma’s HAC aggravating
circumstance in Maynard v. Cartwright, 486 U.S. 356, 108
S. Ct. 1853, 100 L. Ed. 2d 372 (1988). The claim in that case,
which was filed by an Oklahoma capital defendant, was
that Oklahoma’s HAC aggravator was unconstitutionally
vague and overbroad. The Supreme Court unanimously
agreed and held that the statutory language of the HAC
aggravator, standing alone, failed to give a jury adequate
guidance. Id. at 363-64. “[A]n ordinary person,” the Court
concluded, “could honestly believe that every unjustified,
intentional taking of human life is ‘especially heinous.’” Id.
Notably, while Maynard was pending before the
Supreme Court, the OCCA expressly “restricted the
‘heinous, atrocious, or cruel’ aggravating circumstance
to those murders in which torture or serious physical
abuse [wa]s present.” Id. at 365 (citing Stouffer v. State,
1987 OK CR 166, 742 P.2d 562 (Okla. Crim. App. 1987)).
More specifically, the OCCA in Stouffer “identified two
kinds of cases in which ‘torture or serious physical abuse’
[wa]s present: those characterized by the infliction of ‘great
physical anguish’ and those characterized by the infliction
of ‘extreme mental cruelty.’” Medlock v. Ward, 200 F.3d
1314, 1324 (10th Cir. 2000) (Lucero, J., concurring). “In
the mental cruelty context, the OCCA . . . emphasized that
the torture required for finding the ‘heinous, atrocious, or
cruel’ aggravator must produce mental anguish in addition
to that which of necessity accompanies the underlying
killing.” Id. (internal quotation marks omitted). And, with
respect to the physical anguish branch of its test, the
OCCA held that, “[a]bsent evidence of conscious physical

119a
Appendix B
suffering by the victim prior to death, the required torture
or serious physical abuse standard is not met.” Battenfield
v. State, 1991 OK CR 82, 816 P.2d 555, 565 (Okla. Crim.
App. 1991).
In addition to the restrictions outlined in Stouffer,
the OCCA has since indicated that the HAC aggravator
“contemplates a two-step analysis.” Nuckols v. State, 1991
OK CR 10, 805 P.2d 672, 674 (Okla. Crim. App. 1991). The
first step of this analysis, the OCCA has stated, requires
the jury to determine whether the death of the victim
was preceded by torture or serious physical abuse. Id.
“Once this foundational assessment is made,” the OCCA
has stated, “then the jury may apply the definitions given
to them . . . to measure whether or not the crime can be
considered to have been heinous, atrocious or cruel.” Id.
In DeRosa v. State, 2004 OK CR 19, 89 P.3d 1124, 1156
(Okla. Crim. App. 2004), the OCCA officially incorporated
this two-step analysis into its uniform jury instructions.
More specifically, the OCCA outlined a jury instruction
defining the HAC aggravator and directed that this
instruction was to “replace the current version of OUJICR(2d) 4-73 and that it shall be used in all future capital
murder trials in which the” HAC aggravator is alleged.
The instruction read as follows:
The State has alleged that the murder was
“especially heinous, atrocious, or cruel.” This
aggravating circumstance is not established
unless the State proves beyond a reasonable
doubt:

120a
Appendix B
First, that the murder was preceded
by either torture of the victim or
serious physical abuse of the victim;
and
Second, that the facts and
circumstances of this case establish
that the murder was heinous, atrocious,
or cruel.
You are instructed that the term “torture”
means the infliction of either great physical
anguish or extreme mental cruelty. You are
further instructed that you cannot find that
“serious physical abuse” or “great physical
anguish” occurred unless you also find that the
victim experienced conscious physical suffering
prior to his/her death.
In addition, you are instructed that the
term “heinous” means extremely wicked or
shockingly evil; the term “atrocious” means
outrageously wicked and vile; and the term
“cruel” means pitiless, designed to inflict a
high degree of pain, or utter indifference to or
enjoyment of the suffering of others.
Id. The OCCA emphasized that “[t]his instruction does
not change any of the legal requirements of the ‘heinous,
atrocious, or cruel’ aggravating circumstance as it has
existed up until this time.” Id. “Rather,” the OCCA noted,
“it is intended to more fully inform the jury regarding

121a
Appendix B
the findings that must be made in order to properly apply
the aggravator and to ensure that a jury determination is
made regarding each of these findings.” Id.
B
In the first of his challenges to the HAC aggravating
circumstance found by the jury in his case, Pavatt
contends that the state trial court’s instructions to the
jury regarding the HAC aggravating circumstance failed
to inform them adequately that they must find “conscious
physical suffering” before concluding that the murder was
“especially heinous, atrocious, or cruel.”
Facts relevant to this claim
Prior to trial, Pavatt filed an objection “to the pattern
verdict form, OUJI-CR 2d 4-84, on the grounds the special
findings, i.e., the aggravating circumstances, [we]re illdefined, vague and d[id] not check the unbridled discretion
of the sentencer.” State R. at 1286. Pavatt subsequently
filed an objection to the standard instruction and verdict
form on the HAC aggravating circumstance “on the
grounds that [they were] unconstitutional” in light of the
Supreme Court’s decision in Maynard. Id. at 1471.
The state trial court overruled Pavatt’s objections
and, at the conclusion of the second-stage proceedings,
gave the jury the following instruction regarding the HAC
aggravating circumstance:

122a
Appendix B
Instruction Number 5
As used in these instructions, the term “heinous”
means extremely wicked or shockingly evil;
“atrocious” means outrageously wicked and
vile; “cruel” means pitiless, or designed to inflict
a high degree of pain, utter indifference to, or
enjoyment of, the sufferings of others.
The phrase “especially heinous, atrocious, or
cruel” is directed to those crimes where the
death of the victim was preceded by torture of
the victim or serious physical abuse.
Id. at 2052. The second-stage verdict form simply asked
the jury to check whether or not they found the existence
of each of the alleged aggravating circumstances. Id.
at 2063. The verdict form did not otherwise explain or
attempt to define the HAC aggravating circumstance. Id.
Pavatt’s presentation of the issue to the OCCA
Although Pavatt argued on direct appeal that the
evidence presented at trial was insufficient to support
the HAC aggravating circumstance, he did not challenge
on direct appeal the adequacy of the HAC instruction or
the verdict form. Nor did he raise the issue in his initial
application for post-conviction relief. Instead, Pavatt
waited until he filed his second application for postconviction relief to raise the issue. In that application,
Pavatt argued that the state trial court violated his
constitutional rights by failing to provide an adequate

123a
Appendix B
instruction that informed the jury that it must find
conscious physical suffering beyond a reasonable doubt
before concluding that the murder was especially heinous,
atrocious, or cruel.
The OCCA’s resolution of the claim
In its opinion denying Pavatt’s second application
for post-conviction relief, the OCCA concluded that this
claim was procedurally barred: “Because this argument is
based on the trial record, it could have been made in prior
proceedings, and may not be considered now.” Pavatt, No.
PCD-2009-777 at 5 (citing Okla. Stat. title 22, § 1089(D)
(8)). In a related footnote, the OCCA also stated:
In any event, we have rejected the same
argument several times in the past. [Pavatt]
essentially asks this Court to retroactively
require an instruction that we promulgated
— after Petitioner’s conviction — in DeRosa
v. State, 2004 OK CR 19, ¶¶ 91-97, 89 P.3d
1124, 1154-57. That instruction elaborates on
the meaning of “heinous, atrocious, or cruel,”
and the relevant Uniform Jury Instruction
already in existence (No. 4-73) was amended a
year later. DeRosa was handed down several
months after [Pavatt]’s trial. DeRosa does
not hold that the Uniform Jury Instruction on
this issue, being used at the time of DeRosa’s
and [Pavatt]’s trials, was materially deficient.
DeRosa, 2004 OK CR 19, ¶ 97, 89 P.3d at 1156
(“This opinion should not be interpreted as a

124a
Appendix B
ruling that the former uniform instruction was
legally inaccurate or inadequate”). This same
attack on the pre-DeRosa version of OUJI-CR
(2nd) No. 4-73 has been rejected several times
by this Court. Jackson v. State, 2006 OK CR
45, ¶¶ 36-38, 146 P.3d 1149, 1161-63; Browning
v. State, 2006 OK CR 8, ¶¶ 52-56, 134 P.3d 816,
843-45; Rojem v. State, 2006 OK CR 7, ¶¶ 68-73,
130 P.3d 287, 300-01.
Id. at 5 n.5.
The district court’s procedural bar ruling
The district court in this case concluded that Pavatt’s
challenge to the state trial court’s HAC instruction was
“barred from federal review.” ROA, Vol. 3 at 1138. In
support, the district court stated that “[t]he Tenth Circuit
has repeatedly recognized the application of a procedural
bar to claims which could have been raised in an initial
post-conviction application but were not.” Id. at 1079. The
district court also concluded that “the OCCA’s procedural
bar here [wa]s adequate and independent.” Id. at 1080.
Lastly, the district court concluded that Pavatt had
“not made any showing of cause and prejudice to excuse
his default of th[is] claim[],” nor had he shown “that a
fundamental miscarriage of justice w[ould] occur if the
claim [wa]s not heard.” Id. at 1081-82.

125a
Appendix B
Pavatt’s challenge to the district court’s
procedural bar ruling
Pavatt now contends that “[t]he district court erred
in finding this claim procedurally barred from federal
review.” Aplt. Br. at 41. In support, Pavatt asserts that
“Valdez v. State, 2002 OK CR 20, 46 P.3d 703 (Okla.
Crim. App. 2002) gives the OCCA the option to permit
consideration on the merits ‘when an error complained
of has resulted in a miscarriage of justice, or constitutes
a substantial violation of a constitutional or statutory
right.’” Aplt. Br. at 41 (quoting Valdez, 46 P.3d at 710).
“The merits inquiry,” Pavatt asserts, “is thus part of the
default consideration, and therefore, lacks independence
as in Ake v. Oklahoma, 470 U.S. 68, 74-75, 105 S. Ct. 1087,
84 L. Ed. 2d 53 (1985).” Aplt. Br. at 41.
“The doctrine of procedural default prevents a federal
court from reviewing ‘the merits of a claim—including
constitutional claims—that a state court declined to hear
because the prisoner failed to abide by a state procedural
rule.’” Williams v. Trammell, 782 F.3d 1184, 1212 (10th
Cir. 2015) (quoting Martinez v. Ryan, 566 U.S. 1, 9, 132
S. Ct. 1309, 182 L. Ed. 2d 272 (2012)). “In order to bar
federal review, a state procedural rule must be adequate
to support the judgment and independent from federal
law.” Banks v. Workman, 692 F.3d 1133, 1145 (10th Cir.
2012). “These dual requirements seek to ensure state
rules are not employed to defeat federal court review
of constitutional rights.” Id. “To satisfy the adequacy
element, a state procedural rule must be strictly or
regularly followed and applied evenhandedly to all

126a
Appendix B
similar claims.” Id. (internal quotation marks omitted)
(citation omitted). This court “ha[s] repeatedly held that
Oklahoma’s procedural default rule meets the adequacy
requirement.” Id. “A state procedural rule is independent
if it relies on state law, rather than federal law, as the basis
for the decision.” Id. (internal quotation marks omitted)
(citation omitted).
“In Ake v. Oklahoma, . . . the OCCA had held that
[defendant] Ake had waived his claims that he was
entitled to a court-appointed psychiatrist to assist him
in an insanity defense because he had not renewed his
request for a psychiatrist in a new-trial motion.” Black v.
Workman, 682 F.3d 880, 918, 485 Fed. Appx. 917 (10th Cir.
2012). “But under Oklahoma law there was no procedural
bar if the alleged error was ‘fundamental trial error’;
and federal constitutional error was considered an error
of that type.” Id. (quoting Ake, 470 U.S. at 74-75). “Thus,
the OCCA could not apply the waiver rule without first
addressing the federal constitutional error.” Id. “The
Supreme Court concluded that the state waiver rule was
therefore not an independent state ground for barring
review.” Id.
In Pavatt’s case, as in Banks, the OCCA based its
denial “upon the state procedural rule in § 1089(D)
(8).” 692 F.3d at 1145. “Because § 1089 is purely a state
law rule, we have held that Oklahoma decisions resting
entirely upon § 1089(D)(8) are independent.” Id. But
Pavatt, relying on Valdez and parroting other Oklahoma
capital defendants who have mounted similar challenges,
essentially argues that the OCCA’s reliance on § 1089(D)

127a
Appendix B
(8) “does not preclude merits review because the state bar
is not independent of federal law.” Fairchild, 784 F.3d at
719. More specifically, Pavatt “is asserting that the OCCA
will not impose a procedural bar [pursuant to § 1089(D)
(8)] unless it first determines that any federal claims
lack merit,” id., and thus the OCCA “sometimes forgives
noncompliance with the bar on successive post-conviction
applications.” Williams, 782 F.3d at 1213.
As we have noted, however, “the Valdez exception only
applies in cases involving an exceptional circumstance,
and it is insufficient to overcome Oklahoma’s regular and
consistent application of its procedural-bar rule in the vast
majority of cases.” 2 Id. (internal quotation marks omitted)
(citations omitted). In this case, Pavatt’s challenge to the
HAC jury instruction is far from exceptional: it is a claim
that was readily apparent from the trial record and that
could and arguably should have been raised on direct
appeal. Moreover, although the OCCA opined in a footnote
that there was no merit to Pavatt’s claim, the clear and
unequivocal basis for its denial of his claim was procedural
bar under § 1089(D)(8). See Cole, 755 F.3d at 1158-59
(acknowledging and applying the OCCA’s procedural
bar ruling, even though the OCCA, on an alternative
basis, briefly addressed and rejected the merits of the
petitioner’s claim); Thacker v. Workman, 678 F.3d 820,
2. “Valdez was special because the lawyers there knew that
their client was a citizen of Mexico and nonetheless failed to
comply with the Vienna Convention when they failed to contact
the Mexican Consulate, thereby depriving the Consulate [of] the
ability to intervene and present its discovery that the defendant
suffered from organic brain damage.” Williams, 782 F.3d at 1213.

128a
Appendix B
834 n.5 (10th Cir. 2012) (same). I therefore agree with
the district court that the claim is procedurally barred.
The merits of Pavatt’s claim
Even if we were to assume that the claim was not
procedurally barred, it cannot provide Pavatt with a valid
basis for federal habeas relief. In Workman v. Mullin,
342 F.3d 1100 (10th Cir. 2003) and Wilson v. Sirmons,
536 F.3d 1064 (10th Cir. 2008), we considered HAC jury
instructions identical to the one utilized in Pavatt’s case
and rejected claims identical to the one now asserted
by Pavatt. In doing so, we concluded that the language
of the instructions was sufficient to narrow the jury’s
discretion, as required by Supreme Court precedent.
Workman, 342 F.3d at 1116; Wilson, 536 F.3d at 1108. We
also noted in Wilson that “[e]ven if the jury instruction did
not sufficiently narrow the jury’s discretion,” the OCCA
could “also perform this narrowing function on review”
and actually did so. 536 F.3d at 1108. The same holds true
in Pavatt’s case.
C
In the second of his challenges to the HAC aggravating
circumstance, Pavatt argues that the evidence presented
at the sentencing phase of his trial was constitutionally
insufficient to support the HAC aggravating circumstance.
In support of his challenge to the constitutional sufficiency
of the evidence supporting the HAC aggravator, Pavatt
offers his view of the evidence:

129a
Appendix B
Rob Andrew was shot twice with a shotgun at
relatively close range. There was no gratuitous
violence. There was no torture. There was
no anguish or suffering beyond that which
necessarily accompanied the underlying killing.
The two shotgun blasts were both independently
fatal. Pellets from both shots hit vital internal
organs. Rob could not have remained conscious
for more than a few moments, before going
into shock and quickly bleeding to death.
Additionally, the combination of both shots
would have sped up the bleeding, causing Rob to
die where he fell. If Rob Andrew’s homicide was
“heinous, atrocious, or cruel,” then any murder
in which the victim does not die instantly
satisfies this factor.
Aplt. Br. at 21-22.
Pavatt’s presentation of the claim to the OCCA
Pavatt first challenged the sufficiency of the evidence
supporting the HAC aggravator in his direct appeal. The
entirety of his argument was as follows:
There was insufficient evidence to support
the heinous, atrocious or cruel aggravating
circumstance. See Thomas v. Gibson, 218
F.3d 1213 (10th Cir. 2000)(Evidence was
insufficient to support heinous, atrocious or
cruel aggravating circumstance); Donaldson
v. State, 722 So.2d 177 (Fla. 1998); Jones v.

130a
Appendix B
Gibson, 206 F.3d 946, 953 (10th Cir. 2001)(“We
agree with petitioner and the federal district
court that the record does not support the
Oklahoma Court of Criminal Appeals’ finding
that the victim pleaded for his life”).
The evidence does not support the fact that the
murder was “especially” heinous, atrocious or
cruel. As defense counsel said during closing
argument, “To some degree I suppose all
homicides are heinous, atrocious or cruel. I
think that’s the reason why the legislature has
inflicted the term especially to that phrase.”
Interestingly, the State attempts to prove the
existence of the aggravating circumstance on
the basis of the information provided by Brenda
Andrew in her 911 call to the police. (Tr. 3763)
The medical examiner’s testimony was that
either of the two wounds could have been fatal.
Death occurred in a matter of minutes. The
medical examiner could not tell how long Mr.
Andrew was conscious. (Tr. 3764)
Direct Appeal Br. at 47.
The OCCA rejected this claim on the merits, stating
as follows:
In Propositions 14 and 15, Appellant challenges
the sufficiency of the evidence to support the
two aggravating circumstances alleged by

131a
Appendix B
the State as warranting the death penalty.
Such challenges are reviewed under the
same standard as challenges to the evidence
supporting a criminal conviction. We consider
the evidence in a light most favorable to the
State, and determine whether any rational
juror could have found the existence of the
challenged aggravating circumstance beyond
a reasonable doubt. DeRosa, 2004 OK CR 19
at ¶ 85, 89 P.3d at 1153; Lockett v. State, 2002
OK CR 30, ¶ 39, 53 P.3d 418, 430.
In Proposition 14, Appellant claims the evidence
was insufficient to support the jury’s finding
that the murder of Rob Andrew was “especially
heinous, atrocious, or cruel.” To establish this
aggravator, the State must present evidence
from which the jury could find that the victim’s
death was preceded by either serious physical
abuse or torture. Evidence that the victim was
conscious and aware of the attack supports a
finding of torture. Davis v. State, 2004 OK CR
36, ¶ 39, 103 P.3d 70, 81; Black v. State, 2001
OK CR 5, ¶ 79, 21 P.3d 1047, 1074 (evidence that
victim consciously suffered pain during and
after stabbing was sufficient to support this
aggravating circumstance); Le, 1997 OK CR
55 at ¶ 35, 947 P.2d at 550; Romano v. State,
1995 OK CR 74, ¶ 70, 909 P.2d 92, 118; Berget v.
State, 1991 OK CR 121, ¶ 31, 824 P.2d 364, 373.
Our evaluation is not a mechanistic exercise. As
we stated in Robinson v. State, 1995 OK CR 25,
¶ 36, 900 P.2d 389, 401:

132a
Appendix B
As much as we would like to point to
specific, uniform criteria, applicable
to all murder cases, which would
make the application of the “heinous,
atrocious or cruel” aggravator a
mechanical procedure, that is simply
not possible. Rather, the examination
of the facts of each and every case is
necessary in determining whether the
aggravator was proved.
Un f o r t u n a t e l y, n o t w o c a s e s
present identical fact scenarios for
our consideration, therefore the
particulars of each case become
the focus of our inquiry, as opposed
to one case’s similarity to another,
in resolving a sufficiency of the
evidence claim supporting the heinous,
atrocious or cruel aggravator.
The evidence presented at trial showed that
Rob A ndrew suffered numerous wounds
resulting from two shotgun blasts, which
damaged his internal organs. The medical
examiner testified that either wound would have
caused sufficient blood loss to be independently
fatal, but that death was not instantaneous.
When emergency personnel arrived, Andrew
was still clutching a trash bag full of empty
aluminum cans, which reasonably suggested
that he either tried to ward off his attacker or

133a
Appendix B
shield himself from being shot. Brenda Andrew
called 911 twice after the shooting; together,
the two calls spanned several minutes. During
the second call, she claimed that her husband
was still conscious and attempting to talk to
her as he lay bleeding to death on the garage
floor. All of these facts tend to show that Rob
Andrew suffered serious physical abuse, and
was conscious of the fatal attack for several
minutes. See Ledbetter v. State, 1997 OK CR 5,
¶ 53, 933 P.2d 880, 896 (evidence that murder
victim was likely aware that she was about to
be assaulted because defendant had attempted
to kill her one week earlier, that she tried to
defend herself from the fatal attack, and that
she attempted to communicate with a neighbor
after the attack was sufficient to show that the
murder was especially heinous, atrocious or
cruel).
After finding that the murder was accompanied
by torture or serious physical abuse, the jury
may also consider the attitude of the killer and
the pitiless nature of the crime. Lott, 2004
OK CR 27 at ¶ 172, 98 P.3d at 358; Phillips
v. State, 1999 OK CR 38, ¶ 80, 989 P.2d 1017,
1039. That the victim was acquainted with his
killers is a fact relevant to whether the murder
was especially heinous, atrocious, or cruel.
In finding the murder in Boutwell v. State,
1983 OK CR 17, ¶ 40, 659 P.2d 322, 329 to be
especially heinous, atrocious, or cruel, this
Court observed:

134a
Appendix B
In this case the killing was merciless.
The robbers planned well in advance
to take the victim’s life. Even more
abhorrent and indicative of cold
pitilessness is the fact that the
appellant and the victim knew each
other.
We find the situation in the present case even
more pitiless. Rob Andrew correctly suspected
his wife of having an affair with a man he
trusted as his insurance agent. He correctly
suspected his wife and her lover of trying to
wrest control of his life insurance away from
him. He correctly suspected his wife and her
lover of attempting to kill him several weeks
before by severing the brake lines on his car.
He confided in others that he was in fear of
his life. Having separated from his wife, Rob
Andrew was murdered as he returned to the
family home to pick up his children for the
Thanksgiving holiday. From the evidence, a
rational juror could have concluded, beyond a
reasonable doubt, that Rob Andrew had time
to reflect on this cruel state of affairs before he
died. The evidence supported this aggravating
circumstance, and this proposition is denied.
Pavatt v. State of Oklahoma (Pavatt I), 2007 OK CR 19,
159 P.3d 272, 294-95 (Okla. Crim. App. 2007) (internal
paragraph numbers omitted).

135a
Appendix B
Standard of review
Because Pavatt’s challenge to the sufficiency of
evidence supporting the HAC aggravator was previously
addressed and rejected on the merits by the OCCA, our
scope of review is circumscribed by 28 U.S.C. § 2254(d).
See Montgomery v. Louisiana, __ U.S. __, 136 S. Ct.
718, 740, 193 L. Ed. 2d 599 (2016) (“federal court[s] ha[ve]
no inherent habeas corpus power, but only that which
is conferred (and limited) by statute.”); Harrington v.
Richter, 562 U.S. 86, 92, 131 S. Ct. 770, 178 L. Ed. 2d 624
(2011). Section 2254(d) provides:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) re su lt ed i n a dec i sion t hat
was contrar y to, or involved an
unreasonable application of, clearly
established Federal law, as determined
by the Supreme Court of the United
States; or
(2) re su lt ed i n a dec i sion t hat
wa s ba sed on a n u n rea sonable
determination of the facts in light of
the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d).

136a
Appendix B
Clearly established federal law applicable to the claim
In determining whether Pavatt is entitled to federal
habeas relief under § 2254(d)(1), we must identify the
“clearly established Federal law” that applies to Pavatt’s
claim. As the majority correctly notes, aggravating factors
in a capital case, such as the HAC aggravator found by the
jury in Pavatt’s case, “operate as ‘the functional equivalent
of an element of a greater offense.’” Ring v. Arizona, 536
U.S. 584, 609, 122 S. Ct. 2428, 153 L. Ed. 2d 556 (2002)
(quoting Apprendi v. New Jersey, 530 U.S. 466, 494, 120
S. Ct. 2348, 147 L. Ed. 2d 435 (2000)). Consequently, due
process requires that the evidence presented at trial be
sufficient to support an aggravator. Jackson v. Virginia,
443 U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979).
In assessing a sufficiency-of-evidence challenge to an
aggravator, “the relevant question [therefore] is whether,
after viewing the evidence in the light most favorable to
the prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable
doubt.” Id. (emphasis in original).
Merits of the claim
The majority opinion does not directly address this
claim. It does, however, seem to concede that “a reasonable
juror could have found” the State’s evidence “to be
sufficient evidence of conscious physical suffering.” Maj.
Op. at 24. With this I would agree. And, in any event, I
conclude, for the reasons outlined below, that the OCCA’s
resolution of the claim was neither contrary to nor an
unreasonable application of clearly established federal law.

137a
Appendix B
In challenging the OCCA’s decision, Pavatt begins by
offering his own summary of the relevant evidence, arguing
that the crime at issue resulted in “[a] shotgun death” that
involved “no conscious suffering beyond what accompanies
any murder.” Aplt. Br. at 21. According to Pavatt, “[t]here
was no gratuitous violence,” “no torture,” and “no anguish
or suffering beyond that which necessarily accompanied
the underlying killing.” Id. Further, Pavatt argues that
“[t]he two shotgun blasts were both independently fatal”
and Rob Andrew “could not have remained conscious
for more than a few moments, before going into shock
and quickly bleeding to death.” Id. at 21-22. In sum,
Pavatt argues, “[i]f Rob Andrew’s homicide was ‘heinous,
atrocious or cruel,’ then any murder in which the victim
does not die instantly satisfies this factor.” Id. at 22.
The problem with Pavatt’s description of the evidence
is that it wholly ignores the standard of review mandated
by the Supreme Court in Jackson. As we have noted,
Jackson requires a reviewing court to “view[] the evidence
in the light most favorable to the prosecution.” 443 U.S.
at 319. When that standard is applied to the evidence
presented in Pavatt’s case, it simply does not support his
description of the relevant facts. Although it is true that
each of the shotgun blasts were independently lethal,
Pavatt is simply incorrect in asserting that Rob Andrew
“could not have remained conscious for more than a few
moments.” Aplt. Br. at 21. Indeed, the medical examiner
who testified on behalf of the prosecution conceded it was
possible that Rob Andrew remained conscious for several
minutes after sustaining the wounds. And that testimony,
combined with Brenda Andrew’s statements to the 911

138a
Appendix B
operator regarding Rob Andrew’s condition (which we will
discuss in greater detail below), would have allowed the
jury to reasonably find that he indeed remained conscious
far longer than “a few moments.”
Pavatt also argues that the OCCA “relied on irrelevant
speculation about what Rob [Andrew] was feeling.” Aplt.
Br. at 24. In support, Pavatt examines and attempts to
discredit each of the factors cited by the OCCA in support
of its determination. To begin with, Pavatt asserts that
“[t]he ‘numerous wounds’ referred to by the OCCA were
caused by pellets from the same shotgun, shot at nearly
the same time.” Id. at 32. Although Pavatt is correct on
this point, that does not prove the OCCA’s determination
to be wrong. Indeed, the medical examiner testified at
trial that the two shotgun blasts damaged Rob Andrew’s
right lung, aorta, and liver. In addition, the photographs
of Rob Andrew’s body quite clearly indicate that the
shotgun pellets caused numerous, separate entry and
exit wounds on his body. And, although Pavatt asserts
that these wounds “did not contribute to an inordinate
amount of conscious pain prior to death,” id. at 30, the
medical examiner testified to the contrary, noting the
wounds would, indeed, have been painful.
Pavatt in turn argues that, contrary to the OCCA’s
determination, “the quick loss of blood from both wounds
resulted in shock and loss of consciousness within one
minute.” Id. But this argument ignores, and is ultimately
contrary to, the testimony of the medical examiner. The
medical examiner testified that, as a result of the blood
loss associated with the wounds, Rob Andrew would have

139a
Appendix B
lost consciousness before he actually died. The medical
examiner declined on direct examination to give an exact
amount of time that Rob Andrew remained conscious after
sustaining the wounds. On cross-examination, the medical
examiner agreed that it was possible that Rob Andrew
died less than one minute after sustaining the wounds,
but he also testified that Rob Andrew “probably” would
have lost consciousness within five minutes. Tr. at 2462.
And, on redirect, the medical examiner testified it was
possible that Rob Andrew remained conscious for more
than one minute after sustaining the wounds. Ultimately,
the medical examiner’s testimony, construed in the light
most favorable to the prosecution, would have allowed
the jury to find that Rob Andrew remained conscious for
several minutes after sustaining the wounds.
Pavatt argues that the fact that Rob Andrew was
found “clutching the plastic trash bag was meaningless in
determining whether [he] consciously suffered and thus,
it was unreasonable for the OCCA to speculate about
why [he] may have been holding the bag.” Aplt. Br. at
30. I disagree. It is unknown whether Rob Andrew was
holding the trash bag prior to being ambushed, or whether,
instead, he was able to pick up the bag and attempt to
fend off his attacker after sustaining one or both shotgun
blasts. Because the OCCA was obligated to view the
evidence in the light most favorable to the prosecution, it
was entirely reasonable for it to draw the latter inference.
And that inference was relevant to the OCCA’s assessment
of the sufficiency of the evidence supporting the HAC
aggravator because it would have supported a finding that
Rob Andrew remained conscious, and indeed mobile, after
one or both shotgun blasts.

140a
Appendix B
Pavatt also complains that it was unreasonable for
the OCCA “to conclude that Rob consciously suffered
based on Brenda’s statements in her 911 calls, when
everything she said in those calls was determined to be
false.” Id. The fallacy of this argument, however, is the
notion that all of Brenda’s statements to the 911 operator
were proven to be false. The fact of the matter is that at
least some of Brenda’s statements during the two 911
calls were obviously true. For example, it is undisputed
that she was physically present with Rob Andrew after
he suffered the two shotgun blasts and during at least
the second 911 call. Further, her statements to the 911
operator that she and Rob Andrew had been shot were
indisputably true. Likewise, some of her statements
describing what she was witnessing, such as the arrival
of police officers to her house, were also quite clearly true
(indeed, officers’ voices can be heard in the background
during the second 911 call at the precise time that Brenda
tells the 911 operator that the police have arrived on the
scene). Thus, the jury, having listened to recordings of
both 911 calls, was left to decide whether her statements
to the 911 operator regarding Rob’s condition, including
her statement that he was conscious and attempting to
talk to her, and her repeated statements that he was
breathing, were credible or not. Although the jury was
not bound to give credence to those statements, it was
certainly within the jury’s province to do so. See Perry v.
New Hampshire, 565 U.S. 228, 132 S. Ct. 716, 732, 181 L.
Ed. 2d 694 (2012) (noting it is “the jury’s task [to] assess[]
witness credibility and reliability”). Consequently, I
conclude it was in turn reasonable for the OCCA, applying
the standard of review mandated by Jackson, to treat as

141a
Appendix B
credible Brenda’s statements regarding Rob Andrew’s
condition in assessing the sufficiency of the evidence to
support the HAC aggravator.
Finally, Pavatt argues that no “deference [should
be] afforded [the jury’s verdict] under Jackson” because
“[t]here were no conflicting facts about how Rob [Andrew]
died.” Aplt. Br. at 22. I disagree. Jackson provides, in
relevant part, that “a federal habeas corpus court faced
with a record of historical facts that supports conflicting
inferences must presume—even if it does not affirmatively
appear in the record—that the trier of fact resolved any
such conflicts in favor of the prosecution, and must defer
to that resolution.” at 326. That is precisely the situation
we have here. As we have already explained, the evidence
presented at Pavatt’s trial most certainly “supports
conflicting inferences” regarding how long Rob Andrew
remained conscious after sustaining the two shotgun
blasts. We therefore presume that the jury in Pavatt’s
trial, having found the existence of the HAC aggravator,
resolved these conflicts in favor of the prosecution. And,
in turn, we, like the OCCA, must defer to that resolution.
In sum, I conclude that Pavatt has failed to establish
that the OCCA’s determination that the evidence was
sufficient to support the HAC aggravator was contrary
to, or involved an unreasonable application of, clearly
established federal law. Thus, Pavatt is not entitled to
federal habeas relief on this claim.

142a
Appendix B
D
In his third and final challenge, Pavatt argues that
the HAC aggravating circumstance, as applied in his
case, is unconstitutionally vague in violation of the Eighth
Amendment. The majority agrees with Pavatt and indeed
grants him federal habeas relief on the basis of this claim.
In doing so, however, the majority ignores the fact that the
claim is both procedurally barred and not properly before
this court. Moreover, even ignoring these procedural
problems, the majority’s analysis ignores the fact that
the jury’s finding of the HAC aggravator in Pavatt’s
case is entirely consistent with the body of OCCA case
law that has tailored and applied the HAC aggravating
circumstance in a manner that avoids the arbitrary and
capricious infliction of the death penalty. Consequently,
Pavatt is not entitled to federal habeas relief on the basis
of this claim.
Pavatt’s failure to present the claim to the OCCA
In his second application for state post-conviction
relief, Pavatt argued to the OCCA that the HAC
aggravating circumstance was facially vague, in violation
of the Eighth and Fourteenth Amendments (i.e., a facial
challenge to the HAC aggravating circumstance). The
OCCA declined to review the merits of that claim, noting
that the claim could have been raised in Pavatt’s first
application for state post-conviction relief.
At no point has Pavatt ever argued to the OCCA that
the HAC aggravating circumstance, as applied in his

143a
Appendix B
case, is unconstitutionally vague in violation of the Eighth
and Fourteenth Amendments (an as-applied challenge).
Consequently, the OCCA has never had an opportunity
to address that claim. And, were Pavatt to attempt to
present the claim now to the OCCA, by way of a belated
application for state post-conviction relief, the OCCA
would presumably treat it as untimely and procedurally
barred. Thus, the claim has been procedurally defaulted
for purposes of federal habeas review. See Coleman v.
Thompson, 501 U.S. 722, 735 n.1, 111 S. Ct. 2546, 115 L.
Ed. 2d 640 (1991) (“This rule [allowing a federal habeas
court’s consideration of fairly presented federal claims]
does not apply if the petitioner failed to exhaust state
remedies and the court to which the petitioner would
be required to present his claims in order to meet the
exhaustion requirement would now find the claims
procedurally barred. In such a case there is a procedural
default for purposes of federal habeas . . . .”); Cole v.
Trammell, 755 F.3d 1142, 1169 (10th Cir. 2014) (“Cole has
never presented this argument to the Oklahoma state
courts and it is therefore unexhausted and subject to an
anticipatory procedural bar.”).
Pavatt’s federal habeas petition
In his federal habeas petition, Pavatt reasserted his
facial challenge to the HAC aggravating circumstance.
More specifically, in Ground Thirteen of his petition, Pavatt
argued that the Eighth and Fourteenth Amendments were
violated by Oklahoma’s continued use of what he described
as “the facially vague aggravating circumstance that a
murder is: especially heinous, atrocious, or cruel.” Dist.
Ct. Docket No. 42 at 172 (capitalization omitted).

144a
Appendix B
And, for the first time ever, Pavatt hinted at the
possibility of an as-applied challenge to the HAC
aggravating circumstance, but did not directly assert
that as an independent ground for federal habeas relief.
In Ground Ten of his petition, Pavatt argued, as he had
on direct appeal, that the evidence presented at trial was
constitutionally insufficient to allow the jury to find the
existence of the HAC aggravating circumstance. As part
of his Ground Ten arguments, Pavatt asserted for the
first time ever that his sentence “did not comport with the
Eighth and Fourteenth Amendments,” id. at 147, and he
compared the facts of his case to other Oklahoma capital
cases that purportedly involved victims who survived for
a brief time after being injured. Id. at 150-51, 154-55.
The district court concluded that Ground Thirteen—
Pavatt’s facial challenge to the HAC aggravating
circumstance—was “barred from federal review” because
the OCCA had declined to review it due to Pavatt’s
failure to raise it in a timely fashion. Dist. Ct. Docket
No. 91 at 90. As for Ground Ten, both the respondent and
the district court understandably treated it as alleging
only an insufficiency-of-evidence claim and not an asapplied vagueness challenge to the HAC aggravating
circumstance. See Dist. Ct. Docket No. 69 at 128 (“In
Ground Ten, Petitioner alleges that insufficient evidence
was presented at trial to support the jury’s finding of
the especially heinous, atrocious or cruel aggravator.”);
Dist. Ct. Docket No. 91 at 80 (“In Ground Ten, Petitioner
challenges the sufficiency of the evidence supporting the
jury’s finding that Rob’s murder was especially heinous,
atrocious, or cruel.”). Because Pavatt had raised an

145a
Appendix B
insufficiency-of-evidence challenge on direct appeal, the
respondent conceded that the claim was “exhausted for
purposes of federal habeas review,” Dist. Ct. Docket No.
69 at 128, and the district court agreed. Dist. Ct. Docket
No. 91 at 81-82. Ultimately, the district court rejected
Pavatt’s insufficiency-of-evidence claim, applying the
deferential standard of review outlined in § 2254(d). Id. at
83-84 (“Based on the presented evidence, and with acute
awareness of the double deference applied by the Court in
the resolution of this claim, the Court finds that Petitioner
has not shown that this decision by the OCCA is contrary
to or an unreasonable application of Supreme Court law.”).
Pavatt’s appeal to this court
Although the district court denied Pavatt a COA,
this court, in a November 24, 2014 case management
order, granted Pavatt a COA as to four claims, including
(1) the question of “[w]hether there was sufficient evidence
to support the ‘especially heinous, atrocious, or cruel’
aggravator (raised in Ground 10 of [his] habeas petition),”
and (2) “whether the trial court’s failure to provide an
adequate instruction to the jury that it must find ‘conscious
physical suffering’ beyond a reasonable doubt before
finding that the murder was ‘especially heinous, atrocious,
or cruel’ violated . . . Pavatt’s constitutional rights to a fair
trial, a reliable sentencing determination, and due process
(raised in Ground 11 of [his] habeas petition).” Case Mgmt.
Order at 1-2. Notably, the case management order made
no mention of Pavatt’s as-applied or facial vagueness
challenges to the HAC aggravating circumstance. Thus,
those arguments are not properly before this court.

146a
Appendix B
Nevertheless, Pavatt, in what amounts to either
ignorance or defiance of the case management order,
filed appellate pleadings inserting as-applied vagueness
arguments into his discussion of his insufficiency-ofevidence claim.
The majority opinion
Remarkably, the majority opinion ignores all of these
procedural problems and ultimately grants Pavatt federal
habeas relief on the basis of his as-applied vagueness
arguments. I disagree with this approach and would
reject Pavatt’s as-applied arguments as (1) not properly
before this court because no COA was granted on those
arguments, and (2) subject to an anticipatory procedural
bar due to Pavatt’s failure to present them to the OCCA.
The majority opinion also, curiously, purports to
apply the deferential AEDPA standards to Pavatt’s asapplied arguments, even though it is quite clear that those
arguments were never presented to or addressed by the
OCCA. Indeed, the majority opinion takes the OCCA to
task for failing to “apply[] or even consider[] controlling
Supreme Court precedent,” and in turn concludes that
the OCCA’s “decision [was] contrary to clearly established
federal law.” Maj. Op. at 29. But that begs the question of
what OCCA decision the majority opinion is referring to?
The merits of Pavatt’s as-applied arguments
Even if I were to ignore the serious procedural defects
described above and reach the merits of Pavatt’s as-

147a
Appendix B
applied challenge to the HAC aggravating circumstance,
I would reach a different conclusion than the majority.
OCCA case law, which the majority all but ignores,
identifies at least two categories of murders that the HAC
aggravator does not apply to, and both are distinguishable
from the murder committed by Pavatt. The first category of
murders are those in which the victim dies instantaneously
or nearly so. A perfect case in point is Simpson v. State,
2010 OK CR 6, 230 P.3d 888 (Okla. Crim. App. 2010). The
defendant in that case shot and killed two victims who
were traveling inside of a car. The first victim, who was
driving the car at the time of the shooting, “was shot four
times,” including “a grazing gunshot wound to the right
shoulder, two superficial gunshot wounds to the left side
of his back, and an ultimately fatal gunshot wound to his
chest.” Id. at 902. “Although [this victim] was initially
conscious after being shot, his breathing became labored
and he made gurgling sounds as his chest filled with blood
before he died.” Id. at 902-03. “There was [also] testimony
that immediately after he had been shot, [this victim]
was able to speak, was aware that he had been shot and
was fearful that the shooters would return.” Id. at 903.
“Reviewing th[is] evidence in the light most favorable
to the State,” the OCCA concluded “that the evidence
support[ed]” the jury’s “finding that [this victim’s] death
was preceded by physical suffering and mental cruelty.”
Id. “With regard to the murder of [the second victim, who
was the front seat passenger], the evidence showed that
his death was nearly immediate.” Id. In particular, he
“suffered numerous gunshot wounds including wounds to
his head and chest” and “[t]he Medical Examiner testified

148a
Appendix B
that [his] injuries were not survivable and he likely died
within seconds after being shot.” Id. Notably, the OCCA
concluded that this “evidence d[id] not show, beyond a
reasonable doubt and in a light most favorable to the
State, that [the second victim’s] death was preceded by
torture or that he endured conscious physical suffering
before dying.” Id. In short, the OCCA in Simpson drew
a distinction between murders in which the victim’s
death is instantaneous and murders in which the victim
experiences conscious physical suffering for some period
of time after being wounded.
Notably, Simpson is but one of many cases in which
the OCCA has refused to allow application of the HAC
aggravating circumstance where a murder victim’s death
was instantaneous or nearly so. Indeed, Pavatt cites
to numerous such cases in his opening appellate brief
(I cite these cases in the same order they are listed in
that brief). See Brown v. State, 1988 OK CR 59, 753 P.2d
908, 912 (Okla. Crim. App. 1988) (victim was shot seven
times, including once in the aorta and once in the heart;
no evidence was presented indicating that victim was
conscious after one or more of the shots); Davis v. State,
1995 OK CR 5, 888 P.2d 1018, 1021 (Okla. Crim. App.
1995) (“No testimony indicated that the victims who died
were conscious or suffered pain at any time.”); Sellers
v. State, 1991 OK CR 41, 809 P.2d 676, 690 (Okla. Crim.
App. 1991) (no evidence that any of the three victims were
conscious or suffered after being shot by the defendant);
Booker v. State, 1993 OK CR 16, 851 P.2d 544, 548 (Okla.
Crim. App. 1991) (concluding that testimony of medical
examiner, regarding victim who was shot in the chest with

149a
Appendix B
a shotgun, was “as consistent with instantaneous death as
any other possibility”); Marquez v. State, 1995 OK CR 17,
890 P.2d 980, 987 (Okla. Crim. App. 1995) (noting that the
victim “was shot approximately three times while asleep,”
“[t]he injuries caused by two of the shots could have been
fatal,” and one of those shots “would have caused death
nearly instantaneously.”); Cheney v. State, 1995 OK CR
72, 909 P.2d 74, 80 (Okla. Crim. App. 1995) (striking HAC
aggravator where the shooting at issue lasted only seconds
and some of the wounds would have rendered the victim
immediately unconscious); Myers v. State, 2006 OK CR 12,
133 P.3d 312, 332 (Okla. Crim. App. 2006) (“The evidence
does not prove [the victim] was conscious and aware of her
attack or that she was conscious and alive suffering pain
after the attack.”); Crawford v. State, 1992 OK CR 62,
840 P.2d 627, 641 (Okla. Crim. App. 1992) (“No testimony
was elicited by either the State or the defense as to the
level of suffering by the decedent,” and “no evidence was
presented to show that the decedent did not die instantly
as a result of the strangulation.”); Battenfield, 816 P.2d at
565 (assistant medical examiner testified “that the type
of blow to the victim’s head would generally cause loss of
consciousness immediately.”).
The second, and undeniably more limited, category
of murders that the OCCA has indicated do not warrant
application of the HAC aggravator are those in which
death is not instantaneous, but where the victim, though
conscious for some period of time, does not experience
severe physical suffering. This category is exemplified by
Cudjo v. State, 1996 OK CR 43, 925 P.2d 895 (Okla. Crim.
App. 1996). The murder victim in that case was shot a

150a
Appendix B
single time in the back of the head. Although the victim
“was aware he had been injured, he was not sure what
type of wound he had received (i.e. gun shot wound or blow
to the head).” Id. at 901. “Moreover, the gravity of [the
victim’s] injury was not apparent to others at the [crime]
scene.” Id. For example, one police officer testified that
the victim “was coherent and making sense.” Id. Another
police officer testified that the victim indicated “he was all
right.” Id. At worst, the evidence indicated that the victim
“experienced nausea, vomiting and shortness of breath
and complained about his head hurting.” Id. Ultimately,
after being taken to a local hospital, the victim “became
unresponsive and . . . later died.” Id. The defendant in
Cudjo argued on direct appeal that this evidence was
insufficient to support the jury’s finding of the HAC
aggravating circumstance. The OCCA agreed, noting that
while the victim “did experience some conscious physical
or mental suffering prior to his death, the evidence fail[ed]
to demonstrate that the murder was preceded by torture
or serious physical abuse.” Id.
Pavatt’s case does not fit within, and is reasonably
distinguishable from, these two categories of cases.
Comparing Pavatt’s case to Simpson, it is readily apparent
that Rob Andrew’s situation was most similar to that of
the first victim in Simpson, who remained conscious after
being shot and experienced severe physical suffering,
and was distinguishable from that of the second victim
in Simpson, who died almost instantaneously after being
shot. Pavatt’s case is also distinguishable from Cudjo for
the simple reason that the evidence in Pavatt’s case would
have allowed the jury to find that Rob Andrew, unlike the

151a
Appendix B
victim in Cudjo, experienced significant pain for a period
of time before dying. Thus, contrary to what the majority
may say, Pavatt’s case can be distinguished in a “principled
way” from numerous Oklahoma cases in which the OCCA
has held that the HAC aggravating circumstance cannot
be applied.
III
One final matter deserves mention. The majority
opinion cryptically “reverse[s] the denial of [federal
habeas] relief with respect to [Pavatt’s] sentence and
remand[s] to the district court for further proceedings.”
Maj. Op. at 2. The majority opinion also notes that “[t]he
jury . . . found the remuneration aggravator” and that
“[t]he parties have not presented arguments on what
effect that has on the disposition of this case.” Id. at 13
n.2. In my view, it is unclear what these statements are
intended to mean for the district court and the parties.
Moreover, I submit that the only remedy that the district
court may impose in light of the Sixth Amendment is
to order the State of Oklahoma to provide Pavatt with
a new sentence proceeding within a reasonable time.
Cf. Hooks v. Workman, 689 F.3d 1148, 1208 (10th Cir.
2012) (“We therefore grant the writ with respect to Mr.
Hooks’s sentence, subject to the condition that the State
of Oklahoma resentence him within a reasonable time.”).
Oklahoma law outlines three possible sentencing
options for a person convicted of murder in the first
degree: death, imprisonment for life without parole,
or imprisonment for life. Okla. Stat. tit. 21, § 701.9(A).

152a
Appendix B
Where, as here, the State seeks imposition of the death
penalty, Oklahoma law requires the trial court to “conduct
a separate sentencing proceeding” before a jury. 3 Id.
§ 701.10(A). At this separate sentencing proceeding,
“evidence may be presented as to any mitigating
circumstances or as to any of the [statutory] aggravating
circumstances.” Id. § 701.10(C). In order for the jury at the
separate sentencing proceeding to recommend a sentence
of death, Oklahoma law requires the jury to make two
related findings of fact. First, the jury must unanimously
find beyond a reasonable doubt the existence of one or
more of the statutory aggravating circumstances. Id.
§ 701.11. Second, the jury must then unanimously find
that any such aggravating circumstance(s) outweigh the
mitigating circumstances alleged by the defendant. Id.
Oklahoma’s capital sentencing scheme in turn
requires the OCCA to review every sentence of death
that is imposed and determine, in pertinent part, whether
the evidence supports each of the statutory aggravating
circumstances found by the jury. Id. § 701.13(C)(2). The
OCCA is expressly authorized by statute to “[a]ffirm the
sentence of death” or to “[s]et the sentence aside and
remand the case for resentencing by the trial court.” Id.
§ 701.13(E). The statute also appears to imply that the
3. The separate sentencing proceeding is typically held before
the same jury that found the defendant guilty of murder in the
first degree. Okla. Stat. tit. 21, § 701.10(A). But where error is
determined to have occurred in the original capital sentencing
proceeding, the state trial court is authorized “to impanel a
new sentencing jury who shall determine the sentence of the
defendant.” Id. § 701.10a(1)(b).

153a
Appendix B
OCCA can “correct[]” any errors in the sentence. Id. And,
indeed, the OCCA has at times done just that by engaging
in its own reweighing after invalidating an aggravating
circumstance. E.g., Moore v. State, 1991 OK CR 43, 809
P.2d 63, 65-66 (Okla. Crim. App. 1991).
Historically, the Supreme Court has allowed for
such independent reweighing by state appellate courts.
See Richmond v. Lewis, 506 U.S. 40, 49, 113 S. Ct. 528,
121 L. Ed. 2d 411 (1992) (“Where the death sentence has
been infected by a vague or otherwise constitutionally
invalid aggravating factor, the state appellate court or
some other state sentencer must actually perform a new
sentencing calculus, if the sentence is to stand.”); Clemons
v. Mississippi, 494 U.S. 738, 110 S. Ct. 1441, 108 L. Ed.
2d 725 (1990) (“We see no reason to believe that careful
appellate reweighing of aggravating against mitigating
circumstances in cases such as this would not produce
‘measured consistent application’ of the death penalty or
in any way be unfair to the defendant.”).
But that precedent appears to be of questionable
validity in light of the Supreme Court’s recent decision in
Hurst v. Florida, __ U.S. __, 136 S. Ct. 616, 193 L. Ed. 2d
504 (2016). At issue in Hurst was the constitutionality of
Florida’s capital sentencing scheme. Under that scheme,
a capital defendant could be sentenced to death “only if an
additional sentencing proceeding ‘result[ed] in findings by
the court that such person shall be punished by death.’” Id.
at 617 (quoting Fla. Stat. § 775.082(1)). More specifically,
the trial judge had to “independently find and weigh
the aggravating and mitigating circumstances before

154a
Appendix B
entering a sentence of life or death.” Id. The Supreme
Court “h[e]ld this sentencing scheme unconstitutional.”
Id. at 619. In doing so, the Court explained that “[t]he
Sixth Amendment requires a jury, not a judge, to find
each fact necessary to impose a sentence of death.” Id.;
see also Ring, 536 U.S. at 589 (“Capital defendants, no less
than noncapital defendants, we conclude, are entitled to
a jury determination of any fact on which the legislature
conditions an increase in their maximum punishment.”).
To be sure, the Supreme Court has not yet revisited
the issue of appellate reweighing since issuing Hurst. But
the implications of Hurst seem clear. Appellate reweighing,
at least under a capital sentencing scheme like the one at
issue in Oklahoma, requires an appellate court to make a
new and critical finding of fact, i.e., whether the remaining
valid aggravating circumstances outweigh any mitigating
circumstances alleged by the defendant. In light of Hurst,
it appears clear that such a factual finding can be made
only by a jury. All of which leaves only one option in this
case: grant the writ subject to the State of Oklahoma
affording Pavatt with a new sentencing proceeding.4

4. By determining that the evidence presented at Pavatt’s
sentencing proceeding was insufficient to support the jury’s finding
of the HAC aggravating circumstance, the majority’s decision
in this case necessarily invalidates not only that aggravating
circumstance, but also the jury’s ultimate, and inextricably
intertwined finding that the aggravating circumstances that it
found outweighed the mitigating circumstances alleged by Pavatt.

155a
Appendix B
IV
Because I conclude that all of the issues asserted by
Pavatt in this appeal lack merit, I would affirm the district
court’s denial of Pavatt’s petition for writ of habeas corpus.

156a
Appendix
C
APPENDIX C — CASE
MANAGEMENT
ORDER
AND CERTIFICATE OF APPEALABILITY OF THE
UNITED STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED NOVEMBER 24, 2014
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-6117
JAMES DWIGHT PAVATT,
Petitioner-Appellant,
v.
ANITA TRAMMELL, WARDEN, OKLAHOMA
STATE PENITENTIARY,
Respondent-Appellee.
CASE MANAGEMENT ORDER
Before MURPHY, Circuit Judge.
In accordance with matters discussed and resolved
at the case management conference held in this appeal,
it is ORDERED:
1. The issues to be raised in the opening brief are:
A. Whether there was sufficient evidence to
support the “especially heinous, atrocious,
or cruel” aggravator (raised in Ground 10 of
Mr. Pavatt’s habeas petition), and whether the
trial court’s failure to provide an adequate

157a
Appendix C
instruction to the jury that it must find
“conscious physical suffering” beyond a
reasonable doubt before finding that the murder
was “especially heinous, atrocious, or cruel”
violated Mr. Pavatt’s constitutional rights to a
fair trial, a reliable sentencing determination,
and due process (raised in Ground 11 of Mr.
Pavatt’s habeas petition);
B. W hether there was const itut iona l ly
ineffective assistance of trial counsel regarding
the investigation of mitigating evidence or
the presentation of a meaningful case for life
imprisonment (raised in Ground 15, Claim
I.I., of Mr. Pavatt’s habeas petition), and
whether appellate counsel was constitutionally
ineffective in failing to raise a claim that trial
counsel was ineffective in these regards; and
C. W hether tr ial counsel provided
constitutionally ineffective assistance of counsel
regarding the introduction of a camping video,
live photographs of the victim, or testimony
regarding the victim’s good traits (raised in
Ground 15, Claim I.E., of Mr. Pavatt’s habeas
petition), and whether appellate counsel was
constitutionally ineffective in failing to raise a
claim that trial counsel was ineffective in these
regards;
2. Appellant’s opening brief shall be filed by Monday,
June 8, 2015, and shall consist of no more than 20,000
words;

158a
Appendix C
3. Appellee’s answer brief shall be filed by Monday,
August 10, 2015, and shall consist of no more than 20,000
words;
4. Appellant’s reply brief shall be filed by Friday,
September 25, 2015, and shall consist of no more than
9,450 words;
5. The merits panel assigned to this appeal will
determine the date and time for oral argument. The
clerk’s office will notify counsel through CM/ECF when
the matter is calendared for oral argument;
6. A Certificate of Appealability is GRANTED on the
issues set forth in paragraph 1. Any request for leave to
grant additional issues in the Certificate of Appealability
must be raised by written motion filed not later than
fourteen days after the date of this order. Appellee may file
a response to such a request not more than fourteen days
after the request is filed. The Clerk shall submit motions
for modification of the Certificate of Appealability to the
merits panel for decision. Unless otherwise ordered by
the merits panel, no issue shall be included in the briefs
other than those set forth in paragraph 1 of this order.
Any objection to the contents of the scheduling order
must be raised by written motion of not more than five
pages filed not later than ten days after its date. Motions
for extension of time or to alter the briefing limitations
of this order are discouraged and will be considered only
in the most crucial circumstances.

159a
Appendix C
The Federal Public Defender for the Western
District of Oklahoma is appointed as attorney of record
to represent the appellant, JAMES DWIGHT PAVATT.
18 U.S.C. § 3006A(c).
Entered for the Court,
ELISA BETH A. SHUMA KER,
Clerk of Court
/s/Elisabeth A. Shumaker
by: Chris Wolpert
Chief Deputy Clerk

160a
Appendix D
Appendix d — memorandum
opinion of
the united states district court for
the western district of Oklahoma,
filed may 1, 2014
in the United States District Court
for the Western District of Oklahoma
Case No. CIV-08-470-R
JAMES DWIGHT PAVATT,
Petitioner,
vs.
ANITA TRAMMELL, Warden, Oklahoma
State Penitentiary,
Respondent.1
May 1, 2014, Decided
May 1, 2014, Filed
MEMORANDUM OPINION
Petitioner, James Dwight Pavatt, a state court
prisoner, has filed a Petition for a Writ of Habeas Corpus
seeking relief pursuant to 28 U.S.C. § 2254. Doc. 49. 2
1. Pursuant to Fed. R. Civ. P. 25(d), Anita Trammell, who
currently serves as warden of the Oklahoma State Penitentiary,
is hereby substituted as the proper party Respondent in this case.
2. Doc. 49 is actually the amended petition. The amended
petition was filed to correct the original petition, Doc. 42, which was
inadvertently filed without the signature of counsel.

161a
Appendix D
Petitioner, who is represented by counsel, is challenging
the convictions entered against him in Oklahoma County
District Court Case No. CF-2001-6189. Tried by a jury
in August and September of 2003, Petitioner was found
guilty of Murder in the First Degree (Count 1) and
Conspiracy to Commit a Felony (Count 2). Finding that
the murder was committed for remuneration or the
promise of remuneration and that it was also especially
heinous, atrocious, or cruel, the jury sentenced Petitioner
to death on Count 1. On Count 2, the jury set punishment
at ten years imprisonment and a $5,000.00 fine (O.R. XI,
2045-46, 2062-63; O.R. XII, 2249-51).
Petitioner has presented fifteen grounds for relief.
Doc. 49. Respondent has responded to the Petition and
Petitioner has replied. Docs. 69 and 73. In addition to his
Petition, Petitioner also filed motions for discovery and an
evidentiary hearing, to which multiple responses, replies,
and further supplemental pleadings have been filed. Docs.
43, 55, 70, 74, 78, 85, and 86. After a thorough review
of the entire state court record (which Respondent has
provided), the pleadings filed herein, and the applicable
law, the Court finds that, for the reasons set forth below,
Petitioner is not entitled to his requested relief.
I. Procedural History.
In Case No. D-2003-1186, Petitioner appealed his
convictions and sentences to the Oklahoma Court of
Criminal Appeals (hereinafter “OCCA”). In a published
opinion, Pavatt v. State, 2007 OK CR 19, 159 P.3d 272
(Okla. Crim. App. 2007), the OCCA affirmed. Petitioner

162a
Appendix D
sought review of the OCCA’s decision by the United
States Supreme Court. His petition for writ of certiorari
was denied on February 19, 2008. Pavatt v. Oklahoma,
552 U.S. 1181, 128 S. Ct. 1229, 170 L. Ed. 2d 62 (2008).
Petitioner also filed two post-conviction applications, both
of which the OCCA denied. Pavatt v. State, No. PCD2009-777 (Okla. Crim. App. Feb. 2, 2010) (unpublished);
Pavatt v. State, No. PCD-2004-25 (Okla. Crim. App. Apr.
11, 2008) (unpublished).
II. Facts.
On November 20, 2001, Rob Andrew was shot and
killed in the garage of the Oklahoma City home he had
once shared with his wife, Brenda Andrew. Rob and
Brenda had been separated for a couple of months and
divorce proceedings were underway. Rob had come to the
marital home that Tuesday evening to pick up his kids3
for the upcoming Thanksgiving holiday. According to
Brenda, who also suffered a gun shot wound that evening,
she and Rob were both shot by two masked assailants who
confronted them in the garage and then fled. However,
Brenda’s unusual behavior and version of the event were
immediate indicators to police that there was more to the
story. Events, both before and after Rob’s death, showed
that Brenda wanted Rob dead so that she could collect his
$800,000 life insurance policy and she enlisted Petitioner
to help her carry out her plan. Petitioner was not only the
Andrews’ insurance agent but Brenda’s lover.
3. Rob and Brenda had a daughter, Tricity, age 10, and a son,
Parker, age 7.

163a
Appendix D
Petitioner and the Andrews attended the same
church, and Petitioner and Brenda taught a 5th and 6th
grade Sunday School class together. It is not surprising
then that it was at church where relationship issues
first came to light. Church members noticed Brenda
dressing inappropriately and acting inappropriately
with Petitioner, who was also married at the time.4 As
a result, on September 19, 2001, Petitioner and Brenda
were asked by church leaders to step down from their
teaching positions. Both Petitioner and Brenda were upset
by this. Brenda was upset that Rob would not defend her
and/or leave the church over it. Petitioner felt that Rob
was involved behind the scenes. Right after it happened,
Petitioner, referring to Rob, told a church member, “I hate
the son of a bitch” (J. Tr. VI, 1538).
In late September 2001, Brenda kicked Rob out of
the house and he moved into an apartment. The day after
he moved out, Rob told a close friend that he was afraid
that Brenda had finally found someone to kill him and
that someone was Petitioner. 5 Shortly thereafter, Brenda
filed for divorce. Even though it was apparent that Brenda
was being unfaithful and Rob knew that she had been
4. Petitioner filed for divorce on August 21, 2001, and the divorce
was granted September 6, 2001.
5. While this comment may have seemed outlandish, on
September 1, 2001, a plumbing contractor working in the Andrew
home overheard Brenda tell Rob that “she was going to have him
fucking killed” (J. Tr. VII, 1831). In addition, Petitioner, who had
served in the military, was often heard to brag about his involvement
in top secret missions. Petitioner indicated that he was a sniper, an
expert marksman, and that he used to kill people for a living.

164a
Appendix D
unfaithful to him before,6 Rob continued to express his
love for Brenda and maintained the hope that they could
reconcile. In the divorce, the two most troublesome issues
were custody of the kids and Rob’s $800,000 life insurance
policy. Brenda was very possessive of the kids and did not
want Rob to have any relationship with them. Regarding
the life insurance policy, Brenda was adamant that she
remain the designated beneficiary.
After Rob moved out and the divorce was underway,
the relationship between Petitioner and Brenda was much
more transparent. A next door neighbor recalled seeing
Petitioner’s truck at the Andrew residence with increased
frequency. In fact, it was particularly common to see
Petitioner’s truck in the Andrew driveway shortly after
Brenda had put the kids on the school bus. Petitioner, who
had told his adult daughter, Janna Larson, that he was
having a sexual relationship with Brenda, later told her
of his plans to marry Brenda and have a child with her.
Meanwhile, Brenda continued to relay her hatred for Rob.
Mr. Higgins, one of Brenda’s former paramours, testified
that after the divorce was filed, Brenda told him that she
wished Rob would just die so she could get the money and
go on with her life.

6. Norman Nunley and James Higgins, two men with whom
Brenda had previously been involved, testified at trial about their
prior sexual involvement with Brenda during her marriage to Rob.
Mr. Nunley testified that his relationship with Brenda lasted for
about three to six months in late 1997 and early 1998. Mr. Higgins
testified that his relationship with Brenda lasted for over a year from
about March 2000 to May 2001.

165a
Appendix D
On October 26, 2001, someone cut the brake lines to
Rob’s car. Rob noticed a problem with the brakes when
he first got into the car and he took it straight to the
dealership. The dealership confirmed that his brake lines
had in fact been cut. Rob called 911 from the dealership
to report what he believed was attempted murder. That
morning, Rob received three phone calls, one on his cell
phone and two at work. In all three calls, he was told that
he needed to get Norman Regional Hospital as soon as
possible because Brenda and/or his family were there.7
Petitioner’s daughter, Janna, admitted to making two of
the phone calls at the request of Petitioner. After listening
to the third call, Janna told police that she believed it was
her dad disguising his voice. Twice, once before Rob’s
death and once after, Petitioner told Janna to never tell
anyone about making those phone calls to Rob. Also, Janna
testified that around the same time as the brake incident,
her father told her that “nuttier than a fruitcake” Brenda
had asked him to murder Rob or have someone do it. Janna
testified that they both laughed it off and joked about
it. However, despite the nature of Brenda’s request and
Petitioner’s assessment of her mental status, Janna noted
that Petitioner continued in his relationship with Brenda.
The brake incident escalated Rob’s fear that Petitioner
and Brenda were trying to kill him and he immediately
began efforts to remove Brenda as the beneficiary of his
$800,000 life insurance policy. Rob wanted to make sure
that if anything happened to him, the insurance proceeds
7. Detective Barry Niles expressed his belief that the timing
and content of the calls made to Rob that morning were related to
his brake lines being cut.

166a
Appendix D
would go to his children. When Rob asked Petitioner about
changing the beneficiary, Petitioner told him he could not
change it because he was not the owner of the policy. When
Rob went over Petitioner’s head and asked Petitioner’s
boss whether he could change the beneficiary, Rob was
told that as of October 26, 2001, he was the owner of the
policy and that he could change the beneficiary. When
Petitioner found out that Rob had called his boss, he was
furious and told Rob, “[I]f you think you have problems
with Brenda you haven’t seen anything until you messed
with me” (J. Tr. VII, 1859-60).
The $800,000 life insurance policy in question was
sold to Rob by Petitioner, a Prudential agent, on March
25, 2000. As issued, Rob was the owner and the insured,
Brenda was the primary beneficiary, and the Andrew
children were the contingent beneficiaries. Although both
Petitioner and Brenda asserted that the ownership of the
policy had been changed to Brenda on a Prudential form
dated March 22, 2001, 8 Prudential’s corporate office never
received the original form. 9 Although Rob ultimately
8. The State’s evidence questioned the authenticity of the March
22, 2001, change of ownership form. First, the Contact History Log,
a document maintained by Petitioner in his client file for Rob, not
only appeared altered, but inconsistent with the date the alleged
ownership change occurred. In addition, consistent with Brenda’s
belief that she could sign Rob’s name better than he could, the State
presented evidence that Rob’s signature on the form was a forgery.
9. A faxed copy was sent by Petitioner to corporate on October
29, 2001. This was the first notice received by Prudential’s corporate
office about an alleged change of ownership. State’s Exhibits 28
through 32 are tape recordings of conversations between Rob and

167a
Appendix D
wanted to change the primary beneficiary to his brother
as trustee of a trust for the benefit of his kids, the matter
was at least temporarily resolved by a temporary order
entered in the divorce case on November 1, 2001. Per
court ruling, the kids were to be named the primary
beneficiaries with Brenda as the designated trustee.10
On November 20, 2001, Rob was looking forward to
picking up his kids and spending the long Thanksgiving
holiday weekend with them. Although Rob had also hoped
to do some quail hunting that weekend with his brother,
his continued efforts to acquire his 16-gauge shotgun from
Brenda were unsuccessful. At 6:00 that evening, Rob sat
in the driveway of the marital residence talking on his
cell phone to a friend while he waited for Brenda to get
the kids ready to go. When the garage door began to rise,
Rob told his friend that he had to go. Shortly thereafter,
shots were fired.
Brenda’s first call to 911 was at 6:20 p.m. In the first
call, Brenda reported that she and Rob had been shot in
the garage by assailants wearing black masks. In a second
call, which ended at 6:26 p.m., Brenda added that Rob was
Prudential corporate representatives, and Brenda and/or Petitioner
with Prudential corporate representatives regarding the ownership
of the policy. The conversations began with Rob’s call after the brake
incident on October 26th.

10. However, in the search of the Andrew residence after the
murder, police found a letter dated November 2, 2001, to Brenda
from Prudential which confirmed changes made to the policy. Per
the change, as of November 2nd, Brenda was the owner and sole
beneficiary. No contingent beneficiary was named.

168a
Appendix D
bleeding a lot, but that he was conscious, breathing, and
trying to talk. When police arrived, Rob’s car was in the
driveway, the garage door was up, Brenda’s van was in
the garage, Rob was lying on the garage floor in a pool of
blood, and Brenda was sitting about three feet away from
Rob in the doorway between the garage and the house.
The Andrew children were found in the back bedroom,
the room furthest from the garage. The bedroom door
was shut and the TV was on, with the volume raised to a
very uncomfortable level.
Brenda was taken out of the garage to the curb to
be treated and questioned. Brenda told police at the
scene that there were two armed assailants wearing
black masks and black clothes. The assailants said six or
seven words, but Brenda could not remember what they
were. The assailants fled the seen on foot. Oklahoma City
Police Officer Roger Frost, a 17-year patrolman who had
responded to several hundred crime scenes and twenty to
thirty homicides, was one of the first officers to arrive at
the scene. He described Brenda’s behavior that evening
as strange. She was not hysterical, as is usually the case.
Instead, Officer Frost testified that she was very calm
and able to answer his questions straight on. Her crying
appeared fake.
Brenda was taken by ambulance to the emergency
room, where she was treated for her injury, a single
gunshot wound to the back of her left arm. Officer Frost
followed Brenda to the hospital, and Oklahoma City Police
Officer Theresa Bunn met them there. At the hospital,
Brenda remained very calm. Similar to Officer Frost’s

169a
Appendix D
assessment, Officer Bunn described Brenda’s behavior as
bizarre and fake. Officer Bunn thought Brenda’s responses
were more of a theatrical production. As questioning
continued, Brenda’s description of the event and the
assailants remained fairly the same. Officer Frost thought
it was strange that Brenda could not remember the
particular words the assailants said. She had no specifics
on the weapons they had either, even though her wound
appeared to have been inflicted at close range. Brenda did
add that Rob was in the garage lighting the pilot light to
the heater because it had gone out, and she recalled the
assailants grabbing Rob’s pants. When asked what she
did after the shots were fired, Brenda said she went into
the kitchen to get the phone to call 911, checked on the
kids in the bedroom, and then returned to the garage.11
Rob died from two shotgun wounds, one to the neck
and one to the chest. One spent shotgun shell, a Winchester
16 gauge, was found on top of Brenda’s van in the garage.
A second spent Winchester 16 gauge shotgun shell was
found in the Gigstad residence. The Gigstads lived next
door to the Andrew residence. Brenda had a key to the
Gigstad residence because she routinely watched their
house when they went out of town. The Gigstads were
out of town when Rob was killed. Although the murder
weapon was never found,12 the State presented expert
testimony that the shell found in the Andrew garage had
been fired from the same shotgun as the shell found in
the Gigstad residence.
11. The lack of a blood trail, or any blood in the house for that
matter, was one of the indications that the crime had been staged.
12. Rob’s 16-gauge shotgun was never found either.

170a
Appendix D
In the door leading from the garage into the
house, police also found an embedded metal pellet
projectile. Because it was mashed up, its caliber could
not be determined at the scene; however, upon expert
examination, it was determined to be a .22 caliber.
Although the projectile was too damaged to conclusively
determine the manufacturer, the State presented expert
testimony that the projectile was consistent with four
.22 caliber CCI live rounds collected in the course of the
investigation. Three of these live rounds were found in
the Gigstads’ attic; the fourth was found in the passenger
floorboard of Janna’s car. Janna testified that Petitioner
had her car on the day Rob was killed, and that the next
time she drove the car, she saw the bullet in the floorboard.
When she called Petitioner to ask him about it, he told her
to throw the bullet away and not tell anyone about it. Less
then a week before Rob’s murder, Petitioner purchased
a .22 caliber handgun. Given that Brenda was shot in the
back of the arm, it was clear that her wound was not selfinflicted.
The day before Rob’s funeral, Petitioner, Brenda,
and the Andrew children fled to Mexico. Both Petitioner
and Brenda told Janna that they were leaving because
they anticipated being arrested for Rob’s murder after
the funeral. Over three months later, on February 28,
2002, Petitioner and Brenda were taken into custody at
the Mexican border. On that same day, Brenda called Mr.
Nunley, another one of her former paramours, from the
county jail in Hidalgo, Texas. She told Mr. Nunley that
she needed his help to get in contact with her attorney.
She told Mr. Nunley that there was a confession letter

171a
Appendix D
in her children’s luggage that she needed to get into the
proper hands.
State’s Exhibit 222 is a confession letter written
to Rob and Brenda’s daughter, Tricity, and signed by
Petitioner. The State presented expert testimony from a
document examiner that the letter was actually written by
Petitioner. In the letter, Petitioner takes full responsibility
for the planning and implementation of Rob’s murder. He
describes how he planned the crime and how he enlisted
a friend to help him. He states that after his friend shot
Rob and he shot Brenda, they ran and hid in the house
next door. Petitioner states he admitted his involvement
in Rob’s murder to Brenda while they were on their trip in
Mexico. Petitioner notes that Brenda was shocked, angry,
and hurt by his actions, and that she could not understand
why he would do it.
Additional facts will be referenced herein as they
relate to the individual grounds for relief raised by
Petitioner.
III. Standard of Review.
A. 	Exhaustion as a Preliminary Consideration.
The exhaustion doctrine is a matter of comity. It
provides that before a federal court can grant habeas
relief to a state prisoner, it must first determine that
he has exhausted all of his state court remedies. As
acknowledged in Coleman v. Thompson, 501 U.S. 722,
731, 111 S. Ct. 2546, 115 L. Ed. 2d 640 (1991), “in a federal

172a
Appendix D
system, the States should have the first opportunity to
address and correct alleged violations of state prisoner’s
federal rights.” While the exhaustion doctrine has
long been a part of habeas jurisprudence, it is now
codified in 28 U.S.C. § 2254(b). Pursuant to 28 U.S.C.
§ 2254(b)(2), “[a]n application for a writ of habeas corpus
may be denied on the merits, notwithstanding the failure
of the applicant to exhaust the remedies available in the
courts of the State.”
B. 	Procedural Bar.
Beyond the issue of exhaustion, a federal habeas
court must also examine the state court’s resolution of
the presented claim. “It is well established that federal
courts will not review questions of federal law presented
in a habeas petition when the state court’s decision rests
upon a state-law ground that ‘is independent of the federal
question and adequate to support the judgment.’” Cone v.
Bell, 556 U.S. 449, 465, 129 S. Ct. 1769, 173 L. Ed. 2d 701
(2009) (quoting Coleman). “The doctrine applies to bar
federal habeas when a state court declined to address a
prisoner’s federal claims because the prisoner had failed
to meet a state procedural requirement.” Coleman, 501
U.S. at 729-30.
C. 	Merits.
In accordance with the Antiterrorism and Effective
Death Penalty Act of 1996 (hereinafter “AEDPA”), the
Court’s authority to grant habeas corpus relief to state
prisoners is limited. When a state prisoner presents a claim

173a
Appendix D
to this Court, the merits of which have been addressed in
state court proceedings, the Court cannot grant habeas
corpus relief upon the claim unless it determines that the
state court proceedings resulted in a decision (1) “that
was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the
Supreme Court of the United States” or (2) “that was
based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d).
The focus of Section 2254(d) is on the reasonableness
of the state court’s decision. To obtain relief, a petitioner
must show that the state court decision is “objectively
unreasonable.” Williams v. Taylor, 529 U.S. 362, 409,
120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000) (O’Connor,
J., concurring but delivering the opinion of the Court
with respect to Part II). See Cullen v. Pinholster, 563
U.S. , 131 S. Ct. 1388, 1398, 179 L. Ed. 2d 557 (2011)
(acknowledging that Section 2254(d) places a difficult
burden of proof on the petitioner). “The question under
AEDPA is not whether a federal court believes the state
court’s determination was incorrect but whether that
determination was unreasonable — a substantially higher
threshold.” Schriro v. Landrigan, 550 U.S. 465, 473, 127
S. Ct. 1933, 167 L. Ed. 2d 836 (2007).
“Under § 2254(d), a habeas court must determine
what arguments or theories supported . . . the state
court’s decision; and then it must ask whether it is possible
fairminded jurists could disagree that those arguments
or theories are inconsistent with the holding in a prior

174a
Appendix D
decision of [the Supreme] Court.” Harrington v. Richter,
562 U.S. 86, 131 S. Ct. 770, 786, 178 L. Ed. 2d 624 (2011).
Relief is warranted only “where there is no possibility
fairminded jurists could disagree that the state court’s
decision conflicts with [the Supreme Court’s] precedents.”
Id. The deference embodied in Section 2254(d) “reflects
the view that habeas corpus is a ‘guard against extreme
malfunctions in the state criminal justice systems,’ not a
substitute for ordinary error correction through appeal.”
Id. (citation omitted).
IV. Analysis.
A. 	Pretrial Publicity (Ground One).
In his first ground for relief, Petitioner asserts that
he was denied due process and his right to an impartial
jury due to pretrial publicity. Petitioner raised this claim
on direct appeal and the OCCA denied it on the merits.13
Respondent contends that Petitioner is not entitled to
relief because he has failed to show that the OCCA’s
decision is contrary to or an unreasonable application of
Supreme Court law.
On January 8, 2003, Petitioner filed a motion for a
change of venue. In the motion, Petitioner adopted the
arguments made in a separate motion filed by Brenda
and requested an evidentiary hearing (O.R. IV, 800-01).
In a two-day hearing, held on January 9 and 21, 2003,
13. In Ground Fifteen, Petitioner presents a related trial
counsel ineffectiveness claim.

175a
Appendix D
the defense presented four witnesses in support of their
motions. Three of the witnesses addressed the Oklahoma
City media market14 and the media coverage of the murder.
The fourth witness discussed the results of an opinion
poll conducted by the University of Oklahoma at Brenda’s
request. The following evidence was presented:
• 1,527 15 stories aired on Oklahoma City’s four
major television stations16 from the day of the
murder, November 20, 2001, until January 4, 2003
(Defendant’s Venue Exhibit 3);
• according to Nielsen Media Research, these 1,527
stories reached a cumulative audience of 81,997,314
(referred to as “gross impressions”) (M. Tr. 1/9/03,
134; Defendant’s Venue Exhibit 4);
• in a telephone poll of 303 Oklahoma County
residents conducted in September and October of
14. The purpose of this evidence was to show the geographical
span of the media coverage, and in turn, the counties outside of the
coverage area which might serve as a suitable venue.
15. Throughout his pleadings, Petitioner’s counsel incorrectly
reports this number as 15,027.
16. This number includes the multiple times a story may have
appeared on a single day or even in a single broadcast. For example,
on November 27, 2001, a week after the murder, a total of twenty
stories aired. KFOR ran two stories at 5 a.m., two at 6 a.m., one at
noon, and one at 6 p.m.; KOCO ran two stories at 5 a.m., two at 6 a.m.,
one at noon, one at 5 p.m., one at 6 p.m., and one at 10 p.m.; KOKH
ran one story at 9 p.m.; and KWTV ran one story at 5:30 a.m., two at
6 a.m., one at 7 a.m., and one at 5 p.m. (Defendant’s Venue Exhibit 3).

176a
Appendix D
2002, 264, or 87%, had heard of the murder and
of these 264, 247, or 93%, had heard of the case
through the media (M. Tr. 1/9/03, 237; Defendant’s
Venue Exhibit 7);17
• between November 21, 2001, the day after the
murder, and October 29, 2002, seventy-four articles
appeared in The Daily Oklahoman newspaper and
forty of those articles were on the front page (M.
Tr. 1/21/03, 26-66, 70);18 and
• nationally, a story about the murder appeared in the
October 2, 2002, edition of People Magazine, twice
on America’s Most Wanted, and twice on Primetime
Thursday (M. Tr. 1/21/03, 75-78; Defendant’s Venue
Exhibit 17).19
17. The majority of the questions asked related to Brenda and
are therefore irrelevant here because Petitioner was tried separately.
18. Defendant’s Venue Exhibit 16 was an admitted exhibit
containing copies of all of the newspaper articles referenced in the
hearing. It is not a part of the transmitted state court record, and
according to Petitioner’s counsel, the exhibit was transmitted to
the OCCA for Petitioner’s appeals but went missing at some point.
Petition, p. 32 n.2. In his Petition, Petitioner has provided summaries
for twenty-seven of the articles which were contained in the missing
exhibit. Petition, pp. 32-38.
19. The People Magazine article was not admitted at the
hearing because it was attached to Brenda’s change of venue motion.
However, it is not contained in the original record (O.R. IV, 783-90).
Also, it is apparent from viewing Defendant’s Venue Exhibit 17 that
the reference to the 20/20 stories made by Brenda’s counsel at the
hearing is actually a reference to ABC’s Primetime Thursday.

177a
Appendix D
In denying a change of venue, the trial court
acknowledged the tremendous amount of media attention
the case had received, but found that the defendants
had not shown “that the minds of the inhabitants of the
county . . . [were] so prejudiced against [them] that a fair
and impartial trial [could not] be had . . .” (M. Tr. 1/21/03,
105) (referencing Okla. Stat. tit. 22, § 561). The trial court
did not foreclose the possibility, however, that a change
of venue might be necessary, but stated that voir dire
would be the best opportunity to determine what effect
the pretrial publicity had on the jury pool (M. Tr. 1/21/03,
104-08).
On the first day of trial, August 25, 2003, Petitioner
filed a motion re-urging his request for a change of venue
(O.R. X, 1933-35). In the motion, Petitioner asserted in
part as follows:
2. Since the airing of an alleged confession
letter purportedly written by [Petitioner] one
week prior to the Trial set in June, 2003, and
the current setting of this matter to begin on
August 25, 2003 against [Petitioner], numerous
news accounts of various documents and
pleadings filed have been presented to the
general public on television, on the radio, in
print and via the internet, all to the detriment
of [Petitioner].
3. In addition to the publishing of the abovedescribed letter for the last three (3) months,
recently a report of a counselor at the CARE

178a
Appendix D
Center has been published in its entirety
which documents the interview she held with
the children of Defendant Andrew concerning
the homicide. This report was publicized on
television, on radio, in print and via the internet.
All of this pre-trial publicity has prejudiced
[Petitioner] from receiving a fair trial in this
venue.
(O.R. X, 1933-34). The motion was heard prior to the start
of trial. Although defense counsel recounted the most
recent publicity, the trial judge noted that she was “very
mindful” of it. 20 Standing on its previous ruling, the trial
court denied the motion, and the case proceeded to voir
dire (J. Tr. I, 51-60, 73).
A review of voir dire reveals that although 100
potential jurors were called into the courtroom, it was
necessary to question only sixty-four to seat a jury. Of
the sixty-four questioned, eight had never heard about
the case. Of the thirty-four that were excused for cause,
eighteen were excused due to their inability to consider all
three punishment options, six were excused for publicity
reasons, and ten were excused for various other reasons. 21
With thirty jurors passed for cause, the State and the
20. The transcript of a motion hearing held the prior month
offers further support for the fact that the trial judge, a member of
the community herself, was well-aware of the publicity surrounding
the case (M. Tr. 7/24/03, 5).
21. To obtain two alternates, thirteen were questioned. Two of
the thirteen had never heard about the case, and of the seven who
were excused, none were excused for publicity reasons.

179a
Appendix D
defense were each given nine peremptory challenges;
however, each only exercised eight. The State waived its
eighth peremptory challenge and the defense waived its
final peremptory challenge. Three members of the jury
had never heard about the case (J. Tr. I, 106, 193; J. Tr.
III, 852; J. Tr. IV, 929-30, 958), and none of the jurors
who had been exposed to the publicity had ever formed
an opinion about the case and all affirmed that they could
be impartial (J. Tr. I, 101-02, 114, 119-20, 123-24; J. Tr.
II, 380-81, 426-27, 562-63, 595; J. Tr. III, 652, 805-06; J.
Tr. IV, 970-71). 22
On direct appeal review of Petitioner’s claim, the
OCCA found that it lacked merit. The OCCA held as
follows:
22. Jurors Chess and Cowns had not read, seen, or heard
anything about the case since the arrest (J. Tr. I, 101-02; J. Tr.
II, 595; J. Tr. III, 652). Juror Turner had not read, seen, or heard
anything about the case for over a year or year and a half (J. Tr. I,
119). Juror Smyth had read, seen, or heard very little and it had
been several months since she had (J. Tr. II, 426-27). Juror Weber
had read, seen, or heard very little. In fact, she had actually heard
more about the case during voir dire than anywhere else (J. Tr.
IV, 970). Juror Dawson had last seen something about the case on
the news the day before. She recalled hearing about it when it first
happened, but only remembered something about Mexico and the
border (J. Tr. I, 102; J. Tr. III, 805). Juror Porchay had last read,
seen, or heard something about the case a couple of weeks before
(J. Tr. I, 114). Juror Helms had last read, seen, or heard something
about the case the night before. He stated that he had heard about
the case on occasion, but that he did not know the details (J. Tr. I,
123; J. Tr. II, 562). Juror Lewis had last read, seen, or heard about
the “gist” of the case about three months before (J. Tr. II, 380-81).

180a
Appendix D
We review the trial court’s denial of [Petitioner’s]
motion for change of venue for an abuse of
discretion. DeRosa v. State, 2004 OK CR 19,
¶ 21, 89 P.3d 1124, 1135-36. Pretrial publicity
alone does not warrant a change of venue.
United States v. McVeigh, 918 F.Supp. 1467, 1473
(W.D.Okl. 1996) (“Extensive publicity before
trial does not, in itself, preclude fairness”). The
influence of the news media must be shown to
have actually pervaded the trial proceedings.
Hain v. State, 1996 OK CR 26, ¶ 8, 919 P.2d
1130, 1136. We consider all relevant evidence
to determine whether a fair trial was possible
at that particular place and time, keeping in
mind the ultimate issue: whether the trial court
was in fact able to seat twelve qualified jurors
who were not prejudiced against the accused.
DeRosa, 2004 OK CR 19 at ¶ 19, 89 P.3d at 1135
(“if a trial court denies a defendant’s change of
venue motion and the defendant is then tried
and convicted, the question is no longer about
hypothetical and potential unfairness, but about
what actually happened during the defendant’s
trial”).
[Petitioner] cites several cases from other
jurisdictions where a change of venue was
granted, but he offers no analysis as to how
those cases are relevant here. [FN4] He also
relies on Coates v. State, 1989 OK CR 16, 773
P.2d 1281, where we found error in the trial
court’s denial of a motion for change of venue.

181a
Appendix D
We see no parallels with Coates, however. The
defendant in Coates was an elected public
official, accused of embezzlement and other
crimes directly related to the administration of
her office. Therefore, all citizens of the county,
and hence every juror, could have perceived
themselves as “victims” of the alleged crimes.
In fact, two prospective jurors in Coates—at
least one of whom actually sat on the jury—
had been directly affected by the case because
checks they had written to the defendant’s
office had gone missing. Id. at ¶¶ 14-16, 773
P.2d at 1286-87. Likewise, cases from other
jurisdictions have noted that a change of venue
may be in order when the community from
which the jurors would be drawn may perceive
a personal stake in the proceedings. [FN5]
[Petitioner] does not argue such facts here, and
we find none.
FN4 . A l l but one of t he c a se s
[Petitioner] cites are procedurally
distinguishable because they involve
determinations made before voir dire
was even attempted. United States
v. McVeigh, 918 F.Supp. 1467, 1470
(W.D.Okl. 1996) (trial court order
granting change of venue; prosecution
did not dispute the need for a change
of venue, and disagreement was only
over the more appropriate venue);
United States v. Engleman, 489

182a
Appendix D
F.Supp. 48 (D.Mo. 1980) (trial court
order granting change of venue); State
v. James, 767 P.2d 549 (Utah 1989)
(interlocutory appeal on change of
venue). The posture of [Petitioner’s]
case is different. He is raising the
issue in the context of a direct appeal
after conviction; and because the
ultimate concern is an impartial
jury, he must demonstrate that the
jury actually empaneled to try him
was not impartial. See McVeigh, 918
F.Supp. at 1470 (“Ordinarily, the
effects of pre-trial publicity on the
pool from which jurors are drawn is
determined by a careful and searching
voir dire examination”). The fourth
case [Petitioner] relies on is State v.
Stubbs, 2004 UT App 3, 84 P.3d 837
(Utah App. 2004), where an appellate
court found reversible error in the
trial court’s denial of a motion for
change of venue. Stubbs, however, is
factually distinguishable; the entire
county had some 6000 residents,
the alleged rape victim was from a
locally prominent family, and voir
dire actually demonstrated that
acquaintance with members of the
complainant’s family and knowledge
of the case was pervasive.

183a
Appendix D
[Petitioner] also notes that his alleged
confession was reported in the press,
which also occur red in Ir vin v.
Dowd, 366 U.S. 717, 81 S.Ct. 1639, 6
L.Ed.2d 751 (1961). But the confession
disseminated in Irvin was only one
of many factors which worked to
deny the defendant a fair trial in
that case. These factors resulted in
actual prejudice in Irvin, as several
jurors admitted that they could not
presume the defendant to be innocent
of the crime. This record in this case
presents no such evidence of prejudice.
FN5. See e.g. McVeigh, 918 F.Supp. at
1470-72 (detailing how local citizenry
was affected by bombing of the federal
building in Oklahoma City); James,
767 P.2d at 554-55 (giving particular
weight to the widespread community
participation in the month-long search
for the murder victim’s body).
From the beginning, this case received more
than considerable attention in the local media.
That fact cannot be disputed. The case had
all the necessary elements to make it ripe for
media attention: sex, money, deception, and
murder. [Petitioner] refers us generally to the
record of the hearing on his change-of-venue
motion, but he does not articulate how an air

184a
Appendix D
of prejudice pervaded the trial proceedings
themselves. Again, our chief concern is not how,
or how often, the case played in the media, but
whether, at the end of the day, the trial court
was able to empanel twelve fair and impartial
jurors.
The trial court is entitled to considerable
discretion on issues involving jury selection,
because it personally conducts voir dire and
has the opportunity to observe the demeanor
of the panelists—so much of which is lost in
the transcription of the proceedings. Harris
v. State, 2004 OK CR 1, ¶ 11, 84 P.3d 731, 741.
The trial court excused a number of prospective
jurors who admitted that pretrial publicity
had affected their ability to be impartial. On
the other hand, several panelists—including
at least three who ultimately sat on the jury—
said they had heard nothing about the case.
Each person who actually sat on [Petitioner’s]
jury assured the court that he or she could
fairly evaluate the evidence, and could consider
all three punishment options if [Petitioner]
were found guilty. Nowhere in his brief does
[Petitioner] claim, much less demonstrate, that
any juror actually seated was biased against
him due to adverse pretrial publicity. Indeed,
defense counsel waived his last peremptory
challenge without comment, which we must
interpret as satisfaction with the final makeup
of the jury. The trial court did not abuse its

185a
Appendix D
discretion in denying a change of venue. This
proposition is denied.
Pavatt, 159 P.3d at 279-80.
A rguing both presumed and actual prejudice,
Petitioner asserts that he should have been granted
a change of venue and he seeks de novo review of his
claim. Petitioner likens his case to the cases in which the
Supreme Court has found a presumption of prejudice,
but he also argues the existence of actual prejudice.
Although Petitioner acknowledges that voir dire supports
a finding that the jurors who actually served could be fair
and impartial, he argues that it cannot be relied upon
because the trial court “pre-conditioned” the jurors to
give “acceptable” answers.
First, the Court finds that AEDPA deference applies
to this claim. In an effort to avoid the application of AEDPA
deference to his claim, Petitioner advances two arguments.
One, he contends that the OCCA did not address the
presumed prejudice portion of his claim. “When a federal
claim has been presented to a state court and the state
court has denied relief, it may be presumed that the state
court adjudicated the claim on the merits in the absence
of any indication or state-law procedural principles to the
contrary.” Richter, 131 S. Ct. at 784-85. Petitioner has not
overcome this presumption. The OCCA addressed the
merits of Petitioner’s claim head on, and although it did
not parcel out the claim in terms of presumed prejudice
and actual prejudice, its analysis, and the cases upon
which it relied and discussed, show that the OCCA fully

186a
Appendix D
understood and applied federal constitutional principles to
the determination of Petitioner’s allegation of error. Two,
and with reference to both presumed and actual prejudice,
Petitioner asserts that the OCCA’s decision is not entitled
to deference because it never reviewed the publicity which
occurred between the change of venue hearing and trial
and/or granted him an evidentiary hearing to present
this additional publicity which was not presented to the
trial court. This argument is clearly misplaced. On direct
appeal, appellate counsel presented the change of venue
claim as it was raised in the trial court, and the OCCA
reviewed the claim as presented. Appellate counsel did
not attempt to supplement the record on appeal, seek
an evidentiary hearing, and/or argue a claim of trial
counsel ineffectiveness with respect to the additional
publicity which occurred in the seven months between
the January venue hearing and Petitioner’s August trial.
Thus, contrary to Petitioner’s argument, the OCCA did
nothing on direct appeal to compromise the deference due
its decision under the AEDPA.
It is axiomatic that the constitutional right to a jury
includes the empanelment of impartial jurors. However,
as the Supreme Court acknowledged in Irvin v. Dowd,
366 U.S. 717, 722, 81 S. Ct. 1639, 6 L. Ed. 2d 751 (1961),
impartiality does not require a juror to be “totally
ignorant of the facts and issues involved.”
In these days of swift, widespread and diverse
methods of communication, an important
case can be expected to arouse the interest
of the public in the vicinity, and scarcely any

187a
Appendix D
of those best qualified to serve as jurors will
not have formed some impression or opinion as
to the merits of the case. This is particularly
true in criminal cases. To hold that the mere
existence of any preconceived notion as to
the guilt or innocence of an accused, without
more, is sufficient to rebut the presumption of
a prospective juror’s impartiality would be to
establish an impossible standard. It is sufficient
if the juror can lay aside his impression or
opinion and render a verdict based on the
evidence presented in court.
Id. at 722-23 (citations omitted).
Supreme Court precedent establishes two avenues
of relief for pretrial publicity. The first is presumed
prejudice. Presumed prejudice cases are rare, found in
only three Supreme Court cases dating back to the 1960s.
Goss v. Nelson, 439 F.3d 621, 628 (10th Cir. 2006). In those
cases, prejudice was presumed because “the influence of
the news media, either in the community at large or in
the courtroom itself, pervaded the proceedings.” Murphy
v. Florida, 421 U.S. 794, 799, 95 S. Ct. 2031, 44 L. Ed.
2d 589 (1975). In Rideau v. Louisiana, 373 U.S. 723,
726, 83 S. Ct. 1417, 10 L. Ed. 2d 663 (1963), prejudice was
presumed because the pretrial publicity created such a
“spectacle” that Rideau’s subsequent trial was all “but a
hollow formality.” In Estes v. Texas, 381 U.S. 532, 550-52,
85 S. Ct. 1628, 14 L. Ed. 2d 543 (1965), the Court applied
Rideau to find a due process violation in the televising
and broadcasting of a defendant’s trial. In Estes, the press

188a
Appendix D
overran the courtroom imposing “a circus atmosphere.”
Murphy, 421 U.S. at 799; Estes, 381 U.S. at 535-38. Finally,
in Sheppard v. Maxwell, 384 U.S. 333, 353-54, 86 S. Ct.
1507, 16 L. Ed. 2d 600 (1966), the “massive and pervasive”
media attention greatly exceeded the circumstances in
Estes. In addition to “extremely inflammatory publicity,”
the “courthouse was given over to accommodate the public
appetite for carnival.” Murphy, 421 U.S. at 799. “The fact
is that bedlam reigned at the courthouse during the trial
and newsmen took over practically the entire courtroom,
hounding most of the participants in the trial, especially
Sheppard.” Sheppard, 384 U.S. at 355. The Supreme Court
found that these circumstances deprived Sheppard “of that
‘judicial serenity and calm to which [he] was entitled.’” Id
(quoting Estes, 381 U.S. at 536).
A s the Supreme Cour t in Mur phy explicitly
acknowledged, Rideau, Estes, and Sheppard do not “stand
for the proposition that juror exposure to information
about a state defendant’s prior convictions or to news
accounts of the crime with which he is charged alone
presumptively deprives the defendant of due process.”
Murphy, 421 U.S. at 799. Prejudice was presumed in
Rideau, Estes, and Sheppard because “[t]he proceedings
in [those] cases were entirely lacking in the solemnity
and sobriety to which a defendant is entitled in a system
that subscribes to any notion of fairness and rejects the
verdict of a mob.” Murphy, 421 U.S. at 799. Accordingly,
the Tenth Circuit, in applying this precedent, has “held
that prejudice will only be presumed where publicity
‘created either a circus atmosphere in the court room or
a lynch mob mentality such that it would be impossible to

189a
Appendix D
receive a fair trial.’” Goss, 439 F.3d at 628 (quoting Hale
v. Gibson, 227 F.3d 1298, 1332 (10th Cir. 2000)).
In order to demonstrate that prejudice should
be presumed, the defendant must “establish
that an irrepressibly hostile attitude pervaded
the community.” Id. at 1567. “Simply showing
that all the potential jurors knew about the
case and that there was extensive pretrial
publicity will not suffice to demonstrate that
an irrepressibly hostile attitude pervaded the
community.” Id. Presumed prejudice is “rarely
invoked and only in extreme circumstances.” Id.
Hale, 227 F.3d at 1332 (quoting Stafford v. Saffle, 34 F.3d
1557, 1567 (10th Cir. 1994)).
W hile Petitioner has show n that the pretrial
publicity in his case was significant, he has not shown
that his case is one of the rare and extreme cases where
the media attention fostered “an irrepressibly hostile
attitude.” Stafford, 34 F.3d at 1567. Petitioner argues that
“[p]rejudice should be presumed because of the frequency
and nature of the publicity, and the demonstrated impact
this publicity had upon the pool from which the jury was
drawn, which ultimately sentenced [him] to death.” Reply,
p. 5. However, just as he failed to do on direct appeal,
Petitioner has not made a connection between the publicity
and the fairness of his trial. Supreme Court precedent
requires a showing of more than mere exposure, even
if that exposure is substantial. To find a presumption of
prejudice, the media must have overwhelmingly influenced

190a
Appendix D
the community to the point where it was simply impossible
to receive a fair trial. Petitioner details the media content
and then based on its “frequency and nature,” he argues
for a presumption of prejudice; however, his argument
amounts to no more than an assumption of prejudice. 23
Petitioner also asserts that there was a “demonstrated
impact” upon the jury pool, but he does not support this
statement, and as shown herein, the impact on the jury
pool was in fact surprisingly less than expected given that
“[t]he case had all the necessary elements to make it ripe
for media attention: sex, money, deception, and murder.”
Pavatt, 159 P.3d at 280.
In denying Petitioner’s claim, the OCCA acknowledged
that a change of venue is warranted when “[t]he influence
of the news media [has been] shown to have actually
pervaded the trial proceedings.” Pavatt, 159 P.3d at 279.
The OCCA denied relief, however, because Petitioner
failed to “articulate how an air of prejudice pervaded the
trial proceedings themselves.” Id. at 280. For the reasons
set forth above, the Court finds that the OCCA’s decision
is in accord with Supreme Court precedent on presumed
prejudice. Petitioner is therefore not entitled to relief on
this portion of his claim because he has failed to show that
the OCCA’s decision is contrary to or an unreasonable
application of Supreme Court law.

23. Petitioner does not claim that the publicity was inaccurate,
but acknowledges that it relayed the events as they unfolded and
was “identical” to much of the State’s evidence. Petition, pp. 38, 43,
and 47 n.3

191a
Appendix D
Beyond presumed prejudice, the Supreme Court has
held that a defendant may obtain relief when pretrial
publicity causes actual prejudice. Irvin is an actual
prejudice case. In Irvin, voir dire spanned four weeks.
Irvin, 366 U.S. at 720. From the panel consisting of 430
potential jurors, 370 expressed an opinion about Irvin’s
guilt, and 268 of the 370 were excused for cause because
their opinions were fixed. Of the twelve jurors who actually
sat on the jury, eight believed Irvin was guilty before
trial even began. Id. at 727. In these circumstances, the
Supreme Court held as follows:
With such an opinion permeating their minds,
it would be difficult to say that each could
exclude this preconception of guilt from his
deliberations. The influence that lurks in an
opinion once formed is so persistent that it
unconsciously fights detachment from the
mental processes of the average man. Where
one’s life is at stake—and accounting for the
frailties of human nature—we can only say
that in the light of the circumstances here
the finding of impartiality does not meet
constitutional standards.
Id. at 727-28 (citation omitted). The Court continued:
No doubt each juror was sincere when he said
that he would be fair and impartial to petitioner,
but psychological impact requiring such a
declaration before one’s fellows is often its
father. Where so many, so many times, admitted

192a
Appendix D
prejudice, such a statement of impartiality can
be given little weight. As one of the jurors put
it, ‘You can’t forget what you hear and see.’
With his life at stake, it is not requiring too
much that petitioner be tried in an atmosphere
undisturbed by so huge a wave of public passion
and by a jury other than one in which two-thirds
of the members admit, before hearing any
testimony, to possessing a belief in his guilt.
Id. at 728 (citations omitted).
Petitioner’s case is far removed from the circumstances
found in Irvin. As previously set forth above, of the 100
potential jurors summoned to the courtroom, it was
necessary to question only sixty-four of them to seat
a jury. Voir dire was conducted by the trial court, the
prosecution, and defense counsel, and of the sixty-four
questioned, eight had never even heard about the case,
and of the thirty-four that were excused for cause, most
(eighteen) were excused due to their inability to consider
all three punishment options. Only six were excused for
publicity reasons. Thirty jurors were passed for cause,
and neither the State nor the defense exercised all of their
peremptory challenges. Of the twelve jurors ultimately
selected to serve: (1) three had never heard about the case;
(2) none who had been exposed to the publicity had ever
formed an opinion about the case; and (3) all affirmed that
they could be impartial. It is for these very reasons that
the OCCA denied Petitioner relief. Pavatt, 159 P.3d at 280.

193a
Appendix D
In light of the foregoing circumstances, which in
effect undercut Petitioner’s claim for actual prejudice,
Petitioner is constrained to acknowledge that he “cannot
point to a statement by a juror that served that he or she
could not be fair and impartial.” Reply, p. 11. However,
Petitioner blames the trial court for the lack of evidence
supporting his claim by asserting that the trial court
“pre-conditioned” the jurors to give “acceptable” answers.
Having thoroughly reviewed the voir dire proceedings, the
Court cannot agree with Petitioner’s characterization. The
record reflects that the trial court conducted a thoughtful
voir dire in an open and relaxing atmosphere, and there is
no indication that potential jurors in any way altered their
responses to appease the trial court. The trial court had
no reason to seat a partial jury, and the comments which
Petitioner draws out from voir dire are more indicative
of the positive rapport the trial court developed with the
potential jurors than an attempt to solicit less-than-honest
responses.
In conclusion, the Court finds that Petitioner is not
entitled to relief on his Ground One. Because Petitioner
has not demonstrated that the OCCA’s ruling on the issue
of pretrial publicity is contrary to or an unreasonable
application of Supreme Court law, Petitioner’s Ground
One is hereby denied.
B. 	Ineffective Assistance of Counsel: Hearsay (Ground
Two).
In Grou nd T wo, Pet it ioner a sser t s that h is
constitutional rights were violated by the admission

194a
Appendix D
of hearsay. In support of his claim, Petitioner details
thirty-five statements originally made by Rob, Brenda,
and Janna as relayed through the testimony of seventeen
witnesses. Petitioner also claims that his trial counsel was
ineffective for failing to object to all of these statements
and that his appellate counsel was ineffective for failing
to raise the issue on direct appeal. Respondent asserts
that the majority of Petitioner’s claim is unexhausted.
As to the exhausted portion of the claim, Respondent
asserts that Petitioner has failed to show that the OCCA’s
decision is contrary to or an unreasonable application of
Supreme Court law. In his Reply, Petitioner (1) re-labels
his claim as one of ineffective assistance of counsel only
(to be differentiated from a direct evidentiary challenge
to the admission of hearsay with appended ineffectiveness
claims); and (2) asserts that the claim was fully presented
to the OCCA in his first post-conviction application, while
acknowledging his filing of a second post-conviction
application “[i]n order to make every effort to exhaust
meritorious claims.” Reply, p. 22.
No aspect of Petitioner’s Ground Two was presented
to the OCCA on direct appeal. In his first post-conviction
application, Petitioner did claim that his appellate counsel
was ineffective for failing to raise the issue of inadmissible
hearsay. 24 In that application, Petitioner asserted that his
24. In the Reply, Petitioner concedes that the issue presented
in his first post-conviction application did not include a trial counsel
ineffectiveness claim based on trial counsel’s failure to object. Reply,
p. 21 (“Thus, it would be fair to say that the ineffective assistance
of trial counsel issue based upon failure to object to the hearsay is
unexhausted.”).

195a
Appendix D
trial was “replete with inadmissible hearsay”; however,
he complained only about statements made by Rob and
listed as examples only two statements, one Rob made to
his friend, Ronald Stump, and another Rob made to his
pastor/counselor, Bobby McDaniel. 25 Original Application
for Post-Conviction Relief, No. PCD-2004-25, pp. 61-64. In
denying relief on this claim, the OCCA applied Strickland
v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed.
2d 674 (1984), and disposed of the claim on the merits.
Bypassing the deficient performance prong of Strickland,
the OCCA found that Petitioner was not entitled to
relief due to the absence of prejudice. Pavatt, No. PCD2004-25, slip op. at 3, 7 & n.8. While the present action
was pending, Petitioner returned to state court and filed
a second post-conviction application. In that application,
Petitioner presented the OCCA with a hearsay claim that
basically mirrored the expanded claim raised in his federal
habeas petition. Second Application for Post-Conviction
Relief, No. PCD-2009-777, pp. 1-11. Finding that the claim
was simply a “new slant” on the claim presented in his
first post-conviction application, the OCCA declined to
entertain the merits of the claim in accordance with Okla.
Stat. tit. 22, § 1089(D)(8). Pavatt, No. PCD-2009-777, slip
op. at 3.
In light of the foregoing procedural history, the
Court finds that the only portion of Petitioner’s Ground
Two that is subject to a merits review is that which was
presented to the OCCA in Petitioner’s first post-conviction
25. These are listed in his Petition as numbers 10 and 28.
Petition, pp. 59, 63.

196a
Appendix D
application. The Court finds that the issue presented there
was whether appellate counsel was ineffective for failing to
raise an evidentiary issue regarding hearsay statements
made by Rob, and specifically those two statements made
by Rob to Mr. Stump and Mr. McDaniel as identified
by post-conviction counsel therein. 26 While Petitioner
argues that the few examples he gave were sufficient to
alert the OCCA to the entirety of his claim as presented
in his Ground Two, the Court disagrees and finds that
the claim Petitioner presented to the OCCA in his first
post-conviction application does not encompass any of
the following: an ineffective assistance of trial counsel
claim; an additional twenty-one statements made by
Rob; statements made by Brenda and Janna; or a claim
based on Crawford v. Washington, 541 U.S. 36, 124 S.
Ct. 1354, 158 L. Ed. 2d 177 (2004). It is axiomatic that
exhaustion requires fair presentation of a claim to the
state courts, and “[t]he rule would serve no purpose if it
could be satisfied by raising one claim in the state courts
and another in the federal courts.” Picard v. Connor, 404
U.S. 270, 275-76, 92 S. Ct. 509, 30 L. Ed. 2d 438 (1971).
Accordingly, the Court will first address whether the
OCCA’s denial of relief under Strickland to Petitioner’s
claim that his appellate counsel was ineffective for failing
26. In addition to identifying these two statements, postconviction counsel also presented argument and authority as to
why each constituted inadmissible hearsay. The Court notes that
elsewhere within the subproposition, post-conviction counsel did
make two more record citations; however, these citations were cited
only to show trial counsel’s record objections to hearsay. As neither
were supported with argument or authority, the Court finds they
were not fairly presented.

197a
Appendix D
to raise an evidentiary issue regarding hearsay statements
made by Rob, and specifically those two statements made
by Rob to Mr. Stump and Mr. McDaniel, is contrary to or
an unreasonable application of Strickland.
Claims regarding the effectiveness of appellate
counsel are governed by Strickland. Cargle v. Mullin,
317 F.3d 1196, 1202 (10th Cir. 2003). Thus, in accordance
with Strickland, a petitioner alleging appellate counsel
ineffectiveness must show (1) that his appellate counsel’s
actions on appeal were objectively unreasonable and (2)
that, but for counsel’s unreasonable actions, he would
have prevailed on appeal. Smith v. Robbins, 528 U.S. 259,
285-86, 120 S. Ct. 746, 145 L. Ed. 2d 756 (2000); Miller
v. Mullin, 354 F.3d 1288, 1297 (10th Cir. 2004). It is clear
that the OCCA applied this standard to Petitioner’s claim.
It is also clear that the OCCA’s disposal of Petitioner’s
claim on the prejudice prong is a sound application of
Strickland. Strickland, 466 U.S. at 697 (“If it is easier to
dispose of an ineffectiveness claim on the ground of lack of
sufficient prejudice, which . . . will often be so, that course
should be followed.”). The final question then is whether
the OCCA’s determination fell within the AEDPA’s range
of reasonableness. The Court easily concludes that it does.
In disposing of Petitioner’s claim, the OCCA cited its
decision in Brenda’s case. Pavatt, No. PCD-2004-25, slip
op. 7 n.8. On appeal, Brenda unsuccessfully challenged
the admission of many of Rob’s statements that were
introduced at her trial, including the two statements that
Petitioner asserts his appellate counsel should have raised.
Regarding Rob’s statement to Mr. Stump, the OCCA found

198a
Appendix D
that it was clearly admissible as a statement reflecting
his current state of mind. Andrew v. State, 2007 OK CR
23, 164 P.3d 176, 188 (Okla. Crim. App. 2007). As to Rob’s
statement to Mr. McDaniel, the OCCA also found that
Petitioner’s threats toward Rob were properly admitted.
Id. at 189. Having denied relief in Brenda’s case, the OCCA
reasonably determined that even if Petitioner’s appellate
counsel had raised the hearsay issue, Petitioner would not
have prevailed on appeal. This conclusion is reasonable,
and thus, Petitioner is not entitled to relief on this portion
of his claim.
The remaining issues in Petitioner’s Ground Two
were presented to the OCCA in a second application
for post-conviction relief. As previously mentioned, the
OCCA declined to entertain the merits of these new issues
because, although they were readily available from the
trial transcript, they were not presented along with the
related claim raised in his initial post-conviction relief
application. Pavatt, No. PCD-2009-777, slip op. at 3. The
Tenth Circuit has repeatedly recognized the application
of a procedural bar to claims which could have been raised
in an initial post-conviction application but were not. See
Bland v. Sirmons, 459 F.3d 999, 1012 (10th Cir. 2006);
Medlock v. Ward, 200 F.3d 1314, 1323 (10th Cir. 2000);
Smallwood v. Gibson, 191 F.3d 1257, 1267 (10th Cir. 1999);
Moore v. Reynolds, 153 F.3d 1086, 1096-97 (10th Cir. 1998).
Petitioner asserts, however, that this Court should
not recognize the procedural bar applied by the OCCA

199a
Appendix D
because it is neither adequate nor independent. 27
Petitioner references Valdez v. State, 2002 OK CR 20, 46
P.3d 703 (Okla. Crim. App. 2002), and cases in which the
OCCA applied it to excuse the application of a procedural
bar to claims presented in subsequent applications.
However, recent cases from the Tenth Circuit expressly
reject Petitioner’s arguments. In Black v. Workman, 682
F.3d 880, 914-19, 485 Fed. Appx. 917 (10th Cir. 2012), and
Black v. Tramwell [sic], 485 F. App’x 335 (10th Cir. 2012)
(unpublished), cert. denied, __ U.S. __, 134 S. Ct. 73, 187
L. Ed. 2d 60 (2013), the Tenth Circuit found that, despite
Valdez and the cases applying it, the OCCA’s procedural
bar to claims presented in a subsequent post-conviction
application is both adequate and independent. In addition
to Black, two additional cases, Banks v. Workman, 692
F.3d 1133, 1144-47 (10th Cir. 2012), cert. denied, __ U.S.
__, 133 S. Ct. 2397, 185 L. Ed. 2d 1110 (2013), and Thacker
v. Workman, 678 F.3d 820, 834-36 (10th Cir. 2012), cert.
denied, __U.S. __, 133 S. Ct. 878, 184 L. Ed. 2d 688 (2013),
reached similar conclusions. See also Spears v. Mullin,
343 F.3d 1215, 1254-55 (10th Cir. 2003). In light of this
authority, Petitioner’s Valdez-based attack on the OCCA’s
application of a procedural bar to his Ground Two issues
fails — the OCCA’s procedural bar here is adequate and
independent.

27. Petitioner’s arg ument is generally asserted in his
Preliminary Statement Concerning Procedural Default. Petition,
p. 214 & n.11. It is more specifically discussed in his reply and in
supplemental pleadings filed thereafter. Reply, pp. 22-26; Docs. 80
and 90.

200a
Appendix D
Having found that the procedural bar applied by the
OCCA is both adequate and independent, the Court cannot
consider the merits of the remaining issues in Petitioner’s
Ground Two unless he can satisfy an exception. The first
exception, cause and prejudice, requires a petitioner
to demonstrate that some external objective factor,
unattributable to him, prevented his compliance with the
procedural rule in question. Spears, 343 F.3d at 1255.
A petitioner must also show that the failure resulted in
actual prejudice. Thornburg v. Mullin, 422 F.3d 1113, 1141
(10th Cir. 2005). Petitioner has not made any showing of
cause and prejudice to excuse his default of these claims.
The second exception can be met by showing that a
fundamental miscarriage of justice will occur if the claim
is not heard. The fundamental miscarriage of justice
exception addresses those rare instances “where the State
has convicted the wrong person of the crime.” Sawyer v.
Whitley, 505 U.S. 333, 340, 112 S. Ct. 2514, 120 L. Ed. 2d
269 (1992). Thus, to meet the exception, a petitioner must
make “a colorable showing of factual innocence.” Beavers
v. Saffle, 216 F.3d 918, 923 (10th Cir. 2000). This requires
Petitioner to “show that it is more likely than not that no
reasonable juror would have convicted him in the light
of the new evidence.” Schlup v. Delo, 513 U.S. 298, 327,
115 S. Ct. 851, 130 L. Ed. 2d 808 (1995). “In the specific
context of a sentencing challenge, the Supreme Court has
held actual innocence requires the petitioner to show ‘by
clear and convincing evidence that but for constitutional
error, no reasonable juror would find him eligible for the
death penalty under [state] law.’” Brecheen v. Reynolds,
41 F.3d 1343, 1357 (10th Cir. 1994) (quoting Sawyer, 505

201a
Appendix D
U.S. at 348). See also Black, 682 F.3d at 915-16. Although
Petitioner has made a general assertion that he is innocent
of both the murder and his death sentence, it falls woefully
short of satisfying this rare exception to the application
of a procedural bar, especially in light of the evidence
presented against him at trial. Petition, p. 215 & n.12.
In conclusion, Petitioner is not entitled to relief on his
Ground Two. Because Petitioner has failed to show that
the OCCA’s decision denying his appellate counsel claim is
contrary to or an unreasonable application of Strickland
and because the remaining portion of Petitioner’s Ground
Two is procedurally barred, relief is unjustified and
Ground Two is therefore denied.
C. Sufficiency of the Evidence (Ground Three).
In Ground Three, Petitioner challenges the sufficiency
of the evidence supporting his murder conviction.
Petitioner raised this claim on direct appeal and the OCCA
denied relief. Respondent aptly contends that Petitioner
has failed to show that the OCCA’s determination is
contrary to or an unreasonable application of Jackson v.
Virginia, 443 U.S. 307, 99 S. Ct. 2781, 61 L. Ed. 2d 560
(1979).
Jackson sets forth the familiar standard of review for
sufficiency of the evidence claims: “the relevant question
is whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt.” Jackson, 443 U.S. at 319. As
the Jackson Court noted,

202a
Appendix D
[t]his familiar standard gives full play to the
responsibility of the trier of fact fairly to resolve
conflicts in the testimony, to weigh the evidence,
and to draw reasonable inferences from basic
facts to ultimate facts. Once a defendant has
been found guilty of the crime charged, the
factfinder’s role as weigher of the evidence
is preserved through a legal conclusion that
upon judicial review all of the evidence is to be
considered in the light most favorable to the
prosecution. The criterion thus impinges upon
“jury” discretion only to the extent necessary
to guarantee the fundamental protection of due
process of law.
Id. (footnotes omitted).
Judicial review, therefore, is “‘sharply limited’” and a
reviewing court “must accept the jury’s determination as
long as it is within the bounds of reason.” Boltz v. Mullin,
415 F.3d 1215, 1232 (10th Cir. 2005) (citations omitted).
“[T]he Jackson inquiry does not focus on whether the trier
of fact made the correct guilt or innocence determination,
but rather whether it made a rational decision to convict
or acquit.” Herrera v. Collins, 506 U.S. 390, 402, 113 S.
Ct. 853, 122 L. Ed. 2d 203 (1993). See also Jackson, 443
U.S. at 318-19 (the question is not whether the reviewing
court itself believes that the evidence is sufficient to
establish a defendant’s guilt beyond a reasonable doubt).
Thus, “a federal habeas corpus court faced with a record
of historical facts that supports conflicting inferences must
presume—even if it does not affirmatively appear in the

203a
Appendix D
record—that the trier of fact resolved any such conflicts in
favor of the prosecution, and must defer to that resolution.”
Jackson, 443 U.S. at 326.
In addition to the deference afforded a jury’s verdict
by Jackson, the AEDPA adds another layer of deference to
the Court’s review of a sufficiency claim. As acknowledged
by the Supreme Court in Cavazos v. Smith, 565 U.S. __,
132 S. Ct. 2, 3, 181 L. Ed. 2d 311 (2011) (per curiam),
The opinion of the Court in Jackson v. Virginia,
443 U.S. 307, 99 S. Ct. 2781, 61 L.Ed.2d 560
(1979), makes clear that it is the responsibility
of the jury—not the court—to decide what
conclusions should be drawn from evidence
admitted at trial. A reviewing court may
set aside the jury’s verdict on the ground of
insufficient evidence only if no rational trier of
fact could have agreed with the jury. What is
more, a federal court may not overturn a state
court decision rejecting a sufficiency of the
evidence challenge simply because the federal
court disagrees with the state court. The
federal court instead may do so only if the state
court decision was “objectively unreasonable.”
Renico v. Lett, 559 U.S. [766], [773], 130 S. Ct.
1855, 1862, 176 L.Ed.2d 678 (2010) (internal
quotation marks omitted).
See also Parker v. Matthews, 567 U.S. __, 132 S. Ct. 2148,
2152, 183 L. Ed. 2d 32 (2012) (referring to habeas review
of sufficiency claims as a “twice-deferential standard”);

204a
Appendix D
Coleman v. Johnson, 566 U.S. __, 132 S. Ct. 2060, 2062,
182 L. Ed. 2d 978 (2012) (per curiam) (noting that Jackson
claims “are subject to two layers of judicial deference”).
In finding that both of Petitioner’s convictions 28 were
supported by constitutionally sufficient evidence, the
OCCA applied Jackson and held as follows:
[Petitioner] claims there is no “physical
evidence” or “forensic evidence” linking him
to the crimes. He misapprehends the nature
of evidence long held to be admissible and
credible in a court of law. A fingerprint at a
crime scene may be considered “physical” or
“forensic” evidence, though it is not direct
evidence of a crime; rather, it is circumstantial
evidence from which a jury can infer (in light
of other circumstances) that the person with
that fingerprint was present and participated
in the cr ime. The same is tr ue of DNA
evidence. Both are circumstantial in nature,
requir ing an inference unnecessar y for
“direct” evidence, such as a witness’s personal
observation of a crime. That both fingerprints
and DNA can be so compelling as evidence of
guilt (or exoneration) attests to the powerful
effect circumstantial evidence can have. In
fact, classic sources of “direct” evidence—a
confession, an eyewitness identification, the
28. Petitioner notes that any challenge to his conspiracy
conviction would be moot because he has already discharged the
ten-year sentence he received for that crime. Reply, p. 30 n.2.

205a
Appendix D
testimony of an informant or accomplice—are
themselves the subject of special cautionary
instructions and corroboration rules. In the
end, the law makes no distinction between
direct and circumstantial evidence; either, or
any combination of the two, may be sufficient
to support a conviction. The jury may consider
all competent evidence, along with rules of law
and basic common sense, in reaching a verdict.
Although Brenda Andrew was an eyewitness
to her husband’s murder, the State obviously
did not believe that her account of two masked
assailants was true. The State thus relied on
evidence that [Petitioner] and Brenda Andrew
had several motives to murder Rob Andrew
(money, dissolution of the Andrew marriage,
control over the Andrew children), all related to
the illicit affair that [Petitioner] never disputed
having with Brenda.
But the State’s evidence demonstrated much
more than motive. There was, in fact, a
considerable amount of physical evidence,
including bullets, shotgun shells, and forged
documents, which linked [Petitioner] to the
murder and a pre-existing plan to get away with
it. The testimony of Janna Larson, [Petitioner’s]
daughter, helped to show that [Petitioner] and
Brenda had planned to harm Rob Andrew for
some time, and that the failure of their first
attempt (by cutting the brake lines on his car)
only emboldened them. Larson also related

206a
Appendix D
a number of incriminating statements from
both [Petitioner] and Brenda. Larson may not
have been an eyewitness to the murder itself,
but she was certainly an eyewitness to many
overt acts of the two conspirators, and to their
preparations for flight after the murder. The
State also presented the letter written by
[Petitioner] from jail, 29 wherein he admitted
complicity in the murder but attempted to
exculpate Brenda. Both parties rejected the
letter as an accurate version of what happened,
although obviously for different reasons. While
the letter may have borne some relevance to
show [Petitioner’s] complicity, it was perhaps
more relevant to show how jealousy and greed
can disfigure the human mind. Add to this the
numerous other witnesses who spoke with and
observed Rob Andrew, Brenda Andrew, and
[Petitioner], as their relationships with one
another evolved. In short, the evidence against
[Petitioner] was largely circumstantial, but
that is not unusual in any kind of criminal case.
What may be unusual was how large a quantity
of circumstantial evidence the State was able
to present.
29. The evidence did not show that the letter was written by
Petitioner in jail. Based on a conversation Brenda had with Mr.
Nunley after crossing back into the United States from Mexico,
Brenda was in possession of the letter at that time (J. Tr. V, 138586). Although the OCCA misstated the evidence on this point, this
minor misstatement does not show, as Petitioner alleges, that the
OCCA failed to give “meaningful consideration” to Petitioner’s claim.
Petition, p. 77 n.7.

207a
Appendix D
All of the evidence presented at trial, when
considered together, formed an intricate web
of proof, from which any rational juror could
find [Petitioner] guilty of conspiring to murder
Rob Andrew and consummating the murderous
plan. The evidence was sufficient to support
both of [Petitioner’s] convictions.
Pavatt, 159 P.3d at 284-85 (citations omitted) (footnote
omitted).
In claiming that the evidence supporting his conviction
is lacking, Petitioner argues that his conviction is the
result of prejudicial jurors (Ground One), inadmissible
hearsay (Ground Two, presented through a claim of
ineffective assistance of appellate counsel), inadmissible
ultimate opinion testimony (Ground Seven, presented
through a claim of prosecutorial misconduct), and evidence
erroneously excluded (Ground Four). In addition to this
“cumulative error” argument, Petitioner notes the lack of
forensic physical evidence connecting him to the murder,
and he argues that even if the evidence showed that he
wrote the confession letter, he was manipulated by Brenda
to write it.
Petitioner’s arguments fail to meet the high standard
needed to obtain relief on this claim. Based on all of the
presented evidence, the OCCA’s finding of sufficient
evidence is a reasonable application of Jackson. Jackson
does not favor one particular type of evidence over another,
and so the fact that Petitioner was not linked to the murder
by forensic evidence is of no particular consequence.
As the OCCA found, the evidence was not only largely

208a
Appendix D
circumstantial, but substantially circumstantial. The
evidence clearly showed more than just an affair. Petitioner
may have been blinded by love and/or persuaded, enticed,
and/or manipulated by Brenda to assist her in the murder
of her husband, but that does not diminish Petitioner’s
criminal liability for his actions. Because the presented
evidence supports the jury’s determination and the
OCCA’s finding, Petitioner’s Ground Three is denied. If
Petitioner’s constitutional rights were otherwise infringed
by the additional allegations made by Petitioner regarding
the composition of his jury and certain evidentiary rulings,
they have been addressed herein as presented and on their
own individual merit as these arguments fall outside of
the inquiry mandated by Jackson.
D. 	Exclusion of Evidence That Someone Else
Committed the Murder (Ground Four).
In Ground Four, Petitioner contends that his right
to present a defense was infringed by the trial court’s
exclusion of evidence that someone else (other than
Brenda) committed the murder. 30 Petitioner raised this
30. Petitioner also claims that his Eighth Amendment
right was infringed by the exclusion of this evidence. Although
Petitioner did not raise this aspect of his claim on direct appeal,
the Court finds that this unexhausted aspect of his claim is without
merit. See 28 U.S.C. § 2254(b)(2) (“An application for a writ of
habeas corpus may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies available in the
courts of the State.”). Relying on Green v. Georgia, 442 U.S. 95,
99 S. Ct. 2150, 60 L. Ed. 2d 738 (1979), and Lockett v. Ohio, 438
U.S. 586, 98 S. Ct. 2954, 57 L. Ed. 2d 973 (1978), Petitioner asserts
that “[t]he inability to present evidence of other perpetrators in

209a
Appendix D
claim on direct appeal. In denying relief, the OCCA found
that the trial court did not abuse its discretion in excluding
a capital case is particularly egregious.” Petition, p. 88. Relative
to the second stage, Petitioner’s contention is that Zjaiton Wood’s
confession could have lessened his culpability.
[T]he petitioner’s argument is that the excluded
evidence may have permitted [the] jury to conclude
Mr. Pavatt was involved in Rob Andrew’s murder, but
that he did not directly participate, and that Zjaiton
Wood and Brenda Andrew were directly responsible.
If the jury viewed the evidence in this way it would
not prevent the jury from finding Mr. Pavatt guilty of
first degree murder, but it might well have prevented
them from giving him the death penalty.
Reply, p. 42.
Couching his claim in the Eighth Amendment does not
strengthen his argument. The issue remains whether Oklahoma’s
limitations on the admission of this evidence constituted an
arbitrary denial of Petitioner’s right to present a defense. Although
the Supreme Court in Green found that third-party guilt evidence
(an admission by Green’s co-defendant that Green was not even
present when the co-defendant shot and killed the victim they
had abducted together) should have been admitted in the second
stage of a capital proceeding, it additionally found that the omitted
testimony was “highly relevant to a critical issue in the punishment
phase of the trial . . . . and substantial reasons existed to assume
its reliability.” Green, 442 U.S. at 97. Regarding the reliability of
the statement, the Court noted that not only was the statement
against penal interest spontaneously made to a close friend,
but it was supported by “ample” corroborating evidence. Id. As
discussed herein, because Mr. Wood’s confession lack reliability,
the CCA did not unreasonably conclude, in light of Holmes v. South
Carolina, 547 U.S. 319, 126 S. Ct. 1727, 164 L. Ed. 2d 503 (2006),
that there was no constitutional error in its exclusion.

210a
Appendix D
the evidence pursuant to Okla. Stat. tit. 12, § 2804(B)(3),
and that application of this evidentiary rule in Petitioner’s
case did not run afoul of the Supreme Court’s decision in
Holmes v. South Carolina, 547 U.S. 319, 126 S. Ct. 1727,
164 L. Ed. 2d 503 (2006). Not surprisingly, Petitioner and
Respondent disagree as to whether the OCCA’s decision
is contrary to or an unreasonable application of Holmes.
Holmes was decided while Petitioner’s direct appeal
was pending. In Holmes, the defendant was charged
with beating, raping, and robbing an elderly woman
in her home, and the State’s evidence against him was
predominately forensic. Holmes, 547 U.S. at 321-22. As in
Petitioner’s case, the issue in Holmes was the exclusion
of third-party guilt evidence. In affirming the trial
court’s ruling excluding evidence which the defendant
sought to introduce, the South Carolina Supreme Court
articulated the evidentiary standard as follows: “‘where
there is strong evidence of an appellant’s guilt, especially
where there is strong forensic evidence, the proffered
evidence about a third party’s alleged guilt does not
raise a reasonable inference as to the appellant’s own
innocence.’” Accordingly, it found that the trial court
did not err in excluding the third-party guilt evidence
because the defendant “could not ‘overcome the forensic
evidence against him to raise a reasonable inference of his
own innocence.’” Holmes, 547 U.S. at 324 (quoting State
v. Holmes, 361 S.C. 333, 605 S.E.2d 19, 24 (S.C. 2004)).

211a
Appendix D
In Holmes, the Supreme Court discussed the
constitutional balance between the wide latitude given to
States in constructing evidentiary rules in criminal trials
and a defendant’s meaningful opportunity to present
a complete defense. The Supreme Court stated the
precedential standard as follows: a defendant’s “right [to
present a complete defense] is abridged by evidence rules
that infring[e] upon a weighty interest of the accused and
are arbitrary or disproportionate to the purposes they are
designed to serve.” Holmes, 547 U.S. at 324-25 (quoting
United States v. Scheffer, 523 U.S. 303, 308, 118 S. Ct. 1261,
140 L. Ed. 2d 413 (1998)) (internal quotation marks omitted).
The Court then discussed the cases in which it had previously
found certain state evidentiary rules to be arbitrary and
thus unconstitutional. Id. at 325-26 (discussing Washington
v. Texas, 388 U.S. 14, 87 S. Ct. 1920, 18 L. Ed. 2d 1019 (1967);
Chambers v. Mississippi, 410 U.S. 284, 93 S. Ct. 1038, 35 L.
Ed. 2d 297 (1973); Crane v. Kentucky, 476 U.S. 683, 106 S.
Ct. 2142, 90 L. Ed. 2d 636 (1986); and Rock v. Arkansas, 483
U.S. 44, 107 S. Ct. 2704, 97 L. Ed. 2d 37 (1987)). Nevertheless,
the Court maintained that
[w]hile the Constitution thus prohibits the
exclusion of defense evidence under rules
that serve no legitimate purpose or that are
disproportionate to the ends that they are
asserted to promote, well-established rules of
evidence permit trial judges to exclude evidence
if its probative value is outweighed by certain
other factors such as unfair prejudice, confusion
of the issues, or potential to mislead the jury.
Id. at 326.

212a
Appendix D
One such well-established rule governs the admission
of evidence that someone else committed the crime
for which the defendant is charged. Widely-accepted
evidentiary rules exclude this type of evidence without
running afoul of a defendant’s constitutional right to
present a defense when the tendered evidence is remote,
speculative, lacking a connection to the crime, and/or does
not tend to prove (or disprove) a material fact at issue.
Id. at 327 & n.* (quoting Corpus Juris Secundum and
American Jurisprudence and listing multiple jurisdictions
which employ some variation of the rule). Until 2001,
South Carolina applied an acceptable variation of this
constitutionally permissible rule. The rule required more
than a “‘bare suspicion’” or “‘conjectural inference’”
that someone else committed the crime. Admission was
permitted only when there is “‘proof of connection with
it, such a train of facts or circumstances, as tends clearly
to point out such other person as the guilty party.’” Id. at
328 (quoting State v. Gregory, 198 S.C. 98, 16 S.E.2d 532,
534-35 (S.C. 1941)).
In State v. Gay, 343 S.C. 543, 541 S.E.2d 541 (S.C.
2001), however, and in Holmes as well, the South Carolina
Supreme Court applied a “radically” altered standard
which shifted the focus from an evaluation of the relevance
and reliability of the proffered evidence to an assessment
of the State’s evidence of guilt. Holmes, 547 U.S. at 328-29.
Under this rule, the trial judge does not focus
on the probative value or the potential adverse
effects of admitting the defense evidence of
third-party guilt. Instead, the critical inquiry

213a
Appendix D
concerns the strength of the prosecution’s case:
If the prosecution’s case is strong enough,
the evidence of third-party guilt is excluded
even if that evidence, if viewed independently,
would have great probative value and even if it
would not pose an undue risk of harassment,
prejudice, or confusion of the issues.
Id. at 329. Although the defendant in Holmes had
challenged the reliability of the State’s forensic evidence
(i.e., fabrication, contamination, handling, and collecting),
the court did not even consider these challenges before
labeling the State’s evidence as “strong.”
Interpreted in this way, the rule applied by the
State Supreme Court does not rationally serve
the end that the Gregory rule and its analogues
in other jurisdictions were designed to promote,
i.e., to focus the trial on the central issues by
excluding evidence that has only a very weak
logical connection to the central issues. The rule
applied in this case appears to be based on the
following logic: Where (1) it is clear that only
one person was involved in the commission of a
particular crime and (2) there is strong evidence
that the defendant was the perpetrator, it
follows that evidence of third-party guilt must
be weak. But this logic depends on an accurate
evaluation of the prosecution’s proof, and the
true strength of the prosecution’s proof cannot
be assessed without considering challenges to
the reliability of the prosecution’s evidence. Just
because the prosecution’s evidence, if credited,

214a
Appendix D
would provide strong support for a guilty
verdict, it does not follow that evidence of thirdparty guilt has only a weak logical connection
to the central issues in the case.
Id. at 330. “The point is that, by evaluating the strength
of only one party’s evidence, no logical conclusion can
be reached regarding the strength of contrary evidence
offered by the other side to rebut or cast doubt.” Thus, the
Supreme Court found application of this evidentiary rule
to be arbitrary and unconstitutional. Id. at 331.
The evidence which was excluded in Petitioner’s case
is a confession by Zjaiton Wood. Mr. Wood was in the
county jail, along with Petitioner and Brenda, awaiting
his own capital murder trial when he allegedly wrote
letters to the trial court and to defense counsel in which he
admitted to killing Rob. In virtually identical letters, Mr.
Wood describes how Rob was a random victim. Mr. Wood
states that he followed Rob to the Shaftsbury residence,
and before exiting his own vehicle, he loaded his 16-gauge
shotgun and put a ski mask and extra ammunition in his
pocket. Mr. Wood continues as follows:
As I was on my way to the intended target I
noticed that the garage door was coming open,
that’s when I saw a woman standing inside of
it. I waited for a while to make sure everything
was clear and I noticed that the intended target
was on his way down like he was bending. I took
my ski mask and put it on and put the pistol I
had in my pocket. I made my way slowly in the

215a
Appendix D
back of the house so I wouldn’t be spotted. As
I approached the house where the target was
I came to the side of the house I noticed the
target (Robert Andrews) bent down working
on a heater or air condition unit. At that time
I came from the spot I was and fired my first
shot without any word my target fell at once to
the garage floor and befor I fired my second
shot I remembered the woman (Ms. Andrews)
standing there like she was in shock. I fired
one more round into my victim and noticed
that the female was about to run. I dropped my
discarded shotgun and grabbed the woman. I
pulled the pistol out of my pocket and fired one
shot at her hitting her in an unknown spot in
the upper body and pushed her to the ground.
Once the lady was on the ground I proceeded
to pat my dead victims pocket’s for his bill fold
but couldn’t find nothing so I fled to a hidding
post until I seen that every thing was clear. I
climbed through a window next door and hid in
the attic. As I fled an returned to my dwelling
I realized I had missed one of my shell’s to my
shotgun at the victims house. I also noticed that
I left some of my shotgun and pistol shell’s in
the attic I was hidding in.
(Court’s Exhibit 3) (errors in original).
On September 9th, defense counsel filed a motion to
endorse Mr. Wood, as well as three detention officers,
and the letter he received from Mr. Wood, as well as any

216a
Appendix D
jail reports regarding the letter, if any existed (O.R.
X, 1941-43). Two in camera hearings were held on the
motion. The primary issue at the first hearing, held on
Friday, September 12th, was whether Mr. Wood could
be compelled to testify. Mr. Wood’s attorney was present
at the hearing, and she not only strenuously objected to
him testifying, but she did not even want him brought
to the courtroom. Based on her knowledge of the case
from media reports, Mr. Wood’s attorney argued that the
letters appeared inconsistent with the evidence and she
asked that Petitioner’s counsel first be required to put
forth evidence demonstrating the letters’ credibility and
trustworthiness (M. Tr. 9/12/03, 8-18). The prosecutor
agreed with Mr. Wood’s attorney that admission of Mr.
Wood’s confession required a showing of reliability and
she also argued that his confession was inconsistent with
the physical evidence (M. Tr. 9/12/03, 18-21). In response,
defense counsel argued that the indicia of reliability was
shown because Mr. Wood wrote the letter and signed
it (at least defense counsel’s copy was signed). Defense
counsel also argued that the inconsistencies between
the confession and Brenda’s version of events was of no
consequence because no one believed her story (M. Tr.
9/12/03, 21-23). The trial court ruled that Mr. Wood would
not be required to testify and that the letter would not be
admitted due to absence of evidence showing its reliability.
Defense counsel was permitted to re-urge the issue with
respect to the endorsement of the three detention officers
(M. Tr. 9/12/03, 23-31).
After a weekend recess, a second in camera hearing
was held on Monday, September 15th. At this hearing,

217a
Appendix D
defense counsel, noting that Mr. Wood had been deemed
an unavailable witness, argued that the three detention
officers should be allowed to testify regarding their belief
that Mr. Wood wrote the letters and as to oral statements
against penal interest Mr. Wood made to them (M. Tr.
9/15/03, 4-7). In response, the prosecutor referenced the
requirements of Title 12, § 2804(B)(3), which provides in
pertinent part that “[a] statement tending to expose the
declarant to criminal liability and offered to exculpate
the accused is not admissible unless corroborating
circumstances clearly indicate the trustworthiness
of the statement.” The prosecutor argued, as she had
previously, that Mr. Wood’s confession had not been
shown to be reliable (M. Tr. 9/15/03, 7-10). Defense counsel
unsuccessfully argued that corroboration existed because
Mr. Wood had repeatedly confessed. Next, he re-asserted
(as he did at the prior hearing) that the confession should
not be excluded because it was inconsistent with Brenda’s
version of events. Finally, he claimed that the reliability
could be shown by the officers testifying as to their
familiarity with Mr. Wood’s handwriting (M. Tr. 9/15/03,
10-12). After the trial court overruled the motion, defense
counsel made an offer of proof that (1) had Mr. Wood been
allowed to testify, he would have admitted that he killed
Rob and he “would have provided additional details as set
out in his letter,” and (2) had the detention officers been
allowed to testify, they would have testified as to oral
statements made by Mr. Wood which were consistent with
statements made in his confession; that the confession
letters appeared to be in Mr. Wood’s handwriting; that
Mr. Wood gave the letters to one of them for mailing;
and that Mr. Wood had told at least one of the detention

218a
Appendix D
officers that he was acquainted with Brenda prior to
their incarceration in the Oklahoma County Jail. Defense
counsel argued “that this evidence taken together would
have provided a reasonable alternative theory of how this
crime was committed, that the appropriate nexus was in
fact Mr. Wood’s statements” (M. Tr. 9/15/03, 12, 15-17).
In denying Petitioner relief on this claim, the OCCA
acknowledged the applicability of § 2804(B)(3) and the
evidentiary support a defendant must offer to justify
admission of a statement which inculpates the maker and
exculpates the defendant.
There is no question that the letters in question
contained statements against the author’s penal
interest. The putative author of the letters
(Wood) was unavailable because he could not
be compelled to testify. Even assuming that
[Petitioner] could establish authorship of
the letters, he was still required to establish
(1) that a reasonable person in the author’s
position would not have made the statements
if they were not true, and (2) corroborating
circumstances which “clearly” indicate the
trustworthiness of the letters. The trial court
is not limited to gauging the credibility of
an exculpatory statement by reference to
the evidence supporting the State’s theory.
The court may, and indeed should, consider
any relevant evidence—even evidence the
State discounts—in determining whether
the statement is trustworthy enough to be
admissible.

219a
Appendix D
Pavatt, 159 P.3d at 287 (citations omitted). The OCCA then
noted the facts before the trial court which weighed into
its determination that the letters were not trustworthy.
As noted, Zjaiton Wood was himself awaiting
trial on an unrelated charge of first-degree
capital murder. He just happened to be
housed in the same “pod” of the county jail as
[Petitioner]. The letters were handwritten but
practically identical; that is, it appeared that
one had been copied verbatim from the other,
or that they had both been copied from another
source. While the letters were detailed, they
were perhaps too detailed, appearing to parrot
certain key features of the State’s case. The
letters were mailed shortly after [Petitioner’s]
trial began—after the State had publicly
outlined the salient features of its case. The
trial court was also presented with information
that Brenda Andrew had allegedly threatened
a female witness who was to testify at one of
the criminal proceedings against Wood, and
that Wood had allegedly attempted to “confess”
to other local murders besides this one. The
trial court was entitled to consider all of this
information in deciding whether the letters
were presumptively credible enough to be
admitted under § 2804.
In addition, the contents of the letters were
inconsistent with other evidence, including
some facts beyond the State’s theory of the

220a
Appendix D
case. For example, while the letters claimed
that the 16 —gauge shotgun used to kill
Andrew was left at the scene, no such weapon
(or any weapon for that matter) was found in
the vicinity. In fact, the 16—gauge shotgun
used to kill Rob Andrew—which was the same
unusual gauge of shotgun that Rob Andrew
owned and had left in the home when he moved
out—was never found. The letters claim that
Wood acted alone in the murder, and this is
inconsistent with both Brenda Andrew’s own
claim that two assailants attacked her husband,
and the letter, written by [Petitioner], claiming
that he enlisted another man to help him kill
Rob Andrew. While the State obviously did
not believe either account, the discrepancies
between the letters purportedly written by
Wood, and the defendants’ respective versions
of events, was something the trial court was
entitled to consider in gauging the reliability
of the letters.
Id. at 287-88 (citations omitted) (footnote omitted).
The OCCA even expressly discussed Holmes, finding
that § 2804(B)(3) “is nothing like the rule invalidated in
Holmes.” Id. at 288-89.
[Section 2804(B)(3)] permits the reliability of
the hearsay statement to be judged by any
relevant evidence, presented to the court on the
preliminary question of admissibility. . . .The

221a
Appendix D
letters purportedly written by Wood were
not inadmissible merely because they were
inconsistent with the State’s theory; they were
inadmissible because there simply was nothing
offered to corroborate them.
A confession tends to be more trustworthy if
it provides hitherto-unknown facts which are
not only verifiable, but also consistent with
known facts. The letters at issue fail both parts
of this test. As explained in our discussion of
Proposition 5, a substantial amount of evidence,
both direct and circumstantial, from a variety
of witnesses and other sources, coalesced into
a web of proof strongly implicating [Petitioner]
in a murderous conspiracy to kill Rob Andrew.
We fail to see how a jury could possibly have
discounted all of this evidence in favor of a
theory that Zjaiton Wood—with no known
connection to anyone in this case—happened to
drive up and murder Rob Andrew for his wallet,
in his garage, using the same unusual gauge
of shotgun that used to be in the Andrews’
home but which is now nowhere to be found.
Under these circumstances, the trial court
did not abuse its discretion in either refusing
to compel Wood to affirm or deny authorship
of the letters, or in excluding the letters from
the trial, pursuant to 12 O.S. § 2804(B)(3), as
uncorroborated and unreliable. This proposition
is denied.
Id. at 289 (footnote omitted).

222a
Appendix D
Petitioner asserts that the OCCA’s decision is in
conflict with Holmes for two reasons. First, Petitioner
contends that the OCCA’s decision is based on an
unreasonable determination of the facts. Here, Petitioner
faults the trial court for not receiving any testimonial
evidence at the hearings held on the matter, and he argues
that the trial court’s reliability determination was based
more on assumption than evidence. 31 Because the OCCA
relied on the findings made by the trial court, Petitioner
contends that the OCCA’s decision is an unreasonable
determination of the facts. Petitioner’s arguments,
however, ignore the fact that it was his responsibility to
present corroborating evidence. As the OCCA noted in its
opinion, “[e]ven assuming that [Petitioner] could establish
authorship of the letters, he was still required to establish
. . . corroborating circumstances which ‘clearly’ indicate
the trustworthiness of the letters.” Id. at 287 (emphasis
added). At the hearings, Petitioner sought to present Mr.
Wood and three detention officers to establish that Mr.
Wood wrote the letters and that Mr. Wood made other
verbal statements against his penal interest. Establishing
that Mr. Wood was the author of letters and the maker
31. Petitioner takes issue with the following information which
was made known during the hearing: (1) that Petitioner was housed
in the same pod with Mr. Wood; (2) that Mr. Wood had confessed
to other murders; and (3) that Brenda intimidated a witness in Mr.
Wood’s trial. Petitioner also faults the trial judge for using her
experience and common sense to support her belief that Mr. Wood
did not write the letter or if he did, that the words were not his own.
Despite Petitioner’s challenge to these findings, the fact remains, as
discussed herein, that Petitioner nevertheless failed to come forth
with evidence demonstrating the trustworthiness of Mr. Wood’s
confession.

223a
Appendix D
of statements that he killed Rob falls short of meeting
the evidentiary burden for admission of the evidence.
Petitioner has continually argued that the confession
speaks for itself, i.e., because it was made, and made
repeatedly, it is reliable and trustworthy. It is clear that
Oklahoma law, and particularly § 2804(B)(3), require
more, and, as more fully discussed below, Petitioner has
not shown that this evidentiary hurdle is an arbitrary
intrusion on his right to present a defense.
Petitioner’s second argument is that the OCCA’s
decision is contrary to or an unreasonable application
of Holmes. Here, Petitioner asserts that Oklahoma’s
§ 2804(B)(3) “is almost identical” to the evidentiary
standard found unconstitutional in Holmes. In support,
Petitioner references the OCCA’s concluding paragraph,
set forth above, and argues that the OCCA excluded
Mr. Wood’s confession because “it did not fit with the
State’s case.” Reply, pp. 39-40. As fully discussed above,
the Supreme Court in Holmes acknowledged the wellestablished restrictions placed upon the admission
of third-party perpetrator evidence in numerous
jurisdictions. Such evidentiary rules are constitutional
when applied “to focus the trial on the central issues
by excluding evidence that has only a very weak logical
connection to the central issues.” Holmes, 547 U.S. at
330. In Holmes, however, South Carolina ran afoul of
constitutionally permissible restrictions when it failed to
assess the reliability of the offered evidence but looked
only to the strength of the State’s evidence in determining
whether the defendant’s evidence could come in. Id. at 331.
The Supreme Court found that restricting the admission

224a
Appendix D
of third-party perpetrator evidence in this manner “is
‘arbitrary’ in the sense that it does not rationally serve
the end that . . . third-party guilt rules were designed to
further.” Id.
Contrary to Petitioner’s contention, the rule applied by
Oklahoma to exclude Mr. Wood’s confession is not identical
to the one applied by South Carolina in Holmes. What the
Supreme Court found to be arbitrary in Holmes is a rule
which excludes a defendant’s evidence without assessing
its own evidentiary merit. Holmes, 547 U.S. at 329 (“If
the prosecution’s case is strong enough, the evidence
of third-party guilt is excluded even if that evidence, if
viewed independently, would have great probative value
and even if it would not pose an undue risk of harassment,
prejudice, or confusion of the issues.”). In Petitioner’s case,
the OCCA referenced the presented evidence, but Mr.
Wood’s confession was not excluded solely because it failed
to sync with the State’s evidence. As the OCCA noted,
“[a] confession tends to be more trustworthy if it provides
hitherto-unknown facts which are not only verifiable, but
also consistent with known facts.” Pavatt, 159 P.3d at
289. Even if one were to assume that Petitioner and/or
Brenda had no influential contact with Mr. Wood in the
drafting of his confession, Mr. Wood’s letters provide no
“hitherto-unknown facts.” In fact, Mr. Wood’s confession
could have easily been compiled from the media reports.
Moreover, the confession actually contradicts the known
facts. As examples, (1) Mr. Wood states that the 16-gauge
shotgun he used to kill Rob was “discarded” after he shot
Rob a second time but before he shot Brenda; however,
the murder weapon was never recovered (J. Tr. XI, 2751);

225a
Appendix D
(2) Mr. Wood states that he patted down Rob’s pockets
for a billfold but could not find anything; however, Rob’s
wallet was in his front pants pocket and it contained $60 in
cash and several credit cards (J. Tr. IX, 2258-59, 2307-08;
State’s Exhibits 46 and 69); and (3) Mr. Wood states that he
entered the Gigstad residence through a window and hid
in the attic; however, Mr. Gigstad’s testimony was that the
house was secure when he left it (J. Tr. X, 2589-90). Finally,
it is simply beyond rational comprehension that Brenda
just got lucky and in the midst of her overwhelming desire
to see her husband killed (and enlisting Petitioner’s to
help her do so), Mr. Wood, a complete stranger, randomly
selected Rob as his victim at the very moment he was
coming to a residence where he had ceased living some
two months before to pick up his kids for a long holiday
weekend that Brenda did not want to happen. See Pavatt,
159 P.3d at 289 (“We fail to see how a jury could possibly
have discounted all of this evidence in favor of a theory that
Zjaiton Wood—with no known connection to anyone in this
case—happened to drive up and murder Rob Andrew for
his wallet, in his garage, using the same unusual gauge of
shotgun that used to be in the Andrews’ home but which is
not nowhere to be found.”). Clearly, Mr. Wood’s confession
lacked reliability and trustworthiness, and the OCCA did
not unreasonably apply Holmes in so finding.
For the foregoing reasons, Petitioner has failed to
show that the OCCA’s decision upholding the trial court’s
exclusion of the evidence pursuant to § 2804(B)(3) is
contrary to or an unreasonable application of Supreme
Court law or an unreasonable determination of the facts.
Relief on Petitioner’s Ground Four is therefore denied.

226a
Appendix D
E. 	Ineffective Assistance of Appellate Counsel:
Handwriting Expert (Ground Five).
In Ground Five, Petitioner asserts that his appellate
counsel was ineffective for failing to raise claims on
direct appeal regarding the State’s handwriting expert.
Petitioner asserts that appellate counsel should have
challenged the trial court’s denial of his request for
a Daubert/Kumho 32 hearing on the admissibility of
handwriting analysis. Petitioner additionally asserts that
appellate counsel should have argued that the expert’s
testimony was in any event improper because it included
his ultimate opinion that Petitioner wrote the confession
letter (State’s Exhibit 222). 33 Petitioner presented this
ground for relief to the OCCA in his first post-conviction
application and the OCCA denied relief on the merits.
Respondent asserts that Petitioner has failed to show that
the OCCA’s decision is contrary to or an unreasonable
application of Supreme Court law.
32. Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S.
579, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993); Kumho Tire Co., Ltd.
v. Carmichael, 526 U.S. 137, 119 S. Ct. 1167, 143 L. Ed. 2d 238 (1999).
Oklahoma applies the standards set forth in Daubert and Kumho
to determine the admissibility of novel expert testimony. Harris v.
State, 2004 OK CR 1, 84 P.3d 731, 745 (Okla. Crim. App. 2004).
33. Petitioner notes that the handwriting expert also testified
that Rob did not sign the form submitted to Prudential to change
the ownership of his $800,000 life insurance policy (State’s Exhibit
24); however, in his argument to the OCCA on post-conviction and
in the argument to this Court, Petitioner does not challenge this
testimony, but focuses solely on the expert’s testimony regarding
the confession letter.

227a
Appendix D
As previously noted in the analysis of Petitioner’s
Ground Two, supra, claims regarding the effectiveness
of appellate counsel are governed by Strickland. Thus,
to obtain relief, a petitioner must show that appellate
counsel’s actions were objectively unreasonable and that
but for counsel’s unreasonable actions, his appeal would
have been successful. Here again, the OCCA elected to
dispose of Petitioner’s claim on the prejudice prong. The
OCCA found that even if appellate counsel had raised the
claim on direct appeal, he would not have prevailed on
appeal. Pavatt, No. PCD-2004-25, slip op. at 7 n.8.
Petitioner has not demonstrated that the OCCA’s
decision on this claim is contrary to or an unreasonable
application of Strickland. The OCCA found that the claim
lacked merit because Petitioner failed to cite controlling
authority which required the trial court to hold a Daubert/
Kumho hearing before permitting the testimony of the
State’s handwriting expert. Petitioner’s argument to
the OCCA on post-conviction was that his appellate
counsel should have raised the issue because “[t]he issue
of handwriting uniqueness has been questioned in other
courts in this country.” Petitioner then cited federal
district court cases which either excluded the evidence
or prevented the expert from giving his ultimate opinion.
Original Application for Post-Conviction Relief, No.
PCD-2004-25, pp. 67-68. Given the absence of controlling
Oklahoma law, it was reasonable for the OCCA to find that
had appellate counsel raised the issue, Petitioner would
not have prevailed on appeal.

228a
Appendix D
As to the expert’s opinion that Petitioner wrote the
confession letter, Petitioner relies on the OCCA’s decision
in McCarty v. State, 1988 OK CR 271, 765 P.2d 1215 (Okla.
Crim. App. 1988), to assert that the expert’s opinion in
his case went beyond what is deemed permissible. See
Okla. Stat. tit. 12, § 2704 (permitting an expert to give
his opinion even if “it embraces an ultimate issue to be
decided by the trier of fact”). In McCarty, the OCCA
faulted an expert who, while acknowledging during
her testimony “that forensic science techniques had not
advanced to the point where a person could be positively
identified through blood types, secretor status, or hair
examination,” thereafter testified that the defendant was
in fact physically present when the victim was assaulted.
The OCCA found the expert’s testimony regarding the
defendant’s presence at the crime scene was improper
“because it was beyond the present state of the art of
forensic science, and certainly beyond [the expert’s]
personal knowledge.” McCarty, 765 P.2d at 1218, 1219.
Unlike the expert in McCarty, the handwriting expert
in Petitioner’s case did not testify beyond his expertise.
The handwriting expert (a/k/a “question document
examiner”), David Parrett, testified extensively about
his training and experience, about the principles of
handwriting identification, and about how handwriting
examinations and comparisons are conducted (J. Tr. XII,
3222-32), and he detailed for the jury his examination
and comparison of Petitioner’s known writing samples to
the confession letter (J. Tr. XII, 3244-65; State’s Exhibits
224-26). From noted characteristics in the writings, Mr.
Parrett expressed his opinion as follows:

229a
Appendix D
A fter compar ing the know n samples of
handwriting of Mr. Pavatt, looking at the
individual characteristics in his handwriting
and the known samples that I had and the class
characteristics in looking at the individual
characteristics and the class characteristics in
the question letter I noted like characteristics
and found no significant differences. It was
therefore my opinion that the person who
prepared the known standards that I looked at,
Mr. Pavatt did indeed prepare the letter which
was the questioned item, State’s Exhibit 222.
(J. Tr. XII, 3244). Having compared the expert testimony
in the present case to the testimony found improper
in McCarty, the Court cannot find that the OCCA
unreasonably denied relief to Petitioner based on appellate
counsel’s failure to raise the issue.
In conclusion, the Court finds that Petitioner has not
shown that the OCCA unreasonably applied Strickland
to the determination of this allegation of error against his
appellate counsel. Ground Five is therefore denied.
F. 	Ineffective Assistance of Appellate Counsel:
Accessory After the Fact Instruction (Ground Six).
In Ground Six, Petitioner claims once again that his
appellate counsel was ineffective. Petitioner’s argument
here is that his appellate counsel should have raised a
claim on direct appeal asserting a violation of his Eighth
Amendment rights due to the trial court’s failure to

230a
Appendix D
instruct the jury on accessory after the fact as a lessor
included offense. Petitioner raised this claim to the OCCA
in his first post-conviction application. Denying the claim
on the merits, the OCCA found that Petitioner had failed
to demonstrate prejudice as required by Strickland.
See Ground Two, supra (discussing the application of
Strickland to claims of ineffective assistance of appellate
counsel). Respondent asserts that the OCCA’s decision
is entitled to AEDPA deference and that Petitioner has
failed to show that the OCCA’s decision is contrary to or
an unreasonable application of Supreme Court law.
The Eighth Amendment claim that Petitioner faults
his appellate counsel for not raising is founded on Beck
v. Alabama, 447 U.S. 625, 100 S. Ct. 2382, 65 L. Ed. 2d
392 (1980). In Beck, the Supreme Court addressed the
constitutional ramifications of lesser-included instructions
for a capital crime. Prior to Beck, the Supreme Court had
“never held that a defendant is entitled to a lesser included
offense instruction as a matter of due process.” Beck, 447
U.S. at 637. In Beck, however, the Supreme Court carved
out an exception for those high stake cases where the death
penalty is a possible punishment.
For when the ev idence unquest ionably
establishes that the defendant is guilty of
a serious, violent offense—but leaves some
doubt with respect to an element that would
justify conviction of a capital offense—the
failure to give the jury the “third option” of
convicting on a lesser included offense would
seem inevitably to enhance the risk of an
unwarranted conviction.

231a
Appendix D
Such a risk cannot be tolerated in a case in
which the defendant’s life is at stake. As we have
often stated, there is a significant constitutional
difference between the death penalty and lesser
punishments. . . .
Id. Beck, therefore, requires a trial court in a capital case
to give the jury a third option to convict the defendant for
a lesser-included non-capital offense, when such lesser
offense is supported by the evidence. Id. at 627.
The problem with Petitioner’s reliance on Beck,
however, is that in Oklahoma the crime of accessory after
the fact is not a lesser included offense of first degree
murder. Cummings v. State, 1998 OK CR 45, 968 P.2d
821, 834 (Okla. Crim. App. 1998); Van Woundenberg v.
State, 1986 OK CR 81, 720 P.2d 328, 335 (Okla. Crim. App.
1986). As Respondent points out as well, the Supreme
Court in the later case of Hopkins v. Reeves, 524 U.S. 88,
96-97, 118 S. Ct. 1895, 141 L. Ed. 2d 76 (1998), emphasized
that Beck applies only to lesser included offenses, not
lesser related offenses. Therefore, had appellate counsel
challenged the trial court’s failure to instruct the jury
on the crime of accessory after the fact under Beck, it
is clear that Petitioner would not have prevailed on this
claim. Accordingly, Petitioner has failed to demonstrate
that the OCCA’s denial of his claim on Beck grounds is
unreasonable.
In his Reply, Petitioner argues that because Oklahoma
law requires instructions on both lesser included offenses
and lesser related offenses, his Eighth Amendment claim

232a
Appendix D
under Beck and Hopkins is nevertheless viable. See Glossip
v. State, 2001 OK CR 21, 29 P.3d 597, 603-04 (Okla. Crim.
App. 2001). In light of the clear pronouncements in Beck
and Hopkins, the Court does not agree. However, that
does not preclude Petitioner from arguing that his state
law rights have been infringed by the trial court’s refusal
to instruct on the crime of accessory after the fact as a
lesser related offense. See Arizona v. Evans, 514 U.S. 1, 8,
115 S. Ct. 1185, 131 L. Ed. 2d 34 (1995) (“[S]tate courts are
absolutely free to interpret state constitutional provisions
to accord greater protection to individual rights than do
similar provisions of the United States Constitution.”).
But even if Petitioner’s claim is evaluated from a state
law perspective, the Court still cannot conclude that the
OCCA acted unreasonably in finding that the claim would
have been unsuccessful on appeal. As referenced in the
Committee Comments to Oklahoma’s uniform instructions
on accessory after the fact, “[a]n individual becomes an
accessory under Oklahoma statutory provisions only when
that individual becomes associated with the offender and
his fate subsequent to the commission of the original
offense. One who participates either prior to or during the
commission of the offense is liable as a principal.” OUJICR (2d) 2-4 (citing Wilson v. State, 1976 OK CR 167, 552
P.2d 1404 (Okla. Crim. App.1976), and Vann v. State, 21
Okla. Crim. 298, 207 P. 102 (Okla. Crim. App. 1922)). In
the present case, there was a wealth of evidence showing
that Petitioner was involved in the murder prior to its
commission. In light of this evidence, the OCCA could
reasonably find the absence of prejudice under Strickland
resulting from appellate counsel’s failure to raise this
issue on direct appeal.

233a
Appendix D
For the foregoing reasons, the Court finds that
Petitioner’s Ground Six is without merit. It is hereby
denied.
G. 	Prosecutorial Misconduct (Ground Seven).
In Ground Seven, Petitioner details eight claims of
prosecutorial misconduct. Some of these claims were
presented to the OCCA in Petitioner’s direct appeal and
some were raised on post-conviction. One has never been
presented to the OCCA. Due to the varying presentation
of these claims to the OCCA, some are subject to AEDPA
review on the merits and others are procedurally barred.
1. 	Claims Raised on Direct Appeal.
Petitioner raised four of his eight claims on direct
appeal. Because these claims were denied on the merits
by the OCCA, they are reviewed here under the AEDPA
standard. Petitioner will therefore only be entitled to relief
upon a showing that the OCCA’s decision is contrary to or
an unreasonable application of Supreme Court law.
Allegations of prosecutorial misconduct are given
due process review. Stouffer v. Trammell, 738 F.3d
1205, 1221 (10th Cir. 2013). The question is whether the
prosecutor’s actions or remarks “so infected the trial
with unfairness as to make the resulting conviction a
denial of due process.” Donnelly v. DeChristoforo, 416
U.S. 637, 643, 94 S. Ct. 1868, 40 L. Ed. 2d 431 (1974). A
fundamental fairness inquiry “requires examination of the
entire proceedings, including the strength of the evidence

234a
Appendix D
against the petitioner, both as to guilt at that stage of the
trial and as to moral culpability at the sentencing phase.”
Le v. Mullin, 311 F.3d 1002, 1013 (10th Cir. 2002). “The
ultimate question is whether the jury was able to fairly
judge the evidence in light of the prosecutors’ conduct.”
Bland, 459 F.3d at 1024.
Petitioner’s third claim of prosecutorial misconduct
concerns the testimony of Kurt Stoner, an FBI agent
and State’s witness. Petitioner faults the prosecutor
for eliciting improper opinion testimony from Agent
Stoner. 34 At the end of direct examination, the prosecutor
asked Agent Stoner if he had formed an opinion about
Petitioner’s involvement in Rob’s murder. Before defense
counsel could object, Agent Stoner replied, “That he’s
directly involved” (J. Tr. XII, 3059-60). After a lengthy
discussion at the bench, the trial court admonished the
34. On direct appeal, Petitioner argued that Agent Stoner’s
opinion testimony was improper and that the admonishment was
not sufficient to cure the error. Although Petitioner cast aspersions
on the prosecutor (“After attempting to interject hearsay evidence,
the prosecutor moved in for the kill. . . .”), Petitioner did not directly
challenge the prosecutor’s conduct in his claim for relief. Brief of
Appellant, No. D-2003-1086, pp. 23-26. Nevertheless, Respondent
has argued that the OCCA addressed the merits of the prosecutorial
claim raised here, and she urges AEDPA review. Response, p. 103. In
his Reply, Petitioner agrees with Respondent that the prosecutorial
misconduct claim was raised on direct appeal, but he argues that
the OCCA failed to address it. Consequently, Petitioner argues for
de novo review of his claim. Reply, pp. 62-66. The Court finds it
unnecessary to resolve this presentation issue because even under a
de novo review, the Court finds itself in agreement with the OCCA’s
resolution of the issue.

235a
Appendix D
jury to disregard Agent Stoner’s answer. The jury was
also admonished the jury to disregard opinion testimony
given by Petitioner’s daughter, Janna, regarding her
opinion that Petitioner was not involved (J. Tr. XI, 2942;
J. Tr. XII, 2997, 3031, 3060-65).
The OCCA detailed the circumstances leading up
to Agent Stoner’s testimony and addressed Petitioner’s
claim as follows:
In Proposition 3, [Petitioner] claims error
when a State’s witness was allowed to interject
hearsay and give his personal opinion of
[Petitioner’s] guilt. Defense counsel timely
objected to this testimony, so the issue was
preserved for appellate review. We review the
trial court’s evidentiary rulings for an abuse
of discretion.
Ja n na La r son, [ Pet it ioner ’s] daught er,
testified in the State’s case in chief about her
conversations with her father before and after
Andrew’s murder, and about her observations
of her father’s conduct. [Petitioner] made
incriminating statements to Larson, told her
of his affair with Brenda Andrew, and enlisted
her help at various times in his efforts to
perpetrate the murder and avoid detection.
After [Petitioner] and Brenda left for Mexico,
Larson contacted an attorney, and soon agreed
to cooperate with the authorities. One officer
that she worked closely with was Agent Kurt

236a
Appendix D
Stoner of the Federal Bureau of Investigation.
Larson was understandably not happy about
having to testify against her father at trial. She
implied that she cooperated with authorities
out of fear that she might be implicated in the
murder if she did not. While not an entirely
hostile witness for the State, Larson was led by
defense counsel, in cross-examination, to opine
several times that she did not believe her father
was actually complicit in Rob Andrew’s murder.
After Larson testified, the State called Agent
Stoner to the stand. Stoner offered his version
of Larson’s cooperation in the investigation.
Stoner described Larson as ang r y w ith
her father and eager to cooperate with the
authorities; he denied that Larson was ever
threatened with prosecution if she did not
cooperate. The prosecutor then attempted,
several times, to impeach parts of Larson’s
testimony on this point by asking Stoner
what Larson had told him about her father’s
involvement in the murders. Each time, defense
counsel objected, and the trial court sustained
the objection. We need not decide whether this
would have been proper impeachment because
the testimony was never adduced; [Petitioner’s]
hearsay claim is unfounded.
The prosecutor then asked Stoner if, based on his
law enforcement experience and involvement in
this case, he had an opinion about [Petitioner’s]

237a
Appendix D
guilt. Defense counsel promptly objected, but
before the court could rule on the objection,
Stoner said he believed [Petitioner] was
“directly involved” in the murder. The trial
court denied defense counsel’s request for a
mistrial. The record shows that the parties
had discussed with the court, in limine, the
possibility of one party opening the door to
such evidence, and the prosecutor pointed out
that the defense had just elicited the very same
type of opinion testimony from Larson. The
trial court admonished the jury to disregard
any opinions about [Petitioner’s] guilt, whether
from Larson or Stoner.
We have often held that an admonition to
disregard inadmissible testimony is presumed
to cure any possible error. But given the
situation presented in this case, we also find
that any possible error was invited by the
defense. Just before Agent Stoner took the
stand, defense counsel elicited Larson’s opinion
as to her father’s innocence several times.
Stoner was used to impeach several aspects
of Larson’s testimony, not just her opinion of
her father’s guilt. We do not condone counsel
for either party gratuitously soliciting witness
opinions as to what result the jury should
reach. However, we do not believe the opinions
of either Larson or Stoner—each of whom had
a potential bias—left a serious impression on
the jurors, particularly after the trial court

238a
Appendix D
admonished them to disregard both. This
proposition is denied.
Pavatt, 159 P.3d at 290-91 (citations omitted).
Petitioner argues, as he did on direct appeal, that
the admonishment given to the jury was insufficient
to overcome the prejudicial nature of the statement.
Petitioner bolsters this argument by asserting that the
prejudice was attenuated by the weak evidence presented
against him. The Court is unpersuaded by Petitioner’s
arguments. Claims of prosecutorial misconduct are
not viewed in a vacuum, but in the context of the trial
as a whole. The OCCA denied Petitioner relief on this
claim because it found that Agent Stoner’s testimony
was no different than that elicited by the defense in the
questioning of Petitioner’s daughter, and that in any
event, the jury was instructed to disregard the improper
testimony from both witnesses. This conclusion is
reasonable. See Wilson v. Sirmons, 536 F.3d 1064, 1119
(10th Cir. 2008) (“Even if the prosecutor’s comments
were improper, however, the trial court’s admonition to
the jury cured any error.”); Battenfield v. Gibson, 236
F.3d 1215, 1225 (10th Cir. 2001) (“In light of the general
presumption that a jury follows a trial court’s instructions,
see Weeks v. Angelone, 528 U.S. 225, 120 S. Ct. 727, 733,
145 L.Ed.2d 727 (2000), we are persuaded that the trial
court’s admonition was sufficient to cure any error arising
out of the prosecutor’s comment.”). In addition, the record
reflects that while defense counsel objected to Agent
Stoner’s testimony, defense counsel stated that he did not
believe that the prosecutor had acted inappropriately in

239a
Appendix D
posing the question which elicited Agent Stoner’s response
(J. Tr. XII, 3064-65) (“Judge, if I can just make clear
for the record, I was not in any way suggesting that the
improper action was on the part of Mr. Gieger in asking the
question.”). Finally, while the evidence against Petitioner
may have been largely circumstantial, it was not weak. See
Ground Three, supra. Accordingly, the Court finds that
Petitioner was not denied a fundamentally fair trial by
Agent Stoner’s testimony and that Petitioner has failed to
show that the OCCA’s likewise determination is contrary
to or an unreasonable application of Supreme Court law.
In his sixth, seventh, and eighth claims, Petitioner
complains about statements made by the prosecutor
during the second stage. Petitioner claims that the
prosecutor inappropriately stated her personal opinion
that Petitioner should receive the death penalty (J. Tr.
XV, 3670-71, 3757, 3791-92), made calculated arguments to
inflame the jury (J. Tr. XV, 3790-91), and made a statement
undermining the jury’s consideration of mitigating
evidence (J. Tr. XV, 3775). 35
35. In his eighth claim, Petitioner additionally asserts that the
prosecutor misstated the test regarding the jury’s consideration
of mitigating evidence (J. Tr. XV, 3745, 3776). However, this
argument was not substantively raised on direct appeal, but on postconviction and with respect to a claim regarding the ineffectiveness
of Petitioner’s appellate counsel. Original Application for PostConviction Relief, No. PCD-2004-25, p. 40. While the parties dispute
the treatment this Court should afford the OCCA’s post-conviction
ruling on the issue, the Court finds that even under a de novo
standard of review, appellate counsel was not ineffective for failing
to cite these additional references concerning the jury’s consideration
of mitigating evidence. It is evident that these additional comments
did not deny Petitioner a fundamentally fair trial. Donnelly, 416
U.S. at 643.

240a
Appendix D
In denying Petitioner relief on these claims, the OCCA
held as follows:
First, [Petitioner] complains of var ious
comments that he describes as the personal
opinions of the prosecutor. [Petitioner] refers
to the prosecutor’s comments that this was
a “proper case for the death penalty”; that
“there are no extenuating circumstances which
mitigate the murder of Rob Andrew”; that this
particular murder was “heinous, atrocious, or
cruel”; that the jurors were “the only ones who
can see that justice is done”; and, finally, that
a death sentence was “the justice [Petitioner]
deserves.”
Counsel enjoy significant latitude in arguing
their respective positions, so long as the
arguments are based on evidence the jury has
received. Washington, 1999 OK CR 22 at ¶ 42,
989 P.2d at 974. A prosecutor’s comments do
not amount to improper “personal opinion”
merely because she asks the jury to impose the
death penalty. See Bernay v. State, 1999 OK
CR 37, ¶ 65, 989 P.2d 998, 1014 (“A prosecutor
may comment on the punishment to be given”).
The prosecutor’s arguments in this case as to
why [Petitioner] “deserved” the death penalty
were based on her assessments of the evidence
presented in court, and were entirely proper.
See Toles v. State, 1997 OK CR 45, ¶ 65, 947
P.2d 180, 193 (“The prosecutor did not give

241a
Appendix D
his personal opinion of the death penalty; he
argued why the death penalty was appropriate
in this case”).
[Petitioner] also claims that the prosecutor
improperly engaged in speculation and evoked
sympathy for the victim in the following
passage:
W hen Rob A ndrew lay dying on
that garage floor, James Pavatt and
Brenda Andrew looking at the sight
that you see in those pictures, what
do you believe his last words were?
What do you believe he was trying to
say when he was laying there on the
floor looking up at Brenda Andrew’s
face? He was probably trying to say
I love you, Brenda, because that’s the
kind of man he was.
Considering the evidence presented from the
crime scene, and about Rob Andrew’s feelings
for his wife, this was actually a fair comment on
the evidence. The prosecutor never suggested
that the inference was based on anything the
jury had not heard. See Alverson v. State, 1999
OK CR 21, ¶ 45, 983 P.2d 498, 514 (prosecutor’s
reference to murder victim as an “innocent
man, trying to make a living for his wife and
two baby boys,” was a proper comment on the
evidence).

242a
Appendix D
To the extent this comment may have evoked
sympathy for the victim, we do not find it so
outrageous as to have denied [Petitioner] a fair
sentencing proceeding. As the State had alleged
that the murder of Rob Andrew was especially
heinous, atrocious, or cruel, it was entitled to
present evidence that Rob Andrew suffered
extreme mental cruelty in conjunction with
his death. DeRosa, 2004 OK CR 19 at ¶ 96, 89
P.3d at 1156. The evidence reasonably led to the
conclusion that the last images Rob Andrew saw
were of his wife and her lover working together
to end his life. The prosecutor was entitled to
suggest reasonable inferences about what Rob
Andrew’s last thoughts might have been, in
order to establish the “heinous, atrocious, or
cruel” aggravator. See Alverson, 1999 OK CR 21
at ¶ 46, 983 P.2d at 514 (prosecutor’s asking the
jury to imagine the feeling of a metal baseball
bat hitting one’s head was a permissible
comment on the pain the victim may have felt
prior to death); Hooper, 1997 OK CR 64 at ¶ 53,
947 P.2d at 1110 (prosecutor’s statement that the
murder victim “was immersed in a child’s worst
nightmare of being chased by an evil monster
trying to kill her,” and request that the jurors
imagine what she went through, were based
on the evidence presented and on the State’s
theory of how the victim died). We find no plain
error in these statements.
Pavatt, 159 P.3d at 291-92.

243a
Appendix D
Although it is apparent that Petitioner is dissatisfied
with the OCCA’s decision, he has not shown that the OCCA
unreasonably determined the facts or denied him relief in
a manner which is contrary to or unreasonable application
of Supreme Court law. “[A] criminal conviction is not to be
lightly overturned on the basis of a prosecutor’s comments
standing alone, for the statements or conduct must be
viewed in context; only by so doing can it be determined
whether the prosecutor’s conduct affected the fairness of
the trial.” United States v. Young, 470 U.S. 1, 11, 105 S.
Ct. 1038, 84 L. Ed. 2d 1 (1985). Moreover, “[a]s a condition
for obtaining habeas corpus from a federal court, a state
prisoner must show that the state court’s ruling on the
claim being presented in federal court was so lacking in
justification that there was an error well understood and
comprehended in existing law beyond any possibility for
fairminded disagreement.” Richter, 131 S. Ct. at 786-87.
Because the OCCA’s decision is well within the accepted
range of reasonableness, Petitioner is not entitled to relief
on his sixth, seventh, and eighth claims of prosecutorial
misconduct.
2. 	Claims Raised on Post-Conviction.
Petitioner’s f irst, second, and f ifth claims of
prosecutorial misconduct were raised for the first time
in Petitioner’s second application for post-conviction
relief. The OCCA declined to review the merits of these
claims because “all of them could have been raised in
prior proceedings.” Pavatt, No. PCD-2009-777, slip op. at
3-4 (footnote omitted) (citing Okla. Stat. tit. 22, § 1089(D)
(8)). For the reasons discussed in Ground Two, supra, the

244a
Appendix D
Court finds that these claims are barred from federal
review.
3. 	Unexhausted Claim.
Petitioner’s fourth claim of prosecutorial misconduct
is unexhausted. Having twice pursued post-conviction
relief, it is clear that if Petitioner were to return to state
court with this claim, the OCCA would decline to entertain
its merits. Therefore, the Court finds that like his first,
second, and fifth claims of prosecutorial misconduct, this
claim is procedurally barred as well. Lott v. Trammell,
705 F.3d 1167, 1179 (10th Cir. 2013) (citing Anderson v.
Sirmons, 476 F.3d 1131, 1139-40 n.7 (10th Cir. 2007), and
applying an anticipatory procedural bar to an unexhausted
claim), cert. denied, U.S. , 134 S. Ct. 176, 187 L. Ed. 2d
120 (2013).
4. 	Conclusion.
For the foregoing reasons, the Court finds that
Petitioner is not entitled to relief on his Ground Seven.
Relief is therefore denied.
H. Jury Instructions on Life and Life Without Parole
(Ground Eight).
In Ground Eight, Petitioner asserts that the jury was
not adequately instructed on the sentencing options of life
and life without parole. The sum of Petitioner’s argument
is that the “jury should have been instructed that life
without parole means that the defendant will remain

245a
Appendix D
incarcerated for his natural life and that life means that
the defendant will serve at a minimum 85% of a 45 year
sentence - or 38.25 years.” Reply, p. 78. Petitioner asserts
that these instructions were required under Supreme
Court precedent and the OCCA’s decision in Anderson v.
State, 2006 OK CR 6, 130 P.3d 273 (Okla. Crim. App. 2006).
Respondent contends that Petitioner’s Ground Eight
is unexhausted. Respondent argues that while a state
law version of Petitioner’s Ground Eight was raised in
Petitioner’s first post-conviction application, the substance
of the federal claim he now presents was not. Respondent
urges the application of an anticipatory procedural bar,
while alternatively asserting that the claim can be denied
on the merits. The Court finds that disposal of Petitioner’s
claim on the merits is the easier course. See 28 U.S.C.
§ 2254(b)(2) (“An application for a writ of habeas corpus
may be denied on the merits, notwithstanding the failure
of the applicant to exhaust the remedies available in the
courts of the State.”); Snow v. Sirmons, 474 F.3d 693, 717
(10th Cir. 2007) (“We can avoid deciding procedural bar
questions where claims can readily be dismissed on the
merits.”).
As noted above, it is Petitioner’s contention that his
jury should have been given more information on the
sentencing options of life and life without parole. Petitioner
notes that in the written instructions given to the jury,
these options were defined only as imprisonment for life
with the possibility of parole and imprisonment for life
without the possibility of parole (O.R. XI, 2048, 2050,
2054, 2058). Petitioner asserts that more was needed
due to “confusion and inaccurate information” developed

246a
Appendix D
during voir dire, Petition, p. 128, and the OCCA’s decision
in Anderson.
In support of his claim, Petitioner cites several
Supreme Court decisions. 36 Asserting a due process
violation, Petitioner cites Simmons v. South Carolina,
512 U.S. 154, 114 S. Ct. 2187, 129 L. Ed. 2d 133 (1994), as
well as related cases, Shafer v. South Carolina, 532 U.S.
36, 121 S. Ct. 1263, 149 L. Ed. 2d 178 (2001), and Kelly
v. South Carolina, 534 U.S. 246, 122 S. Ct. 726, 151 L.
Ed. 2d 670 (2002). 37 In Simmons, a plurality opinion, the
Supreme Court held that “where the defendant’s future
dangerousness is at issue, and state law prohibits the
defendant’s release on parole, due process requires that
the sentencing jury be informed that the defendant is
parole ineligible.” Simmons, 512 U.S. at 156. Because
the jury in Simmons may have reasonably believed that
Simmons could be paroled if given a life sentence, the
Court found that an unacceptable “misunderstanding
pervaded the jury’s deliberations” — one which “had
36. The Court construes Petitioner’s primary claim to be one of
due process; however, the Court acknowledges Petitioner’s general
argument and authority regarding his entitlement under the Eighth
Amendment to an accurate and reliable sentencing determination.
Petition, p. 130. For the same reasons more fully set out herein, the
Court finds that Petitioner’s Eighth Amendment claim lacks merit
as well.
37. In Shafer, a majority of the Court, addressing a new South
Carolina sentencing scheme, reaffirmed the Simmons holding.
Shafer, 532 U.S. at 51. In Kelly, a majority of the Court once again
acknowledged Simmons as controlling authority, applying it a second
time to a South Carolina case. Kelly, 534 U.S. at 248.

247a
Appendix D
the effect of creating a false choice between sentencing
petitioner to death and sentencing him to a limited period
of incarceration.” Id. at 161. The Court reasoned that
if the State rests its case for imposing the death
penalty at least in part on the premise that the
defendant will be dangerous in the future, the
fact that the alternative sentence to death is
life without parole will necessarily undercut
the State’s argument regarding the threat the
defendant poses to society. Because truthful
information of parole ineligibility allows the
defendant to “deny or explain” the showing
of future dangerousness, due process plainly
requires that he be allowed to bring it to the
jury’s attention by way of argument by defense
counsel or an instruction from the court.
Id. at 168-69 (citation omitted).
Despite his reliance on Simmons, however, Petitioner
acknowledges that the Tenth Circuit has found that
Oklahoma’s sentencing scheme, which includes two
clearly delineated life imprisonment options, does not
on its face run afoul of Simmons. Petition, p. 132 (citing
Mayes v. Gibson, 210 F.3d 1284, 1294 (10th Cir. 2000)). In
an effort to circumvent this authority, Petitioner argues
that the Tenth Circuit should revisit the applicability of
Simmons to Oklahoma’s sentencing scheme given the
OCCA’s decision in Littlejohn v. State, 2004 OK CR 6,
85 P.3d 287 (Okla. Crim. App. 2004). In Littlejohn, the
OCCA, while acknowledging that its sentencing scheme

248a
Appendix D
is Simmons compliant, additionally acknowledged that
Oklahoma juries are nevertheless often confused about
the traditional life sentence and the life sentence without
parole, and it offered the following guidance to trial courts
as they responded to questions about life sentencing
options:
Therefore, in future cases where the jury
during deliberations asks, in some form or
fashion, whether an offender who is sentenced
to life imprisonment without the possibility of
parole is parole eligible, the trial court should
either [1] refer the jury back to the instructions,
[2] tell the jury that the punishment options
are self explanatory, or [3] advise the jury that
the punishment options are to be understood
in their plain and literal sense and that the
defendant will not be eligible for parole if
sentenced to life imprisonment without the
possibility of parole. While arguably the latter
response is nothing more than another way
of referring the jury back to the instructions,
it does force the jury to accept the plain
meaning of the sentencing options and impose
the sentence it deems appropriate under the
law and facts of the case. We recognize trial
courts are in the best position to decide which
answer is best suited to the situation as the
questions posed by juries come in a myriad of
forms on this issue. However, we believe the
latter explanation may alleviate some obvious
concerns of jurors more effectively than simply

249a
Appendix D
telling the jury it has all the law and evidence
necessary to reach a decision.
Littlejohn, 85 P.3d at 292-94 (citations omitted). Petitioner
asserts that in light of Littlejohn, even the OCCA
acknowledges that more information should be given.
Petitioner’s reliance on the OCCA’s decision in
Littlejohn does not cause this Court to question the
application of Simmons to his case. As the Tenth Circuit
found in the adjudication of Littlejohn’s Simmons claim
on appeal, the OCCA’s Littlejohn decision may relay an
accurate picture of the average juror’s understanding,
but it does overcome the precedential application of
Simmons, Shafer, and Kelly which dictates the denial of
relief. Littlejohn v. Trammell, 704 F.3d 817, 831 (10th Cir.
2013). Simmons and its progeny protect against the “false
choice.” Its holding requires jury notification of a capital
defendant’s parole ineligibility when the State has alleged
that he is a continuing threat. This notification prevents
“a false choice between sentencing petitioner to death
and sentencing him to a limited period of incarceration.”
Simmons, 512 U.S. at 161. See Ramdass v. Angelone, 530
U.S. 156, 166, 120 S. Ct. 2113, 147 L. Ed. 2d 125 (2000)
(noting that “Simmons created a workable [and limited]
rule.”). In Petitioner’s case, the jury was not faced with
this false choice, but was given three sentencing options:
life, life without parole, and death. This in and of itself is
Simmons compliant.
In addition, this is not a situation where a false
choice was created by the trial court. As acknowledged

250a
Appendix D
in Littlejohn, 704 F.3d at 827-28, the Tenth Circuit has
found that even though Oklahoma’s self-explanatory
sentencing options are Simmons compliant, a due process
violation may nevertheless be found where the trial court’s
responses to sentencing questions by the jury “engender
jury confusion” and create the false choice. In Petitioner’s
case, there were no questions from the jury regarding
the sentencing options, and thus no improper trial court
responses. In addition, while Petitioner paints voir dire
as a “backdrop of confusion and inaccurate information,”
Petition, p. 128, the Court finds nothing in the referenced
passages which would lend support to a finding that the
trial court created a false choice.
Petitioner’s claim of Anderson error lacks merit as
well. In his first post-conviction application, Petitioner did
present this state law claim. In denying relief, the OCCA
held as follows:
Finally, Petitioner asks this Court to apply the
new rule announced in Anderson v. State, 2006
OK CR 6, 130 P.3d 273, to his case. Oklahoma
law provides that for certain enumerated
crimes, a defendant must serve at least 85% of
any sentence imposed before becoming eligible
for any type of early release. In Anderson, this
Court held that when a defendant is tried for a
crime subject to the 85% Rule, the jury must be
given that information. The rule in Anderson
applied prospectively, and to any case pending
on direct appeal at the time Anderson was
announced. Carter v. State, 2006 OK CR 42,

251a
Appendix D
¶ 4, 147 P.3d 243, 244. Petitioner’s case was
pending on direct appeal at the time Anderson
was decided. However, we have made it clear
that failure to instruct on the 85% Rule is
not automatic grounds for reversal in every
case. Eizember v. State, 2007 OK CR 29, ¶ 73,
164 P.3d 208. 229. As to Count 1, the jury in
Petitioner’s case had three punishment options
— life with the possibility of parole, life without
the possibility of parole, and death. It chose the
most severe option, to which the notion of parole
is irrelevant. We can confidently conclude that,
had the jury been instructed on the 85% Rule,
that information would not have affected the
verdict. See Cole v. State, 2007 OK CR 27, ¶ 65,
164 P.3d 1089, 1102. Proposition I is denied.
Pavatt, No. PCD-2004-25, slip op. at 5-6 (footnote omitted).
Beyond the limited circumstances of Simmons, the
Supreme Court has not mandated that a jury be told
about a defendant’s parole eligibility. In fact, the Supreme
Court has specifically acknowledged that the States have
discretion in this area. Simmons, 512 U.S. at 168 (citing
California v. Ramos, 463 U.S. 992, 1014, 103 S. Ct. 3446,
77 L. Ed. 2d 1171 (1983), “for the broad proposition that
[the Supreme Court] generally will defer to a State’s
determination as to what a jury should and should not
be told about sentencing.”). See also Ramdass, 530 U.S.
at 165 (acknowledging that O’Dell v. Netherland, 521
U.S. 151, 166, 117 S. Ct. 1969, 138 L. Ed. 2d 351 (1997),
“reaffirmed that the States have some discretion in

252a
Appendix D
determining the extent to which a sentencing jury should
be advised of probable future custody and parole status
in a future dangerousness case, subject to the rule of
Simmons.”); O’Dell, 521 U.S. at 166 (noting that Simmons
“carved out an exception to the general rule described
in Ramos . . . for the first time ever”). Under these
circumstances, Petitioner’s claim is nothing more than
a state law claim, and “it is not the province of a federal
habeas court to reexamine state-court determinations
on state-law questions.” Estelle v. McGuire, 502 U.S.
62, 67-68, 112 S. Ct. 475, 116 L. Ed. 2d 385 (1991). See
also Parker v. Sirmons, 384 F. App’x 750, 752 (10th Cir.
2010) (unpublished) (finding no due process violation for
Anderson error); Gardner v. Jones, 315 F. App’x 87, 91-92
(10th Cir. 2009) (unpublished) (acknowledging the limited
holding of Simmons and finding that a petitioner was
not denied a fundamentally fair trial “in a constitutional
sense” by the trial court’s failure to instruct the jury on
the 85% Rule); Taylor v. Parker, 276 F. App’x 772, 775-76
(10th Cir. 2008) (unpublished) (failure to instruct on the
85% Rule did result in a fundamentally unfair trial).
For the foregoing reasons, the Court finds that
Petitioner’s Ground Eight lacks merit. Ground Eight is
hereby denied.
I.

Admission of Photographs and a Video (Ground
Nine).

In Ground Nine, Petitioner presents various challenges
to the admission of photographs and a video. Much like his
prosecutorial misconduct claim in Ground Seven, supra,

253a
Appendix D
the Court’s review of this ground for relief is dependent
upon how each particular claim alleged herein was
presented to the OCCA. Due to the varying presentation
of these claims to the OCCA, they are either subject to
AEDPA review on the merits or are procedurally barred
from a merits review.
1.

Gruesome Photos.

On direct appeal, Petitioner asserted that he had
been denied a fair trial by the admission of gruesome
photographs. Without singling out any particular
photograph, Petitioner requested the OCCA to review
all of the photographs of Rob and find that they “were
gruesome and had no place in the trial” because “[t]
he State had plenty of evidence that [Rob] was dead.”
Petitioner requested that he be granted a new trial and/
or a new sentencing proceeding. Brief of Appellant, No.
D-2003-1086, pp. 35-36. In denying relief, the OCCA held
as follows:
In Proposition 8, [Petitioner] claims error when
the trial court admitted several photographs
of the murder victim at the crime scene. At
trial, defense counsel objected generally to the
“multitude of bloody photographs” from the
crime scene that the State offered to introduce.
These photographs depicted Rob Andrew’s
body on the floor of the garage. He bled to
death after being shot twice at close range with
a shotgun. The photographs showed the body
from various angles. [Petitioner’s] objection

254a
Appendix D
at trial appears to focus more on the number
of photographs rather than their gruesome
nature. The trial court admitted many of the
photos but did sustain the defense objection to
several others.
On appeal, [Petitioner] does not claim the
photographs were needlessly cumulative, only
that they were gruesome, and therefore “had
no place in the trial.” We review the trial court’s
decision to admit crime-scene photographs for
an abuse of discretion. DeRosa, 2004 OK CR 19
at ¶ 73, 89 P.3d at 1150. This Court has many
times noted that gruesome crimes make for
gruesome crime-scene photographs; the issue
is whether the probative value of the evidence
is substantially outweighed by its prejudicial
effect. 12 O.S.2001, §§ 2401-03; Dodd, 2004 OK
CR 31 at ¶ 66, 100 P.3d at 1038; Le v. State, 1997
OK CR 55, ¶ 25, 947 P.2d 535, 548. The State
was entitled to corroborate and illustrate the
testimony of its witnesses about what the crime
scene looked like and the manner of death.
The record shows that the trial court carefully
considered each photograph before admitting
it. We find no abuse of discretion here, and this
proposition is denied.
Pavatt, 159 P.3d at 289-90.
To the extent Petitioner challenges this determination
by the OCCA on direct appeal, Petitioner has not shown

255a
Appendix D
that it is contrary to or an unreasonable application of
Supreme Court law. 38
“Federal habeas review is not available to
correct state law evidentiary errors; rather, it
is limited to violations of constitutional rights.”
Smallwood v. Gibson, 191 F.3d 1257, 1275
(10th Cir.1999) (citing Estelle v. McGuire, 502
U.S. 62, 67-68, 112 S.Ct. 475, 116 L.Ed.2d 385
(1991)). When the habeas petitioner argues
that evidence violated the Constitution, we
consider “whether the admission of evidence
. . . so infected the sentencing proceeding with
38. As Respondent asserts, to the extent Petitioner expounds
upon his gruesome photographs claim to argue “that the crime scene
photographs, combined with the prosecutor’s argument, misled the
jury into finding [the] existence of the heinous, atrocious or cruel
aggravator,” Response, p. 120, this claim extends beyond the claim
Petitioner exhausted on direct appeal. Because Petitioner returned
to state court and presented this additional claim in his second postconviction application, it appears that Petitioner does in fact intend
it to be an additional claim for relief. In denying Petitioner relief on
this additional claim, the OCCA held as follows:
Finally, Petitioner claims the prosecutor improperly
used the post-mortem photographs as evidence that
the murder was especially heinous, atrocious, or
cruel. This argument, based entirely on the trial
record, could have been raised in prior proceedings
but was not. It cannot be considered at this time. 22
O.S.Supp.2006, §1089(D)(8).
Pavatt, No. PCD-2009-777, slip op. at 5. For the reasons discussed
in Ground Two, supra, the Court finds that this additional claim
is barred from federal review.

256a
Appendix D
unfairness as to render the jury’s imposition
of the death penalty a denial of due process.”
Romano v. Oklahoma, 512 U.S. 1, 12, 114 S.Ct.
2004, 129 L.Ed.2d 1 (1994). The “Due Process
Clause of the Fourteenth Amendment provides
a mechanism for relief” when “evidence is
introduced that is so unduly prejudicial that
it renders the trial fundamentally unfair.”
Payne v. Tennessee, 501 U.S. 808, 825, 111 S.Ct.
2597, 115 L.Ed.2d 720 (1991) (citing Darden v.
Wainwright, 477 U.S. 168, 179-83, 106 S.Ct.
2464, 91 L.Ed.2d 144 (1986)).
Wilson, 536 F.3d at 1114. Having reviewed the particular
photographs Petitioner has singled out for purposes of
habeas review (State’s Exhibits 58, 63-66, 69, and 73-77)
and applying the deference afforded to the OCCA’s merits
denial, the Court finds that Petitioner is not entitled to
relief upon a claim that gruesome photographs denied him
a fundamentally fair trial.
2. 	State’s Exhibit 219 (Live Photograph of Rob).
State’s Exhibit 219 is a live photograph of Rob which
was admitted at trial without objection pursuant to Okla.
Stat. tit. 12, § 2403 (J. Tr. IX, 2150). Section 2403 provides
in pertinent part that “in a prosecution for any criminal
homicide, an appropriate photograph of the victim while
alive shall be admissible evidence when offered by the
district attorney to show the general appearance and
condition of the victim while alive.” Despite Oklahoma’s
evidentiary rule permitting its admission, Petitioner

257a
Appendix D
asserts that the admission of this photograph was highly
prejudicial and denied him a fundamentally fair trial,
and he faults his appellate counsel for failing to raise the
issue on appeal.
In his first post-conviction application, Petitioner
raised a claim concerning appellate counsel’s failure to
challenge the admission of State’s Exhibit 219. Petitioner
asserted that appellate counsel should have challenged its
admission on due process grounds and the constitutionality
of Section 2403. Original Application for Post-Conviction
Relief, No. PCD-2004-25, pp. 50-54. In denying relief,
the OCCA made two holdings. One, the claim was barred
by res judicata, 39 and two, the claim was without merit
given its holding in Marquez-Burrola v. State, 2007 OK
CR 14, 157 P.3d 749 (Okla. Crim. App. 2007). Pavatt, No.
PCD-2004-25, slip op. at 6 & n.6. Respondent does not
argue for the application of a procedural bar, but instead
asserts that the claim should be given AEDPA deference
and denied on the merits. Response, p. 127. In his Reply,
Petitioner does not take issue with Respondent’s position,
but argues that the admission of State’s Exhibit 219 was
a violation of his constitutional rights. Reply, pp. 79-80.

39. The OCCA noted that Petitioner’s claim against his
appellate counsel was the “scope of counsel’s argument concerning
admission of a ‘live’ photograph of the victim.” Pavatt, No. PCD2004-25, slip op. at 6 n.6. While not entirely clear, it is likely that the
OCCA was referring to appellate counsel’s challenge to the admission
of gruesome photographs. In that proposition, appellate counsel
requested that the OCCA “specifically review the photographs of
Rob Andrew.” Brief of Appellant, No. D-2003-1186, p. 35.

258a
Appendix D
The Court finds that Petitioner has not shown that the
decision of the OCCA denying him relief for this allegation
of ineffective assistance of appellate counsel is contrary to
or an unreasonable application of Strickland. See Ground
Two, supra (discussing the application of Strickland to
claims of ineffective assistance of appellate counsel).
Although Petitioner asserts that his appellate counsel
should have challenged the admission of State’s Exhibit
219 pursuant to Section 2403, it is clear that based on the
case cited by the OCCA in its denial of Petitioner’s claim,
Marquez-Burrola, 157 P.3d at 759-61, as well as other
cases decided by the OCCA prior to Petitioner’s appeal,
Glossip v. State, 2007 OK CR 12, 157 P.3d 143, 156-57
(Okla. Crim. App. 2007), and Coddington v. State, 2006
OK CR 34, 142 P.3d 437, 452-53 (Okla. Crim. App. 2006),
that Petitioner would not have prevailed on appeal had the
claim been raised. Robbins, 528 U.S. at 285-86.
3. 	Remaining Evidentiary Challenges (State’s
Exhibits 46, 118, 184, and 205).
The balance of the evidentiary challenges raised in
Petitioner’s Ground Nine were not presented to the OCCA
until Petitioner’s second post-conviction application.
Reply, pp. 79-80; Second Application for Post-Conviction
Relief, No. PCD-2009-777, pp. 20-27. The OCCA declined
to review the merits of these claims but held as follows:
In Proposition 3, Petitioner claims he was
denied a fair trial by the combined effect of
gruesome photos of the murder victim, and a
photo and video evidence showing the victim

259a
Appendix D
before his demise. Petitioner concedes that
on direct appeal, we rejected his claim that
the post-mortem photographs of the victim
were not unfairly gruesome. Nevertheless,
he claims we have not considered whether the
same photos were “unnecessarily cumulative
and repetitive.” (Petitioner’s Application at 20)
Petitioner also concedes that pre-mortem visual
images of the victim, introduced at trial, were
complained about in his previous post-conviction
application. The current arguments merely
modify or expand claims made, and rejected, in
prior proceedings, and are therefore barred by
the doctrine of res judicata.[FN4] Turrentine v.
State, 1998 OK CR 44, ¶ 12, 965 P.2d 985, 989.
FN4. Petitioner’s complaint about
the post-mortem photographs is
something of a moving target. As we
noted on direct appeal, Petitioner’s
concern at trial was more about the
number of photographs than their
nature. On direct appeal, Petitioner
shifted focus, complaining about
the gruesome nature of the photos
individually, not about any cumulative
adverse effect. We noted that the
trial court did exclude some of the
proffered photos at defense counsel’s
request, and concluded that the
remaining photos were not unfairly
prejudicial. Pavatt, 2007 OK CR 19,
at ¶¶ 54-55, 159 P.3d at 289-90.

260a
Appendix D
Pavatt, No. PCD-2009-777, slip op. at 4-5. For the reasons
discussed in Ground Two, supra, the Court finds that
these claims are barred from federal review.
4. 	Conclusion.
For the foregoing reasons, the Court finds that
Petitioner is not entitled to relief on his Ground Nine.
Relief is therefore denied.
J.

Aggravating Circumstances (Grounds Ten through
Fourteen).

In Grounds Ten through Fourteen, Petitioner raises
various challenges to the aggravating circumstances
supporting his death sentence. In Oklahoma, a jury’s
finding of at least one aggravating circumstance makes a
defendant eligible for a death sentence; however, before
imposing a death sentence, the jury must additionally
find that the aggravating circumstances outweigh the
mitigating circumstances. Okla. Stat. tit. 21, § 701.11
(“Unless at least one of the statutory aggravating
circumstances enumerated in this act is so found or if
it is found that any such aggravating circumstance is
outweighed by the finding of one or more mitigating
circumstances, the death penalty shall not be imposed.”).
In Petitioner’s case, the jury found two aggravating
circumstances: (1) that Petitioner “committed the murder
for remuneration or the promise of remuneration or
employed another to commit the murder for remuneration
or the promise of remuneration,” Okla. Stat. tit. 21,
§ 701.12(3); and (2) that “[t]he murder was especially

261a
Appendix D
heinous, atrocious, or cruel,” Okla. Stat. tit. 21, § 701.12(4)
(O.R. XI, 2063). For the reasons set forth below, the Court
finds that none of these grounds warrant habeas relief to
Petitioner’s sentence.
1. 	Insufficient Evidence (Grounds Ten and
Twelve).
When reviewing the sufficiency of evidence supporting
an aggravating circumstance, the OCCA applies the
standard of review set forth in Jackson, 443 U.S. at
319. Thus, the OCCA “consider[s] the evidence in a light
most favorable to the State, and determine[s] whether
any rational juror could have found the existence of the
challenged aggravating circumstance beyond a reasonable
doubt.” Pavatt, 159 P.3d at 294.
Jackson applies on habeas review as well. Lewis v.
Jeffers, 497 U.S. 764, 781, 110 S. Ct. 3092, 111 L. Ed. 2d
606 (1990). “Like findings of fact, state court findings of
aggravating circumstances often require a sentencer to
‘resolve conflicts in the testimony, to weigh the evidence,
and to draw reasonable inferences from basic facts
to ultimate facts.’” Id. at 782 (quoting Jackson, 443
U.S. at 319). Thus, the Court “‘must accept the jury’s
determination as long as it is within the bounds of reason.’”
Lockett v. Trammel [sic], 711 F.3d 1218, 1243 (10th Cir.
2013) (quoting Boltz, 415 F.3d at 1232), cert. denied, U.S. ,
134 S. Ct. 924, 187 L. Ed. 2d 799 (2014). As noted in Ground
Three, supra, in addition to the deference afforded a jury’s
verdict, the AEDPA adds another layer of deference to
the Court’s review of a sufficiency claim. See Hooks v.

262a
Appendix D
Workman, 689 F.3d 1148, 1166 (10th Cir. 2012) (“We call
this standard of review ‘deference squared.’”) (citation
omitted). When reviewing the evidentiary sufficiency of
an aggravating circumstance under Jackson, the Court
looks to Oklahoma substantive law to determine its defined
application. Hamilton v. Mullin, 436 F.3d 1181, 1194 (10th
Cir. 2006).
In Ground Ten, Petitioner challenges the sufficiency
of the evidence supporting the jury’s finding that Rob’s
murder was especially heinous, atrocious, or cruel.
Petitioner contends that the aggravator is not supported
by sufficient evidence because Rob’s death occurred
too quickly and because Brenda’s statements to the 911
operator that Rob was conscious, breathing, and trying to
talk are simply unbelievable. Petitioner also argues that
because the OCCA found otherwise, it is evident that the
OCCA applied the incorrect standard of review.
In denying Petitioner relief on direct appeal, the
OCCA held as follows:
In Propositions 14 and 15, [Petitioner] challenges
the sufficiency of the evidence to support the
two aggravating circumstances alleged by
the State as warranting the death penalty.
Such challenges are reviewed under the
same standard as challenges to the evidence
supporting a criminal conviction. We consider
the evidence in a light most favorable to the
State, and determine whether any rational
juror could have found the existence of the

263a
Appendix D
challenged aggravating circumstance beyond
a reasonable doubt. DeRosa, 2004 OK CR 19
at ¶ 85, 89 P.3d at 1153; Lockett v. State, 2002
OK CR 30, ¶ 39, 53 P.3d 418, 430.
In Proposition 14, [Petitioner] claims the
evidence was insufficient to support the jury’s
finding that the murder of Rob Andrew was
“especially heinous, atrocious, or cruel.” To
establish this aggravator, the State must
present evidence from which the jury could find
that the victim’s death was preceded by either
serious physical abuse or torture. Evidence
that the victim was conscious and aware of the
attack supports a finding of torture. Davis v.
State, 2004 OK CR 36, ¶ 39, 103 P.3d 70, 81;
Black v. State, 2001 OK CR 5, ¶ 79, 21 P.3d 1047,
1074 (evidence that victim consciously suffered
pain during and after stabbing was sufficient
to support this aggravating circumstance); Le,
1997 OK CR 55 at ¶ 35, 947 P.2d at 550; Romano
v. State, 1995 OK CR 74, ¶ 70, 909 P.2d 92, 118;
Berget v. State, 1991 OK CR 121, ¶ 31, 824 P.2d
364, 373. Our evaluation is not a mechanistic
exercise. As we stated in Robinson v. State,
1995 OK CR 25, ¶ 36, 900 P.2d 389, 401:
As much as we would like to point to
specific, uniform criteria, applicable
to all murder cases, which would
make the application of the “heinous,
atrocious or cruel” aggravator a

264a
Appendix D
mechanical procedure, that is simply
not possible. Rather, the examination
of the facts of each and every case is
necessary in determining whether the
aggravator was proved. Unfortunately,
no two cases present identical fact
scenar ios for our consideration,
therefore the particulars of each
case become the focus of our inquiry,
as opposed to one case’s similarity
to another, in resolving a sufficiency
of the evidence claim supporting the
heinous, atrocious or cruel aggravator.
The evidence presented at trial showed that Rob
Andrew suffered numerous wounds resulting
from two shotgun blasts, which damaged his
internal organs. The medical examiner testified
that either wound would have caused sufficient
blood loss to be independently fatal, but that
death was not instantaneous. When emergency
personnel arrived, Andrew was still clutching a
trash bag full of empty aluminum cans, which
reasonably suggested that he either tried to
ward off his attacker or shield himself from
being shot. Brenda Andrew called 911 twice after
the shooting; together, the two calls spanned
several minutes. During the second call, she
claimed that her husband was still conscious
and attempting to talk to her as he lay bleeding
to death on the garage floor. All of these facts
tend to show that Rob Andrew suffered serious

265a
Appendix D
physical abuse, and was conscious of the fatal
attack for several minutes. See Ledbetter v. State,
1997 OK CR 5, ¶ 53, 933 P.2d 880, 896 (evidence
that murder victim was likely aware that she
was about to be assaulted because defendant
had attempted to kill her one week earlier, that
she tried to defend herself from the fatal attack,
and that she attempted to communicate with
a neighbor after the attack was sufficient to
show that the murder was especially heinous,
atrocious or cruel).
After finding that the murder was accompanied
by torture or serious physical abuse, the jury
may also consider the attitude of the killer and
the pitiless nature of the crime. Lott, 2004
OK CR 27 at ¶ 172, 98 P.3d at 358; Phillips
v. State, 1999 OK CR 38, ¶ 80, 989 P.2d 1017,
1039. That the victim was acquainted with his
killers is a fact relevant to whether the murder
was especially heinous, atrocious, or cruel.
In finding the murder in Boutwell v. State,
1983 OK CR 17, ¶ 40, 659 P.2d 322, 329 to be
especially heinous, atrocious, or cruel, this
Court observed:
In this case the killing was merciless.
The robbers planned well in advance
to take the victim’s life. Even more
abhorrent and indicative of cold
pitilessness is the fact that the appellant
and the victim knew each other.

266a
Appendix D
We find the situation in the present case even
more pitiless. Rob Andrew correctly suspected
his wife of having an affair with a man he
trusted as his insurance agent. He correctly
suspected his wife and her lover of trying to
wrest control of his life insurance away from
him. He correctly suspected his wife and her
lover of attempting to kill him several weeks
before by severing the brake lines on his car.
He confided in others that he was in fear of
his life. Having separated from his wife, Rob
Andrew was murdered as he returned to the
family home to pick up his children for the
Thanksgiving holiday. From the evidence, a
rational juror could have concluded, beyond a
reasonable doubt, that Rob Andrew had time
to reflect on this cruel state of affairs before he
died. The evidence supported this aggravating
circumstance, and this proposition is denied.
Pavatt, 159 P.3d at 294-95.
First, there is no merit to Petitioner’s claim that
the OCCA applied an incorrect standard of review. As
detailed above, it is clear that the OCCA applied Jackson
and that it was the correct (and constitutional) standard
to be applied.40 Petitioner’s arguments to the contrary
40. In asserting that the OCCA should have applied the
reasonable hypothesis test instead of Jackson, Petitioner cites
Instruction Number 8 given to the jury regarding its consideration
of circumstantial evidence. However, Petitioner fails to note is that
this instruction was given with respect to the continuing threat

267a
Appendix D
have recently been reviewed and rejected by the Tenth
Circuit in Cole v. Trammell, 755 F.3d 1142, 2014 U.S.
App. LEXIS 3325, 2014 WL 595768, at *20-25 (10th Cir.
Feb. 18, 2014). Second, as found by the OCCA, there was
evidence from which the jury could conclude that the
aggravator was satisfied. The medical examiner testified
that Rob did not die instantaneously, that his injuries
would have been painful, and that although Rob would
have lost consciousness at some point due to blood loss,
he could have suffered for several minutes. The medical
examiner even acknowledged the consistency between
his opinion and Brenda’s statements in the second 911
call (J. Tr. X, 2457-58, 2463-64). As previously noted, in
the second 911 call, which ended some six minutes after
the first 911 call was made, Brenda said that Rob was
bleeding a lot, but that he was conscious, breathing, and
trying to talk (J. Tr. IX, 2148-49; State’s Exhibit 34).
Although Petitioner discounts Brenda’s statements as
unbelievable, characterizing her 911 calls as “simply poor
acting,” Petition, p. 149, Respondent correctly points out
that whether to believe Brenda’s statements or not was
for the jury to decide. Moreover, pursuant to Jackson, it
is axiomatic that the presented evidence is to be viewed
“in the light most favorable to the prosecution.” Jackson,
443 U.S. at 319. Based on the presented evidence, and with
acute awareness of the double deference applied by the
Court in the resolution of this claim, the Court finds that
Petitioner has not shown that this decision by the OCCA
is contrary to or an unreasonable application of Supreme
Court law.
aggravator only (O.R. XI, 2055). See OUJI-CR (2d) 4-77 (directing
that the applicable aggravating circumstance(s) be inserted).

268a
Appendix D
In Ground Twelve, Petitioner challenges the sufficiency
of the evidence supporting the jury’s finding that Rob’s
murder was committed for remuneration or the promise
of remuneration. Petitioner argues that the aggravator
is not supported by sufficient evidence because there was
no evidence that he would reap financial gain from Rob’s
death. He contends that even if Brenda was motivated
to kill Rob for the insurance money, her motive cannot
support the finding of the aggravator in his case. Petitioner
additionally claims that Oklahoma’s remuneration
aggravator is unconstitutionally vague, and as with his
challenge to the especially heinous, atrocious, or cruel
aggravator, Petitioner also argues that the OCCA applied
the incorrect standard of review to deny him relief.41
Like Petitioner’s challenge to the sufficiency of the
evidence supporting the especially heinous, atrocious, or
cruel aggravator, the OCCA applied the Jackson standard
of review to deny Petitioner relief on this challenge as well.
Pavatt, 159 P.3d at 294. Applying Jackson, the OCCA held
as follows:
In Proposition 15, [Petitioner] contends the
evidence is insufficient to support the jury’s
finding that the murder was motivated by
“remuneration or the promise of remuneration,”
41. Respondent asserts that Petitioner has not fully exhausted
his Ground Twelve. Response, p. 140. Nevertheless, Respondent
has addressed all aspects of Petitioner’s Ground Twelve and urged
denial on the merits. Despite exhaustion issues, the Court believes
that disposal of Petitioner’s claim on the merits is the easier course.
See 28 U.S.C. § 2254(b)(2).

269a
Appendix D
as defined by 21 O.S.2001, § 701.12(3).[FN19]
Relying on Boutwell, 1983 OK CR 17 at ¶¶ 3038, 659 P.2d at 328-29, and Johnson v. State,
1982 OK CR 37, ¶¶ 38-41, 665 P.2d 815, 824,
[Petitioner] claims that this aggravating
circumstance should not apply to every situation
where a murder was accompanied by some sort
of financial gain, but rather, only where the
murder was “primarily” motivated by the hope
of financial gain.[FN20]
FN19. T his statut e def ines the
aggravating circumstance as follows:
“The person committed the murder
for remuneration or the promise of
remuneration or employed another to
commit the murder for remuneration
or the promise of remuneration.”
FN20. [Petitioner] relies on this
passage from Johnson: “Murder for
remuneration has also been applied
to killings motivated primarily to
obtain proceeds from an insurance
policy, murder of a testator in order to
secure a devise or legacy, and killings
which occur in a kidnapping-extortion
situation.” Johnson, 1982 OK CR 37 at
¶ 40, 665 P.2d at 824.
Both Boutwell and Johnson involved murder
during the commission of an armed robbery.

270a
Appendix D
In each case, we held that the “murder for
remuneration” aggravator should not be read
so broadly as to apply to every situation where a
person was killed during a pursuit for money or
property, such as an armed robbery. However,
we have held that the aggravator is squarely
applicable where the killing was motivated by
the hope of receiving life insurance proceeds.
See e.g. Stemple, 2000 OK CR 4 at ¶¶ 2-10, 65,
994 P.2d at 65-66, 73 (evidence that defendant,
who was hav ing an extramar ital affair,
arranged to have his wife killed and hoped to
collect life insurance proceeds held sufficient to
establish this aggravating circumstance); see
also Plantz, 1994 OK CR 33 at ¶¶ 41-42, 876
P.2d at 281 and Bryson v. State, 1994 OK CR 32,
¶ 50, 876 P.2d 240, 258-59 (evidence sufficient to
support “murder for remuneration” aggravator,
where wife (Plantz) and her boyfriend (Bryson)
conspired and actually carried out plan to kill
husband with the hope of obtaining insurance
proceeds). The reason seems obvious to us and
clearly within the letter and spirit of § 701.12(3).
[FN21]
FN21. Other ju r isdictions have
reached similar conclusions based on
their own capital sentencing schemes.
Cf. People v. Michaels, 28 Cal.4th 486,
122 Cal.Rptr.2d 285, 49 P.3d 1032,
1052 (2002) (“A killing for the purpose
of obtaining life insurance benefits,

271a
Appendix D
as contrasted with a killing during
a burglary or robbery, falls squarely
within the scope of the financial
gain special circumstance”); Fitts
v. State, 982 S.W.2d 175, 188 (Tex.
App.1998) (capital sentencing factor
involving motive of “remuneration”
or “promise of remuneration” is “not
limited to murder-for-hire situations,”
but encompasses “a broad range of
situations, including compensation
for loss or suffering and the idea of
a reward given or received because
of some act”); see also State v. Chew,
150 N.J. 30, 695 A.2d 1301, 1312
(1997) (“[A]lmost every jurisdiction
that has considered a broadly-worded
pecuniary gain [capital sentencing]
factor has applied the factor to killings
to collect insurance proceeds”).
[Petitioner] reads a passage in Johnson as
requiring that the State to prove that financial
gain was the “primary” motive for the murder.
We disagree. Section 701.12(3) does not require
the State to prove a financial motive to the
exclusion or diminution of other possible motives.
When read in context, the word “primarily” as
used in Johnson distinguishes cases where the
murder was merely incidental to a robbery
or similar attempt to obtain property, as was
the case in Johnson and Boutwell. We find the

272a
Appendix D
situation in the companion cases of Bryson and
Plantz more analogous, and language from
Plantz readily applicable here:
Evidence in the present case showed
that the crime was motivated by
financial gain. It was committed after
the opportunity of weeks of reflection.
It was not a crime of passion, nor
was the murder committed as an
afterthought while Appellant was
in the course of committing another
felony offense, such as robbery or
burglary. The fact that Appellant was
apprehended before she could actually
collect the money does not obviate this
aggravating circumstance.
Plantz, 1994 OK CR 33 at ¶ 42, 876 P.2d at 281
(emphasis added).
As in Plantz, the evidence in this case supports
a finding that the murder of Rob Andrew was
motivated by a desire to remove the third side
of a love triangle, and reap financial gain from
insurance proceeds in the process. The life
insurance proceeds were no afterthought in
this case. [Petitioner] was not only having an
affair with the victim’s wife; he was the victim’s
life insurance agent as well. As such, he was
particularly well-positioned to try to transfer
ownership of Rob Andrew’s life insurance policy
to Brenda in the months before the murder.

273a
Appendix D
[Petitioner] claims that as a mere paramour,
he had no standing to benefit directly from
any proceeds Brenda might receive. We find
no merit to this argument either. The evidence
showed that [Petitioner] hoped to enjoy a life
with Brenda Andrew and her children without
Rob Andrew’s interference. [Petitioner] clearly
hoped to partake of the insurance proceeds,
even if he was not a contractual beneficiary.
See Bryson, 1994 OK CR 32 at ¶ 50, 876 P.2d
at 259. A rational juror could easily have found
that the murder was committed with the hope
of remuneration. DeRosa, 2004 OK CR 19 at
¶ 85, 89 P.3d at 1153. This proposition is denied.
Pavatt, 159 P.3d at 295-96.
As to the claim Petitioner raised on direct appeal,
Petitioner’s argument that there is simply insufficient
evidence to support the remuneration aggravator, the
Court finds that Petitioner has not shown that the OCCA’s
resolution of the claim is contrary to or an unreasonable
application of Jackson. In the first stage, the jury found
Petitioner guilty of conspiring with Brenda to kill Rob.
As even Petitioner acknowledged on direct appeal, “the
evidence of a conspiracy between himself and Brenda
Andrew was an important part of the State’s claim, in the
capital sentencing phase of the trial, that the murder was
committed for remuneration.” Pavatt, 159 P.3d at 281. The
evidence showed that Petitioner conspired with Brenda
to make her the owner of Rob’s $800,000 life insurance
policy so that she could remain the primary beneficiary

274a
Appendix D
of the policy upon Rob’s death. The evidence also showed
that Petitioner was a participant in a prior attempt to
take Rob’s life a month before the actual murder. Both
Brenda and Petitioner expressed their hatred for Rob,
and it was clear that they both wanted Rob dead so that
they could move on with their lives together. Because
Brenda was appalled at the suggestion of even having to
take on a part time job (J. Tr. VI, 1468-69) and Petitioner
was burdened with a substantial amount of credit card
debt (J. Tr. VI, 1672-73; J. Tr. XI, 2763-67), neither had
the financial means to live in the manner Brenda was
accustomed to living.42 Brenda wished that Rob “would
just die so she could get the money and go on with her life”
(J. Tr. VI, 1469-70), and according to Petitioner, life after
Rob included Petitioner and Brenda getting married and
having a child together (J. Tr. XI, 2835-36). Given all of
this evidence, the Court finds that the OCCA’s decision
upholding the jury’s determination that Petitioner killed
Rob for remuneration or the promise of remuneration is a
reasonable one. Given the deference afforded to the jury
by Jackson as well as the AEDPA deference afforded to
the OCCA’s decision, Petitioner has not shown that he has
been subjected to an “‘extreme malfunction[]’” for which
the great writ exists. Richter, 131 S. Ct. at 786.
Beyond his direct appeal claim, Petitioner makes
additional arguments which are unmeritorious as well.
First, as in his Ground Ten, Petitioner argues that the
OCCA applied the wrong standard of review to his claim.
42. Brenda admitted that she only stayed with Rob over the
years because of the money. She did not want to lose her house and
have to get a job (J. Tr. VI, 1468-69).

275a
Appendix D
Petitioner asserts that the OCCA should have applied
the reasonable hypothesis test instead of Jackson’s
rational juror test. For reasons previously noted in
the denial of this same argument raised in Petitioner’s
Ground Ten, the Court finds no merit to the argument
here. Second, Petitioner arg ues that Oklahoma’s
remuneration aggravator is unconstitutionally vague.
However, vagueness review is very deferential, and “[a]
s long as an aggravating factor has a core meaning that
criminal juries should be capable of understanding, it will
pass constitutional muster.” Jones v. United States, 527
U.S. 373, 400, 119 S. Ct. 2090, 144 L. Ed. 2d 370 (1999)
(citing Tuilaepa v. California, 512 U.S. 967, 973, 114 S.
Ct. 2630, 129 L. Ed. 2d 750 (1994)). Although Petitioner
argues that the jury should have received an additional
defining instruction on the remuneration aggravator, the
Court finds that the jury was capable of understanding
the remuneration aggravator by its plain language (O.R.
XI, 2051). Finally, Petitioner argues that the OCCA
incorrectly applied an accomplice theory of liability to
find sufficient evidence supporting the remuneration
aggravator in his case. Petition, p. 167. However, there is
no indication in the OCCA’s opinion that it did so, and in
any event, the Court finds that Petitioner has not shown
that any such application would be improper.43
43. In support of his position, Petitioner cites only to a footnote
contained in Hawkins v. State, 1994 OK CR 83, 891 P.2d 586 (Okla.
Crim. App. 1994). In Hawkins, the OCCA did not find serious
physical abuse, one of the prerequisites to finding the especially
heinous, atrocious, or cruel aggravator, based on actions committed
by Hawkins’ co-defendant. The OCCA explained as follows: “We
do not consider the multiple rapes of the victim while she was held

276a
Appendix D
For the foregoing reasons, the Court finds that
Petitioner has not established his right to relief on his
Grounds Ten and Twelve. Accordingly, relief on these
grounds is denied.
2. 	Challenges to the Especially Heinous,
Atrocious, or Cruel Aggravator (Grounds
Eleven and Thirteen).
In Ground Eleven, Petitioner complains about the
instruction given to the jury regarding its consideration
and application of the especially heinous, atrocious, or
cruel aggravator (O.R. XI, 2052). Petitioner asserts
error because the instruction failed to inform the jury
that prior to finding the especially heinous, atrocious, or
cruel aggravator, it was required to find the existence of
conscious physical suffering beyond a reasonable doubt.
In Ground Thirteen, Petitioner challenges Oklahoma’s
especially heinous, atrocious, or cruel aggravator on
the ground that it is unconstitutionally vague on its
captive in the barn, for the appellant did not commit them, and the
record contains no evidence to connect him to them in any way.”
Hawkins, 891 P.2d at 597 n.3. Contrary to Petitioner’s assertion, this
footnote does not foreclose the application of accomplice liability for
an aggravating circumstance. Hawkins does, however, stand for the
proposition that a defendant cannot be held liable for an aggravating
circumstance when the evidence fails to connect him in any way to
the acts committed by his co-defendant. In Petitioner’s case, there
is no doubt that Petitioner was connected to the acts committed by
Brenda as they conspired to kill Rob for the insurance proceeds.
In addition, the Court notes Respondent’s citation to authority that
the OCCA has applied accomplice liability in other cases to find the
satisfaction of an aggravating circumstance. Response, p. 147.

277a
Appendix D
face. Both of these claims, however, were not presented
to the OCCA until Petitioner’s second post-conviction
application. Reply, pp. 90, 103 n.20; Second Application
for Post-Conviction Relief, No. PCD-2009-777, pp. 27-32.
The OCCA declined to review the merits of these claims
because each could have been raised in Petitioner’s first
post-conviction application. Pavatt, No. PCD-2009-777,
slip op. at 5-6 (citing Title 22, Section 1089(D)(8)). For the
reasons discussed in Ground Two, supra, the Court finds
that these claims are barred from federal review.
Nevertheless, the Court additionally finds that neither
ground has merit. With respect to Ground Eleven, the
Court notes that in addition to applying a procedural bar
to Petitioner’s claim, the OCCA also noted the lack of merit
to the claim as follows:
In any event, we have rejected the same
argument several times in the past. Petitioner
essentially asks this Court to retroactively
require an instruction that we promulgated
— after Petitioner’s conviction — in DeRosa
v. State, 2004 OK CR 19, ¶¶ 91-97, 89 P.3d
1124, 1154-57. That instruction elaborates on
the meaning of “heinous, atrocious, or cruel,”
and the relevant Uniform Jury Instruction
already in existence (No. 4-73) was amended a
year later. DeRosa was handed down several
months after Petitioner’s trial. DeRosa does
not hold that the Uniform Jury Instruction on
this issue, being used at the time of DeRosa’s
and Petitioner’s trials, was materially deficient.

278a
Appendix D
DeRosa, 2004 OK CR 19, ¶ 97, 89 P.3d at 1156
(“This opinion should not be interpreted as a
ruling that the former uniform instruction was
legally inaccurate or inadequate”). This same
attack on the pre-DeRosa version of OUJI-CR
(2nd) No. 4-73 has been rejected several times
by this Court. Jackson v. State, 2006 OK CR
45, ¶¶ 36-38, 146 P.3d 1149, 1161-63; Browning
v. State, 2006 OK CR 8, ¶¶ 52-56, 134 P.3d 816,
843-45; Rojem v. State, 2006 OK CR 7, ¶¶ 68-73,
130 P.3d 287, 300-01.
Pavatt, No. PCD-2009-777, slip op. at 5 n.5. With respect
to Ground Thirteen, the OCCA likewise noted that it had
“rejected the same argument many times in the past.”
Id. at 6 n.6 (citing Cole v. State, 2007 OK CR 27, ¶ 37, 164
P.3d 1089, 1098)).
In order to satisfy the Eighth Amendment, an
aggravating circumstance must meet two requirements:
(1) it may not apply to every defendant convicted of murder;
and (2) it may not be unconstitutionally vague. Tuilaepa,
512 U.S. at 972. As Petitioner duly notes, in 1987, the
Tenth Circuit found that Oklahoma’s especially heinous,
atrocious, or cruel aggravator as then applied violated
both of these requirements, Cartwright v. Maynard,
822 F.2d 1477 (10th Cir. 1987), and the Supreme Court
agreed, Maynard v. Cartwright, 486 U.S. 356, 108 S. Ct.
1853, 100 L. Ed. 2d 372 (1988). However, even before the
Supreme Court issued its decision, Oklahoma narrowed its
application. In Stouffer v. State, 1987 OK CR 166, 742 P.2d
562, 563 (Okla. Crim. App. 1987), Oklahoma “restrict[ed]

279a
Appendix D
its application to those murders in which torture or serious
physical abuse is present.” Consistent with this change,
the jury in Petitioner’s case was specifically instructed
that the aggravator was applicable “where the death of
the victim was preceded by torture of the victim or serious
physical abuse” (O.R. XI, 2052). See Maynard, 486 U.S. at
365 (acknowledging that limiting the heinous, atrocious,
or cruel aggravator to cases involving some kind of
torture or serious physical abuse would be constitutionally
acceptable). As Respondent aptly notes, Response, p.
139 n. 15, since Oklahoma’s imposition of a more narrow
construction, the Tenth Circuit has repeatedly approved
of the same, including the very instruction administered
in this case. Wilson, 536 F.3d at 1108; Workman v. Mullin,
342 F.3d 1100, 1115-16 (10th Cir. 2003); Hooks v. Ward, 184
F.3d 1206, 1239-40 (10th Cir. 1999). See also Miller, 354
F.3d at 1300 (acknowledging and listing cases in which the
Tenth Circuit has upheld Oklahoma’s heinous, atrocious,
or cruel aggravator since Maynard); Medlock, 200 F.3d at
1321 (“We have held that the ‘heinous, atrocious, or cruel’
aggravating circumstance as narrowed by the Oklahoma
courts after Maynard to require torture or serious
physical abuse characterized by conscious suffering can
provide a principled narrowing of the class of those eligible
for death.”). While Petitioner has argued otherwise, he
has not presented any valid argument to overcome this
abundant and controlling authority.

280a
Appendix D
3.

Appellate Counsel Ineffectiveness (Ground
Fourteen).

In Ground Fourteen, Petitioner argues that Supreme
Court authority 44 requires Oklahoma capital juries to
find beyond a reasonable doubt that the aggravating
circumstances outweigh the mitigating circumstances and
he faults his appellate counsel for not raising this claim
on direct appeal. Petitioner presented this claim to the
OCCA in his first application for post-conviction relief.
Original Application for Post-Conviction Relief, No. PCD2004-25, pp. 70-76. Because the OCCA denied relief upon a
merits application of Strickland, Respondent asserts that
Petitioner has failed to show that the OCCA’s decision is
contrary to or an unreasonable application of Strickland.

44. Petitioner cites to Jones v. United States, 526 U.S. 227,
119 S. Ct. 1215, 143 L. Ed. 2d 311 (1999), Apprendi v. New Jersey,
530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435 (2000), and Ring
v. Arizona, 536 U.S. 584, 122 S. Ct. 2428, 153 L. Ed. 2d 556 (2002).
In Jones, the Supreme Court interpreted the federal carjacking
statute as setting forth three separate offenses, “each of which
must be charged by indictment, proven beyond a reasonable doubt,
and submitted to a jury for its verdict.” Jones, 526 U.S. at 252.
In Apprendi, the Court held that “[o]ther than the fact of a prior
conviction, any fact that increases the penalty for a crime beyond
the prescribed statutory maximum must be submitted to a jury, and
proved beyond a reasonable doubt.” Apprendi, 530 U.S. at 490. In
Ring, the Court applied Apprendi to capital defendants. “Capital
defendants, no less than noncapital defendants, . . . are entitled to a
jury determination of any fact on which the legislature conditions
an increase in their maximum punishment.” Ring, 536 U.S. at 589.

281a
Appendix D
In denying Petitioner relief on his claim, the OCCA
found that appellate counsel was not deficient in failing
to raise this claim because the claim had no merit. The
OCCA referenced its decision in Wood v. State, 2007 OK
CR 17, 158 P.3d 467, 475 (Okla. Crim. App. 2007), wherein
it rejected the very argument Petitioner contends his
appellate counsel should have made. Pavatt, No. PCD2004-25, slip op. at 7 n.7. In Wood, 158 P.3d at 475, the
OCCA not only noted the lack of merit to the claim, but
it also noted its repeated rejection of the claim in at least
four other published cases.
In addition to the ample OCCA authority on the
issue, the Tenth Circuit has also addressed the issue and
specifically rejected it as well in both Lockett, 711 F.3d
at 1252-55, and Matthews v. Workman, 577 F.3d 1175,
1195 (10th Cir. 2009). While acknowledging this contrary
authority, Petitioner’s position is simply that both courts
are wrong because their decisions are contrary to Ring.
Reply, p. 109. The Court disagrees.
In Ring, the Supreme Court addressed a capital
defendant’s right to a jury trial. The Court reviewed an
Arizona procedure which allowed the trial judge, alone
and after a jury verdict finding a defendant guilty of first
degree murder, to determine the appropriate sentence.
Under Arizona law, a death sentence could not be imposed
unless at least one aggravating circumstance was found
beyond a reasonable doubt. Ring, 536 U.S. at 588, 597. At
the sentencing hearing, to be conducted by the same judge
who tried the case, the judge was directed to evaluate both
the aggravating and mitigating circumstances. The judge

282a
Appendix D
was then authorized to impose a sentence of death “only if
there is at least one aggravating circumstance and ‘there
are no mitigating circumstances sufficiently substantial to
call for leniency.’” Id. at 593 (citation omitted). The judge
found two aggravating circumstances and one mitigating
circumstance. Finding that the mitigating circumstance
did not warrant leniency, the judge sentenced Ring to
death. Id. at 594-95.
The Supreme Court found that Arizona’s capital
procedure violated the Sixth Amendment. “If a State
makes an increase in a defendant’s authorized punishment
contingent on the finding of a fact, that fact — no matter
how the State labels it — must be found by a jury beyond
a reasonable doubt.” Id. at 602. Because Arizona law
provides that a death sentence is unauthorized in the
absence of at least one aggravating circumstance, the
Court found that “Arizona’s enumerated aggravating
factors operate as ‘the functional equivalent of an
element of a greater offense,’. . . [and therefore] the Sixth
Amendment requires that they be found by a jury.” Id. at
609 (quoting Apprendi) (citation omitted).
Ring’s focus is on death eligibility, not the ultimate,
highly discretionary sentencing decision. The issue in
Ring was the judicial determination of the prerequisite
for the death penalty — that particular finding which
allowed the defendant’s sentence to be enhanced. While
the judge in Ring not only made this finding but weighed
the aggravators and mitigators as well, the Supreme Court
did not address this additional consideration or in any way
imply that the weighing process was subject to its holding.

283a
Appendix D
In addition, Supreme Court precedent establishes “that a
State enjoys a range of discretion in imposing the death
penalty, including the manner in which aggravating and
mitigating circumstances are to be weighed.” Kansas v.
Marsh, 548 U.S. 163, 174, 126 S. Ct. 2516, 165 L. Ed. 2d 429
(2006). The Supreme Court has “‘never held that a specific
method for balancing mitigating and aggravating factors
in a capital sentencing proceeding is constitutionally
required.’” Id. at 175 (quoting Franklin v. Lynaugh, 487
U.S. 164, 179, 108 S. Ct. 2320, 101 L. Ed. 2d 155 (1988)).
In the present case, the jury found beyond a reasonable
doubt two aggravators which supported the imposition of a
death sentence (O.R. XI, 2063). Supreme Court precedent
requires nothing more.
The Tenth Circuit reached this same conclusion in
Matthews. In Matthews, an Oklahoma capital habeas
petitioner, relying on both Apprendi and Ring, argued
that his jury should have been instructed to find that the
aggravating circumstances outweighed the mitigating
circumstances beyond a reasonable doubt. Without this
determination, Matthews argued his death sentence was
invalid. Relying on its decision in United States v. Barrett,
496 F.3d 1079, 1107 (10th Cir. 2007), the Tenth Circuit
found no merit to the claim. In particular, the Court found
that the jury’s weighing of the factors in aggravation and
mitigation “is not a finding of fact subject to Apprendi but
a ‘highly subjective, largely moral judgment regarding the
punishment that a particular person deserves.’” Matthews,
577 F.3d at 1195 (quoting Barrett). In Lockett, 711 F.3d
at 1252-55, the Tenth Circuit reaffirmed its position on
this issue.

284a
Appendix D
In light of the foregoing authority, the Court finds
that Petitioner has not shown that the decision of the
OCCA denying him relief for this allegation of ineffective
assistance of appellate counsel is contrary to or an
unreasonable application of Strickland. See Ground Two,
supra (discussing the application of Strickland to claims
of ineffective assistance of appellate counsel). Because
the underlying claim which Petitioner faults his appellate
counsel for not raising is without merit under both OCCA
and Tenth Circuit precedent, it is abundantly clear that
the OCCA reasonably concluded that appellate counsel had
not been deficient in failing to raise this claim on direct
appeal. See Freeman v. Att’y Gen., 536 F.3d 1225, 1233
(11th Cir. 2008) (“A lawyer cannot be deficient for failing
to raise a meritless claim. . . .”); Snow, 474 F.3d at 72425 (trial counsel was not ineffective for failing to object
to certain evidence which the OCCA found admissible);
Spears, 343 F.3d at 1249 (trial counsel was not ineffective
for failing to object to the giving of a flight instruction
where the OCCA found that sufficient evidence supported
the giving of the instruction).
4. 	Conclusion.
For the foregoing reasons, the Court denies relief to
Petitioner on his Grounds Ten, Eleven, Twelve, Thirteen,
and Fourteen. Having found that none of Petitioner’s
challenges to the aggravating circumstances supporting
his death sentence warrant habeas relief, Petitioner’s
request to be relieved of his death sentence is hereby
denied.

285a
Appendix D
K. 	Ineffective Assistance of Trial and Appellate
Counsel (Ground Fifteen).
In Ground Fifteen, Petitioner alleges nine instances
of trial counsel ineffectiveness and nineteen instances
of appellate counsel ineffectiveness. For the reasons set
forth below, the Court finds that none of these grounds
warrant habeas relief.
1. 	Trial Counsel Ineffectiveness.45
Three of Petitioner’s nine allegations of trial counsel
ineffectiveness are clearly procedurally barred from
habeas review because Petitioner did not present them
45. Throughout the pleadings, the parties have debated whether
Petitioner had the same counsel at trial and on appeal and how that
determination affects the Court’s consideration of various claims.
The parties’ obvious concern is the application of the Tenth Circuit’s
decision in English v. Cody, 146 F.3d 1257 (10th Cir. 1998). In
English, the Tenth Circuit found that “[t]he Oklahoma requirement
that a claim of ineffective assistance of trial counsel be raised on
direct appeal is an adequate ground for procedural default if (1) the
defendant’s counsel on direct appeal is different from trial counsel
and (2) the claims can be resolved on the trial record alone.” Welch
v. Workman, 639 F.3d 980, 1012 (10th Cir. 2011) (citing English, 146
F.3d at 1263). The Court need not decide whether Petitioner had the
same counsel at trial and on appeal because English is simply not
applicable here. English addresses the adequacy of a procedural
bar to ineffective assistance of trial counsel claims not raised on
direct appeal, and the Court has not barred any of Petitioner’s trial
counsel claims for this reason. Many of Petitioner’s trial counsel
ineffectiveness claims have been barred due to Petitioner’s failure
to present them in his first post-conviction application. English does
not prevent the application of this procedural default.

286a
Appendix D
to the OCCA until his second post-conviction application.
As even Petitioner himself acknowledges, Petitioner’s
first, second, and eighth instances concerning trial
counsel’s (1) failure to adequately challenge Petitioner’s
confession letter (State’s Exhibit 222) (Petitioner’s “B”),
(2) failure to adequately challenge the State’s forensic
bullet evidence (Petitioner’s “C”), and (3) failure to
conduct a meaningful mitigation investigation and present
a meaningful mitigation case (Petitioner’s “I”) had not
been presented to the OCCA at the time he filed his
Petition but were thereafter presented in a second postconviction application filed in 2009. Reply, pp. 120, 124,
132-33; Second Application for Post-Conviction Relief,
No. PCD-2009-777, pp. 34-37, 39-48. The OCCA denied
relief on these claims because all were capable of being
presented in his original application for post-conviction
relief. Pavatt, No. PCD-2009-777, slip op. at 6-7 (citing
§ 1089(D)(8)). For the reasons discussed in Ground Two,
supra, the Court finds that these claims are barred from
federal review.
Petitioner’s third through seventh instances require
more discussion due to their relation to other claims raised
in the Petition. In his third instance (Petitioner’s “D”),
Petitioner asserts that his trial counsel was ineffective for
failing to object to all of the hearsay evidence admitted
against him. In support of this claim, Petitioner refers to
his second ground for relief. In Ground Two, Petitioner,
with reference to thirty-five hearsay statements detailed
therein, claims that his trial counsel was ineffective
for failing to object to the admission of this testimony.
Petition, pp. 70-72. However, in adjudication of Ground
Two, supra, the Court found that Petitioner did not raise

287a
Appendix D
a claim regarding his trial counsel’s ineffectiveness with
relation to the hearsay evidence until his second postconviction application. Thus, for the reasons fully set out
therein, the Court has already determined this instance
of trial counsel ineffectiveness to be procedurally barred.
In his fourth instance (Petitioner’s “E”), Petitioner
asserts that his trial counsel was ineffective for failing
to object to the admission of live photographs of Rob. In
Ground Nine, Petitioner raises an evidentiary challenge
to the admission of this evidence. Respondent correctly
points out that although Petitioner raised an appellate
counsel claim with respect to one of these photos (State’s
Exhibit 219), see Ground Nine, supra, he did not allege that
his trial counsel was ineffective in any way with respect to
these photographs until his second post-conviction relief
application. Second Application for Post-Conviction Relief,
No. PCD-2009-777, pp. 37-38. The OCCA denied relief on
this claim because it was capable of being presented in
his original application for post-conviction relief. Pavatt,
No. PCD-2009-777, slip op. at 6-7 (citing § 1089(D)(8)).
Therefore, for the reasons discussed in Ground Two,
supra, the Court finds that this claim is barred from
federal review as well.
In his fifth instance of trial counsel ineffectiveness
(Petitioner’s “F”), and with relation to Ground One,
Petitioner asserts that although trial counsel renewed
his request for a change of venue at the start of the trial,
he failed to provide the trial court with “evidence of the
extensive and continuing media coverage that occurred
after the change of venue hearing, but before the jury was
seated.” Petition, p. 197. Respondent asserts that this claim,

288a
Appendix D
along with a claim of appellate counsel ineffectiveness as
well, was presented to the OCCA in Petitioner’s original
application for post-conviction relief. Original Application
for Post-Conviction Relief, No. PCD-2004-25, pp. 29-32.
In denying relief, the OCCA made two holdings. One,
the claim was barred by res judicata, and two, the claim
was without merit because “the record shows that those
who actually served on Petitioner’s jury could be fair and
impartial. . . .” Pavatt, No. PCD-2004-25, slip op. at 6 &
n.6 (citing Pavatt, 159 P.3d at 280). Respondent does not
argue for the application of a procedural bar, but instead
asserts that the claim should be given AEDPA deference
and denied on the merits. Response, pp.159-60. In his
Reply, Petitioner asserts that the OCCA’s determination
of this claim is unclear and therefore no deference should
be applied. Reply, pp. 117-18.
Regardless of the deference applied to this claim,
however, the Court finds itself in agreement with the
OCCA’s ultimate conclusion. As previously noted in
Ground One, supra, despite extensive pretrial publicity,
an examination of the voir dire proceedings clearly shows
that the impact on the jury pool was surprisingly less than
what would have been expected, and because the trial
court was able to seat an impartial jury, the Court cannot
conclude that trial counsel’s failure to provide the trial
court with evidence of the intervening pretrial publicity
was either deficient or prejudicial.46 Relief on this fifth
instance is therefore denied.46
46. As noted in Ground One, the trial judge, as a member of
the community herself, was very mindful of the media attention the
case was receiving (M. Tr. 7/24/03, 5; J. Tr. I, 58). Therefore, while
presentation of additional evidence of the pretrial publicity may have

289a
Appendix D
In his sixth instance of trial counsel ineffectiveness
(Petitioner’s “G”), and with relation to Ground Eight,
Petitioner faults his trial counsel for not following through
with requests for jury instructions which would have
further defined for the jury the meanings of life and life
without parole. Respondent asserts that this claim is
unexhausted because it was not presented on direct appeal
or in Petitioner’s original application for post-conviction
relief. Response, p. 161. In his Reply, Petitioner does not
address the matter of exhaustion, and unlike other claims,
Petitioner does assert that this claim was presented in
his second post-conviction application. Reply, pp. 129-30.
Because it is clear that Petitioner has never presented
this claim to the OCCA and because presentation of the
claim now in a third post-conviction application would be
undoubtedly barred, the Court finds that this claim is
subject to an anticipatory procedural bar. Lott, 705 F.3d
at 1179.
In his seventh instance of trial counsel ineffectiveness
(Petitioner’s “H”), and with relation to Ground Seven,
Petitioner asserts that his trial counsel was ineffective in
failing to object to the claims of prosecutorial misconduct
set forth in his Ground Seven. In Ground Seven, Petitioner
details eight claims of prosecutorial misconduct. A review
of these claims reveals that (1) trial counsel objected to
the third claim regarding the testimony of Agent Stoner;
(2) Petitioner raised on direct appeal the issue of trial
been optimal, it was not ultimately detrimental to the trial court’s
decision to proceed to voir dire (or in the case of appellate counsel’s
ineffectiveness, the absence of this evidence on appeal did not affect
the outcome of Petitioner’s appeal).

290a
Appendix D
counsel ineffectiveness with respect to the sixth, seventh,
and eighth claims; (3) Petitioner raised in his second
post-conviction application the issue of trial counsel
ineffectiveness with respect to his first, second, and fifth
claims; and (4) Petitioner has never raised the fourth
claim, substantively or through a claim of trial counsel
ineffectiveness. Accordingly, the Court finds as follows: (1)
because trial counsel objected to Agent Stoner’s testimony,
there is no related claim of trial counsel ineffectiveness
to address; (2) Petitioner has not shown that the OCCA
was unreasonable in its application of Strickland to
Petitioner’s claim that trial counsel was ineffective for
failing to object to his sixth, seventh, and eighth claims of
prosecutorial misconduct;47 (3) because Petitioner did not
47. In denying Petitioner relief, the OCCA held as follows:
[Petitioner’s] ineffective-counsel claim fails as well. To
prevail on this claim, [Petitioner] must demonstrate
that (1) counsel acted in a professionally unreasonable
manner by failing to object to the prosecutor’s
comments, and (2) a reasonable possibility exists that
a different sentencing outcome would have resulted
if counsel had objected. Strickland v. Washington,
466 U.S. 668, 687-89, 104 S. Ct. 2052, 2064-65, 80
L.Ed.2d 674 (1984); Dodd, 2004 OK CR 31 at ¶ 112, 100
P.3d at 1049. As we have found that the prosecutor’s
comments were not improper, any defense objection
to them would have been properly overruled and the
ultimate outcome unchanged. Defense counsel was not
ineffective for failing to object to comments which were
not objectionable. Short v. State, 1999 OK CR 15, ¶ 85,
980 P.2d 1081, 1106-07. These propositions are denied.
Pavatt, 159 P.3d at 292 (footnote omitted).

291a
Appendix D
challenge trial counsel’s ineffectiveness with respect to his
first, second, and fifth claims of prosecutorial misconduct
until his second post-conviction application, this claim
is procedurally barred;48 and (4) because Petitioner has
never challenged trial counsel’s actions with respect to
his fourth claim of prosecutorial misconduct, it is subject
to an anticipatory procedural bar, Lott, 705 F.3d at 1179.
In his final instance of trial counsel ineffectiveness
(Petitioner’s “J”), Petitioner alleges that his trial counsel
was ineffective for a comment made during second stage
argument.49 Petitioner also contends that his trial counsel
was ineffective with respect to a comment made by a
second stage mitigation witness.
The ineffectiveness issue regarding trial counsel’s
comment was raised on direct appeal and denied by the
OCCA on the merits as follows:
In Proposition 13, [Petitioner] claims trial
counsel rendered def icient performance
through a single comment made in punishmentstage opening statement:

48. The OCCA denied relief on this claim because it was capable
of being presented in his original application for post-conviction
relief. Pavatt, No. PCD-2009-777, slip op. at 6-7 (citing § 1089(D)(8)).
49. The multiple references to the comment being made as
a part of trial counsel’s opening statement are inaccurate. The
comment was made during second stage closing argument (J. Tr.
XV, 3758).

292a
Appendix D
May it please the Court, Counsel,
ladies and gentlemen of the jury. I
think this task is probably one of
the hardest for a defense attorney to
do because it puts you in a position
of talking to a jury that obviously
didn’t agree with your assertion of
your defense. But nonetheless it’s my
obligation to stand here and to go over
some of the same issues that we’ve had
to talk about before.
We first consider whether counsel’s comment
was professionally unreasonable, and if so,
whether there is a reasonable possibility that
the comment affected the outcome of the
punishment stage. Strickland, 466 U.S. at
687-89, 104 S. Ct. at 2064-65, 80 L.Ed.2d 674.
[Petitioner] contends that in this comment,
defense counsel conceded that he was only
advocating for [Petitioner] out of obligation,
and that the death penalty was a foregone
conclusion. We disagree on both counts.
Counsel’s comment was typical of those often
seen in bifurcated trials (where the issue of
punishment is reserved until after a finding
of guilt), and in capital cases in particular. In
those situations, the defendant and his counsel
must eventually abandon the fight over guilt or
innocence, accept the jury’s verdict on that score,
and move on to arguments related to punishment.
The “obligation” counsel refers to in the quoted

293a
Appendix D
passage is clearly not an obligation to defend a
person he believes his guilty or deserving of the
death penalty. As we read the passage, counsel
was simply reiterating his belief in his client’s
cause, and expressing disappointment that the
jury did not share his belief.
Nor do we read counsel’s comment as a
concession that the death penalty was inevitable.
Rather, counsel was asking the jurors to indulge
his references to guilt-stage evidence, even
though they had rejected the defense theory,
because some of that evidence was relevant to
punishment as well.[FN18] Far from being any
sort of concession, counsel’s comment evinced an
unflagging determination to defend his client.
Counsel’s comment was neither unreasonable,
unprofessional, nor prejudicial. Strickland, 466
U.S. at 687-89, 104 S. Ct. at 2064-65, 80 L.Ed.2d
674 (1984); Kelsey v. State, 1987 OK CR 206, ¶ 4,
744 P.2d 190, 191-92. This proposition is denied.
FN18. Evidence relating to both
agg ravating ci rcumstances was
presented in the guilt stage of trial,
and that ev idence was for mally
incorporated into the punishment
stage. In fact, the punishment stage
evidence was essentially limited
to v ictim-impact and mitigation
witnesses.
Pavatt, 159 P.3d at 293-94.

294a
Appendix D
Asserting that the OCCA’s decision is an unreasonable
determination of the facts, Petitioner claims that had the
OCCA known “the woeful inadequacy of trial counsel’s
investigation” based on “additional outside the record
evidence,” it would have equated this comment by trial
counsel as “a flag of surrender.” Petition, p. 210; Reply, p.
132. The fallacy of this argument is ever apparent. The
OCCA cannot be faulted for unreasonably determining
facts based on evidence outside of the record. See 28
U.S.C. § 2254(d)(2) (the determination of whether a
decision is an unreasonable determination of the facts
is made “in light of the evidence presented in the State
court proceeding”). The OCCA examined the comment
in light of the trial record, and Petitioner has not shown
that its decision to deny relief is based on an unreasonable
determination of the facts or an unreasonable application
of Strickland.
Regarding the comment made by a mitigation witness,
Respondent correctly points out that the substantive claim
to the witness’s comment was raised and rejected by
the OCCA on direct appeal. See Pavatt, 159 P.3d at 293.
However, the issue of trial counsel’s ineffectiveness with
respect to the witness’s comment is unexhausted because
it was not presented on direct appeal or in Petitioner’s
original application for post-conviction relief. Response, p.
176. Petitioner makes no mention of this claim in his Reply.
Because it is clear that Petitioner has never presented
this claim to the OCCA and because presentation of the
claim now in a third post-conviction application would be
undoubtedly barred, the Court finds that it is subject to
an anticipatory procedural bar. Lott, 705 F.3d at 1179.

295a
Appendix D
2.

Appellate Counsel Ineffectiveness.

Aptly describing Petitioner’s appellate counsel claim
as a “laundry list,” Respondent asserts that to the extent
these claims were not otherwise effectively argued in
connection with other presented grounds for relief, this
Court should decline to review these claims due to their
inadequate and cursory presentation. Respondent, pp.
177-78. The Court is wholly in agreement.
Petitioner’s list of appellate counsel errors includes
such vague references as “failed to raise the error in the
admission of irrelevant evidence,” “did not identify all the
prosecutorial misconduct that there was,” “failed to raise
issues relating to evidentiary foundations of evidence,”
and “failed to conduct any investigation or interview
any potential witnesses.” Petition, p. 211. In his Reply,
Petitioner’s counsel asserts that “[i]t is not necessary to
separately analyzed [sic] direct appeal counsel’s failures
when they have been set forth in relationship to the claims
presented separately, and adopted from the arguments
presented to the state by post-conviction counsel.”
Reply, p. 145. While the Court agrees with Petitioner
(and Respondent) on the first point, the Court rejects
Petitioner’s second assertion that his bullet points of error
constitute sufficient pleading.50 The Court declines to pour
over the state court record in an attempt to discern what
irrelevant evidence appellate counsel failed to object to,
50. Despite the assertion that these errors are adopted from
arguments presented in state post-conviction proceedings, there
is not a single citation to the state court record in support of this
ground for relief. Petition, pp. 210-12.

296a
Appendix D
what additional prosecutorial misconduct claims could
have been raised, what further investigation could have
been conducted, etc.
As repeatedly noted herein, under the AEDPA,
Petitioner bears the burden of establishing his entitlement
to relief, and with respect to ineffectiveness claims, this
burden is exponentially increased. Therefore, to the
extent Petitioner has effectively presented allegations of
appellate counsel ineffectiveness within his other fourteen
grounds for relief, they have been appropriately addressed
herein. However, regarding the snippets of appellate
counsel errors set forth in his Ground Fifteen, the Court
declines to address them as they fall woefully short of
acceptable presentation, especially in light of the AEDPA
standard and Petitioner’s representation by appointed
learned counsel (who, with the exception of this ground
for relief, have presented Petitioner’s request for habeas
relief with an overabundance of argument and authority
in a 216-page Petition and a 146-page Reply). 51 Richie v.
Sirmons, 563 F.Supp.2d 1250, 1313-14 (N.D. Okla. 2008)
51. This leads the Court to believe that Petitioner’s counsel
has determined that these appellate counsel claims are not among
Petitioner’s stronger grounds for relief. Cf. Smith v. Murray, 477
U.S. 527, 536, 106 S. Ct. 2661, 91 L. Ed. 2d 434 (1986) (quoting Jones
v. Barnes, 463 U.S. 745, 751-52, 103 S. Ct. 3308, 77 L. Ed. 2d 987
(1983), for the proposition that “the hallmark of effective appellate
advocacy” is the “process of ‘winnowing out weaker arguments
on appeal and focusing on’ those more likely to prevail.”). The
Court notes that since the filing of Petitioner’s case, the Court has
established page limitations for capital habeas cases. See General
Order 10-1. A beneficial byproduct of this order will be the necessity
of habeas counsel to winnow through a petitioner’s claims.

297a
Appendix D
(“Petitioner’s cursory treatment of his general claim of
ineffective assistance of appellate counsel provides no
basis for an analysis by this Court. Generalized allegations
are insufficient to establish a violation of a constitutional
right.”). Cf. Lockett, 711 F.3d at 1230 (quoting Bronson
v. Swensen, 500 F.3d 1099, 1104 (10th Cir.2007), “‘[W]
e routinely have declined to consider arguments that
are not raised, or are inadequately presented, in an
appellant’s opening brief.’”); Hooks, 689 F.3d at 1173
n.12 (same); LaFevers v. Gibson, 182 F.3d 705, 725 (10th
Cir. 1999) (“We have repeatedly warned litigants that
issues adverted to in a perfunctory manner and without
developed argumentation are deemed waived on appeal.”).
3. 	Conclusion.
For the reasons set forth above, the Court finds
that Petitioner has failed to establish his right to relief.
Accordingly, Ground Fifteen is denied.
V. Motions for Discovery and
Evidentiary Hearing.
With respect to Grounds One, Four, Five, Seven, and
Fifteen, Petitioner has made requests for both discovery
and an evidentiary hearing. 52 Docs. 43 and 55. With due
consideration of these motions, along with the multiple
responses, replies, and further supplemental pleadings
which have been filed with respect thereto, the Court
52. Although Petitioner originally sought an evidentiary
hearing with respect to Ground Nine, he effectively withdrew that
request in his reply. Doc. 78 at 6-7.

298a
Appendix D
denies the requests because, as fully discussed herein,
they are not necessary to the Court’s resolution of these
five grounds.
Regarding discovery, “[a] habeas petitioner, unlike
the usual civil litigant in federal court, is not entitled
to discovery as a matter of ordinary course.” Bracy v.
Gramley, 520 U.S. 899, 904, 117 S. Ct. 1793, 138 L. Ed. 2d
97 (1997). Thus, Rule 6(a) of the Rules Governing Section
2254 Cases in the United District Courts provides that
discovery may be permitted in a habeas proceeding only
upon a showing of “good cause.” As the Supreme Court
acknowledged in Bracy, Rule 6 is meant to be consistent
with Harris v. Nelson, 394 U.S. 286, 89 S. Ct. 1082, 22 L.
Ed. 2d 281 (1969). Id. at 909. In Harris, the Supreme Court
held that adequate inquiry should be permitted “where
specific allegations before the court show reason to believe
that the petitioner may, if the facts are fully developed,
be able to demonstrate that he is confined illegally and is
therefore entitled to relief. . . .” Harris, 394 U.S. at 300.
See Wallace v. Ward, 191 F.3d 1235, 1245 (10th Cir. 1999)
(citing Bracy); LaFevers, 182 F.3d at 723 (citing Harris
and Bracy). Moreover, “[t]he purpose of an evidentiary
hearing is to resolve conflicting evidence.” Anderson v.
Att’y Gen. of Kansas, 425 F.3d 853, 860 (10th Cir. 2005).
Thus, if there is no conflict, or if the claim can be resolved
on the record before the Court, then an evidentiary
hearing is unnecessary. Id. at 859.
With respect to Ground One, Petitioner’s pretrial
publicity claim, Petitioner requests an evidentiary hearing
“to establish the frequency, nature, and content of the

299a
Appendix D
publicity which occurred in the print and electronic
media between the change of venue hearing [held in
January 2003] and the time of [his] trial [which began in
August 2003].” Petitioner contends that “[t]his evidence
will establish the impact these stories . . . must have
had upon the jury deciding his case.” Doc. 55 at 2. In
order to obtain this evidence, Petitioner also requests a
subpoena directed to “media sources serving Oklahoma
County.” Doc. 43 at 7. As discussed in both Ground One
and Ground Fifteen (in connection with a related trial
counsel ineffectiveness claim), supra, voir dire confirms
that despite the pretrial publicity, an impartial jury was
selected to hear Petitioner’s case. A review of the media
produced in the months preceding the trial will have no
impact on this well-supported record determination.
With respect to Ground Four, Petitioner’s claim that
he was denied the right to present a defense by the trial
court’s exclusion of third-party perpetrator evidence,
Petitioner seeks the opportunity to depose the prosecutor,
Fern Smith, and Mr. Wood, the alleged third-party
perpetrator, about Mr. Wood’s confession. In related
claims, Petitioner also seeks subpoenas to obtain “[a]
ny information known to the Oklahoma County District
Attorney’s Office, Oklahoma City Police Department,
Oklahoma County Sheriffs’s Office, or the FBI, that [1]
[Petitioner] did not shoot and kill Rob Andrew . . . [and]
[2] that [Mr. Wood], Brenda Andrew or some person other
than Petitioner shot and killed Rob Andrew. . . .” Doc. 43 at
pp. 7-8. Finally, Petitioner requests an evidentiary hearing
to “present the testimony of [Mr. Wood], the letters that
he authored, and the testimony of Detention Officer

300a
Appendix D
Holisak who maintains [Mr. Wood] wrote the letters and
confessed to the homicide of Rob Andrew.” Doc. 55 at 3.
For the reasons discussed in Ground Four, supra, the
Court finds the information Petitioner seeks to obtain and
present is simply more of the same information which was
deemed insufficient to support admission of the evidence.
Petitioner still fails to offer any corroborating evidence
for Mr. Wood’s confession. Moreover, the Court finds that
Petitioner’s requests to obtain any information known by
law enforcement agencies that he did not kill Rob, and
who instead may have done it, are best characterized
as fishing expeditions which the Court will not permit.
Teti v. Bender, 507 F.3d 50, 60 (1st Cir. 2007) (“A habeas
proceeding is not a fishing expedition.”); Hill v. Johnson,
210 F.3d 481, 487 (5th Cir. 2000) (noting that Rule 6 is not
meant for fishing expeditions and that “factual allegations
must be specific, as opposed to merely speculative or
conclusory”).
With respect to Ground Five, Petitioner’s claim that
his appellate counsel was ineffective for failing to raise
claims on appeal regarding the State’s handwriting
expert, Petitioner seeks an evidentiary hearing to
“present testimony concerning the unreliability and
lack of empirical support for handwriting identification
. . . [and] that there was no strategic reason for failure
to raise the issue on direct appeal.” Doc. 55 at 4. In the
adjudication of Petitioner’s Ground Five, the Court found
that the OCCA did not unreasonably apply Strickland
to find that appellate counsel was not ineffective in this
instance. In denying Petitioner’s claim, the OCCA found
Petitioner had failed to show that he was prejudiced by

301a
Appendix D
appellate counsel’s omission of the claims in the absence of
controlling authority that would have prevented admission
of the evidence. Therefore, even if Petitioner were to
demonstrate that appellate counsel had no strategic
reason for omitting the claims, such demonstration would
relate only to the issue of deficient performance. Because
the OCCA assumed deficient performance and denied
Petitioner’s claim due to a lack of prejudice, the purposes
for which Petitioner seeks an evidentiary hearing on
this claim both are collateral and unnecessary to the
adjudication of Petitioner’s Ground Five.
With respect to Ground Seven, Petitioner seeks both
discovery and an evidentiary hearing regarding his
second allegation of prosecutorial misconduct labeled
“Use of Bullet Evidence.” Petition, pp. 105-10; Doc. 55 at
4-5; Doc. 43 at 7-8. Because the Court has procedurally
barred this claim due to Petitioner’s failure to present it
to the OCCA until his second post-conviction application,
neither discovery nor an evidentiary hearing is warranted
on this claim.
With respect to Ground Fifteen, Petitioner seeks
an evidentiary hearing on the issue of trial counsel
ineffectiveness. Doc. 55 at 6-8. Petitioner’s initial request
is that he be granted an evidentiary hearing to make
a general showing that his trial counsel lacked the
qualifications and experience to serve as qualified counsel.
However, Petitioner has failed to show why an evidentiary
hearing is needed to present this evidence and how it is

302a
Appendix D
relevant to any particular claim of ineffectiveness raised.53
Irrespective of how many capital defense seminars trial
counsel may have attended or how many capital cases he
may have previously tried, the question under Strickland
is whether trial counsel rendered deficient performance in
Petitioner’s trial and if so, whether it resulted in prejudice
to Petitioner. There is no per se rule of ineffectiveness
based on an attorney’s qualifications and experience.
But see United States v. Bergman, 599 F.3d 1142, 1148
(10th Cir. 2010) (“ adopt[ing] a narrow per se rule of
ineffectiveness where a defendant is, unbeknownst to him,
represented by someone who has not been admitted to
any bar based on his ‘failure to ever meet the substantive
requirements for the practice of law’”) (citation omitted).
Petitioner’s remaining requests with respect to his
Ground Fifteen relate to his first, second, and eighth
allegations of trial counsel ineffectiveness. Petition, pp.
188-95, 199-211 (wherein Petitioner has alleged that his
trial counsel was ineffective with respect to his confession
letter, the bullet evidence, and in the investigation and
presentation of his mitigation case). Because the Court
has procedurally barred these claims due to Petitioner’s
failure to present them to the OCCA until his second postconviction application, an evidentiary hearing on these
claims is clearly unwarranted.

53. The Court notes that Petitioner has made a similar request
with respect to his appellate counsel in a supplemental motion. Doc.
85. It is likewise denied.

303a
Appendix D
VI. Conclusion.
After a thorough review of the entire state court
record, the pleadings filed herein, and the applicable
law, the Court finds that Petitioner is not entitled to his
requested relief. Accordingly, Petitioner’s Petition (Doc.
49), motion for discovery (Doc. 43), and motion for an
evidentiary hearing (Doc. 55) are hereby DENIED. A
judgment will enter accordingly.
IT IS SO ORDERED this 1st day of May, 2014.
/s/ David L. Russell		
DAVID L. RUSSELL
UNITED STATES DISTRICT
JUDGE

304a
Appendix DENYING
E
Appendix e — OPINION
SECOND
APPLICATION FOR POST-CONVICTION RELIEF
AND APPLICATION FOR EVIDENTIARY
HEARING in the Oklahoma Court
of Criminal Appeals, FILED
FEBRUARY 2, 2010
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
Case No. PCD-2009-777
JAMES DWIGHT PAVATT,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
OPINION DENYING SECOND APPLICATION FOR
POST-CONVICTION RELIEF AND APPLICATION
FOR EVIDENTIARY HEARING
C. JOHNSON, PRESIDING JUDGE:
Petitioner, James Dwight Pavatt, was convicted by a
jury in Oklahoma County District Court, Case No. CF2001-6189, of First Degree Murder (21 O.S.2001, § 701.7)
(Count 1) and Conspiracy to Commit First Degree Murder
(21 O.S.2001, § 421) (Count 2). The jury found the existence

305a
Appendix E
of two aggravating circumstances, and recommended a
sentence of death on Count 1.1 As to Count 2, the jury
recommended ten years imprisonment and a $5000 fine.
The trial court sentenced accordingly on October 21,
2003. This Court affirmed Petitioner’s convictions and
sentences on direct appeal. Pavatt v. State, 2007 OK CR
19, 159 P.3d 272. Petitioner sought certiorari review by the
United States Supreme Court, which was denied. Pavatt
v. Oklahoma, _ U.S. _, 128 S.Ct. 1229, 170 L.Ed.2d (2008).
Petitioner sought post-conviction relief from this Court,
which was denied. Pavatt v. State, Case No. PCD-2004-25
(April 11, 2008; not for publication). In 2008, Petitioner
sought habeas corpus relief in the United States District
Court for the Western District of Oklahoma (Case No.
CIV-08-470-R). That case is pending.
Our consideration of Petitioner’s claims is circumscribed
by the provisions of the Post-Conviction Procedure Act, 22
O.S.Supp.2006, § 1080 et seq. The Act provides applicants
with very limited grounds upon which to attack their
convictions. Claims which could have been raised on direct
appeal, but were not, are generally considered waived.
Claims which were raised and addressed on direct appeal
are barred from being relitigated by the doctrine of res
judicata. Furthermore, claims which are properly raised
in a post-conviction application may only afford relief if
they “[s]upport a conclusion either that the outcome of the
1. The State alleged three aggravating circumstances in
support of the death penalty on Count 1: (1) that the murder was
especially heinous, atrocious, or cruel; (2) that the murder was
committed for remuneration or the promise of remuneration; and
(3) that the defendant constituted a continuing threat to society.
The jury found the first and second circumstances existed.

306a
Appendix E
trial would have been different but for the errors or that
the defendant is factually innocent” 22 O.S.Supp.2006,
§ 1089(C).
Currently before the Court is Petitioner’s Second
Application for Post-Conviction Relief, Application for
Evidentiary Hearing with Brief in Support, and two bound
volumes of exhibits in support thereof. 2 Under the PostConviction Procedure Act, our consideration of successive
applications for relief is even more limited than the review
afforded to initial applications. We may not consider the
merits of any claim made in a subsequent application
for post-conviction relief, unless (1) the legal basis for
that claim was previously unavailable, or (2) the facts
supporting the claim were not previously ascertainable
through the exercise of reasonable diligence, and those
facts, “if proven and viewed in light of the evidence as
a whole, would be sufficient to establish by clear and
convincing evidence that, but for the alleged error, no
reasonable fact finder would have found the applicant
guilty of the underlying offense or would have rendered
the penalty of death.” 22 O.S.Supp.2006, § 1089(D)(8).
2. On September 9, 2009, Petitioner’s counsel filed a
“Motion to Supplement Exhibits.” Counsel noted that a copy of
Petitioner’s first Application for Post-Conviction Relief (Case No.
PCD-2004-25) had inadvertently been omitted from the exhibit
package previously filed on September 2, 2009, and asked this
Court to accept a tendered copy at that time. Our Rules require
that copies of all prior post-conviction applications be appended
to a new postconviction application. See Rule 9.7(A)(3)(d), Rules of
the Oklahoma Court of Criminal Appeals, 22 O.S., Ch. 18, App.
(2009). Petitioner’s motion to supplement his exhibits with a copy
of his first Application for Post-Conviction Relief is therefore
GRANTED.

307a
Appendix E
Petitioner raises numerous issues in this most recent
application; they are grouped into six propositions of
error. In Proposition 1, Petitioner claims he was denied a
fair trial by a long list of inadmissible hearsay. Petitioner
concedes that this issue was raised, and rejected, in his
first application for post-conviction relief, but claims
prior post-conviction counsel “did not argue the effect of
such evidence in the second stage of trial.” (Petitioner’s
Application at 11 & n. 3) The facts and law supporting
the new slant on this claim were available to Petitioner
in prior proceedings. We may not consider it at this time.
22 O.S.Supp.2006, § 1089(D)(8).
In Proposition 2, Petitioner lists several instances of
alleged prosecutor misconduct. He concedes that both
appellate counsel, and first post-conviction counsel, made
claims of prosecutor misconduct in prior proceedings
(Petitioner’s Application at 20), but he offers some new
arguments. We have reviewed the three categories of
prosecutor misconduct presented, but all of them could
have been raised in prior proceedings. 3 We decline to
3. Petitioner groups the alleged misconduct into three
categories. First, he complains that many of the questions posed
to various witnesses in the guilt stage of the trial elicited answers
that could be characterized as “victim impact” evidence, which,
when presented in the capital sentencing stage of a trial, is subject
to certain restrictions. Second, he complains that the prosecutors
misled the jury concerning forensic ballistics analyses made in
the case. Petitioner does not allege that the State withheld any
evidence from the trial defense team. While Petitioner’s first
post-conviction counsel has provided an affidavit that she “[does]
not believe” she received all information from trial counsel’s file
relating to this issue, Petitioner offers no information as to whether

308a
Appendix E
review them further at this time. 22 O.S.Supp.2006,
§ 1089(D)(8).
In Proposition 3, Petitioner claims he was denied a fair
trial by the combined effect of gruesome photographs of
the murder victim, and photo and video evidence showing
the victim before his· demise. Petitioner concedes that on
direct appeal, we rejected his claim that the post-mortem
photographs of the victim were not unfairly gruesome.
Nevertheless, he claims we have not considered whether
the same photos were “unnecessarily cumulative and
repetitive.” (Petitioner’s Application at 20) Petitioner also
concedes that premortem visual images of the victim,
introduced at trial, were complained about in his previous
post-conviction application. The current arguments
merely modify or expand claims made, and rejected,
in prior proceedings, and are therefore barred by the
doctrine of res judicata.4 Turrentine v. State, 1998 OK CR
direct appeal counsel considered the issue and rejected it. Third,
Petitioner faults the State for using his written “confession”
letter as substantive evidence of guilt at his trial, while in his
co-defendant’s trial, the prosecutors characterized the letter as
“concocted.” In the letter, Petitioner attempted to absolve his codefendant of any involvement in the murder, and admitted some
limited involvement of his own (although he denied being the
triggerman). Not surprisingly, the prosecutors believed that the
letter was relevant as an admission against Petitioner’s interest
— but that the details of the letter were not particularly reliable.
4. Petitioner’s complaint about the post-mortem photographs
is something of a moving target. As we noted on direct appeal,
Petitioner’s concern at trial was more about the number of
photographs than their nature. On direct appeal, Petitioner

309a
Appendix E
44, ¶¶ 12, 965 P.2d 985, 989. Finally, Petitioner claims the
prosecutor improperly used the post-mortem photographs
as evidence that the murder was especially heinous,
atrocious, or cruel. This argument, based entirely on the
trial record, could have been raised in prior proceedings
but was not. It cannot be considered at this time. 22
O.S.Supp.2006, § 1089(D)(8).
In Proposition 4, Petitioner complains about one of the
trial court’s punishment-stage instructions. He contends
that while the jury was instructed on the prevailing
definition of “heinous, atrocious, or cruel” (referring to one
of the aggravating circumstances alleged by the State), a
more elaborate definition of that term was constitutionally
required. He also claims the jury should have been
instructed that any facts supporting that circumstance
must be proven beyond a reasonable doubt before the
circumstance could support a death sentence. Because this
argument is based on the trial record, it could have been
made in prior proceedings, and may not be considered
now. 5 22 O.S.Supp.2006, § 1089(0)(8).
shifted focus, complaining about the gruesome nature of the photos
individually, not about any cumulatively adverse effect. We noted
that the trial court did exclude some of the proffered photos at
defense counsel’s request, and concluded that the remaining photos
were not unfairly prejudicial. Pavatt, 2007 OK CR 19 at ¶¶ 54-55,
159 P.3d at 289-290.
5. In any event, we have rejected the same argument
several times in the past. Petitioner essentially asks this Court
to retroactively require an instruction that we promulgated —
after Petitioner’s conviction— in DeRosa v. State, 2004 OK CR
19, ¶¶ 91-97, 89 P.3d 1124, 1154-57. That instruction elaborates

310a
Appendix E
In Proposition 5, Petitioner claims that the prevailing
standards for finding a particular murder to be “especially
heinous, atrocious, or cruel” are vague, and therefore,
constitutionally inadequate. This legal argument could
have been raised in prior proceedings, but was not. It is
therefore waived.6 22 O.S.Supp.2006, § 1089(0)(8).
In Proposition 6, Petitioner makes a number of
claims about the effectiveness of trial counsel, direct
appeal counsel, and counsel on his first post-conviction
proceeding. Petitioner reiterates many of the complaints
listed above, and faults each of his preceding attorneys
for either not raising these issues, or not raising them in
a particular fashion. He takes trial counsel to task for not
presenting a more thorough case in mitigation of sentence,
and faults every attorney since for not making the same
argument.
on the meaning of “heinous, atrocious, or cruel,” and the relevant
Uniform Jury Instruction already in existence (No. 4-73) was
amended a year later. DeRosa was handed down several months
after Petitioner’s trial. DeRosa does not hold that the Uniform
Jury Instruction on this issue, being used at the time of DeRosa’s
and Petitioner’s trials, was materially deficient. DeRosa, 2004
OK CR 19, ¶ 97, 89 P.3d at 1156 (“This opinion should not be
interpreted as a ruling that the former uniform instruction was
legally inaccurate or inadequate”). This same attack on the preDeRosa version of OUJI-CR (2nd) No. 4-73 has been rejected
several times by this Court. Jackson v. State, 2006 OK CR 45,
¶¶ 36-38, 146 P.3d 1149, 1161-63; Browning v. State, 2006 OKCR
8, ¶¶ 52-56, 134 P.3d 816, 843-45; Rojem v. State, 2006 OK CR 7,
¶¶ 68-73, 130 P.3d 287, 300-01.
6. We have rejected the same argument many times in the
past. See e.g. Cole v. State, 2007 OK CR 27, ¶ 37, 164 P.3d 1089, 1098.

311a
Appendix E
Again, given the posture of Petitioner’s case - a
successive postconviction proceeding — we must focus on
whether he has shown that current claims could not have
been presented previously, in the exercise of reasonable
diligence, and whether these new claims cast doubt on
either the jury’s finding of guilt, or its imposition of the
death sentence. 22 O.S.Supp.2006, § 1089(D)(8)(b)(1),
(2). Petitioner must also demonstrate that the instant
application was filed within sixty days from the date
that the new information could reasonably have been
discovered. Rule 9.7(0)(3), Rules of the Oklahoma Court
of Criminal Appeals, 22 O.S., Ch. 18, App. (2009).
We have reviewed Petitioner’s complaints, and the
evidentiary materials he has proffered to support them.
Petitioner concedes that none of these claims are based on
newly-discovered evidence, or on any material change in
the law. He admits that all of the information he presents
as the product of a more complete mitigation investigation
was, in fact, available at the time of trial. (Petitioner’s
Application at 43) We are barred by the provisions of
the Post-Conviction Procedure Act from considering
these arguments and materials now. 22 O.S.Supp.2006,
§ 1089(D)(8).
DECISION
Petitioner’s Second Application for PostConviction Relief, and his request for an
evidentiary hearing, are hereby DENIED.
Pursuant to Rule 3.15, Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18,

312a
Appendix E
App. (2009), the MANDATE is ORDERED
issued upon the delivery and filing of this
decision.
A N A PPEA L FROM T H E DIST RICT
C OU RT OF OK L A HOM A C OU N T Y
T H E HONOR A BL E SUS A N BR AG G ,
DISTRICT JUDGE
NO RESPONSE REQUESTED FROM THE STATE
OPINION BY C. JOHNSON, P.J.
A. JOHNSON, V.P.J.: CONCUR
LUMPKIN, J.: CONCUR
CHAPEL, J.: SPECIALLY CONCUR
LEWIS, J.: CONCUR

313a
Appendix f — Appendix
opinionFdenying first
application for post-conviction relief
in the Oklahoma Court of Criminal
Appeals, filed april 11, 2008
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
Case No. PCD-2004-25
JAMES DWIGHT PAVATT,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
OPINION DENYING APPLICATION FOR POSTCONVICTION RELIEF AND RELATED MOTIONS
C. JOHNSON, VICE-PRESIDING JUDGE:
Petitioner, James Dwight Pavatt, was convicted by a
jury in Oklahoma County District Court, Case No. CF2001-6189, of First Degree Murder (21 O.S.2001, § 701.7)
(Count 1) and Conspiracy to Commit First Degree Murder
(21 O.S.2001, § 421) (Count 2). The jury found the existence
of two aggravating circumstances, and recommended. a
sentence of death on Count 1.1 As to Count 2, the jury
1. The State alleged three aggravating circumstances in
support of the death penalty on Count 1: (1) that the murder was
especially heinous. atrocious, or cruel; (2) that the murder was

314a
Appendix F
recommended ten years imprisonment and a $5000 fine.
The trial court sentenced accordingly on October 21,
2003. This Court affirmed Petitioner’s convictions and
sentences on direct appeal. Pavatt v. State, 2007 OK CR
19, 159 P.3d 272. 2 Petitioner sought certiorari review by
the United States. Supreme Court, which was denied.
Pavatt v. Oklahoma, ___ U.S. ___, ___ S.Ct. ___, 2008
WL 425560.
Currently before the Court is Petitioner’s Original
Application for Post-Conviction relief, filed April 17,
2006, and several related motions filed simultaneously
therewith. 3 Our review of Petitioner’s application is
governed by the Post-Conviction Procedure Act, 22
O.S.Supp.2006, § 1080 et seq. The Act provides applicants
with very limited grounds upon which to attack their
convictions. Claims which could have been raised on direct
committed for remuneration or the promise of remuneration; and
(3) that the defendant constituted a continuing threat to society. The
jury found the first and second circumstances existed.

2. The record from Petitioner’s trial was received by this Court
in May 2004. Petitioner’s brief in chief was filed in January 2005. The
State’s response brief was filed in May 2005. Petitioner filed a reply
brief in July 2005. Oral argument was held in May 2006.
3. Petitioner’s request to file an “oversize” application
(exceeding the page limit set forth in our·Rules) is GRANTED. His
request to file Proposition 2(G) under seal is DENIED, and the Clerk
of this Court is DIRECTED to unseal that portion of the application.
See Pavatt, 2007 OK CR 19 at ¶ 40 n. 10, 159 P.3d at 286 n. 10. His
motion (filed April 17, 2006) requesting 30 days to supplement his
application with additional matters, pending oral argument and other
events in his direct appeal; is DISMISSED AS MOOT.

315a
Appendix F
appeal, but were not, are generally considered waived.
Claims which were raised and addressed on direct appeal
are barred from being relitigated by the doctrine of res
judicata. Furthermore, claims which are properly raised
in a post-conviction application may only afford relief if
they “[s]upport a conclusion either that the outcome of the
trial would have been different but for the errors or that
the defendant is factually innocent.” 22 O.S.Supp.2006,
§ 1089(C).
Petitioner’s numerous claims are grouped into three
propositions of error. We address each proposition in turn.
In Proposition 1, Petitioner claims that two pieces
of evidence not mentioned in his direct appeal, and an
intervening change in the law, require relief. The evidence
consists of testimony from two witnesses at the trial of
Petitioner’s co-defendant, Brenda Andrew, which took
place after Petitioner’s trial but before his direct appeal
brief was filed.4 At Petitioner’s trial, Herman Roggow
testified that he had known Brenda Andrew since she
was a child. Roggow claimed that in November 2001,
about a week before the murder, he saw Andrew, her
brother-in-law, and another unidentified man, carrying
firearms, as if preparing to engage in target practice, by
the side of the road in rural Garfield County. Petitioner
notes that subsequently, at Andrew’s trial, Roggow had
difficulty identifying Andrew in the courtroom. Thus,
4. Brenda Andrew and Petitioner were charged jointly with
murdering Andrew’s husband and conspiring to do so. Andrew was
also sentenced to death for the murder. Andrew v. State, 2007 OK
CR 23, 164 P.3d 176.

316a
Appendix F
Petitioner claims, Roggow’s testimony at Petitioner’s trial
was suspect, and the implication that Petitioner was the
third, unidentified person engaged in target practice was
unfairly suggested to the jury.
Contrary to Petitioner’s claim, Roggow’s testimony
at Andrew’s trial in mid-2004 is not “‘newly discovered
evidence”; it was available to direct appeal counsel, since
the direct appeal brief was not filed until January 2005.
Because the evidence was discoverable through reasonable
diligence, Petitioner must show (1) that appellate counsel’s
failure to present it timely, during the pendency of the
direct appeal, was professionally unreasonable, and (2)
that the failure casts doubt on the outcome of Petitioner’s
appeal. Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984); see also Slaughter v. State,
1998 OK CR 63, ¶¶ 5-6, 969 P.2d 990, 993-94.
The thrust of Roggow’s testimony was that he
witnessed Brenda Andrew, not Petitioner, preparing to
engage in target practice. Roggow did not know Petitioner,
and he never identified Petitioner as being in Andrew’s
company on the occasion in question. Any inference that
Petitioner was present was of course possible, but not
required to support the State’s theory that Petitioner
and Andrew concocted a plan to kill Andrew’s husband,
and that each did a number of things to effect that result.
Petitioner does not dispute that Roggow was personally
familiar with Andrew, having known her since she was a
child. Nor does he take issue with Roggow’s identification
of Andrew’s brother-in-law at the same encounter, or
with the fact that shotgun shells found at that location

317a
Appendix F
were consistent with the unusual gauge of shotgun used
to kill Andrew’s husband. Andrew’s trial was held almost
three years after Roggow claimed to have seen her from
the roadway. This Court has no information as to what
kind of changes in physical appearance Andrew might
have undergone during that time. Roggow was allowed to
leave the witness stand, move closer to Andrew and did,
in fact, identify her at her trial, with no further dispute
by Andrew’s defense counsel. Finally, the State’s case
by no means hinged on Roggow’s testimony. Any initial
difficulty Roggow might have had identifying Andrew at
her trial is simply not material enough to have made any
difference in the outcome of Appellant’s appeal.
The second item of evidence Petitioner presents as
“newly discovered” is the testimony of Bill Shadid at
Andrew’s trial. At Petitioner’s trial, David Head testified
about an altercation he had with co-defendant Andrew
over work he performed at her home. Head testified that
an unidentified man was present during the altercation.
Subsequently, at Andrew’s trial, one of Andrew’s
neighbors, Shadid, testified that he was the man who
witnessed the altercation between Andrew and Head.
Petitioner complains that, given Shadid’s testimony at
Andrew’s trial, any implication from Head’s testimony
at Petitioner’s trial; that Petitioner was the unidentified
bystander, was unfair.
Again, this evidence was discoverable by direct appeal
counsel, because Andrew’s trial was held several months
before Petitioner’s appeal brief was filed. And again,
Petitioner is unable to meet the Strickland criteria for

318a
Appendix F
ineffective assistance of appellate counsel. As Petitioner
concedes, Head did not know the male bystander and never
positively identified him. Most importantly, the identity of
the bystander was irrelevant, because he took no part in
the altercation or the threat that Andrew made to Head.
In fact, Head testified at Petitioner’s trial that the man
attempted to quell the dispute. There is no reasonable
possibility that Shadid’s testimony would have changed
the outcome of Petitioner’s trial or appeal.
Finally, Petitioner asks this Court to apply the new
rule announced in Anderson v. State, 2006 OK CR 6,
130 P.3d 273, to his case. Oklahoma law provides that
for certain enumerated crimes, a defendant must serve
at least 85% of any sentence imposed before becoming
eligible for any type of early release. In Anderson, this
Court held that when a defendant is tried for a crime
subject to the 85% Rule, the jury must be given that
information. The rule in Anderson applied prospectively,
and to any case pending on direct appeal at the time
Anderson was announced. Carter v. State, 2006 OK CR
42, ¶ 4, 147 P.3d 243, 244. Petitioner’s case was pending on
direct appeal at the time Anderson was decided.5 However,
we have made it clear that failure to instruct on the 85%
Rule is not automatic grounds for reversal in every case.
Eizember v. State, 2007 OK CR 29, ¶ 73, 164 P.3d 208,
229. As to Count 1, the jury in Petitioner’s case had three
punishment options — life with the possibility of parole,
life without the possibility of parole, and death. It chose
5. This Court cited Anderson in Petitioner’s direct appeal.
Pavatt, 2007 OK CR 19, ¶ 30 n. 6, 159 P.3d at 283 n. 6.

319a
Appendix F
the most severe option, to which the notion of parole is
irrelevant. We can confidently conclude that, had the jury
been instructed on the 85% Rule, that information would
not have affected the verdict. See Cole v. State, 2007 OK
CR 27, ¶ 65, 164 P.3d 1089, 1102. Proposition 1 is denied.
In Proposition 2, Petitioner attacks the performance
of his retained counsel on direct appeal. In approximately
two dozen sub-arguments, Petitioner reformulates or
supplements claims that direct appeal counsel did raise,
and advances some new claims that direct appeal counsel
did not raise. The first group of claims are not accompanied
by newly-discovered facts or new controlling case law. They
are therefore. barred by res judicata.6 Post-conviction
may not be used to reformulate or supplement a claim that
6. The following claims are barred by res judicata: (B), alleging
that appellate counsel failed to present all facts and law relevant
to his argument concerning prospective juror’s comment on parole
during voir dire; (C), alleging that counsel failed to challenge Agent
Stoner’s testimony “completely, sufficiently, and adequately”; (D),
faulting counsel for not continuing to present evidence of media
coverage after the change-of-venue hearing and before trial; the
record shows that those who actually served on Petitioner’s jury
could be fair and impartial (Pavatt, 2007 OK CR 19 at ¶¶ 17-18, 159
P.3d at 280): (E) and (F), challenging the sufficiency of evidence
supporting Petitioner’s convictions; (G), alleging that counsel failed
to argue “sufficiently and adequately” concerning alternativesuspect evidence; (H); alleging that counsel failed to advance his
prosecutorial misconduct claim “sufficiently”; (I), challenging the
sufficiency of evidence supporting the aggravating circumstances;
(J), faulting scope of counsel’s argument concerning admission of
a “live” photograph of the victim; see also Marquez-Burrola v.
State, 2007 OK CR 14, ¶¶ 30-31, 157 P.3d 749,160 (rejecting similar
argument).

320a
Appendix F
was made on direct appeal. See Browning v. State, 2006
OK CR 37, ¶ 4, 144 P.3d 155, 157; Davis v. State, 2005 OK
CR 21, ¶ 17, 123 P.3d 243, 248. As for the second group
of claims, Petitioner has failed to demonstrate either (1)
that appellate counsel’s performance was professionally
unreasonable,7 or, assuming deficient performance only
7. In the following claims, Petitioner fails to· show that appellate
counsel’s performance was professionally unreasonable: (K), faulting
appellate counsel for not challenging the admissibility of four
pieces of evidence at trial; (i) the confession purportedly written
by·Petitioner required no additional evidence of chain of custody,
given the trial testimony and the fact that it was a unique, nonfungible item; (ii) any appellate challenge to introduction of insurance
documents found at the victim’s home was waived by trial counsel’s
failure to object, and Petitioner offers no information to dispute the
trial testimony on this issue; (iii) trial testimony concerning a bullet
found by Petitioner’s daughter (including Petitioner’s command that
she “throw it away”) was sufficient to establish its admissibility; (iv)
as for the admissibility of various tape-recorded conversations, see
Andrew v. State, 2007 OK CR 23, ¶¶ 68-71, 164 P.3d at 194 (rejecting
similar argument in co-defendant’s direct appeal; (L), regarding
separation of jurors during deliberations to move their cars; the trial
record confirms that trial defense counsel had no objection to this
procedure; (N), faulting Appellate counsel for not interviewing two
witnesses about their testimony at co-defendant Andrew’s trial (see
discussion in Proposition 1); (Q), faulting counsel for not challenging
trial court’s instruction on assessment of aggravating and mitigating
circumstances; see Wood v. State, 2007 OK CR 17, ¶ 16, 158 P.3d 467.
475 (rejecting same argument); (R), faulting counsel for not alleging
“structural” defects in Oklahoma’s capital sentencing scheme; see
Hams v. State, 2007 OK CR 32, ¶ 19, 167 P.3d 438, 445 (rejecting
same argument); (S), faulting appellate counsel lot not challenging
trial court’s excusal of certain prospective jurors for cause; record
shows that trial court thoroughly inquired to determine whether each
panelist could impose the death penalty under any circumstance, and

321a
Appendix F
for the sake of argument, (2) any outcome-determinative
prejudice caused thereby. 8
We have reviewed the materials properly included
with Petitioner’s application, and conclude that they do
not raise new matters which would require either an
evidentiary hearing or discovery. 22 O.S.Supp.2006,
§ 1089(D)(3), (5); Rule 9. 7(D), (E), Rules of the Oklahoma
Court of Criminal Appeals, 22 O.S. Ch. 18, App. (2008).
Having found no grounds for relief in Petitioner’s
trial defense counsel made only pro forma objections and did not offer
any reason for further inquiry; (V), faulting counsel for not claiming
denial of fair tribunal due to trial judge’s illness; Petitioner’s claim
is entirely speculative and not supported by any specific example of
bias or impairment.

8. In the following claims, Petitioner fails to show that appellate
counsel’s alleged deficiencies likely made a difference in the outcome
of the appeal; (A), alleging that counsel’s brief contained citation
and other editorial mistakes; Petitioner cannot show that any
issues raised were forfeited due to these mistakes; (M), alleging
that counsel failed to raise a claim about certain allegedly hearsay
statements at trial; see Andrew, 2007 OK CR 23, ¶¶ 26-35, 164 P.3d at
188-190, rejecting similar argument in co-defendant’s direct appeal,
particularly given substantial evidence of guilt; (O), faulting counsel
for not challenging testimony of handwriting expert; Petitioner fails
to cite any controlling authority which would require exclusion of this
evidence; (P), faulting counsel for not arguing that an instruction on
accessory after the fact was appropriate; (T), alleging that medical
examiner’s staff had no authority to seize documents from victim’s
home, even though victim’s wife/ co-defendant consented to a search;
(U), alleging that counsel did not communicate with Petitioner
frequently enough during the pendency of the appeal; (W), alleging
that counsel tiled a reply brief out of time (with leave of this Court).

322a
Appendix F
current claims, we likewise reject his cumulative-error
argument in Proposition 3. Finally, we cannot say that
the claims made in Petitioner’s application and related
pleadings suggest either a miscarriage of justice or
the substantial violation of a constitutional or statutory
right. Slaughter, 2005 OK CR 6, ¶ 19, 108 P.3d at 1055; 20
O.S.2001, § 3001.1.
DECISION
Petitioner’s application for post-conviction
relief, and requests for evidentiary hearing
and discovery, are DENIED. Pursuant to
Rule 3.15, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch.18, App. (2008),
the MANDATE is ORDERED issued upon the
delivery and filing of this decision.
OPINION BY C. JOHNSON, V.P.J.
LUMPKIN, P.J.: CONCURS
CHAPEL, J.: CONCURS
A. JOHNSON, J.: CONCURS
LEWIS, J.: CONCURS

323a
Appendixof
G the Oklahoma
Appendix G — opinion
Court of Criminal Appeals, FILED
May 8, 2007
COURT OF CRIMINAL APPEALS OF OKLAHOMA
Case Number: D-2003-1186
JAMES DWIGHT PAVATT,
Appellant,
-vSTATE OF OKLAHOMA,
Appellee.
May 8, 2007, Decided
May 8, 2007, Filed
An Appeal from the District Court of Oklahoma
County; the Honorable Susan Bragg, District Judge.
OPINION
C. JOHNSON, Vice-Presiding Judge:
Appellant, James Dwight Pavatt, was tried by jury
in the District Court of Oklahoma County, Case No. CF2001-6189, for the crimes of First Degree Murder (21
O.S.2001, § 701.7) (Count 1) and Conspiracy to Commit
First Degree Murder (21 O.S.2001, § 421) (Count 2). The
State alleged three aggravating circumstances in support

324a
Appendix G
of the death penalty on Count 1: (1) that the murder
was especially heinous, atrocious, or cruel; (2) that the
murder was committed for remuneration or the promise
of remuneration; and (3) that the defendant constituted a
continuing threat to society. Jury trial was held August
25, 2003 through September 16, 2003 before the Honorable
Susan Bragg, District Judge. The jury found Appellant
guilty as charged on both counts, and recommended a
sentence of ten years imprisonment and a $ 5000 fine
on Count 2. In the capital sentencing phase of the trial,
the jury found the existence of the first and second
aggravating circumstances listed above and recommended
a sentence of death on Count 1. On October 21, 2003, the
trial court sentenced Appellant in accordance with the
jury’s recommendation, and Appellant timely lodged this
appeal.
FACTS
Appellant and his co-defendant, Brenda Andrew, were
each charged with conspiracy and first-degree capital
murder following the shooting death of Brenda’s husband,
Robert (“Rob”) Andrew, at the Andrews’ Oklahoma
City home on November 20, 2001.1 Appellant met the
Andrews while attending the same church, and Appellant
and Brenda taught a Sunday school class together.
Appellant socialized with the Andrews and their two
young children in mid-2001, but eventually began having

1. Brenda Andrew was tried separately. She received the
death penalty on the murder charge as well. Her direct appeal is
presently before this Court in Case No. D-2004-1010.

325a
Appendix G
a sexual relationship with Brenda. 2 Around the same time,
Appellant, a life insurance agent, assisted Rob Andrew
in setting up a life insurance policy worth approximately
$ 800,000. Appellant divorced his wife in the summer
of 2001. In late September, Rob Andrew moved out of
the family home, and Brenda Andrew initiated divorce
proceedings a short time later.
Janna Larson, Appellant’s adult daughter, testified
that in late October 2001, Appellant told her that Brenda
had asked him to murder Rob Andrew. On the night of
October 25-26, 2001, someone severed the brake lines on
Rob Andrew’s automobile. The next morning, Appellant
and Brenda Andrew concocted a false “emergency,”
apparently in hopes that Rob would have a traffic accident
in the process. Appellant persuaded his daughter to call
Rob Andrew from an untraceable phone and claim that
Brenda was at a hospital in Norman, Oklahoma, and
needed him immediately. An unknown male also called
Rob that morning and made the same plea. Rob Andrew’s
cell phone records showed that one call came from a pay
phone in Norman (near Larson’s workplace), and the other
from a pay phone in south Oklahoma City. The plan failed;
Rob Andrew discovered the tampering to his car before
placing himself in any danger. He then notified the police.
One contentious issue in the Andrews’ divorce was
control over the insurance policy on Rob Andrew’s life.
After his brake lines were severed, Rob Andrew inquired
2. The State presented evidence that the Andrews’ marriage
had been strained for several years, and that Brenda Andrew had
a number of extramarital affairs.

326a
Appendix G
about removing Brenda as beneficiary of his life insurance
policy. However, Appellant, who had set up the policy,
learned of Rob’s intentions and told Rob (falsely) that he
had no control over the policy because Brenda was the
owner. Rob Andrew spoke with Appellant’s supervisor,
who assured him that he was still the record owner of
the policy. Rob Andrew then related his suspicions about
Appellant and Brenda to the supervisor. When Appellant
learned of this, he became very angry and threatened to
harm Rob for putting his job in jeopardy. At trial, the
State presented evidence that in the months preceding
the murder, Appellant and Brenda actually attempted
to transfer ownership of the insurance policy to Brenda
without Rob Andrew’s knowledge, by forging his signature
to a change-of-ownership form and backdating it to March
2001. 3
On the evening of November 20, 2001, Rob Andrew
drove to the family home to pick up his children for a
scheduled visitation over the Thanksgiving holiday. He
spoke with a friend on his cell phone as he waited in his
car for Brenda to open the garage door. When she did, Rob
ended the call and went inside to get his children. A short
time later, neighbors heard gunshots. Brenda Andrew
called 911 and reported that her husband had been shot.
3. According to one witness, Brenda had told her husband
that she could sign his name “better than he could.” Among
other evidence, the State presented recordings of telephone
conversations from Appellant and Brenda to the insurance
company’s home office, inquiring about the status of the policy
and attempting to persuade them that a legitimate ownership
change had been made.

327a
Appendix G
Emergency personnel arrived and found Rob Andrew’s
body on the floor of the garage; he had suffered extensive
blood loss and they were unable to revive him. Brenda
Andrew had also suffered a superficial gunshot wound to
her arm. The Andrew children were not, in fact, packed
and ready to leave when Rob Andrew arrived; they were
found in a bedroom, watching television with the volume
turned up very high, oblivious to what had happened in
the garage.
Brenda was taken to a local hospital for treatment.
Her behavior was described by several witnesses,
experienced in dealing with people in traumatic situations,
as uncharacteristically calm for a woman whose husband
had just been gunned down. One witness saw Brenda
chatting giddily with Appellant at the hospital later that
night.
Rob Andrew was shot twice with a shotgun. A spent
shotgun shell found in the garage fit a 16-gauge shotgun,
which is a rather unusual gauge. Andrew owned a 16-gauge
shotgun, but had told several friends that Brenda refused
to let him take it from the home when they separated.
Rob Andrew’s shotgun was missing from the home when
police searched it. One witness testified to seeing Brenda
Andrew engaging in target practice at her family’s rural
Garfield County home about a week before the murder.
Several 16-gauge shotgun shells were found at the site.
Brenda told police that her husband was attacked in
the garage by two armed, masked men, dressed in black,
but gave few other details. Brenda’s superficial wound

328a
Appendix G
was caused by a .22-caliber bullet, apparently fired at
close range, which was inconsistent with her claim that
she was shot at some distance as she ran from the garage
into the house. About a week before the murder, Appellant
purchased a .22-caliber handgun from a local gun shop. On
the day of the murder, Appellant borrowed his daughter’s
car and claimed he was going to have it serviced for her.
When he returned it the morning after the murder, the car
had not been serviced, but his daughter found a .22-caliber
bullet on the floorboard. In a conversation later that day,
Appellant told Larson never to repeat that Brenda had
asked him to kill Rob Andrew, and he threatened to kill
Larson if she did. He also told her to throw away the bullet
she had found in her car.
Police also searched the home of Dean Gigstad, the
Andrews’ next-door neighbor. There they found evidence
that someone had entered the Gigstads’ attic through an
opening in a bedroom closet. A spent 16-gauge shotgun
shell was found on the bedroom f loor, and several
.22-caliber bullets were found in the attic itself. There
were no signs of forced entry into the Gigstads’ home.
Gigstad and his wife were out of town when the murder
took place, but Brenda Andrew had a key to their home.
The .22-caliber bullet found in Janna Larson’s car was of
the same brand as the three .22-caliber bullets found in the
Gigstads’ attic; the .22-caliber bullet fired at Brenda and
retrieved from the Andrews’ garage appeared consistent
with them in several respects. These bullets were capable
of being fired from the firearm that Appellant purchased
a few weeks before the murder; further testing was not
possible because that gun was never found. The shotgun

329a
Appendix G
shell found in the Gigstads’ home was of the same brand
and odd gauge as the 16-gauge shell found in the Andrews’
garage. Ballistics comparison showed similar markings,
indicating that they could have been fired from the
same weapon. Whether these shells were fired from the
16-gauge shotgun Rob Andrew had left at the home was
impossible to confirm because, as noted, that gun also
turned up missing.
In the days following the murder, Appellant registered
his daughter as a signatory on his checking account, and
asked her to move his belongings out of his apartment. He
obtained information over the Internet about Argentina,
because he had heard that country had no extradition
agreement with the United States. Larson also testified
that after the murder, Brenda and Appellant asked her to
help them create a document, with the forged signature
of Rob Andrew, granting permission for the Andrew
children to travel with Brenda out of the country. Brenda
also asked Larson to transfer funds from her bank account
to Larson’s own account, so that Larson could wire them
money after they left town.
Brenda Andrew did not attend her husband’s funeral.
Instead, she and Appellant drove to Mexico, and took
the Andrew children with them. Appellant called his
daughter several times from Mexico and asked her to send
them money. Larson cooperated with the FBI and local
authorities in trying to track down Appellant and Brenda.
In late February 2002, having run out of money, Appellant
and Brenda Andrew re-entered the United States at the
Mexican border. They were promptly placed under arrest.

330a
Appendix G
At trial, the State also presented a letter purportedly
from Appellant to one of the Andrew children, written
after Appellant had been arrested. In the letter, Appellant
claimed to have enlisted the help of another man to kill
Rob Andrew, but claimed that Brenda had nothing to
do with the plan. The State presented expert testimony
that the handwriting of the letter was consistent in a
number of respects with known exemplars of Appellant’s
handwriting. Appellant did not testify at trial. While
defense counsel did not deny that Appellant and Brenda
were having an affair, he challenged the State’s claim that
Appellant wrote the confession letter, and maintained that
Appellant was not in any way involved in Rob Andrew’s
death. Additional facts will be discussed as relevant to
Appellant’s propositions of error.
ISSUES RAISED ON APPEAL
I.

Appropriate standard of review.

In Proposition 1, Appellant claims that harmlesserror analysis cannot be applied in this case. However,
Appellant fails to explain why this is so as a general
matter, without reference to any specific legal argument
made on appeal. We have rejected such categorical claims
of “harmless-error immunity” in the past. See Stemple
v. State, 2000 OK CR 4, 2004 OK CR 4, PP 70-76, 994
P.2d 61, 74. No trial is perfect, and the State and federal
constitutions guarantee only a fair trial, not a perfect one.
Rose v. Clark, 478 U.S. 570, 579, 106 S.Ct. 3101, 3106, 92
L.Ed.2d 460 (1986); Stemple, 2000 OK CR 4 at P 73, 994
P.2d at 74. Under Oklahoma law, this Court is unable to

331a
Appendix G
grant relief unless the error complained of “has probably
resulted in a miscarriage of justice, or constitutes a
substantial violation of a constitutional or statutory right.”
20 O.S.2001, § 3001.1. Whether an error occurred at all,
and the likelihood that it affected the outcome of the trial,
can only be determined by reference to the nature of the
specific error alleged, the context in which it may have
occurred, and the entire record of the trial proceedings.
Proposition 1 is denied.
II. Change of venue.
In Proposition 4, Appellant claims the trial court
erred in not granting his request for a change of venue.
Prior to trial, Appellant joined in a motion filed by his
co-defendant seeking a change of venue due to extensive
pretrial publicity. The trial court held a hearing on the
motion January 9 and 21, 2003. The defense presented
evidence of the extensive coverage of the case in the local
media, as well as polling data showing that a substantial
number of Oklahoma County residents were somewhat
familiar with the case. After considering this evidence,
the trial court denied the motion, stating:
I don’t think we’re going to know [whether
unbiased jurors can be seated] until such time
as we bring in a large panel, put them up in the
jury box and voir dire them. It’s unfortunate
but that’s actually the only way . . . that you can
make that determination.

332a
Appendix G
We review the trial court’s denial of Appellant’s motion
for change of venue for an abuse of discretion. DeRosa
v. State, 2004 OK CR 19, P 21, 89 P.3d 1124, 1135-36.
Pretrial publicity alone does not warrant a change of
venue. United States v. McVeigh, 918 F. Supp. 1467, 1473
(W.D.Okl. 1996) (“Extensive publicity before trial does
not, in itself, preclude fairness”). The influence of the
news media must be shown to have actually pervaded the
trial proceedings. Hain v. State, 1996 OK CR 26, 1996
Okla. Crim. App. LEXIS 26, P 8, 919 P.2d 1130, 1136. We
consider all relevant evidence to determine whether a
fair trial was possible at that particular place and time,
keeping in mind the ultimate issue: whether the trial court
was in fact able to seat twelve qualified jurors who were
not prejudiced against the accused. DeRosa, 2004 OK
CR 19 at P 19, 89 P.3d at 1135 (“if a trial court denies a
defendant’s change of venue motion and the defendant is
then tried and convicted, the question is no longer about
hypothetical and potential unfairness, but about what
actually happened during the defendant’s trial”).
Appellant cites several cases from other jurisdictions
where a change of venue was granted, but he offers no
analysis as to how those cases are relevant here.4 He also
4. All but one of the cases Appellant cites are procedurally
distinguishable because they involve determinations made before
voir dire was even attempted. United States v. McVeigh, 918 F.
Supp. 1467, 1470 (W.D.Okl.1996) (trial court order granting change
of venue; prosecution did not dispute the need for a change of
venue, and disagreement was only over the more appropriate
venue); United States v. Engleman, 489 F. Supp. 48 (D.Mo.1980)
(trial court order granting change of venue); State v. James, 767

333a
Appendix G
relies on Coates v. State, 1989 OK CR 16, 773 P.2d 1281,
where we found error in the trial court’s denial of a motion
for change of venue. We see no parallels with Coates,
however. The defendant in Coates was an elected public
official, accused of embezzlement and other crimes directly
related to the administration of her office. Therefore, all
citizens of the county, and hence every juror, could have
perceived themselves as “victims” of the alleged crimes.
In fact, two prospective jurors in Coates—at least one
P.2d 549 (Utah 1989) (interlocutory appeal on change of venue).
The posture of Appellant’s case is different. He is raising the issue
in the context of a direct appeal after conviction; and because the
ultimate concern is an impartial jury, he must demonstrate that
the jury actually empaneled to try him was not impartial. See
McVeigh, 918 F. Supp. at 1470 (“Ordinarily, the effects of pre-trial
publicity on the pool from which jurors are drawn is determined
by a careful and searching voir dire examination”). The fourth
case Appellant relies on is State v. Stubbs, 2004 UT App 3, 84 P.3d
837 (Utah App. 2004), where an appellate court found reversible
error in the trial court’s denial of a motion for change of venue.
Stubbs, however, is factually distinguishable; the entire county
had some 6000 residents, the alleged rape victim was from a
locally prominent family, and voir dire actually demonstrated
that acquaintance with members of the complainant’s family and
knowledge of the case was pervasive.
Appellant also notes that his alleged confession was reported
in the press, which also occurred in Irvin v. Dowd, 366 U.S. 717, 81
S.Ct. 1639, 6 L.Ed.2d 751 (1961). But the confession disseminated
in Irvin was only one of many factors which worked to deny the
defendant a fair trial in that case. These factors resulted in actual
prejudice in Irvin, as several jurors admitted that they could not
presume the defendant to be innocent of the crime. This record
in this case presents no such evidence of prejudice.

334a
Appendix G
of whom actually sat on the jury—had been directly
affected by the case because checks they had written to
the defendant’s office had gone missing. Id. at PP 14-16, 773
P.2d at 1286-87. Likewise, cases from other jurisdictions
have noted that a change of venue may be in order when
the community from which the jurors would be drawn may
perceive a personal stake in the proceedings. 5 Appellant
does not argue such facts here, and we find none.
From the beginning, this case received more than
considerable attention in the local media. That fact cannot
be disputed. The case had all the necessary elements to
make it ripe for media attention: sex, money, deception,
and murder. Appellant refers us generally to the record
of the hearing on his change-of-venue motion, but he
does not articulate how an air of prejudice pervaded the
trial proceedings themselves. Again, our chief concern is
not how, or how often, the case played in the media, but
whether, at the end of the day, the trial court was able to
empanel twelve fair and impartial jurors.
The trial court is entitled to considerable discretion
on issues involving jury selection, because it personally
conducts voir dire and has the opportunity to observe
the demeanor of the panelists—so much of which is lost
in the transcription of the proceedings. Harris v. State,
2004 OK CR 1, P 11, 84 P.3d 731, 741. The trial court
5. See e.g. McVeigh, 918 F. Supp. at 1470-72 (detailing how
local citizenry was affected by bombing of the federal building
in Oklahoma City); James, 767 P.2d at 554-55 (giving particular
weight to the widespread community participation in the monthlong search for the murder victim’s body).

335a
Appendix G
excused a number of prospective jurors who admitted that
pretrial publicity had affected their ability to be impartial.
On the other hand, several panelists—including at least
three who ultimately sat on the jury—said they had
heard nothing about the case. Each person who actually
sat on Appellant’s jury assured the court that he or she
could fairly evaluate the evidence, and could consider all
three punishment options if Appellant were found guilty.
Nowhere in his brief does Appellant claim, much less
demonstrate, that any juror actually seated was biased
against him due to adverse pretrial publicity. Indeed,
defense counsel waived his last peremptory challenge
without comment, which we must interpret as satisfaction
with the final makeup of the jury. The trial court did not
abuse its discretion in denying a change of venue. This
proposition is denied.
III.	Double jeopardy/double punishment.
In Proposition 6, Appellant claims that convictions for
both First Degree Murder, and Conspiracy to Commit
Murder, violate both the prohibitions against double
jeopardy in the federal and state constitutions, as well
as the prohibition against double punishment found in 21
O.S.2001, § 11. We disagree.
The double jeopardy clauses of the federal and
Oklahoma constitutions afford protection from (1) a second
prosecution for the same offense after acquittal, (2) a
second prosecution for the same offense after conviction,
and (3) multiple punishments for the same offense imposed
in the same prosecution. North Carolina v. Pearce, 395

336a
Appendix G
U.S. 711, 717, 89 S.Ct. 2072, 2076, 23 L.Ed.2d 656 (1969).
As interpreted in the third situation, applicable here, the
“double jeopardy” ban simply prevents the State from
punishing a person more harshly than the legislature
intended. See Missouri v. Hunter, 459 U.S. 359, 368, 103
S.Ct. 673, 679, 74 L.Ed.2d 535 (1983); Ellis v. State, 1992
OK CR 35, PP 27-30, 834 P.2d 985, 990-91. Oklahoma
statute defines and punishes conspiracy to commit crime
separately from the completed crime, see 21 O.S.2001,
§ 421, and on numerous occasions we have interpreted
Oklahoma law to punish an agreement to commit crime,
followed by an overt act in furtherance of that plan,
separately from the completed crime itself. See e.g. Harjo
v. State, 1990 OK CR 53, 1990 Okla. Crim. App. LEXIS
53, P 17, 797 P.2d 338, 342; Stohler v. State ex rel. Lamm,
1985 OK CR 30, P 4, 696 P.2d 1038, 1040; McCreary v.
Venable, 86 Okl.Cr. 169, 190 P.2d 467 (1948).
Appellant relies heavily on Stewart v. State, 662
So.2d 552 (Miss. 1995). In Stewart, the Supreme Court
of Mississippi held that a defendant’s conviction for
both conspiracy to commit murder, and “murder for
hire” as defined under Mississippi law, violated double
jeopardy principles. Conceding that “[c]onspiracy and
the underlying substantive offense are normally distinct
and separate offenses,” id. at 561, the Stewart court
nevertheless observed that the particular variant of
murder that the defendant was charged with required
proof of an agreement to kill for money.
Stewart is inapposite here, and Appellant fails to
recognize the differences between the statutory schemes

337a
Appendix G
of Oklahoma and Mississippi. In Stewart, the fact that the
murder was a contract killing was an essential element
of the crime, as defined by the Mississippi legislature. In
fact, the Stewart court noted that the defendant could have
properly been convicted of conspiracy to commit murder in
addition to some other variant of murder under Mississippi
law. Id. at 561. Oklahoma has no discrete “murder for hire”
variant of homicide.
Appellant points out that the evidence of a conspiracy
between himself and Brenda Andrew was an important
part of the State’s claim, in the capital sentencing phase of
the trial, that the murder was committed for remuneration.
This is true, but it does not mean that Appellant was
twice placed in jeopardy for the same offense. In essence,
Appellant claims that evidence of a separate criminal
offense, presented in the guilt phase of a capital murder
trial, cannot also be used as a factor supporting a death
sentence for the murder. We have rejected similar claims
in the past. See Dodd v. State, 2004 OK CR 31, P 107, 100
P.3d 1017, 1048 (in prosecution for double murder, State
was not estopped from using evidence of either victim’s
murder to support the “great risk of death to more
than one person” aggravating circumstance, alleged as
to each murder in the punishment phase of the trial);
Martinez v. State, 1999 OK CR 33, P 76, 984 P.2d 813,
831 (rejection of same argument on double jeopardy
grounds); cf. Bowie v. State, 1995 OK CR 4, PP 13-18,
906 P.2d 759, 762 (where defendant was on trial for one
murder, State was not collaterally estopped from using
evidence of a second unrelated murder to support capital
aggravating circumstance that the defendant was a

338a
Appendix G
“continuing threat to society”). The fact that evidence of
a plan to profit financially from Rob Andrew’s murder was
relevant to both the conspiracy charge, and the “murder
for remuneration” aggravating circumstance supporting
the death sentence for the murder charge, does not offend
double jeopardy principles.
Finally, under these facts, convictions for both
the conspiracy and murder do not violate Oklahoma’s
statutory ban on “double punishment.” 21 O.S.2001, § 11.
That statute, which bars multiple punishments based on a
single act or omission, must be considered in conjunction
with the legislative prerogative to define crimes in
general, and with the applicable statutory enactments
defining the conduct which constitutes the particular
crimes at issue. The evidence in this case showed that
Appellant and Brenda Andrew planned the murder, and
acted on that plan many times, well in advance of actually
consummating the killing. The anticipated receipt of the
victim’s life insurance proceeds may have been a motive
to plan the murder, but it was not a fact critical to its
commission. Then again, a financial motive to murder
does not necessarily require any agreement with anyone
else. Neither crime was an indispensable part of the other.
The murder, and the plan to commit it, were not the “same
act” as contemplated by 21 O.S.2001, § 11. Stohler, 1985
OK CR 30 at PP 5-6, 696 P.2d at 1040. Appellant was not
subjected to either double jeopardy or double punishment,
and this proposition is denied.

339a
Appendix G
IV. 	Issues relating to jury selection.
In Proposition 2, Appellant claims his jury was
irreparably tainted by a comment on parole possibilities
made by a prospective juror. As we have already observed,
the trial court is in a unique position to judge, first-hand,
the demeanor and candor of the prospective jurors as
voir dire is conducted. Thus we defer to the trial court’s
discretion in matters pertaining to jury selection, and
review this claim only for a clear abuse of that discretion.
Harris, 2004 OK CR 1 at P 11, 84 P.3d at 741; Douglas v.
State, 1997 OK CR 79, P 16, 951 P.2d 651, 661.
During voir dire, Prospective Juror Walker was
asked if he could consider all three punishments available
for first-degree murder: life imprisonment (with the
possibility of parole), life imprisonment without the
possibility of parole, or death. Mr. Walker said he could
not. The trial court asked for clarification:
THE COURT: So you’re telling me that
irregardless [sic] of the law and irregardless
[sic] of the facts and circumstances of the case
you would not be able to impose the penalty of
life imprisonment?
PROSPECTIVE JUROR WALKER: Not if
charged with murder in the first degree and
convicted.
THE COURT: Okay. And as you know, Mr.
Pavatt is charged with murder in the first

340a
Appendix G
degree. So let me ask it just as you gave it to
me. If you found him guilty as a juror, if the
jury unanimously found him guilty of murder
in the first degree could you impose a penalty
of life imprisonment?
PROSPECTIVE JUROR WALKER: With a
chance that he would be on the street in ten
years, no.
Defense counsel moved for a mistrial. He claimed that
Mr. Walker’s comment implied to the other panelists that
he had “some specialized knowledge concerning when
someone convicted of life imprisonment would be eligible
or likely to receive parole.” The trial court denied the
motion, and refused to instruct the rest of the panel to
disregard the comment. Mr. Walker was promptly excused
for cause, without objection by the State.
Appellant claims that Mr. Walker’s concerns
about parole irreparably tainted the entire panel and,
consequently, the jury that ultimately convicted and
sentenced him. He insists that he is not required to
prove prejudice under these circumstances. We disagree.
Appellant was certainly entitled to a fair and impartial
jury, one that could consider all available punishment
options. U.S.Const. Amend. VI; Okla.Const. art. 2,
§ 20. But for the reasons explained below, the case law
Appellant relies on is inapposite.
As an initial matter, we reject Appellant’s claim
that prejudice must be presumed in this situation. A

341a
Appendix G
presumption of prejudice arises when the jury is exposed
to outside influence after it has retired for deliberations.
Johnson v. State, 2004 OK CR 23, P 20, 93 P.3d 41, 47;
Matthews v. State, 2002 OK CR 16, P 7, 45 P.3d 907, 913;
compare Edwards v. State, 1991 OK CR 71, PP 12-15,
815 P.2d 670, 673-74 (no presumption of prejudice where
juror suddenly realized, during trial, that she recognized
a witness and went to the same church as the prosecutor).
The presumption does not attach every time the venire
panel is exposed to a comment by a prospective juror made
during voir dire, particularly if the person making the
comment is ultimately excused from service. Otherwise,
every personal opinion expressed in voir dire could
conceivably taint every venire panel, and make jury trials
a virtual impossibility. The very purpose of voir dire
(literally, “to speak the truth”) is to explore the potential
biases of prospective jurors, and excuse those whose
biases prevent them from following the law. Dodd, 2004
OK CR 31 at P 24, 100 P.3d at 1029. It is by necessity an
open and frank exchange, and must continue to be so to
ensure the defendant is judged only by impartial members
of the community. Thus, we will not presume prejudice
in this situation. Appellant must demonstrate that Mr.
Walker’s comment so affected the panelists who ultimately
sat on his jury as to have denied Appellant a fair trial.
Turning to the heart of Appellant’s argument, we have
long held that speculation about the parole process is not a
proper part of the jury’s function in deciding appropriate
punishment in a criminal case. See e.g. Bell v. State, 1962
OK CR 160, P 18, 381 P.2d 167, 173 (“To permit the jury
to project itself in this manner into the executive branch

342a
Appendix G
of the government is clearly contrary to our constitutional
concept of division of powers”). But in 1987, the Oklahoma
Legislature amended our law to add “life without parole”
(or, more accurately, life imprisonment without the
possibility of parole) as a third punishment option for
first-degree murder, alongside life imprisonment (with at
least the possibility of parole) and death. Laws 1987, Ch.
196, § 1; Salazar v. State, 1993 OK CR 21, P 32, 852 P.2d
729, 737. The purpose behind this amendment is plain:
to permit the sentencer to bar a particular defendant
from even the possibility of release in the future through
parole, which is otherwise administered by the Oklahoma
Pardon and Parole Board, a constitutionally-created
body. 6 Thus, where parole ineligibility is an express
part of a legislative punishment definition, the jury must
necessarily consider the possibility of parole in deciding
appropriate punishment. See Mayes v. State, 1994 OK CR
44, P 136, 887 P.2d 1288, 1318 (“[W]hile we hold a jury
may logically consider the possibility or absence of parole
in determining the sentence a capital murder defendant is
to receive, we also hold there is no requirement for a trial
judge to explain the Oklahoma parole process to a jury”).
By offering the jury the choice to bar parole eligibility
6. Okla. Const. art. VI, § 10. We continue to hold that the
subject of parole is not germane to the jury’s function, except to the
extent that the Legislature has expressed a specific limitation on
parole eligibility, as part of a statutory definition of punishment for
a particular crime. See Anderson v. State, 2006 OK CR 6, 130 P.3d
273 (requiring juries to be instructed consistent with statute that
bars those convicted of certain crimes from parole consideration
until they have served 85% of their sentence, and noting that this
information actually curbs jury speculation about parole).

343a
Appendix G
altogether, the “life without parole” option works to curb
juror speculation about such contingencies.
Appellant cites cases from various jurisdictions,
including Oklahoma, where an empaneled jury or venire
panel was tainted by some sort of information prejudicial
to the accused. But the cases Appellant relies on generally
involve either (1) comments from the trial judge or
prosecutor to the jury about various methods of seeking
post-trial relief from a sentence (such as parole, pardon,
commutation, earning credits in prison, or the appellate
process); (2) prejudicial information about the accused
himself (such as the fact that he had prior convictions,
or was awaiting trial for other crimes), before such had
been properly placed into evidence; or (3) opinions or other
comments to the jurors about the case, made outside of
the trial proceedings, by a third party (judge, witness,
spectator, etc.). We agree that these three types of
situations can result in reversible error.7 But none of these
cases squarely addresses the situation presented here.
7. See e.g. Kovash v. State, 1974 OK CR 26, P 12, 519 P.2d
517, 522 (it is error for the trial court or counsel for either party
to discuss parole or other possible reductions to sentence with
the jury); Harris v. State, 1962 OK CR 15, 369 P.2d 187 (it is
error to make reference to a defendant’s prior felony convictions
when the jury is concerned only with guilt or innocence, unless
the defendant himself places them in issue); Perry v. State, 1995
OK CR 20, P 26, 893 P.2d 521, 528 (“[A] trial court should not
conduct communications with the jury outside the presence of
counsel and the defendant during deliberations; nor should anyone
communicate with the jury regarding the merits of the case prior
to submission of the case to the jury”) (footnotes omitted).

344a
Appendix G
The subject of parole was broached during voir
dire by a prospective juror, not by the prosecutor or the
trial court. Mr. Walker’s comment was not prejudicial
information about Appellant, a potential witness, or any
other aspect of the case. Appellant maintains that the
comment implied some sort of first-hand knowledge about
the parole process, i.e., that a person serving a sentence
of life with the possibility of parole would undoubtedly
be “on the street” in ten years. This is an unreasonable
interpretation. The comment merely expressed the
panelist’s concern about the possibility of parole, and his
categorical inability to even consider a life sentence in
any first-degree murder case. Mr. Walker referred to the
“chance” that Appellant could be paroled in ten years—
obviously indicating that neither he, nor anyone ultimately
sitting on Appellant’s jury, would have any control over
that decision if a “straight” life sentence were imposed.
But that concern is precisely why our Legislature added
“life without parole” as an intermediate punishment option
for first-degree murder. Appellant does not refer us to
a single case where an isolated comment about parole
issues, by a member of the venire panel who was ultimately
excused, so tainted the panel as to require reversal of a
conviction or modification of sentence. 8
8. Appellant’s reliance on Mach v. Stewart, 137 F.3d 630 (9th
Cir. 1997), is misplaced. In Mach, a prosecution for child sexual
abuse, a prospective juror related her professional experience as
a social worker dealing specifically with child victims of sexual
abuse. During voir dire she expressed difficulty in being impartial,
because sexual abuse had been confirmed in every case she had
been professionally involved in. She made several statements to
similar effect during further questioning before the entire panel.

345a
Appendix G
As the State notes in its response, we addressed a
similar claim in Wade v. State, 1992 OK CR 2, 825 P.2d
1357. In that capital case, a member of the venire panel
told the trial court that she could not consider a life
sentence, because “in Oklahoma a life sentence usually
doesn’t turn out that way.” The panelist was excused from
service, but the defendant moved for a mistrial, which
was overruled. We found no error, noting that all jurors
ultimately empaneled swore that they could be fair and
impartial. Id. at P 15, 825 P.2d at 1361-62.
In this case, the trial court stated that she did
not perceive Mr. Walker’s remark as anything but an
opinion, and doubted that the rest of the panel would have
Even though the trial court eventually removed the panelist for
cause, the Ninth Circuit Court of Appeals, on habeas review,
found that her comments irreparably tainted the entire panel. The
court’s decision was based on “the nature of [the] statements, the
certainty with which they were delivered, the years of experience
that led to them, and the number of times that they were repeated,”
as well as the fact that the case essentially boiled down to a
credibility contest between the defendant and the complainant.
None of these factors is present in this case. The isolated comment
was not clearly based on any specialized, first-hand knowledge;
it reflected only a general concern about the “chance” of parole;
and the evidence in this case involved much more than a simple
credibility contest. The Ninth Circuit has actually distinguished
Mach on facts more similar to those in this case. United States
v. Uriarte-Perez, 1998 U.S. App. LEXIS 24941 1998 WL 704102
(9th Cir. 1998) (finding no tainted jury panel where panelist made
a single comment related to the fact that guilty people sometimes
proclaim their innocence; comment was not based on specialized
knowledge, and panelist was immediately excused).

346a
Appendix G
considered it any other way. We defer to the trial court’s
own perceptions and experience in these matters. The
trial court’s decision not to draw further attention to the
comment by admonishing the rest of the panel to disregard
it, was not an abuse of discretion. Tate v. State, 1995 OK
CR 24, PP 18-21, 896 P.2d 1182, 1188-89. Defense counsel
himself could have questioned the rest of the panel to
determine if the comment affected them, but chose not to.
All of those who ultimately sat on Appellant’s jury swore
that they could be fair and impartial, and that they could
consider all three punishment options available to them.
After hearing the evidence, the jury did not even feel that
life without the possibility of parole was the appropriate
punishment. Appellant has failed to demonstrate any
prejudice from the prospective juror’s comment. This
proposition is denied.
V. 	Issues relating to the guilt-innocence phase.
(a) Sufficiency of the evidence.
In Proposition 5, Appellant claims the evidence
was insufficient to support either of his convictions.
Appellant essentially claims that there is no direct
evidence linking him to Rob Andrew’s murder, or to any
conspiracy to commit the murder. On issues of fact and
witness credibility, we give substantial deference to the
jury. When reviewing the sufficiency of the evidence to
support a criminal conviction, we will only grant relief if,
considering all of the evidence in a light most favorable to
the State, no rational juror could have found the existence
of all elements of the offense by proof beyond a reasonable

347a
Appendix G
doubt. Jackson v. Virginia, 443 U.S. 307, 318-19, 99 S.Ct.
2781, 2788-89, 61 L.Ed.2d 560 (1979); Myers v. State, 2000
OK CR 25, P 39, 17 P.3d 1021, 1032.
Appellant claims there is no “physical evidence”
or “forensic evidence” linking him to the crimes. He
misapprehends the nature of evidence long held to be
admissible and credible in a court of law. A fingerprint at
a crime scene may be considered “physical” or “forensic”
evidence, though it is not direct evidence of a crime; rather,
it is circumstantial evidence from which a jury can infer
(in light of other circumstances) that the person with that
fingerprint was present and participated in the crime. The
same is true of DNA evidence. Both are circumstantial in
nature, requiring an inference unnecessary for “direct”
evidence, such as a witness’s personal observation of
a crime. That both fingerprints and DNA can be so
compelling as evidence of guilt (or exoneration) attests
to the powerful effect circumstantial evidence can have.
See generally Ex parte Jefferies, 7 Okl.Cr. 544, 548, 124
P. 924, 925-26 (1912). In fact, classic sources of “direct”
evidence—a confession, an eyewitness identification,
the testimony of an informant or accomplice—are
themselves the subject of special cautionary instructions
and corroboration rules.9 In the end, the law makes no
distinction between direct and circumstantial evidence;
9. See OUJI-CR (2nd) No. 9-19 (cautionary instruction
regarding eyewitness identifications); OUJI-CR (2nd) No. 9-43
(cautionary instruction regarding informant witnesses); OUJICR (2nd) No. 9-28 (requirement that accomplice testimony be
corroborated); OUJI-CR (2nd) No. 9-13 (requirement that a
defendant’s confession be corroborated).

348a
Appendix G
either, or any combination of the two, may be sufficient
to support a conviction. Clark v. State, 1983 OK CR 79, P
8, 664 P.2d 1065, 1066; OUJI-CR (2nd) No. 9-4. The jury
may consider all competent evidence, along with rules of
law and basic common sense, in reaching a verdict.
Although Brenda Andrew was an eyewitness to her
husband’s murder, the State obviously did not believe
that her account of two masked assailants was true. The
State thus relied on evidence that Appellant and Brenda
Andrew had several motives to murder Rob Andrew
(money, dissolution of the Andrew marriage, control over
the Andrew children), all related to the illicit affair that
Appellant never disputed having with Brenda.
But the State’s evidence demonstrated much more
than motive. There was, in fact, a considerable amount of
physical evidence, including bullets, shotgun shells, and
forged documents, which linked Appellant to the murder
and a pre-existing plan to get away with it. The testimony
of Janna Larson, Appellant’s daughter, helped to show that
Appellant and Brenda had planned to harm Rob Andrew
for some time, and that the failure of their first attempt
(by cutting the brake lines on his car) only emboldened
them. Larson also related a number of incriminating
statements from both Appellant and Brenda. Larson may
not have been an eyewitness to the murder itself, but she
was certainly an eyewitness to many overt acts of the two
conspirators, and to their preparations for flight after
the murder. The State also presented the letter written
by Appellant from jail, wherein he admitted complicity
in the murder but attempted to exculpate Brenda. Both

349a
Appendix G
parties rejected the letter as an accurate version of
what happened, although obviously for different reasons.
While the letter may have borne some relevance to show
Appellant’s complicity, it was perhaps more relevant to
show how jealousy and greed can disfigure the human
mind. Add to this the numerous other witnesses who
spoke with and observed Rob Andrew, Brenda Andrew,
and Appellant, as their relationships with one another
evolved. In short, the evidence against Appellant was
largely circumstantial, but that is not unusual in any kind
of criminal case. What may be unusual was how large a
quantity of circumstantial evidence the State was able to
present.
All of the evidence presented at trial, when considered
together, formed an intricate web of proof, from which any
rational juror could find Appellant guilty of conspiring to
murder Rob Andrew and consummating the murderous
plan. Plantz v. State, 1994 OK CR 33, P 39, 876 P.2d
268, 280. The evidence was sufficient to support both of
Appellant’s convictions. This proposition is denied.
(b) Alternative-suspect evidence.
In Proposition 7, Appellant claims he was denied
his right to present a defense, specifically, evidence that
someone else had confessed to killing Rob Andrew. After
Appellant’s trial had begun, defense counsel received a
handwritten letter, purportedly from Zjaiton Wood, an
inmate at the Oklahoma County Jail, confessing to the
murder of Rob Andrew and detailing how he supposedly
committed the crime. A similar letter was sent to the trial
judge. Defense counsel filed a motion to endorse Wood

350a
Appendix G
as a defense witness, as well as two jailers who allegedly
heard Wood make similar incriminating statements. The
trial court held a hearing on the matter September 12
and 15, 2003.10
At the hearing, Wood appeared through counsel;
he was in jail pending his trial on an unrelated capital
murder charge. Wood’s counsel strongly objected to her
client being forced to testify concerning authorship and
contents of the letters. After hearing argument from all
parties, the trial court found the letters to be inherently
untrustworthy, and refused to compel Wood to appear.
Strangely, Appellant’s defense counsel chose not to call
the two jailers he had also moved to endorse as witnesses.
Instead, counsel made an offer of proof that the jailers
could testify to statements against penal interest that
Wood made to them; that one jailer had seen other
writings by Wood and believed the letters in question bore
similar handwriting; and that Wood had actually handed
the letters in question to one of the jailers and made an
oral admission in conjunction therewith. The letters in
question were admitted into evidence at the hearing, and
are part of this appeal record.

10. The trial court closed the courtroom to the press and
spectators during this hearing, and directed that the transcript of
the hearing be sealed. On appeal, the State sought and was granted
permission to file its response to this proposition separately and
under seal. We now FIND no substantial reason for either the
pertinent parts of the appeal record or the State’s response to
remain under seal, and hereby ORDER that they be unsealed.

351a
Appendix G
Appellant claims that the exclusion of the letters from
his trial denied him his right to present a defense. The trial
court has considerable discretion in deciding whether to
admit or exclude evidence, and we review only for an abuse
of that discretion. West v. State, 1990 OK CR 61, P 16,
798 P.2d 1083, 1087. We are also mindful, however, that a
defendant has a right to present competent evidence in his
own defense, and that rules of evidence may not arbitrarily
impinge on that right. See Chambers v. Mississippi, 410
U.S. 284, 302, 93 S.Ct. 1038, 1049, 35 L.Ed.2d 297 (1973).
We first consider whether Appellant had a right to
compel Wood to appear at the hearing and testify as to
whether he wrote the letters. We find that he did not. Under
the Fifth Amendment to the United States Constitution,
and Article 2, § 21 of the Oklahoma constitution, no person
can be compelled to give evidence which could tend to
incriminate him. This privilege applies to anyone called
as a witness, not just to the accused in a criminal trial; it
is not limited to answers which would directly incriminate
the witness in the instant proceeding, but extends to
any incriminating consequences which would flow from
compelled disclosure. See Lefkowitz v. Turley, 414 U.S.
70, 77, 94 S.Ct. 316, 322, 38 L.Ed.2d 274 (1973); Morgan v.
State, 1976 OK CR 263, P 5, 555 P.2d 1307, 1309; Oklahoma
Dept. of Public Safety v. Robinson, 1973 OK 80, P 25, 512
P.2d 128, 132-33. The trial court is vested with discretion
to determine, from all relevant circumstances, whether
certain information should be compelled. Rey v. Means,
1978 OK 4, P 14, 575 P.2d 116, 120-21. Although an accused
has a right to compulsory process for obtaining witnesses
on his behalf, see Okla. Const. art. 2, § 20, he does not have
the right to compel a witness to give testimony which could

352a
Appendix G
violate this privilege, or to compel attendance of a witness
for the sole purpose of invoking the privilege. Sherrick v.
State, 1986 OK CR 142, P 6, 725 P.2d 1278, 1282; Bryant
v. State, 1967 OK CR 196, P 9, 434 P.2d 498, 500.
Applying these principles to the facts at hand,
Appellant could not compel Wood’s presence in court, as
defense counsel’s expressed purpose for doing so was to
determine authorship of the self-incriminating letters.
As Wood’s defense counsel explained, her concern was
that anything Wood said on the witness stand—even a
refusal to answer due to a claim of privilege, outside the
presence of a jury—might be used against him by the
State in Wood’s own capital murder trial. See Messier
v. State, 1967 OK CR 84, PP 2-12, 428 P.2d 338, 340-41
(reversible error occurred where defendant was called
to testify at her co-defendant’s preliminary hearing, but
invoked her privilege against self-incrimination, and the
State subsequently used the defendant’s invocation of
privilege at that hearing against the defendant at her
own trial).11 The trial court understood these concerns,
11. Even if Wood refused to answer on Fifth Amendment
grounds, the State might have attempted (improperly) to use
adverse inferences from that refusal as evidence that he was a
“continuing threat to society,” and therefore deserving of the
death penalty, in his own murder trial. See 12 O.S.1991, § 2513
(prohibiting any adverse inference to be taken from a witness’s
claim of evidentiary privilege). Of course, the fact that such
inferences are improper under our Evidence Code does not mean
they are never suggested by zealous counsel. See e.g. Johnson v.
State, 1995 OK CR 43, PP 7-15, 905 P.2d 818, 821-23 (prosecutor’s
repeated questioning of co-defendant, resulting in repeated
invocations of his Fifth Amendment privilege in front of the jury,
denied defendant a fair trial).

353a
Appendix G
and declined to force Wood into that situation. We find no
abuse of discretion on this point.
Whether Appellant was denied the right to present
a defense ultimately turns on whether the evidence at
his disposal was admissible. Unable to compel Wood to
incriminate himself under oath, Appellant was left with
letters, purportedly written by Wood, confessing to Rob
Andrew’s murder. The trial court ruled that the letters
themselves were not admissible at trial because they were
inherently unreliable. On appeal, neither party addresses
the applicability of section 2804(B)(3) of the Evidence
Code, which defines certain exceptions to the rule barring
hearsay, and states in relevant part:
The following are not excluded by the hearsay
rule if the declarant is unavailable as a witness:
...
A statement which was at the time of its making
contrary to the declarant’s pecuniary or
proprietary interest, or which tended to subject
the declarant to civil or criminal liability, or
to render invalid a claim by the declarant
against another, and which a reasonable
person in the declarant’s position would not
have made unless the declarant believed it to
be true. A statement tending to expose the
declarant to criminal liability and offered to
exculpate the accused is not admissible unless
corroborating circumstances clearly indicate
the trustworthiness of the statement. . . .

354a
Appendix G
12 O.S.Supp.2002, § 2804(B)(3) (emphasis added).
Section 2804(B)(3) is clearly applicable in this
situation.12 There is no question that the letters in
question contained statements against the author’s penal
interest. The putative author of the letters (Wood) was
unavailable because he could not be compelled to testify.
12 O.S.Supp.2002, § 2804(A)(1); Funkhouser v. State, 1987
OK CR 44, P 5, 734 P.2d 815, 816-17. Even assuming that
Appellant could establish authorship of the letters, he was
still required to establish (1) that a reasonable person in
the author’s position would not have made the statements
if they were not true, and (2) corroborating circumstances
which “clearly” indicate the trustworthiness of the letters.
The trial court is not limited to gauging the credibility
of an exculpatory statement by reference to the evidence
supporting the State’s theory. The court may, and indeed
should, consider any relevant evidence—even evidence the
State discounts—in determining whether the statement
is trustworthy enough to be admissible.
12. Out-of-court statements, tending to exonerate the
defendant and implicate the declarant, have traditionally been
viewed with great suspicion. See Dykes v. State, 11 Okl.Cr. 602,
611-14, 150 P. 84, 87 (1915) (citing Donnelly v. United States, 228
U.S. 243, 33 S.Ct. 449, 57 L.Ed. 820 (1913); Peck v. State, 86 Tenn.
259, 6 S.W. 389, 392 (Tenn.1888) (“To admit such [evidence] would
be to overturn the well-settled rules of law which excludes [sic]
hearsay; and would open the door to the most easily manufactured
evidence. The admission is not part of the res gestae, is not made
under oath, and can be made for the purpose of exculpating the
defendant, and its falsity afterwards confessed, when it has
accomplished the desired end. But it is needless to elaborate a
principle so well settled by authority”).

355a
Appendix G
The trial court had before it a number of facts which
cast doubt on the letters’ trustworthiness. As noted,
Zjaiton Wood was himself awaiting trial on an unrelated
charge of first-degree capital murder. He just happened to
be housed in the same “pod” of the county jail as Appellant.
The letters were handwritten but practically identical;
that is, it appeared that one had been copied verbatim
from the other, or that they had both been copied from
another source. While the letters were detailed, they
were perhaps too detailed, appearing to parrot certain
key features of the State’s case. The letters were mailed
shortly after Appellant’s trial began—after the State had
publicly outlined the salient features of its case.13 The trial
court was also presented with information that Brenda
Andrew had allegedly threatened a female witness who
was to testify at one of the criminal proceedings against
Wood, and that Wood had allegedly attempted to “confess”
to other local murders besides this one. The trial court
was entitled to consider all of this information in deciding
whether the letters were presumptively credible enough to
be admitted under § 2804. 12 O.S.2001, § 2103(B)(1); Lee
v. State, 1983 OK CR 41, P 6, 661 P.2d 1345, 1349.
In addition, the contents of the letters were inconsistent
with other evidence, including some facts beyond the
State’s theory of the case. For example, while the letters
13. See State v. Pierre, 277 Conn. 42, 890 A.2d 474, 493
(Conn. 2006) (for purposes of admitting a declarant’s statement
under hearsay exception for statements against penal interest,
declarations made soon after the crime are generally more reliable
than those made after a lapse of time, where a declarant has a
more opportunity for reflection and contrivance).

356a
Appendix G
claimed that the 16-gauge shotgun used to kill Andrew
was left at the scene, no such weapon (or any weapon for
that matter) was found in the vicinity. In fact, the 16-gauge
shotgun used to kill Rob Andrew—which was the same
unusual gauge of shotgun that Rob Andrew owned and
had left in the home when he moved out—was never found.
The letters claim that Wood acted alone in the murder,
and this is inconsistent with both Brenda Andrew’s own
claim that two assailants attacked her husband, and the
letter, written by Appellant, claiming that he enlisted
another man to help him kill Rob Andrew. While the State
obviously did not believe either account, the discrepancies
between the letters purportedly written by Wood, and the
defendants’ respective versions of events, was something
the trial court was entitled to consider in gauging the
reliability of the letters.
Appellant refers us to Gore v. State, 2005 OK CR 14,
119 P.3d 1268, and Holmes v. South Carolina, 547 U.S.
319, 126 S.Ct. 1727, 164 L.Ed.2d 503 (2006), to support his
claim that he was entitled, as a matter of due process, to
present evidence of a possible third-party perpetrator. In
Holmes, the Supreme Court found that a state evidentiary
rule governing admissibility of third-party perpetrator
evidence ran afoul of the Sixth and Fourteenth Amendment
rights to a fair trial. The defendant in Holmes, charged
with rape, burglary, robbery, and capital murder, proffered
testimony suggesting that the forensic evidence against
him had been contaminated and/or planted, and that
another man, White, had admitted to the crime to several
other people. White denied making any incriminating
statements to others, and offered an alibi. The trial court

357a
Appendix G
excluded this evidence. The state appellate court affirmed,
holding that third-party perpetrator evidence should be
excluded any time the evidence against the defendant
is “strong,” particularly when there is “strong forensic
evidence” of the defendant’s guilt.

358a
Appendix G
The United States Supreme Court found the rule
applied by the state appellate court in Holmes to be too
rigid. The Court pointed to several of its past cases,
striking down similar rules that “serve[d] no legitimate
purpose” or were “so disproportionate to the ends that
they [were] asserted to promote.”14 Holmes, 547 U.S.
at , 126 S.Ct. at 1732-33. Yet the Court recognized the
authority of legislatures, and courts, to impose reasonable
evidentiary rules in criminal trials, and noted that such
authority—even regarding the admission of third-party
perpetrator evidence—was not directly at issue. The only
issue in Holmes was the South Carolina Supreme Court’s
recent expansion of its decades-old, judge-made rule, to
make the admissibility of third-party perpetrator evidence
entirely dependent upon the strength of the prosecution’s
evidence, considered in isolation. The Supreme Court
found such a rule unconstitutional, in effect because it
irrationally presumed that any evidence presented by the
state was necessarily more credible than any evidence
proffered by the defense.

14. See Washington v. Texas, 388 U.S. 14, 87 S.Ct. 1920, 18
L.Ed.2d 1019 (1967) (state law which barred defendants from
presenting the testimony of any co-defendant, unless the codefendant had been acquitted, but imposed no such restriction
on the prosecution); Chambers, 410 U.S. 284, 93 S.Ct. 1038, 35
L.Ed.2d 297 (1973) (state “voucher rule” with prevented any
party from impeaching its own witness); Crane v. Kentucky,
476 U.S. 683, 106 S.Ct. 2142, 90 L.Ed.2d 636 (1986) (court rule
preventing defendant from introducing evidence, at trial, bearing
on the credibility of his confession, after voluntariness had been
determined by the court).

359a
Appendix G
In Gore v. State, this Court reversed a capital murder
conviction because the defendant was barred from
presenting an array of evidence that the murder might
have been committed by others. Gore addressed what
test should be applied to determine whether third-party
perpetrator evidence is relevant and sufficiently material
to be presented to a jury; but it did not hold that such
evidence was immune from basic evidence rules. As we
noted in Gore, a criminal defendant has a right to present
evidence in his own defense, but must comply with the
same evidentiary and procedural rules that are applicable
to the State. Gore, 2005 OK CR 14 at P 21, 119 P.3d at 1275.
The rule applicable here—12 O.S. § 2804(B)(3)—is
nothing like the rule invalidated in Holmes. It permits
the reliability of the hearsay statement to be judged
by any relevant evidence, presented to the court on the
preliminary question of admissibility. Nor is the situation
here anything like the one in Gore, where the defense
had an array of evidence, both direct and circumstantial,
suggesting that someone else may have committed the
crime. The letters purportedly written by Wood were not
inadmissible merely because they were inconsistent with
the State’s theory; they were inadmissible because there
simply was nothing offered to corroborate them.15
15. See Costa v. State, 1988 OK CR 74, PP 4-5, 753 P.2d 393,
394-95 (trial court properly excluded statement of unavailable
declarant, allegedly admitting homicide, as unreliable under
§ 2804(B)(3), where, inter alia, parts of the statement were
inconsistent with other testimony, and the only witnesses to the
alleged confession were the defendant himself and defendant’s
girlfriend).

360a
Appendix G
A confession tends to be more trustworthy if it provides
hitherto-unknown facts which are not only verifiable, but
also consistent with known facts. The letters at issue fail
both parts of this test. As explained in our discussion
of Proposition 5, a substantial amount of evidence, both
direct and circumstantial, from a variety of witnesses
and other sources, coalesced into a web of proof strongly
implicating Appellant in a murderous conspiracy to kill
Rob Andrew. We fail to see how a jury could possibly have
discounted all of this evidence in favor of a theory that
Zjaiton Wood—with no known connection to anyone in this
case—happened to drive up and murder Rob Andrew for
his wallet, in his garage, using the same unusual gauge of
shotgun that used to be in the Andrews’ home but which is
now nowhere to be found. Under these circumstances, the
trial court did not abuse its discretion in either refusing to
compel Wood to affirm or deny authorship of the letters,
or in excluding the letters from the trial, pursuant to 12
O.S. § 2804(B)(3), as uncorroborated and unreliable. This
proposition is denied.
(c) A d m i s s i o n o f g r u e s o m e c r i m e - s c e n e
photographs.
In Proposition 8, Appellant claims error when the trial
court admitted several photographs of the murder victim
at the crime scene. At trial, defense counsel objected
generally to the “multitude of bloody photographs” from
the crime scene that the State offered to introduce. These
photographs depicted Rob Andrew’s body on the floor of
the garage. He bled to death after being shot twice at close
range with a shotgun. The photographs showed the body

361a
Appendix G
from various angles. Appellant’s objection at trial appears
to focus more on the number of photographs rather than
their gruesome nature. The trial court admitted many of
the photos but did sustain the defense objection to several
others.
On appeal, Appellant does not claim the photographs
were needlessly cumulative, only that they were gruesome,
and therefore “had no place in the trial.” We review the
trial court’s decision to admit crime-scene photographs
for an abuse of discretion. DeRosa, 2004 OK CR 19 at
P 73, 89 P.3d at 1150. This Court has many times noted
that gruesome crimes make for gruesome crime-scene
photographs; the issue is whether the probative value of
the evidence is substantially outweighed by its prejudicial
effect. 12 O.S.2001, §§ 2401-03; Dodd, 2004 OK CR 31 at
P 66, 100 P.3d at 1038; Le v. State, 1997 OK CR 55, P 25,
947 P.2d 535, 548. The State was entitled to corroborate
and illustrate the testimony of its witnesses about what
the crime scene looked like and the manner of death. The
record shows that the trial court carefully considered
each photograph before admitting it. We find no abuse of
discretion here, and this proposition is denied.
(d) 	Improper first-stage hearsay and opinion
evidence.
In Proposition 3, Appellant claims error when a
State’s witness was allowed to interject hearsay and
give his personal opinion of Appellant’s guilt. Defense
counsel timely objected to this testimony, so the issue was
preserved for appellate review. Hooks v. State, 2001 OK

362a
Appendix G
CR 1, P 16, 19 P.3d 294, 308; Ullery v. State, 1999 OK CR
36, P 36, 988 P.2d 332, 349. We review the trial court’s
evidentiary rulings for an abuse of discretion. West, 1990
OK CR 61 at P 16, 798 P.2d at 1087.
Janna Larson, Appellant’s daughter, testified in the
State’s case in chief about her conversations with her
father before and after Andrew’s murder, and about
her observations of her father’s conduct. Appellant
made incriminating statements to Larson, told her of
his affair with Brenda Andrew, and enlisted her help
at various times in his efforts to perpetrate the murder
and avoid detection. After Appellant and Brenda left for
Mexico, Larson contacted an attorney, and soon agreed
to cooperate with the authorities. One officer that she
worked closely with was Agent Kurt Stoner of the Federal
Bureau of Investigation. Larson was understandably not
happy about having to testify against her father at trial.
She implied that she cooperated with authorities out of
fear that she might be implicated in the murder if she did
not. While not an entirely hostile witness for the State,
Larson was led by defense counsel, in cross-examination,
to opine several times that she did not believe her father
was actually complicit in Rob Andrew’s murder.
After Larson testified, the State called Agent Stoner
to the stand. Stoner offered his version of Larson’s
cooperation in the investigation. Stoner described Larson
as angry with her father and eager to cooperate with the
authorities; he denied that Larson was ever threatened
with prosecution if she did not cooperate. The prosecutor
then attempted, several times, to impeach parts of
Larson’s testimony on this point by asking Stoner what

363a
Appendix G
Larson had told him about her father’s involvement in the
murders. Each time, defense counsel objected, and the
trial court sustained the objection. We need not decide
whether this would have been proper impeachment
because the testimony was never adduced; Appellant’s
hearsay claim is unfounded. Armstrong v. State, 1991 OK
CR 34, P 24, 811 P.2d 593, 599.
The prosecutor then asked Stoner if, based on his law
enforcement experience and involvement in this case, he
had an opinion about Appellant’s guilt. Defense counsel
promptly objected, but before the court could rule on the
objection, Stoner said he believed Appellant was “directly
involved” in the murder. The trial court denied defense
counsel’s request for a mistrial. The record shows that
the parties had discussed with the court, in limine, the
possibility of one party opening the door to such evidence,
and the prosecutor pointed out that the defense had just
elicited the very same type of opinion testimony from
Larson. The trial court admonished the jury to disregard
any opinions about Appellant’s guilt, whether from Larson
or Stoner.
We have often held that an admonition to disregard
inadmissible testimony is presumed to cure any possible
error. See, e.g., Al-Mosawi v. State, 1996 OK CR 59, P
59, 929 P.2d 270, 284. But given the situation presented
in this case, we also find that any possible error was
invited by the defense. Hooper v. State, 1997 OK CR 64,
P 20, 947 P.2d 1090, 1100. Just before Agent Stoner took
the stand, defense counsel elicited Larson’s opinion as to
her father’s innocence several times. Stoner was used to
impeach several aspects of Larson’s testimony, not just

364a
Appendix G
her opinion of her father’s guilt. We do not condone counsel
for either party gratuitously soliciting witness opinions
as to what result the jury should reach. See Littlejohn v.
State, 1998 OK CR 75, P 16, 989 P.2d 901, 907; Daniels
v. State, 1976 OK CR 189, PP 18-20, 554 P.2d 88, 94-95.
However, we do not believe the opinions of either Larson or
Stoner—each of whom had a potential bias—left a serious
impression on the jurors, particularly after the trial court
admonished them to disregard both. See Malicoat v. State,
2000 OK CR 1, P 45, 992 P.2d 383, 404-05 (investigator’s
opinion that defendant intentionally abused child murder
victim, uttered twice before trial court was able to rule on
defense objection, was harmless, where court sustained
objection and admonished jury to disregard opinion). This
proposition is denied.
VI. 	Issues relating to the capital sentencing phase.
(a) 	Prosecutor misconduct.
In Proposition 9, Appellant contends that he was
denied a fair trial by the prosecutor’s arguments during
the sentencing phase. Because Appellant did not object
to any of these comments, we review them only for plain
error. Washington v. State, 1999 OK CR 22, P 40, 989 P.2d
960, 974. In Proposition 10, he claims that his trial counsel
was ineffective for not objecting to these comments. We
address these related issues together.
First, Appellant complains of various comments that
he describes as the personal opinions of the prosecutor.
Appellant refers to the prosecutor’s comments that this

365a
Appendix G
was a “proper case for the death penalty”; that “there are
no extenuating circumstances which mitigate the murder
of Rob Andrew”; that this particular murder was “heinous,
atrocious, or cruel”; that the jurors were “the only ones
who can see that justice is done”; and, finally, that a death
sentence was “the justice [Appellant] deserves.”
Counsel enjoy significant latitude in arguing their
respective positions, so long as the arguments are based
on evidence the jury has received. Washington, 1999 OK
CR 22 at P 42, 989 P.2d at 974. A prosecutor’s comments do
not amount to improper “personal opinion” merely because
she asks the jury to impose the death penalty. See Bernay
v. State, 1999 OK CR 46, 1999 OK CR 37, P 65, 989 P.2d
998, 1014 (“A prosecutor may comment on the punishment
to be given”). The prosecutor’s arguments in this case as
to why Appellant “deserved” the death penalty were based
on her assessments of the evidence presented in court, and
were entirely proper. See Toles v. State, 1997 OK CR 45,
P 65, 947 P.2d 180, 193 (“The prosecutor did not give his
personal opinion of the death penalty; he argued why the
death penalty was appropriate in this case”).
Appellant also claims that the prosecutor improperly
engaged in speculation and evoked sympathy for the victim
in the following passage:
When Rob Andrew lay dying on that garage
floor, James Pavatt and Brenda Andrew looking
at the sight that you see in those pictures, what
do you believe his last words were? What do
you believe he was trying to say when he was

366a
Appendix G
laying there on the floor looking up at Brenda
Andrew’s face? He was probably trying to say
I love you, Brenda, because that’s the kind of
man he was.
Considering the evidence presented from the crime scene,
and about Rob Andrew’s feelings for his wife, this was
actually a fair comment on the evidence. The prosecutor
never suggested that the inference was based on anything
the jury had not heard. See Alverson v. State, 1999 OK
CR 21, P 45, 983 P.2d 498, 514 (prosecutor’s reference
to murder victim as an “innocent man, trying to make
a living for his wife and two baby boys,” was a proper
comment on the evidence).
To the extent this comment may have evoked
sympathy for the victim, we do not find it so outrageous
as to have denied Appellant a fair sentencing proceeding.
As the State had alleged that the murder of Rob Andrew
was especially heinous, atrocious, or cruel, it was entitled
to present evidence that Rob Andrew suffered extreme
mental cruelty in conjunction with his death. DeRosa, 2004
OK CR 19 at P 96, 89 P.3d at 1156. The evidence reasonably
led to the conclusion that the last images Rob Andrew saw
were of his wife and her lover working together to end his
life. The prosecutor was entitled to suggest reasonable
inferences about what Rob Andrew’s last thoughts might
have been, in order to establish the “heinous, atrocious, or
cruel” aggravator. See Alverson, 1999 OK CR 21 at P 46,
983 P.2d at 514 (prosecutor’s asking the jury to imagine
the feeling of a metal baseball bat hitting one’s head was a
permissible comment on the pain the victim may have felt

367a
Appendix G
prior to death); Hooper, 1997 OK CR 64 at P 53, 947 P.2d at
1110 (prosecutor’s statement that the murder victim “was
immersed in a child’s worst nightmare of being chased by
an evil monster trying to kill her,” and request that the
jurors imagine what she went through, were based on the
evidence presented and on the State’s theory of how the
victim died). We find no plain error in these statements.
Appellant’s ineffective-counsel claim fails as well. To
prevail on this claim, Appellant must demonstrate that (1)
counsel acted in a professionally unreasonable manner by
failing to object to the prosecutor’s comments, and (2) a
reasonable possibility exists that a different sentencing
outcome would have resulted if counsel had objected.
Strickland v. Washington, 466 U.S. 668, 687-89, 104 S.Ct.
2052, 2064-65, 80 L.Ed.2d 674 (1984); Dodd, 2004 OK CR
31 at P 112, 100 P.3d at 1049. As we have found that the
prosecutor’s comments were not improper, any defense
objection to them would have been properly overruled and
the ultimate outcome unchanged. Defense counsel was not
ineffective for failing to object to comments which were
not objectionable. Short v. State, 1999 OK CR 15, P 85,
980 P.2d 1081, 1106-07. These propositions are denied.16

16. Within Proposition 11, Appellant makes a passing request
that trial counsel be deemed constitutionally ineffective if this
Court finds any other “harmful error” that he did not object to.
Essentially, Appellant seems to be asking this Court to search the
record for additional arguments, which we decline to do. Alverson,
1999 OK CR 21 at P 77, 983 P.2d at 520; Armstrong, 1991 OK CR
34 at P 24, 811 P.2d at 599.

368a
Appendix G
(b) Victim impact testimony.
In Proposition 11, Appellant claims he was denied a
fair sentencing proceeding by improper victim-impact
testimony. Specifically, Appellant complains of a single
comment made by E. R. Andrew, the victim’s father:
a request that the perpetrators of the murder “never
walk free.” Appellant reads this as a recommendation
for punishment, and claims its prejudicial effect was
exacerbated by the comment of a prospective juror during
voir dire that he could not consider a life sentence with the
possibility of parole (addressed in Proposition 2).
We have acknowledged that under 22 O.S.2001, §§ 984
and 984.1, those eligible to give victim impact testimony
in a capital sentencing proceeding may give an opinion as
to punishment. Dodd, 2004 OK CR 31 at P 101, 100 P.3d at
1046; Welch v. State, 2000 OK CR 8, P 46, 2 P.3d 356, 374.
The only punishment options for First Degree Murder are
life imprisonment, life imprisonment without parole, and
death. 21 O.S.2001, § 701.9(A). Mr. Andrew’s opinion that
Appellant should “never walk free” cannot reasonably be
construed to advocate for any of the available punishment
options in particular. Appellant has failed to demonstrate
any prejudice from the comment, either in isolation, or
in conjunction with a single statement during voir dire
by someone who was ultimately excused from the jury
panel (see Proposition 2). Appellant did not object to the
comment, and we find no plain error in it. Lott v. State,
2004 OK CR 27, P 108, 98 P.3d 318, 346. This proposition
is denied.

369a
Appendix G
(c) 	Damaging mitigation testimony.
In Proposition 12, Appellant claims he was denied
a fair sentencing proceeding by the testimony of one of
his own mitigation witnesses. Appellant’s step-father,
Wade Veteto, was one of several witnesses called by the
defense to ask the jury to spare Appellant’s life. In his final
comment to the jury, Veteto said, “Guess the only thing
I can say to the jury is if there’s any mercy in your heart
please show it on my son.” As defense counsel announced
he had no further questions, Veteto added, “And if there
ain’t I hope God will show mercy on you.” The witness then
answered a number of questions posed by the prosecutor.
Appellant claims this last quoted statement prejudiced
him, as the jurors were likely to have taken it as some
sort of threat of divine retribution if they imposed a
death sentence. Appellant cites cases which correctly hold
that a prosecutor should not use religion to advocate a
particular verdict or sentence.17 We have applied that same
principle to evidence sponsored by the State, e.g. victim
impact statements in capital sentencing proceedings.
See Washington, 1999 OK CR 22 at PP 60-62, 989 P.2d
at 977-79. We find these cases inapposite, however, as
the source of the comment in this case was a mitigation
17. See e.g. Sandoval v. Calderon, 241 F.3d 765, 775-780 (9th
Cir. 2000) (where prosecutor contended that the death penalty
was sanctioned by God); Fontenot v. State, 1994 OK CR 42, P 59,
881 P.2d 69, 85 (where prosecutor made Biblical references in
closing argument); Gibson v. State, 1972 OK CR 249, PP 42-43, 501
P.2d 891, 900-01 (where prosecutor used “extensive recitation of
Mosaic law” and “quotations from the New Testament” in closing
argument).

370a
Appendix G
witness called by the defense. It is true that the comment
was not solicited by counsel, and we appreciate the delicate
nature of objecting to the comments of any victim-impact
or mitigation witness. Still, we note that defense counsel
did not seek to follow up with additional questions or
ask the trial court to admonish the jury to disregard
the comment. Thus, relief is not warranted unless the
comment amounts to plain error. Lott, 2004 OK CR 27
at P 108, 98 P.3d at 346. Having considered the entirety
of the witness’s testimony, we find no unfair prejudice,
and hence no plain error. A few moments before making
this comment, the same witness broke the tension of the
courtroom with a humorous aside that made the jurors
laugh. We detect nothing intimidating in the witness’s
testimony when read as a whole. This proposition is denied.
(d) 	Ineffective assistance of counsel.
In Proposition 13, Appellant claims trial counsel
rendered deficient performance through a single comment
made in punishment-stage opening statement:
May it please the Court, Counsel, ladies and gentlemen
of the jury. I think this task is probably one of the
hardest for a defense attorney to do because it puts
you in a position of talking to a jury that obviously
didn’t agree with your assertion of your defense. But
nonetheless it’s my obligation to stand here and to go
over some of the same issues that we’ve had to talk
about before.
We first consider whether counsel’s comment was
professionally unreasonable, and if so, whether there is

371a
Appendix G
a reasonable possibility that the comment affected the
outcome of the punishment stage. Strickland, 466 U.S. at
687-89, 104 S.Ct. at 2064-65, 80 L.Ed.2d 674. Appellant
contends that in this comment, defense counsel conceded
that he was only advocating for Appellant out of obligation,
and that the death penalty was a foregone conclusion. We
disagree on both counts.
Counsel’s comment was typical of those often seen
in bifurcated trials (where the issue of punishment is
reserved until after a finding of guilt), and in capital
cases in particular. In those situations, the defendant
and his counsel must eventually abandon the fight over
guilt or innocence, accept the jury’s verdict on that score,
and move on to arguments related to punishment. The
“obligation” counsel refers to in the quoted passage is
clearly not an obligation to defend a person he believes
his guilty or deserving of the death penalty. As we read
the passage, counsel was simply reiterating his belief in
his client’s cause, and expressing disappointment that the
jury did not share his belief.
Nor do we read counsel’s comment as a concession
that the death penalty was inevitable. Rather, counsel was
asking the jurors to indulge his references to guilt-stage
evidence, even though they had rejected the defense theory,
because some of that evidence was relevant to punishment
as well.18 Far from being any sort of concession, counsel’s
18. Evidence relating to both aggravating circumstances was
presented in the guilt stage of trial, and that evidence was formally
incorporated into the punishment stage. In fact, the punishment
stage evidence was essentially limited to victim-impact and
mitigation witnesses.

372a
Appendix G
comment evinced an unflagging determination to defend
his client. Counsel’s comment was neither unreasonable,
unprofessional, nor prejudicial. Strickland, 466 U.S. at
687-89, 104 S.Ct. at 2064-65, 80 L.Ed.2d 674 (1984); Kelsey
v. State, 1987 OK CR 206, P 4, 744 P.2d 190, 191-92. This
proposition is denied.
(e) 	Sufficiency of evidence on agg ravating
circumstances.
In Propositions 14 and 15, Appellant challenges the
sufficiency of the evidence to support the two aggravating
circumstances alleged by the State as warranting the
death penalty. Such challenges are reviewed under the
same standard as challenges to the evidence supporting
a criminal conviction. We consider the evidence in a light
most favorable to the State, and determine whether
any rational juror could have found the existence of the
challenged aggravating circumstance beyond a reasonable
doubt. DeRosa, 2004 OK CR 19 at P 85, 89 P.3d at 1153;
Lockett v. State, 2002 OK CR 30, P 39, 53 P.3d 418, 430.
In Proposition 14, Appellant claims the evidence was
insufficient to support the jury’s finding that the murder of
Rob Andrew was “especially heinous, atrocious, or cruel.”
To establish this aggravator, the State must present
evidence from which the jury could find that the victim’s
death was preceded by either serious physical abuse or
torture. Evidence that the victim was conscious and aware
of the attack supports a finding of torture. Davis v. State,
2004 OK CR 36, P 39, 103 P.3d 70, 81; Black v. State, 2001
OK CR 5, P 79, 21 P.3d 1047, 1074 (evidence that victim
consciously suffered pain during and after stabbing was

373a
Appendix G
sufficient to support this aggravating circumstance); Le,
1997 OK CR 55 at P 35, 947 P.2d at 550; Romano v. State,
1995 OK CR 74, P 70, 909 P.2d 92, 118; Berget v. State,
1991 OK CR 121, P 31, 824 P.2d 364, 373. Our evaluation
is not a mechanistic exercise. As we stated in Robinson
v. State, 1995 OK CR 25, P 36, 900 P.2d 389, 401:
As much as we would like to point to specific,
uniform criteria, applicable to all murder
cases, which would make the application of
the “heinous, atrocious or cruel” aggravator
a mechanical procedure, that is simply not
possible. Rather, the examination of the
facts of each and every case is necessary in
determining whether the aggravator was
proved. Unfortunately, no two cases present
identical fact scenarios for our consideration,
therefore the particulars of each case become
the focus of our inquiry, as opposed to one case’s
similarity to another, in resolving a sufficiency
of the evidence claim supporting the heinous,
atrocious or cruel aggravator.
The evidence presented at trial showed that Rob
Andrew suffered numerous wounds resulting from two
shotgun blasts, which damaged his internal organs. The
medical examiner testified that either wound would have
caused sufficient blood loss to be independently fatal,
but that death was not instantaneous. When emergency
personnel arrived, Andrew was still clutching a trash
bag full of empty aluminum cans, which reasonably
suggested that he either tried to ward off his attacker or
shield himself from being shot. Brenda Andrew called 911

374a
Appendix G
twice after the shooting; together, the two calls spanned
several minutes. During the second call, she claimed that
her husband was still conscious and attempting to talk to
her as he lay bleeding to death on the garage floor. All of
these facts tend to show that Rob Andrew suffered serious
physical abuse, and was conscious of the fatal attack for
several minutes. See Ledbetter v. State, 1997 OK CR 5, P
53, 933 P.2d 880, 896 (evidence that murder victim was
likely aware that she was about to be assaulted because
defendant had attempted to kill her one week earlier,
that she tried to defend herself from the fatal attack, and
that she attempted to communicate with a neighbor after
the attack was sufficient to show that the murder was
especially heinous, atrocious or cruel).
After finding that the murder was accompanied by
torture or serious physical abuse, the jury may also
consider the attitude of the killer and the pitiless nature
of the crime. Lott, 2004 OK CR 27 at P 172, 98 P.3d at
358; Phillips v. State, 1999 OK CR 38, P 80, 989 P.2d 1017,
1039. That the victim was acquainted with his killers is
a fact relevant to whether the murder was especially
heinous, atrocious, or cruel. In finding the murder in
Boutwell v. State, 1983 OK CR 17, P 40, 659 P.2d 322, 329
to be especially heinous, atrocious, or cruel, this Court
observed:
In this case the killing was merciless. The
robbers planned well in advance to take
the victim’s life. Even more abhorrent and
indicative of cold pitilessness is the fact that
the appellant and the victim knew each other.

375a
Appendix G
We find the situation in the present case even more
pitiless. Rob Andrew correctly suspected his wife of having
an affair with a man he trusted as his insurance agent. He
correctly suspected his wife and her lover of trying to wrest
control of his life insurance away from him. He correctly
suspected his wife and her lover of attempting to kill him
several weeks before by severing the brake lines on his car.
He confided in others that he was in fear of his life. Having
separated from his wife, Rob Andrew was murdered as he
returned to the family home to pick up his children for the
Thanksgiving holiday. From the evidence, a rational juror
could have concluded, beyond a reasonable doubt, that Rob
Andrew had time to reflect on this cruel state of affairs
before he died. The evidence supported this aggravating
circumstance, and this proposition is denied.
In Proposition 15, Appellant contends the evidence
is insufficient to support the jury’s finding that the
murder was motivated by “remuneration or the promise
of remuneration,” as defined by 21 O.S.2001, § 701.12(3).19
Relying on Boutwell, 1983 OK CR 17 at PP 30-38, 659 P.2d
at 328-29, and Johnson v. State, 1982 OK CR 37, PP 38-41,
665 P.2d 815, 824, Appellant claims that this aggravating
circumstance should not apply to every situation where
a murder was accompanied by some sort of financial
gain, but rather, only where the murder was “primarily”
motivated by the hope of financial gain. 20
19. This statute defines the aggravating circumstance as
follows: “The person committed the murder for remuneration or
the promise of remuneration or employed another to commit the
murder for remuneration or the promise of remuneration.”
20. Appellant relies on this passage from Johnson: “Murder
for remuneration has also been applied to killings motivated

376a
Appendix G
Both Boutwell and Johnson involved murder during
the commission of an armed robbery. In each case, we held
that the “murder for remuneration” aggravator should not
be read so broadly as to apply to every situation where a
person was killed during a pursuit for money or property,
such as an armed robbery. However, we have held that
the aggravator is squarely applicable where the killing
was motivated by the hope of receiving life insurance
proceeds. See e.g. Stemple, 2000 OK CR 4 at PP 2-10, 65,
994 P.2d at 65-66, 73 (evidence that defendant, who was
having an extramarital affair, arranged to have his wife
killed and hoped to collect life insurance proceeds held
sufficient to establish this aggravating circumstance);
see also Plantz, 1994 OK CR 33 at PP 41-42, 876 P.2d at
281 and Bryson v. State, 1994 OK CR 32, P 50, 876 P.2d
240, 258-59 (evidence sufficient to support “murder for
remuneration” aggravator, where wife (Plantz) and her
boyfriend (Bryson) conspired and actually carried out
plan to kill husband with the hope of obtaining insurance
proceeds). The reason seems obvious to us and clearly
within the letter and spirit of § 701.12(3). 21
primarily to obtain proceeds from an insurance policy, murder of
a testator in order to secure a devise or legacy, and killings which
occur in a kidnapping-extortion situation.” Johnson, 1982 OK CR
37 at P 40, 665 P.2d at 824.
21. Other jurisdictions have reached similar conclusions
based on their own capital sentencing schemes. Cf. People v.
Michaels, 28 Cal. 4th 486, 122 Cal. Rptr. 2d 285, 49 P.3d 1032,
1052 (2002) (“A killing for the purpose of obtaining life insurance
benefits, as contrasted with a killing during a burglary or robbery,
falls squarely within the scope of the financial gain special
circumstance”); Fitts v. State, 982 S.W.2d 175, 188 (Tex.App. 1998)

377a
Appendix G
Appellant reads a passage in Johnson as requiring
that the State to prove that financial gain was the
“primary” motive for the murder. We disagree. Section
701.12(3) does not require the State to prove a financial
motive to the exclusion or diminution of other possible
motives. When read in context, the word “primarily” as
used in Johnson distinguishes cases where the murder
was merely incidental to a robbery or similar attempt to
obtain property, as was the case in Johnson and Boutwell.
We find the situation in the companion cases of Bryson
and Plantz more analogous, and language from Plantz
readily applicable here:
Evidence in the present case showed that the
crime was motivated by financial gain. It was
committed after the opportunity of weeks of
reflection. It was not a crime of passion, nor
was the murder committed as an afterthought
while Appellant was in the course of committing
another felony offense, such as robber y
or burglary. The fact that Appellant was
apprehended before she could actually collect
the money does not obviate this aggravating
circumstance.
(capital sentencing factor involving motive of “remuneration”
or “promise of remuneration” is “not limited to murder-for-hire
situations,” but encompasses “a broad range of situations, including
compensation for loss or suffering and the idea of a reward given
or received because of some act”); see also State v. Chew, 150
N.J. 30, 695 A.2d 1301, 1312 (1997) (“[A]lmost every jurisdiction
that has considered a broadly-worded pecuniary gain [capital
sentencing] factor has applied the factor to killings to collect
insurance proceeds”).

378a
Appendix G
Plantz, 1994 OK CR 33 at P 42, 876 P.2d at 281 (emphasis
added).
As in Plantz, the evidence in this case supports a
finding that the murder of Rob Andrew was motivated by
a desire to remove the third side of a love triangle, and
reap financial gain from insurance proceeds in the process.
The life insurance proceeds were no afterthought in this
case. Appellant was not only having an affair with the
victim’s wife; he was the victim’s life insurance agent as
well. As such, he was particularly well-positioned to try to
transfer ownership of Rob Andrew’s life insurance policy
to Brenda in the months before the murder.
Appellant claims that as a mere paramour, he had no
standing to benefit directly from any proceeds Brenda
might receive. We find no merit to this argument either.
The evidence showed that Appellant hoped to enjoy a
life with Brenda Andrew and her children without Rob
Andrew’s interference. Appellant clearly hoped to partake
of the insurance proceeds, even if he was not a contractual
beneficiary. See Bryson, 1994 OK CR 32 at P 50, 876 P.2d
at 259. A rational juror could easily have found that the
murder was committed with the hope of remuneration.
DeRosa, 2004 OK CR 19 at P 85, 89 P.3d at 1153. This
proposition is denied.
In Proposition 16, Appellant claims that if even one
of the two aggravating circumstances is stricken for
insufficient evidence, this Court cannot reassess the
propriety of the death penalty based on the one remaining
aggravator, but must instead modify Appellant’s sentence

379a
Appendix G
on Count 1 to life in prison without parole. Because we have
found the evidence sufficient to support both aggravating
circumstances found by the jury, this proposition is moot.
Patton v. State, 1999 OK CR 25, P 15, 989 P.2d 983, 989;
LaFevers v. State, 1995 OK CR 26, P 47, 897 P.2d 292, 311.
VII.

Cumulative error and motion to supplement.

In Proposition 17, Appellant claims that the cumulative
effect of the errors raised on appeal denied him a fair
trial, or at least a fair capital sentencing proceeding. A
cumulative error argument has no merit when this Court
fails to sustain any of the other errors raised by Appellant.
Dodd, 2004 OK CR 31 at P 116, 100 P.3d at 1051. Even
when there have been prejudicial irregularities during the
course of a trial, relief is warranted only if the cumulative
effect of all the errors denied Appellant a fair trial. Id.;
Bechtel v. State, 1987 OK CR 126, P 12, 738 P.2d 559,
561. We have found no merit to the propositions of error
raised by Appellant and, consequently, we find no error
by accumulation.
In Proposition 18, Appellant asks to supplement his
brief with any meritorious issues that may be raised in his
pending capital post-conviction proceeding. As the State
points out, any issues properly raised on post-conviction
can be fully evaluated within the context of that action.
Because Appellant cites no authority for such a request,
and we are aware of none, this proposition is denied.
Torres v. State, 1998 OK CR 40, P 32, 962 P.2d 3, 14.

380a
Appendix G
VIII. 	Mandatory sentence review.
Pursuant to 21 O.S.2001, § 701.13(C), this Court is
required to review Appellant’s death sentence to determine
(1) whether the sentence of death was imposed under the
influence of passion, prejudice or any other arbitrary
factor, and (2) whether the evidence supports the jury’s
findings on aggravating circumstances as enumerated
in 21 O.S.2001, § 701.12 . As to the latter, the jury found
the existence of two aggravating circumstances: (1) that
the murder was especially heinous, atrocious, or cruel,
and (2) that the murder was committed for purposes
of remuneration or the hope of remuneration. In our
discussion of Propositions 14 and 15, we found that each
aggravating circumstance was supported by evidence. We
found no prejudice in the punishment-stage comments
of the prosecutor (Propositions 9 and 10), victim impact
evidence (Proposition 11), the comments of a mitigation
witness (Proposition 12), or in defense counsel’s own
performance (Proposition 13). Upon our review of the
record as a whole, we find that the sentence of death
was not the product of passion, prejudice, or any other
arbitrary factor. Finding no error warranting reversal or
modification, the Judgment and Sentence is AFFIRMED.
DECISION
The Judgment and Sentence of the district court
is AFFIRMED. Pursuant to Rule 3.15, Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch.18,
App. (2007), the MANDATE is ORDERED issued upon
the delivery and filing of this decision.

381a
Appendix G
OPINION BY C. JOHNSON, V.P.J.
LUMPKIN, P.J.: CONCURS
CHAPEL, J.: CONCURS IN PART/DISSENTS IN
PART
A. JOHNSON, J.: CONCURS
LEWIS, J.: CONCURS
Concur by: CHAPEL (In Part)
Dissent by: CHAPEL (In Part)

382a
Appendix G
C H A PEL , J UD GE , C ONC URS IN PA RT/
DISSENTS IN PART:
I concur in affirming the conviction for First Degree
Murder (Count I) and I concur in affirming the death
sentence for that crime. However, I would reverse and
dismiss the Conspiracy (Count 2) conviction, as I believe
it to violate the double jeopardy clauses of both the State
and Federal Constitutions.

383a
Appendix h —Appendix
ORDER H
of the UNITED
STATES COURT OF APPEALS FOR THE TENTH
CIRCUIT, filed October 2, 2018
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-6117
(D.C. No. 5:08-CV-00470-R) (W.D. Okla.)
JAMES DWIGHT PAVATT,
Petitioner-Appellant,
v.
MIKE CARPENTER, INTERIM WARDEN,
OKLAHOMA STATE PENITENTIARY,*
Respondent-Appellee.
ORDER
Before TYMKOVICH, Chief Judge, BRISCOE, LUCERO,
HARTZ, HOLMES, MATHESON, BACHARACH,
PHILLIPS, McHUGH, MORITZ, EID and CARSON,
Circuit Judges.**
* Pursuant to Fed. R. App. P. 43(c)(2), Terry Royal, is
replaced by Mike Carpenter as Interim Warden of the Oklahoma
State Penitentiary.
** The Honorable Joel M. Carson took office on May 18,
2018 and did not participate in the original poll. He will, however,
participate in the remaining en banc proceedings. The Honorable

384a
Appendix H
This matter is before the court on the appellee’s
Petition for Panel Rehearing or Rehearing En Banc and
the Supplemental Petition for Rehearing En Banc filed
on July 25, 2018. We also have responses to both petitions
from the appellant.
Upon consideration, and as the parties were advised
previously, a poll was called and the poll carried.
Consequently, the request for en banc rehearing is
GRANTED. See Fed. R. App. P. 35(a); see also 10th Cir.
R. 35.6 (noting the effect of the grant of en banc rehearing
is to vacate the judgment and to restore the case on the
docket).
This court has en banced the entire case, but we
request the parties to specifically address the following
questions in supplemental memorandum briefs:
1) Is Pavatt entitled to federal habeas relief
on the basis of his sufficiency-of-the evidence
challenge under Jackson v. Virginia, 443 U.S.
307 (1979), to the heinous, atrocious, or cruel
(HAC) aggravator that was found by the jury
in his case?
a) Was the sufficiency-of-the-evidence
claim presented to and addressed by
the OCCA?
Paul J. Kelly elected senior status on January 1, 2018 and did
not participate in the en banc poll. As a member of the original
hearing panel, however, Judge Kelly has elected to sit on the en
banc panel. See 10th Cir. R. 35.5.

385a
Appendix H
b) Was the OCCA’s resolution of the
sufficiency-of-the-evidence claim
contrary to, or an unreasonable
application of, clearly established
Federal law, as determined by the
Supreme Court of the United States?
2) Is Pavatt entitled to federal habeas relief
on the grounds that (a) the HAC aggravator is
unconstitutionally vague or broad, in violation
of the Eighth and Fourteenth Amendments, or
(b) that the OCCA did not in his case apply the
narrowing construction of the HAC aggravator
that was previously approved by this court?
a) Were eit her of t hese cla i ms
presented to and addressed by the
OCCA? In other words, did Pavatt
exhaust these claims in the Oklahoma
state courts?
b) I f not , a r e t he c l a i m s now
unexhausted or procedurally barred?
c) If the claims are unexhausted,
has respondent, through counsel,
expressly waived the exhaustion
requirement for purposes of 28 U.S.C.
§ 2254(b)(3)?
d) Should this court sua sponte raise
the exhaustion issue?

386a
Appendix H
e) If the claims are procedurally
barred, has respondent expressly
waived that as a defense?
f) Were these claims presented to and
resolved by the district court and,
if so, was a COA granted on these
claims?
g) Were these claims included in this
court’s case management order as
issues to be raised by Pavatt?
h) If the claims can be reviewed on the
merits by this court, has the OCCA
construed the HAC aggravator in a
manner consistent with the Eighth
Amendment, and/or did the OCCA fail
to apply in Pavatt’s case the narrowing
construction of the HAC aggravator
that was previously approved by this
court?
i) Was the OCCA, in light of Bell v.
Cone, 543 U.S. 447 (2005), required
to analyze, discuss, or even mention,
controlling Supreme Court precedent
rega rding the constitutional
requirements limiting death-penalty
agg ravators or the OCCA’s ow n
established construction of the HAC
agg ravator in rejecting Pavatt’s

387a
Appendix H
challenge to the jury’s finding of the
HAC aggravator in his case?
j) Did the OCCA, in rejecting Pavatt’s
challenge to the jury’s finding of the
HAC aggravator in his case, effectively
expand the meaning of “conscious
physical suffering” to encompass the
brief period of conscious suffering
necessarily present in virtually all
murders?
k) Even if the HAC aggravator was
improperly applied in this case, was
there nevertheless no “constitutional
error” in Pavatt’s sentence, Brown
v. Sanders, 546 U.S. 212, 221 (2006),
because the jury properly found
another aggravator and no evidence
was admitted at the penalty phase
that was relevant solely to the HAC
aggravator?
3) If we reject Pavatt’s challenges to the HAC
aggravator, is he entitled to federal habeas
relief on his ineffective-assistance claims
relating to the penalty phase of his trial? And,
in this regard, do Martinez v. Ryan, 566 U.S.
1 (2012) and Trevino v. Thaler, 569 U.S. 413
(2013), apply in the special circumstances of
this case?

388a
Appendix H
The appellee’s supplemental brief shall be filed on or
before November 16, 2018 and shall be limited to 40 pages
in length in a 13 or 14 point font. In addition, within 2
business days of the electronic filing 16 hard copies must
be received in the Office of the Clerk. On or before January
2, 2019, the appellant shall file a memorandum response
brief subject to the same limitations. Like the appellee’s
brief, 16 hard copies must be received in the clerk’s office
within 2 business days.
Within 21 days of service of the memorandum
response brief the appellee may file a reply. The reply
shall be limited to 15 pages in length. Like the primary
supplemental briefs, 16 hard copies of the reply shall be
received in the Clerk’s Office within 2 business days of
the electronic filing.
The appeal will be set for an en banc hearing
on the next available oral argument calendar once
briefing is complete. The parties will be advised of the
exact date and time for the argument and will receive
additional information regarding the hearing via separate
communication.
Entered for the Court
/s/
ELISABETH A. SHUMAKER, Clerk

389a
Appendix
I
APPENDIX I — ORDER
OF REHEARING
OF THE
UNITED STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JULY 2, 2018
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-6117
(D.C. No. 5:08-CV-00470-R)
(W.D. Okla.)
JAMES DWIGHT PAVATT,
Petitioner-Appellant,
v.
TERRY ROYAL, WARDEN, OKLAHOMA
STATE PENITENTIARY,
Respondent-Appellee.
ORDER
Before BRISCOE, KELLY, and HARTZ, Circuit Judges.
This matter is before the court on that portion of the
appellee’s Petition for Panel Rehearing or Rehearing En
Banc which seeks panel rehearing. We have also reviewed
the response filed on July 7, 2017.
Upon consideration, a majority of the original panel
members have voted to deny. Accordingly, the request

390a
Appendix I
for panel rehearing is denied. Judge Briscoe would grant
panel rehearing.
That same panel majority has, however, determined
sua sponte that amendment of the original panel decision
is warranted. Consequently, the Clerk is directed to
file the attached amended opinion nunc pro tunc to the
original filing date of June 9, 2017. In response, Judge
Briscoe has also amended her dissent and that amended
version is likewise attached to this order and shall be filed
nunc pro tunc.
The request for en banc rehearing continues to be
taken under advisement and remains pending.
Entered for the Court
/s/				
ELISA BETH A. SHUMA KER,
Clerk

391a
Appendix JOF RESPONDENTAppendix J — EXCERPTS
APPELLEE’S ANSWER BRIEF IN the UNITED
STATES COURT OF APPEALS FOR THE TENTH
CIRCUIT, FILED AUGUST 10, 2015
IN THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT
Case No. 14-6117
JAMES DWIGHT PAVATT,
Petitioner-Appellant,
v.
ANITA TRAMMELL, Warden of the
Oklahoma State Penitentiary,
Respondent-Appellee.
RESPONDENT-APPELLEE’S ANSWER BRIEF
On Appeal from the United States District Court
For the Western District of Oklahoma
(D.C. No. CIV-08-470-R)
The Honorable David L. Russell,
United States District Judge

392a
Appendix J
***
ARGUMENT AND AUTHORITIES
I.
THE DISTRICT COURT PROPERLY DETERMINED
THE OCCA’S DECISION TH AT SUFFICIENT
EVIDENCE SUPPORTED THE “ESPECIALLY
HEIN O U S , A T R O C I O U S , A ND C R U E L ”
AGGRAVATING CIRCUMSTANCE WAS NEITHER
CON T R A RY TO, NOR A N U N REA SONA BLE
APPLICATION OF, CLEARLY ESTABLISHED
SUPREME COURT LAW.
Petitioner contends there was insufficient evidence
to support the aggravating circumstance of “especially
heinous, atrocious, or cruel” because the evidence did not
show Rob Andrew endured “conscious physical suffering”
before death. Raised on direct appeal and rejected by
the OCCA on the merits, the Petitioner now argues the
OCCA’s decision on the matter was unreasonable. The
district court applied AEDPA deference to the issue
and concluded Petitioner had failed to show the OCCA’s
decision was contrary to, or an unreasonable application of,
clearly established Supreme Court law. Doc. 91 at 78-84.
A. Standard of Review.
The OCCA rejected Petitioner’s proposition of error
on substantive, not procedural grounds. Pavatt, 159
P.3d at 294-95. In doing so, the OCCA applied the same

393a
Appendix J
standard of review mandated by Jeffers, 497 U.S. at 78183, for evidentiary sufficiency challenges to aggravating
circumstances. Pavatt, 159 P.3d at 294. In conducting its
analysis, the OCCA discussed Oklahoma’s requirements
for satisfying this aggravator as well as the record
evidence supporting its finding. Id. at 294-95. As such,
the OCCA’s decision constitutes an adjudication on the
merits to which AEDPA deference applies. 28 U.S.C.
§ 2254(d). Hooker v. Mullin, 293 F.3d 1232, 1237 (10th
Cir. 2002). This deference requires Petitioner, in order to
receive habeas relief, to show that the OCCA’s decision
was contrary to, or an unreasonable application of, clearly
established Supreme Court law, or was based on an
unreasonable determination of facts in light of the state
court record. 28 U.S.C. § 2254(d).
The Supreme Court held in Jeffers, 497 U.S. at 781-83,
that a challenge to the sufficiency of the evidence as to
an aggravating circumstance was to be reviewed under
the standard enunciated in Jackson v. Virginia, 443
U.S. 307, 319 (1979), asking whether any rational trier
of fact—viewing the evidence in the light most favorable
to the State—could have found the essential elements of
the crime beyond a reasonable doubt. See Matthews v.
Workman, 577 F.3d 1175, 1183 (10th Cir. 2009); McCracken
v. Gibson, 268 F.3d 970, 981 (10th Cir. 2001). This Court’s
review under this standard is “sharply limited, and a
court faced with a record of historical facts that supports
conflicting inferences must presume—even if it does not
affirmatively appear in the record—that the trier of fact
resolved any such conflicts in favor of the prosecution,
and must defer to that resolution.” Brown v. Sirmons,

394a
Appendix J
515 F.3d 1072, 1089 (10th Cir. 2008) (quoting Messer v.
Roberts, 74 F.3d 1009, 1013 (10th Cir. 1996)) (internal
quotations omitted).
A sufficiency of the evidence challenge to an aggravator
in a habeas proceeding presents a mixed question of law
and fact, making both § 2254(d)(1) (whether the state court
reasonably applied of Supreme Court precedent) and (d)
(2) (whether the state court reasonably determined the
facts) applicable to the analysis. Brown, 515 F.3d at 1089.
Still, the presumption of correctness afforded by 28 U.S.C.
§ 2254(e) requires this Court to defer to any determination
of a factual issue made by the state court. Id.
Contrary to this well-established standard, Petitioner
asserts the OCCA’s decision is entitled to no deference
because the jury rendered no findings as to Rob
Andrew’s conscious physical suffering. Petitioner’s
argument is misguided. First, the standard of review
established in § 2254(d)-(e) is relative to the findings of the
OCCA. Second, the OCCA determined the aggravating
circumstance of “especially heinous, atrocious, or cruel”
was supported, beyond a reasonable doubt, by evidence
showing Rob Andrew “suffered serious physical abuse,
and was conscious of the fatal attack for several minutes.”
Pavatt, 159 P.3d at 294. It is this decision which is to be
granted deference. 3 28 U.S.C. § 2254(d)-(e); Wilson v.
3. Even so, the jury was properly instructed on the aggravating
circumstances under sufficiently narrowed aggravating-circumstance
law existing at the time. Petitioner essentially argues that because
the jury was not required to expressly find conscious physical
suffering, that the jury finding of serious physical abuse is inaccurate

395a
Appendix J
Sirmons, 536 F.3d 1064, 1108 (10th Cir. 2008) (“Even if
the jury instruction did not sufficiently narrow the jury’s
discretion, the state court can also perform this narrowing
function on review.”); Brown, 515 F.3d at 1089 (“Here, we
must consider whether the OCCA’s conclusion that the
evidence was sufficient to support a finding of extreme
mental anguish constituted an unreasonable application
of the Jackson standard).
B. Merits.
This Court looks to Oklahoma law to determine the
“substantive elements of ‘heinous, atrocious, or cruel’
aggravating circumstance.” Turrentine v. Mullin, 390
F.3d 1181, 1197 (10th Cir. 2004). To establish a murder as
“especially heinous, atrocious, or cruel,” the State must
demonstrate the victim’s death was preceded by torture
or serious physical abuse. Warner v. State, 144 P.3d 838,
880 (Okla. Crim. App. 2006); Lott v. State, 98 P.3d 318, 358
(Okla. Crim. App. 2004). Evidence of a victim’s “conscious
physical suffering” is sufficient to establish torture or
serious physical abuse leading up to death. See Hooker,
293 F.3d at 1240; Medlock v. Ward, 200 F.3d 1314, 1324
or inadequate. This argument has been rejected multiple times by
this Court, Wilson v. Sirmons, 536 F.3d 1064, 1108 (10th Cir. 2008);
Workman v. Mullin, 342 F.3d 1100, 1115-16 (10th Cir. 2003); Hooks
v. Ward, 184 F.3d 1206, 1239-40 (10th Cir. 1999), and was specifically
rejected by the OCCA in its alternative holding in Petitioner’s second
post-conviction application. Pavatt, No. PCD-2009-777, slip op. at 5
n.5 (citing Jackson v. State, 146 P.3d 1149, 1161-63 (Okla. Crim. App.
2006); Browning v. State, 134 P.3d 816, 843-45 (Okla. Crim. App.
2006); Rojem v. State, 130 P.3d 287, 300-01 (Okla. Crim. App. 2006);
DeRosa v. State, 89 P.3d 1124, 1154-57 (Okla. Crim. App. 2004))

396a
Appendix J
(10th Cir. 2000); Black v. State, 21 P.3d 1047, 1074 (Okla.
Crim. App. 2001).
The OCCA also holds that there are no “specific
uniform criteria, applicable to all murder cases, which
would make the application of the ‘heinous, atrocious or
cruel’ aggravator a mechanical procedure.” Robinson v.
State, 900 P.2d 389, 401 (Okla. Crim. App. 1995). “Rather,
the examination of the facts of each and every case is
necessary in determining whether the aggravator was
proved.” Id. This rule necessarily makes the determination
a case by case inquiry. See id.
In rejecting Petitioner’s claim on direct appeal, the
OCCA found as follows:
¶ 75 In Proposition 14, Appellant claims the
evidence was insufficient to support the jury’s
finding that the murder of Rob Andrew was
“especially heinous, atrocious, or cruel.” To
establish this aggravator, the State must
present evidence from which the jury could find
that the victim’s death was preceded by either
serious physical abuse or torture. Evidence
that the victim was conscious and aware of the
attack supports a finding of torture. Davis v.
State, 2004 OK CR 36, ¶ 39, 103 P.3d 70, 81;
Black v. State, 2001 OK CR 5, ¶ 79, 21 P.3d 1047,
1074 (evidence that victim consciously suffered
pain during and after stabbing was sufficient
to support this aggravating circumstance); Le,
1997 OK CR 55 at ¶ 35, 947 P.2d at 550; Romano

397a
Appendix J
v. State, 1995 OK CR 74, ¶ 70, 909 P.2d 92, 118;
Berget v. State, 1991 OK CR 121, ¶ 31, 824 P.2d
364, 373. Our evaluation is not a mechanistic
exercise. As we stated in Robinson v. State,
1995 OK CR 25, ¶ 36, 900 P.2d 389, 401:
As much as we would like to point to
specific, uniform criteria, applicable
to all murder cases, which would
make the application of the “heinous,
atrocious or cruel” aggravator a
mechanical procedure, that is simply
not possible. Rather, the examination
of the facts of each and every case is
necessary in determining whether the
aggravator was proved. Unfortunately,
no two cases present identical fact
scenar ios for our consideration,
therefore the particulars of each
case become the focus of our inquiry,
as opposed to one case’s similarity
to another, in resolving a sufficiency
of the evidence claim supporting the
heinous, atrocious or cruel aggravator.
¶ 76 The evidence presented at trial showed
that Rob Andrew suffered numerous wounds
resulting from two shotgun blasts, which
damaged his internal organs. The medical
examiner testified that either wound would have
caused sufficient blood loss to be independently
fatal, but that death was not instantaneous.

398a
Appendix J
When emergency personnel arrived, Andrew
was still clutching a trash bag full of empty
aluminum cans, which reasonably suggested
that he either tried to ward off his attacker or
shield himself from being shot. Brenda Andrew
called 911 twice after the shooting; together,
the two calls spanned several minutes. During
the second call, she claimed that her husband
was still conscious and attempting to talk to
her as he lay bleeding to death on the garage
floor. All of these facts tend to show that Rob
Andrew suffered serious physical abuse, and
was conscious of the fatal attack for several
minutes. See Ledbetter v. State, 1997 OK CR 5,
¶ 53, 933 P.2d 880, 896 (evidence that murder
victim was likely aware that she was about to
be assaulted because defendant had attempted
to kill her one week earlier, that she tried to
defend herself from the fatal attack, and that
she attempted to communicate with a neighbor
after the attack was sufficient to show that the
murder was especially heinous, atrocious or
cruel).
¶ 77 A fter f inding that the murder was
accompanied by torture or serious physical
abuse, the jury may also consider the attitude
of the killer and the pitiless nature of the crime.
Lott, 2004 OK CR 27 at ¶ 172, 98 P.3d at 358;
Phillips v. State, 1999 OK CR 38, ¶ 80, 989
P.2d 1017, 1039. That the victim was acquainted
with his killers is a fact relevant to whether
the murder was especially heinous, atrocious,

399a
Appendix J
or cruel. In finding the murder in Boutwell v.
State, 1983 OK CR 17, ¶ 40, 659 P.2d 322, 329 to
be especially heinous, atrocious, or cruel, this
Court observed:
In this case the killing was merciless.
The robbers planned well in advance
to take the victim’s life. Even more
abhorrent and indicative of cold
pitilessness is the fact that the appellant
and the victim knew each other.
¶ 78 We find the situation in the present case
even more pitiless. Rob Andrew correctly
suspected his wife of having an affair with
a man he trusted as his insurance agent. He
correctly suspected his wife and her lover of
trying to wrest control of his life insurance
away from him. He correctly suspected his wife
and her lover of attempting to kill him several
weeks before by severing the brake lines on
his car. He confided in others that he was in
fear of his life. Having separated from his wife,
Rob Andrew was murdered as he returned to
the family home to pick up his children for the
Thanksgiving holiday. From the evidence, a
rational juror could have concluded, beyond a
reasonable doubt, that Rob Andrew had time
to reflect on this cruel state of affairs before he
died. The evidence supported this aggravating
circumstance, and this proposition is denied.
Pavatt, 159 P.3d at 294-95.

400a
Appendix J
The district court’s ruling—that the OCCA’s finding
that sufficient evidence supported this aggravator was
wholly reasonable in light of the governing law and facts—
was the correct one in this situation. Doc. 91 at 79-84. The
State presented evidence at trial that Rob Andrew was
conscious before, during, and after the infliction of the
two shotgun wounds. Brenda Andrew told a 911 operator
that Rob was breathing, conscious, and trying to talk to
her after sustaining two shotgun blasts to his neck and
chest (Tr. 2148-49, 2434-35; State’s Exhibit 34). Rob was
discovered by emergency personnel clutching a garbage
bag full of empty aluminum cans (Tr. 2178, 2295, 230508; State’s Exhibits 41, 64, 66, 73). The medical examiner
testified that Rob was hit with multiple shotgun pellets
fired from two shots (Tr. 2434-38). The shotgun pellets
spread across Rob’s body because the shotgun was not
fired from close range (Tr. 2437-38). The shotgun pellets
damaged Rob’s liver, right lung, and aorta (Tr. 245859; State’s Exhibits 75-77, 106-12). Even though both
shotgun wounds were independently fatal, Rob could have
sustained life after being shot for up to ten (10) minutes
(Tr. 2457-58). Death would not have been instantaneous
(Tr. 2463). However, Rob would have lost consciousness
within approximately five (5) minutes before bleeding to
death from his external and internal injuries (Tr. 245859, 2461-62, 2465). The medical examiner stated that Rob
likely suffered and experienced pain in the dying process
(Tr. 2464, 2466-67).
Taking this evidence in the light most favorable to
the prosecution—as this Court must—sufficient evidence
was presented to establish serious physical abuse and,

401a
Appendix J
in particular, conscious physical suffering by the victim.
Brenda Andrew placed two (2) 911 calls to police after the
shooting (Tr. 2148-49; State’s Ex. 34). Both calls totaled
approximately six (6) minutes (State’s Exhibit 34). During
the second call, Brenda told a 911 operator that Rob was
breathing, conscious, and trying to talk to her (Tr. 2149;
State’s Exhibit 34). The district court relied upon this
evidence, which showed Rob was alive for a significant
period of time, suffering all the while from the extensive
shotgun wounds spread across his body, in arriving at its
conclusion. Doc. 91 at 83.
Petitioner attacks the OCCA’s factual determination
by claiming Brenda’s statement to the 911 operator
simply cannot be believed. But—as found by the district
court—this was an issue for the jury, not this Court
within a collateral federal challenge. Doc. 91 at 83. As
an appellate court on collateral review, “[this] court may
not weigh conflicting evidence or consider the credibility
of witnesses.” Valdez v. Bravo, 373 F.3d 1093, 1097 (10th
Cir. 2004). Here, this Court must take the evidence in the
light most favorable to the State and presume that the
jury accepted as true Brenda’s statements to police that
the victim was conscious as late as the second 911 call.
All Petitioner’s argument proves “is that a rational juror
might not accept” her statements on this point as true;
“it doesn’t show that a rational juror could not accept it,
which is the question on which a sufficiency challenge
necessarily must focus.” Matthews, 577 F.3d at 1185.
Petitioner also arg ues that the OCCA’s legal
determination was unreasonable, citing multiple state

402a
Appendix J
court decisions. Petitioner’s comparison of his case to the
application of the “especially heinous, atrocious, or cruel”
aggravator in other capitol cases is of no consequence
though. These cases are not Supreme Court cases, but
rather, decisions from the OCCA and this Court. As such,
they are not an independent basis for demonstrating
unreasonableness under AEDPA. To the extent Petitioner
suggests by citing to these other cases that the OCCA’s
application of the “especially heinous, atrocious, or cruel”
aggravator in this case renders it unconstitutional, he is
not entitled to relief. As noted by the Supreme Court,
the question of whether state courts have properly
applied an aggravating circumstance is separate from
the question of whether the circumstance, as narrowed,
is facially valid. Arave v. Creech, 507 U.S. 463, 47677 (1993). Such analysis represents little more than a
proportionality review of the state’s application of the
aggravating circumstance. Walton v. Arizona, 497 U.S.
639, 655-56 (1990), overruled on other grounds by Ring
v. Arizona, 536 U.S. 584 (2002). Oklahoma law does not
authorize proportionality review for death sentences and
there exists no federal constitutional entitlement to such
review. Id. (“proportionality review is not constitutionally
required”); Okla. Stat. tit. 21, § 701.13(C) (describing
mandatory sentencing review factors). In Jeffers, 497 U.S.
at 779, the Supreme Court held:
Our decision in Walton thus makes clear that if
a State has adopted a constitutionally narrow
construction of a facially vague aggravating
circumstance, and if the State has applied
that construction to the facts of the particular

403a
Appendix J
case, then the “fundamental constitutional
requirement” of “channeling and limiting . . .
the sentencer’s discretion in imposing the death
penalty, [Maynard v.] Cartwright, 486 U.S.
[356], 362, has been satisfied.
See also Moore v. Gibson, 195 F.3d 1152, 1176 (10th Cir.
1999).4
4. W hile Petitioner is not entitled to proportionality
review, his claim that the OCCA does not consistently apply the
aggravating circumstance of “especially heinous, atrocious, or
cruel” is incorrect. The OCCA has found in several similar cases
that evidence of consciousness of the victim for several minutes
following the shooting will support a finding of the aggravating
circumstance. See Postelle v. State, 267 P.3d 114, 143-44 (Okla.
Crim. App. 2011) (finding the defendant’s murders were “especially
heinous, atrocious, or cruel” in light of evidence the victims were
aware of the attacks and attempted to flee); Cuesta-Rodriguez
v. State, 241 P.3d 214, 238 (Okla. Crim. App. 2010) (finding the
victim’s murder was “especially heinous, atrocious, or cruel”
due to evidence indicating the victim consciously suffered for
approximately seven (7) minutes before dying); Simpson v. State,
230 P.3d 888, 902-03 (Okla. Crim. App. 2010) (finding one victim’s
death was “especially heinous atrocious, or cruel” because the
gunshot wound to his chest did not kill him immediately, but
rather caused him to have labored breathing and make gurgling
sounds as his chest filled with blood before dying and because
there was testimony that he was able to speak after being shot
and finding as to another victim there was no evidence his death
was “especially heinous, atrocious, or cruel” because “he likely
died within seconds after being shot”); Jones v. State, 201 P.3d
869, 889 (Okla. Crim. App. 2009) (ruling the death of one of the
victims was “especially heinous, atrocious, or cruel,” because
evidence from the medical examiner showed the victim remained

404a
Appendix J
To be constitutional, an aggravating circumstance
may not vague and apply to every defendant convicted of
a murder; it must apply only to a subclass of defendants
convicted of murder. Tuilaepa v. California, 512 U.S.
967, 972 (1994). “If the sentencer fairly could conclude
that an aggravating circumstance applies to every
defendant eligible for the death penalty, the circumstance
is constitutionally infirm.” Arave, 507 U.S. at 474 (citing
Maynard v. Cartwright, 486 U.S. 356, 364 (1988)
(invalidating aggravating circumstance that “an ordinary
person could honestly believe” described every murder)).
Where, as here, the OCCA applied an interpretation of this
aggravator that has previously been found constitutional,
see Wilson, 536 F.3d at 1108 (noting the Tenth Circuit
has routinely upheld Oklahoma’s heinous, atrocious or
cruel aggravator even where jury instructions did not
specifically include the “conscious suffering” requirement),
a habeas petitioner’s constitutional challenge to that
aggravator is at an end. Jeffers, 497 U.S. at 779. Nothing
conscious for approximately five (5) minutes after his shooting).
The cases cited by Petitioner may be distinguished on the grounds
that the evidence of consciousness of being shot—for any amount
of time—was particularly weak. See, e.g., Cudjo v. State, 925 P.2d
895, 901-02 (Okla. Crim. App. 1996) (noting the victim was unaware
he was shot prior to death); Cheney v. State, 909 P.2d 74, 81 (Okla.
Crim. App. 1995) (finding the evidence failed to sufficiently show
the victim was conscious following the first shot and was, at most,
conscious for “a couple of seconds”); Davis v. State, 888 P.2d 1018,
1021 (Okla. Crim. App. 1995) (“No testimony indicated that the
victims who died were conscious or suffered pain at any time.”);
Stouffer v. State, 742 P.2d 562, 564 (Okla. Crim. App. 1987) (“There
was no reason to believe from the evidence that [the victim] was
conscious after the first shot.”).

405a
Appendix J
about the OCCA’s discussion of the legal or factual basis
for its conclusion here in any way suggests an overbroad
or erroneous interpretation, let alone application, of
Oklahoma’s heinous, atrocious or cruel aggravator.
The OCCA also reasonably concluded that, having
found that the murder was accompanied by torture or
conscious physical abuse, evidence establishing the cruel
and pitiless nature of the crime also supported a finding of
this aggravator. Pavatt, 159 P.3d at 295. As noted by the
OCCA in its facts, the record evidence established that in
the weeks leading up to the murder, the victim feared for
his life. Rob Andrew correctly believed Petitioner and his
wife were trying to kill him, in part, over the Prudential
life insurance policy which had been a major point of
contention during the ongoing divorce proceedings.
The brake line incident, in which Petitioner and Brenda
Andrew attempted to lure him onto an interstate highway
at high speeds in a car with no brakes, only heightened
the cruel state of affairs this victim suffered in the weeks
leading up to the murder. In light of this evidence, the
OCCA reasonably found that “a rational juror could have
concluded, beyond a reasonable doubt, that Rob Andrew
had time to reflect on this cruel state of affairs before he
died.” Id. Taken in the light most favorable to the State,
this evidence too supported the heinous, atrocious or cruel
aggravating circumstance.
All things considered, Petitioner fails to show the
impropriety of the district court’s ruling on this decision
by the OCCA. Petitioner fails to show the OCCA’s decision
on this issue falls into the category of the most serious

406a
Appendix J
misapplication of Supreme Court precedent. House
v. Hatch, 527 F.3d 1010, 1019 (10th Cir. 2008) (quoting
Maynard v. Boone, 468 F.3d 665, 671 (10th Cir. 2006)
(“only the most serious misapplications of Supreme
Court precedent will be a basis for relief under § 2254”).
That is especially so considering that the state court was
essentially applying a general standard in assessing this
evidentiary sufficiency challenge, thus allowing even more
leeway for its decision. See Knowles v. Mirzayance, 556
U.S. 111, 123 (2009). This Court should, therefore, uphold
the ruling of the district court denying habeas relief to
the Petitioner.
****

407a
K
Appendix kAppendix
— EXCERPTS
of the
APPELLANT’S OPENING BRIEF IN the
united states court of appeals for the
tenth circuit, filed june 8, 2015
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-6117
DEATH PENALTY CASE
JAMES DWIGHT PAVATT,
Appellant-Petitioner,
v.
ANITA TRAMMELL, WARDEN,
Oklahoma State Penitentiary,
Appellee-Respondent.
On Appeal from the United States District Court
For the Western District of Oklahoma
The Honorable David L. Russell
District Judge
District Court Case No. CIV-08-470-W

408a
Appendix K
APPELLANT’S OPENING BRIEF
***
1212 (10th Cir. 2003); Allen v. Mullin, 368 F.3d 1220,
1234 (10th Cir. 2004). Where a district court has not
conducted an evidentiary hearing and has before it only
those facts developed in the state court record, this Court
independently reviews those facts. Allen, 368 F.3d at 1234.
Proposition I
There was Insufficient Evidence to Support
the “Especially Heinous, Atrocious, or Cruel”
Aggravating Factor.
I.

Lower court proceedings.

Pavatt challenged the sufficiency of the evidence of the
HAC aggravator in Ground Ten. (Doc. 49 at 147-57). The
district court cited the Jackson v. Virginia, 443 U.S. 307
(1979) review standard, added barriers to relief created
by the AEDPA, and evaluated Pavatt’s claim under a
“deference squared” standard, citing Hooks v. Workman,
689 F.3d 1148, 1166 (10th Cir. 2012). (Doc. 91 at 80-4). The
district court determined the OCCA’s decision denying
relief was not unreasonable. (Doc. 91 at 84).
II. Argument summary.
This murder was not “especially heinous, atrocious,
or cruel.” While the jury found the HAC aggravator,

409a
Appendix K
no deference should be afforded its verdict because
it was rendered w ithout any f inding on the core
element of conscious suffering and upon limited and
flawed instructions. See Proposition II. The OCCA’s
determination upholding the jury’s verdict was itself
objectively unreasonable given the many cases where
the OCCA found similar evidence insuff icient to
support the HAC aggravator. Additionally, the OCCA’s
historically inconsistent approach to the HAC aggravating
circumstance provides context and further support for the
determination that the evidence here – as related to the
core element of conscious suffering – is constitutionally
insufficient, and the OCCA’s determination that there
are speculative facts to support it was also unreasonable.
A.

A shotgun death: no conscious suffering
beyond what accompanies any murder.

Rob Andrew was shot twice with a shotgun at relatively
close range. There was no gratuitous violence. There was
no torture. There was no anguish or suffering beyond that
which necessarily accompanied the underlying killing. The
two shotgun blasts were both independently fatal. Pellets
from both shots hit vital internal organs. Rob could not
have remained conscious for more than a few moments,
before going into shock and quickly bleeding to death.
Additionally, the combination of both shots would have
sped up the bleeding, causing Rob to die where he fell. If
Rob Andrew’s homicide was “heinous, atrocious or cruel,”
then any murder in which the victim does not die instantly
satisfies this factor.

410a
Appendix K
B. No deference for a verdict not finding facts of
conscious suffering.
In the context of federal habeas, deference does not
imply abandonment or abdication of judicial review, nor
does deference, by definition, preclude relief. Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003). Here, the district court
presumed the trier of fact – in this instance Pavatt’s jury
– resolved any conflicting facts in favor of the prosecution
when it found the HAC aggravator. It is in the resolution of
conflicting facts that deference is afforded under Jackson.
443 U.S. at 326.
There were no conflicting facts about how Rob died.
The jury made no factual findings regarding whether Rob
consciously suffered great physical anguish or extreme
mental cruelty. The jurors did not even know they needed
to make such findings before concluding the murder was
“especially heinous, atrocious, or cruel” because the
instructions did not clearly advise them. See Proposition
II.
It is likely the jury relied on the prosecutor’s improper
argument about what factors it could consider. The
prosecutor pointed to vague definitions in the instructions
and repeatedly told the jury it would be able to find the
HAC aggravator by looking at photographs of Rob’s
wounds and of him lying dead in the garage. (Tr. 374041). In closing argument, the prosecutor openly displayed
the after-death photographs, repeatedly asking the jury:
“Is this serious, physical abuse? Is this serious, physical
abuse? Is this serious, physical abuse?” (Tr. 3776). See

411a
Appendix K
Spears v. Mullin, 343 F.3d 1215, 1226-27 (10th Cir. 2003)
(finding none of the wounds in photographs of the deceased
were probative to the question of conscious physical
suffering).
The prosecutor urged the jury to imagine and
speculate what emotional fear Rob felt and how he had
time to contemplate his death. (Tr. 3742). The prosecutor
even stressed that Pavatt’s attitude the day following the
crime supported that the murder was “wicked and vile
and . . . preceded by physical abuse and torture.” Id.
Moreover, the prosecutor repeated that the adjectives
used to describe HAC were separated by “ors”: “We
only have to prove heinous, atrocious, or cruel. . . . We
don’t have to prove all of those.” (Tr. 3777-78). Of course,
every murder is “cruel,” and based on the prosecutor’s
argument, nothing else need be proved. The prosecution’s
misdirection exacerbated the stunning failure to tell the
jury about the core element of the aggravator, rendering
the jury verdict virtually useless as an indicator HAC
was properly assessed against Pavatt beyond a resaonable
doubt.
C.

T h e u n r e a s o n a b le le g a l a n d f a c t u a l
determination.

The OCCA’s review of the sufficiency of the evidence
of the HAC aggravator was an unreasonable application of
clearly established law and an unreasonable determination
of the facts. The OCCA unreasonably failed to follow its
own precedent, relied on irrelevant speculation about what

412a
Appendix K
Rob was feeling, and further compounded its historically
inconsistent approach to what Oklahoma requires to
support the HAC aggravator.
1.	Failing to follow its own precedent.
Following this Court’s opinion in Cartwright v.
Maynard, 822 F.2d 1477, 1482 (10th Cir. 1987), holding the
construction the OCCA had given the HAC aggravator
was “unconstitutionally vague,” the OCCA determined
that a finding of torture or serious physical abuse was
required for a murder to be “especially heinous, atrocious,
or cruel.” Stouffer v. State, 742 P.2d 562, 563 (Okla. Crim.
App. 1987). Implicit in the opinion was the requirement
that torture or serious physical abuse could exist only if
there was evidence of conscious physical suffering. Id. at
564.
In Stouffer, the defendant shot his girlfriend’s
estranged husband in the arm, chest, and face with a .38
caliber handgun. The husband survived. The defendant
shot the other victim in the head twice. She had contact
wounds from the shots, and there was evidence that at the
first shot she raised her hand to her head and said, “no.”
Stouffer v. State, 738 P.2d 1349 (Okla. Crim. App. 1987).
The OCCA concluded the evidence did not support a
finding that the murder was “especially heinous, atrocious,
or cruel.” Stouffer, 742 P.2d at 563-64. The OCCA further
noted that the facts were “striking[ly] similar[ ]” to those
in Odum v. State, 651 P.2d 703 (Okla. Crim. App. 1982).
Stouffer, 742 P.2d at 564. In Odum, the OCCA found the

413a
Appendix K
HAC aggravator was not supportable where the victim
was shot once in the neck, became unconscious, and died
within minutes from asphyxiation. 651 P.2d at 707.
In keeping with Stouffer and Odum, the OCCA has
repeatedly rejected sufficiency of the HAC aggravator
in cases with a “striking similarity” to Pavatt’s. See, e.g.,
Brown v. State, 753 P.2d 908, 912 (Okla. Crim. App. 1988)
(seven gunshot wounds to vital internal organs despite
evidence defendant fired several shots that caused victim
to run off the road, and then stuck his hand inside the
window of the car and shot victim more times); Davis
v. State, 888 P.2d 1018, 1020-21 (Okla. Crim. App. 1995)
(two victims, both shot twice at relatively close range,
after two other surviving victims were shot); Sellers v.
State, 809 P.2d 676, 690 (Okla. Crim. App. 1991) (multiple
victims shot and killed); Booker v. State, 851 P.2d 544,
546, 548 (Okla. Crim. App. 1993) (victim killed after being
shot with a shotgun); Marquez v. State, 890 P.2d 980, 987
(Okla. Crim. App. 1995) (victim shot three times, shot to
the chest would have resulted in death within minutes);
Cudjo v. State, 925 P.2d 895, 901 (Okla. Crim. App. 1996)
(victim was shot in the head after he asked defendant
not to shoot, remained coherent at the scene, but later
experienced nausea, vomiting, shortness of breath, and
pain in his head); Cheney v. State, 909 P.2d 74, 80 (Okla.
Crim. App. 1995) (estranged wife of defendant, after being
confronted by defendant in parking garage, maced him
and ran before being shot and killed); and Myers v. State,
133 P.3d 312, 332 (Okla. Crim. App. 2006) (rape victim
had multiple lacerations, abrasions, and contusions, in
addition to five gunshot wounds, including fatal wounds
that ruptured the aorta and entered the head).

414a
Appendix K
The OCCA recognized that some suffering naturally
accompanies any homicide and that the HAC aggravator is
only appropriate in cases of undue or substantial conscious
suffering. Crawford v. State, 840 P.2d 627 (Okla. Crim.
App. 1992) (overruled on other grounds). That something
more was required to find “serious physical abuse” than
the abuse that naturally occurs in the act of killing is
pointedly illustrated in Hawkins v. State, 891 P.2d 586,
596 (Okla. Crim. App. 1994). In Hawkins, the victim was
kidnapped from a shopping mall with her two young
daughters in the car and held hostage overnight. The
following morning she was dragged out of the house as
she cried “goodbye” to her crying children. The defendant
drove to the edge of a lake, hog-tied her, “pushed her
into the water, watched the terror in her eyes, and held
her under until she drowned.” Id. at 592. The OCCA held
there was “[n]o evidence of serious physical abuse, that
is, gratuitous violence.” Id. at 596. The OCCA recognized
that for mental torture to support the aggravator, evidence
that the victim was terrorized for a significant period of
time would be required. Cheney, 909 P.2d at 80.
The OCCA imposed the same limitations on beating
deaths, even though victims appeared to suffer serious
physical abuse. In Battenfield v. State, 816 P.2d 555 (Okla.
Crim. App. 1991), the OCCA found insufficient evidence of
“conscious physical suffering” of victim who was beaten
to death, suffering head and bodily injuries. The blow
to the head would generally cause immediate loss of
consciousness; the combined trauma to the head and body
would have rendered the victim unconscious “very fast;”
and death would have occurred “very rapidly.” Id. at 565.

415a
Appendix K
The OCCA confirmed more is required than abuse
that necessarily occurs in the act of killing. Berget v.
State, 824 P.2d 364, 373 (Okla. Crim. App. 1991) (“[t]he
torture must produce mental anguish in addition to that
which of necessity accompanies the underlying killing”);
Booker, 851 P.2d at 548 (finding where victim shot once in
the chest with a shotgun “[t]he record does not support a
finding of mental anguish beyond that which necessarily
accompanied the underlying killing”).
The OCCA turned its back on its own precedent
to reach the unreasonable conclusion that the murder
here met the requirements for an “especially heinous,
atrocious, or cruel” murder. In claiming it would not apply
a “mechanical procedure,” it applied an unreasonable one
to reach a speculative result on facts strikingly similar to
those in cases cited above. Pavatt, 159 P.3d at 294.
2.	Unreasonable speculation.
The OCCA resorted to unreasonable speculation
to determine the HAC aggravator was supportable.
The OCCA unreasonably applied Supreme Court law
and unreasonably assessed facts when it concluded the
following facts were sufficient to support HAC: 1) there
were numerous wounds from two shotgun blasts that
damaged Rob’s internal organs; 2) both wounds caused
sufficient blood loss to be independently fatal, but death
was not instantaneous; 3) Rob was still clutching a trash
bag full of empty aluminum cans, which reasonably
suggests he either tried to ward off his attacker or shield
himself from being shot; and 4) in Brenda’s second call to

416a
Appendix K
911, she claimed Rob was still conscious and attempting
to talk to her as he lay bleeding to death. Pavatt, 159 P.3d
at 294.
Though the OCCA concluded that “these facts tend
to show that Rob Andrew suffered serious physical
abuse,” it failed to identify what serious physical abuse
occurred, beyond what naturally occurs in any shooting.
Id. Specifically, 1) the “numerous wounds” occurred almost
simultaneously and did not contribute to an inordinate
amount of conscious pain prior to death; 2) the quick loss
of blood from both wounds resulted in shock and loss of
consciousness within one minute; 3) clutching the plastic
trash bag was meaningless in determining whether Rob
consciously suffered and thus, it was unreasonable for the
OCCA to speculate about why Rob may have been holding
the bag; and 4) it was unreasonable to conclude that Rob
consciously suffered based on Brenda’s statements in
her 911 calls, when everything she said in those calls was
determined to be false. Brenda’s report of Rob being
conscious, breathing, and attempting to talk is not credible
and does not satisfy this aggravating factor.
The OCCA concluded the jury could have found HAC
beyond a reasonable doubt because Rob had time to reflect
on the “cruel state of affairs” before his death. Id. at 295.
This “cruel state of affairs” is completely unrelated to
whether Rob consciously suffered prior to his death.11
11. The “cruel state of affairs” that according to the OCCA
makes this a “pitiless” crime – and therefore “especially heinous,
atrocious, or cruel” – is not due to the manner of the killing, but is
based on Rob’s correct suspicions: 1) that his wife was having an

417a
Appendix K
There was no evidence to support the OCCA’s hypothesis,
and it is purely speculation about what thoughts Rob
might have had, assuming he was having any conscious
thoughts at all.
There was insufficient evidence to establish the
HAC aggravator. In Thomas v. Gibson, 218 F.3d 1213,
1227 (10th Cir. 2000), this Court found that the OCCA
unreasonably applied Supreme Court law and made an
“‘unreasonable determination of the facts in light of the
evidence presented in the State court proceeding’” when
it found the victim consciously suffered during beating,
stabbing, and strangulation, which caused multiple
bruises, lacerations, fractures, and hemorrhaging. The
same unreasonableness exists here.
There is not ample evidence the victim consciously
suffered physical abuse while trying to ward off his
attacker. Brown v. Sirmons, 515 F.3d 1072, 1090 (10th
Cir. 2008) (revealing victim was bound prior to attack
with baseball bat and had defensive wounds on hands,
fingers, and wrist and a hinge from handcuffs embedded
in his skull). The “numerous wounds” referred to by the
OCCA were caused by pellets from the same shotgun,
shot at nearly the same time. All the “wounds” occurred
simultaneously. None of the other “facts” cited by the
affair with “a man he trusted as his insurance agent,” 2) that his wife
and “her lover” were trying to “wrest control of his life insurance
away from him,” and 3) that his wife and “lover” attempted to kill
him weeks earlier. The OCCA found this irrelevant speculation and
the fact Rob was murdered “as he returned to the family home to
pick up his children” for Thanksgiving as supportive of the HAC
aggravator. Id. at 295.

418a
Appendix K
OCCA remotely relate to whether there was “serious
physical abuse.” Therefore, the OCCA’s finding that
the victim’s death was heinous, atrocious, or cruel was
unreasonable.
The unreasonableness of the OCCA’s determination is
further demonstrated by this Court’s holdings. When this
Court upheld HAC in crimes involving shooting deaths,
there has been severe pain and suffering and a lingering
death. See, e.g. McCracken v. Gibson, 268 F.3d 970, 982
(10th Cir. 2001); Toles v. Gibson, 269 F.3d 1167, 1183 (10 th
Cir. 2001); Robinson v. Gibson, 35 Fed.Appx. 715 (10th Cir.
2002). Each of these cases reveals there was something
substantially more than the typical wounds resulting from
two shotgun shots.
A timeline reveals Rob called his friend at approximately
6:00 p.m. and told him Brenda needed more time and would
have the children ready by 6:15 p.m. (Tr. 1551). Rob waited
in the driveway while on the phone. (Tr. 1551-53).
At 6:19:44 p.m., Brenda made the first 911 call, which
lasted 2 minutes, 36 seconds. She called back seven seconds
later (APCR, Ex. 9). According to the prosecution’s theory,
Rob was shot prior to the first call, and Brenda was shot
between the two calls. (Tr. 3611). In the first call, Brenda
said nothing about Rob breathing and trying to talk.
Indeed, in Brenda’s statement to police, she said she
went inside to retrieve the phone and to check on the
children in the master bedroom. After walking through
the house to the master bedroom, she returned to the

419a
Appendix K
garage to wait for paramedics and law enforcement
officers while making her 911 calls.
The blood spatter expert found no trail of blood
consistent with Brenda’s claim that she went inside the
home for the phone after being shot. (Tr. 3186-87).
Sgt. Frost, who was patrolling the neighborhood,
arrived within one minute of the call going out over the
radio. He and other officers found Rob dead on the garage
floor and Brenda on the phone with the 911 operator. (Tr.
2169-71) (St. Ex. 34).
Brenda said nothing about Rob being dead or alive in
her first call. She said there was “blood everywhere,” and
Rob had “blood all over him.” (St. Ex. 34).
In the second call, the one relied upon by the
prosecution and the OCCA as support for Rob being
conscious prior to his death, Brenda put on a show of trying
to get Rob to talk to her. Brenda repeatedly said, “He’s
breathing. He’s breathing,” also said he was “bleeding bad
though, with blood everywhere.” Id. She was repeating
that Rob was breathing when the officers arrived and
found Rob dead. (St. Ex. 34). The two 911 calls lasted 6
minutes. (Tr. 2149). Clearly, Rob was not breathing when
the officers and paramedics arrived. Rob’s death was
recorded at 6:20 p.m. before either 911 call was initiated.
(Tr. 2433).
Reasonably viewed, the evidence simply does not
support a lingering and especially painful death beyond

420a
Appendix K
a reasonable doubt. The OCCA’s determination was
unreasonable.
3.

The OCCA’s historically inconsistent
approach.

Despite previously determining the momentary pain
of being shot to death, without more, would not support
the existence of the HAC aggravator, the OCCA has now
retreated from this prior narrowing of the circumstance.
See also Andrew, 164 P.3d at 201. This Court recognized
such a retreat in Thomas, 218 F.3d at 1227 and found the
OCCA completely unwound the requirement of conscious
suffering by concluding that, in a bludgeoning death,
the existence of more than one blow would support a
HAC finding. Id. at 1229. This approach is objectively
unreasonable especially when compared to Maynard v.
Cartwright, 486 U.S. 356 (1988) where the Supreme Court
found Oklahoma’s HAC aggravator was constitutionally
vague on its face.
The Eighth and Fourteenth Amendments require
that an aggravator serve a narrowing function rather
than become a standardless catch-all. Arave v. Creech,
507 U.S. 463, 474 (1993) and Godfrey v. Georgia, 446 U.S.
420, 428-29 (1980). Oklahoma has veered off the course
forced on it by Cartwright, coming full circle and no longer
limiting this clearly vague aggravating circumstance in a
manner that minimizes “the risk of wholly arbitrary and
capricious action.” Maynard, 486 U.S. at 362-63.
Oklahoma’s failure to consistently apply a narrowing
definition to each case that comes before it provides

421a
Appendix K
context that further supports that the OCCA reached a
determination that was contrary to or an unreasonable
application of Supreme Court law. The determination was
further based on an unreasonable determination of the
facts. The evidence was insufficient to establish that the
homicide was any more heinous, atrocious, or cruel than
any other homicide, and was constitutionally insufficient
to support the death penalty for Mr. Pavatt.
III. Conclusion.
The OCCA’s determination that “serious physical
abuse” existed was based on unbelievable and irrelevant
speculative “facts.” Rob Andrew was not tortured. There
was no gratuitous violence – no lingering death. He died
from two blasts from a shotgun and died within minutes.
The Writ should be granted and Pavatt’s death
sentence vacated.
****

422a
L OF SECOND
APPENDIX L —Appendix
EXCERPTS
APPLICATION FOR POST-CONVICTION RELIEF
IN THE OKLAHOMA COURT OF CRIMINAL
APPEALS, DATED SEPTEMBER 2, 2009
IN THE COURT OF CRIMINAL APPEALS
THE STATE OF OKLAHOMA
Oklahoma Co. District Court
Case No. CF-2001-6189
Court of Criminal Appeals
Direct Appeal Case No. D-2003-1186
Post Conviction Case No. __________
JAMES DWIGHT PAVATT,
Petitioner,
vs.
STATE OF OKLAHOMA,
Respondent.
COURT OF CRIMINAL APPEALS FORM 13.11A
SECOND APPLICATION FOR POST-CONVICTION
RELIEF - DEATH PENALTY CASE

423a
Appendix L
PART A: PROCEDURAL HISTORY
Petitioner, James Dwight Pavatt, through undersigned
counsel, submits his application for post-conviction relief
under Section 1089 of Title 22 and Section 3001.1 of
Title 20. This is the second time an application for postconviction relief has been filed.
The sentence from which relief is sought is:
Death.
Pursuant to Rule 9.7A(3)(d), 22 O.S. Ch. 18, App., a copy of
the Judgment and Sentences and Death Warrant entered
by the District Court are filed herewith and attached to
this Application as Exhibits A-B. Appendix of Exhibits to
Second Application for Post-Conviction Relief.
1. Court in which sentence was rendered:
(a) Oklahoma County District Court.
***
instruction that properly narrowed the otherwise facially
vague terms. It is critical that the sentencing jury in a
capital case be properly instructed on what law applies.
Simmons v. South Carolina, 512 U.S. 154, 114 S. Ct. 2187,
129 L.Ed.2d 133 (1994); Walton v. Arizona, 497 U.S 639,
110 S. Ct. 3047, 111 L.Ed.2d 511 (1990) (overruled on other
grounds).

424a
Appendix L
Had Mr. Pavatt been tried seven (7) months later, such
an instruction would have been required under DeRosa.
Mr. Pavatt’s constitutional right to have his jury properly
guided in its life and death decision should not turn on
vagaries in this state’s jurisprudence. Because there was
no instruction properly limiting and channeling the jury’s
discretion, Mr. Pavatt’s constitutional rights were violated
and post-conviction relief should be granted.
PROPOSITION FIVE
THE EIGHTH AND FOURTEENTH AMENDMENTS
TO THE UNITED STATES CONSTITUTION ARE
V IOL AT ED BY OK L A HOM A’ S CON TI N U ED
USE OF THE FACIALLY VAGUE AGGRAVATING
CIRCUMSTANCE THAT A MURDER IS “ESPECIALLY
HEINOUS, ATROCIOUS, OR CRUEL.”
This Court’s efforts to adopt a narrowing construction of
the phrase “heinous atrocious or cruel” after Cartwright
v. Maynard, 822 F.2d 1477 (l0th Cir. 1987) and Maynard
v. Cartwright, 486 U.S. 356, 108 S. Ct. 1853, 100 L.Ed.2d
372 (1988), have not been consistent. Stouffer v. State,
1987 OK CR 166, 742 P.2d 562, 563 (Okla. Crim. App.
1987) appeared to limit the aggravating circumstance to
murders in which “torture or serious physical abuse” is
present. In the wake of Stouffer, this Court attempted to
formulate additional limitations by holding that unless
there was evidence of conscious physical suffering of the
victim prior to death, the required torture or serious
physical abuse standard is not met. Perry v. State, 893 P.2d
521, 533-534 (Okla. Crim. App. 1995); Booker v. State, 851

425a
Appendix L
P.2d 544, 548 (Okla. Crim. App. 1993); Stafford v. State,
832 P.2d 20, 23 (Okla. Crim. App. 1992); Battenfield v.
State, 816 P.2d 555, 565 (Okla. Crim. App. 1991); Brown v.
State, 753 P.2d 908, 912 (Okla. Crim. App. 1988) (finding
requisite torture or serious physical abuse not shown by
death from multiple gunshot wounds); Davis v. State, 888
P.2d 1018, 1020-21 (holding requisite torture or serious
physical abuse was not shown by death of two victims,
both shot twice with a .38 caliber handgun at relatively
close range, after two other surviving victims were
shot); Cheney v. State, 909 P.2d 74, 80 (Okla. Crim App.
1995) (concluding serious physical abuse required more
than showing that estranged wife of defendant, after
being confronted by the defendant in parking garage,
maced him and ran before being shot and killed). Thus,
there seemed to be recognition by this Court that some
suffering naturally accompanies any homicide and that
the especially heinous, atrocious, or cruel aggravator was
only appropriate in cases of undue or substantial conscious
suffering. Crawford v. State, 840 P.2d 627 (Okla. Crim.
App. 1992) (overruled on other grounds).
In Hawkins v. State, 891 P.2d 586, 592, 596 (Okla.
Crim. App. 1994), the Court indicated something more is
required than the abuse that necessarily occurred in the
act of killing itself. Inexplicably, this Court found serious
physical abuse in Mr. Pavatt’s case, even though there was
no gratuitous violence, and the killing was much like that
in Cartwright. The ever-changing analysis of what is or
is not an especially heinous, atrocious, or cruel murder
has resurrected the vagueness challenge supported in
the Cartwright cases. Accordingly, this post-conviction

426a
Appendix L
application should be granted and the Petitioner’s death
sentence should be vacated.
PROPOSITION SIX
MR. PAVATT WAS DENIED THE EFFECTIVE
ASSISTANCE OF TRIAL, DIRECT APPEAL, AND
POST-CONVICTION COUNSEL IN VIOLATION
OF THE SIXTH, EIGHTH, AND FOURTEENTH
A M EN DM EN T S T O T H E U N I T ED STAT E S
CONSTITUTION.
This Court has not been presented with complete
evidence of ineffectiveness of Mr. Pavatt’s trial and
appellate counsel. Here, trial counsel remained as an
attorney of record on appeal, and participated in the oral
argument. Two instances of trial level ineffectiveness were
****

427a
Appendix MOF RESPONSE TO
Appendix M — EXCERPTS
PETITION FOR WRIT OF HABEAS CORPUS IN
the UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA,
FILED JULY 31, 2009
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
Case No. CIV-08-470-R
JAMES DWIGHT PAVATT,
Petitioner,
-vsRANDALL WORKMAN, WARDEN,
OKLAHOMA STATE PENITENTIARY,
Respondent.
RESPONSE TO PETITION FOR
WRIT OF HABEAS CORPUS
JULY 31, 2009
***
Oklahoma’s state-of-mind exception of taped statements
introduced through Prudential Insurance employees
showing the victim’s fear of Petitioner and Brenda
Andrew and a motive for the killing. Id. at 189. McDaniel’s
testimony is of the same ilk and would unquestionably
have been deemed admissible under Oklahoma law. The

428a
Appendix M
OCCA’s rejection of this claim therefore was reasonable.
Viewed through AEDPA’s “forgiving lens”, Matthews,
2009 WL 1927051, at *8, Petitioner fails to establish as
unreasonable the OCCA’s conclusion that Petitioner failed
to meet his burden of establishing ineffective assistance of
appellate counsel. Petitioner fails to show that the OCCA’s
adjudication of this claim falls into the category of the
most serious misapplication of Supreme Court precedent.
House, 527 F.3d at 1019. Relief must therefore be denied.
28 U.S.C. § 2254(d).
III.
THE OCCA REASONABLY FOUND THAT
SUFFICIENT EVIDENCE WAS PRESENTED
TO SUPPORT PETITIONER’S CONVICTION
FOR THE FIRST DEGREE MURDER
OF ROB ANDREW.
In Ground Three, Petitioner complains that insufficient
evidence was presented at trial to support his conviction
for the first degree malice aforethought murder of Rob
Andrew.6 Petitioner urges that his conviction stems from
the improperly admitted hearsay evidence described in
Ground Two as well as testimony from Agent Kurt Stoner
relaying his opinion that Petitioner was directly involved
in the murder (discussed in Ground Seven). He complains
6. Petitioner apparently does not challenge the sufficiency of
evidence supporting his conviction in Count Two for Conspiracy
to Commit First Degree Murder. On direct appeal, he challenged
both convictions. See Pavatt, 159 P.3d at 284 (“[i]n Proposition 5,
Appellant claims the evidence was insufficient to support either
of his convictions”).

429a
Appendix M
that the jury would have acquitted him but for omission of
the third-party perpetrator evidence (discussed in Ground
Four) and but for biased jurors (discussed in Ground One).
Petitioner attacks the significance of certain pieces of
evidence, including Petitioner’s handwritten confession
and evidence that Petitioner and Brenda Andrew were
having an affair. He also claims no forensic or physical
evidence convicted him to the murder. Doc. 42 at 73-79.
A. 	Exhaustion.
Petitioner raised an evidentiary sufficiency challenge
to his murder conviction on direct appeal which the OCCA
rejected on the merits. Pavatt, 159 P.3d at 284-85. This
claim is therefore exhausted for purposes of federal
habeas review.
B. Standard of Review.
Under clearly-established Supreme Court precedent,
“sufficient evidence exists to support a conviction if, ‘after
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable
doubt.’” Matthews v. Workman, 2009 WL 1927051, at *6
(10th Cir. July 7, 2009) (quoting Jackson v. Virginia, 443
U.S. 307, 319 (1979)). The OCCA rejected Petitioner’s
evidentiary sufficiency challenge under this standard. The
OCCA actually cited Jackson in its opinion and recited the
standard from that case as part of its analysis. See Pavatt,
159 P.3d at 284. Because the OCCA applied Jackson to the
record evidence in deciding this claim, AEDPA deference

430a
Appendix M
applies. Matthews, 2009 WL 1927051, at *6. Thus, this
Court’s review is limited to inquiring whether the OCCA’s
application of Jackson was unreasonable. Id.
C. Merits.
The evidence presented at Petitioner’s trial to convict
Petitioner easily satisfies the Jackson standard and
shows that the OCCA’s rejection of this claim was wholly
reasonable. The State incorporates here by reference the
detailed statement of facts set forth in the opening section
of the instant response brief. The evidence supporting
Petitioner’s murder conviction can be summarized as
follows: (1) Brenda Andrew’s repeated statements in Fall
of 2001 that she wished Rob Andrew would die so she
could get his money and go on with her life and that she
was “going to have him fucking killed” (Tr. VI 1469-70; Tr.
VII 1831); (2) Brenda’s extramarital affair with Petitioner
during the Fall of 2001 (Tr. V 1332, 1343-44, 1347; Tr. XI
2832-36); (3) Petitioner’s statement to Janna Larson that
at the end of October 2001 Brenda asked Petitioner to
murder Rob (Tr. XI 2838); (4) Rob’s multiple statements
in the Fall of 2001 that he was afraid of Petitioner and
Brenda and believed they would murder him (Tr. VI
1597; Tr. VII 1860, 1930); (5) evidence that Petitioner and
Brenda cut Rob’s brake lines on October 26, 2001, and
attempted to murder Rob by luring him to Norman with
sabotaged brakes under the ruse of a hospital emergency
involving his wife (Tr. VII 1786; Tr. XI 2840-46; State’s
Exhibit 22); (6) evidence that Petitioner and Brenda
engaged in a scheme in the Fall of 2001 to fraudulently
change ownership of the $800,000 life insurance policy

431a
Appendix M
from Rob to Brenda by [a] forging Rob’s signature; [b] on
a backdated change of ownership form; and [c] attempting
to convince the insurance company of the validity of that
change (Tr. VIII 2048-50, 2062-73; State’s Exhibits 24 &
27, 28-32; Tr. XII 3265-3280; Tr. XIII-A 3315-27; Tr. VII
1891-92, 1897); (7) evidence that Petitioner and Brenda
improperly attempted to thwart Rob’s attempts to change
the beneficiary on the $800,000 insurance policy in the
Fall of 2001 (Tr. VII 1858, 1986-92; Tr. VIII 2062-71;
State’s Exhibits 28-32); (8) Petitioner’s refusal to turn
over Rob’s insurance file to Rob’s divorce attorney and
the fact Petitioner was “very upset” by Rob’s attempts
to obtain his insurance file (Tr. V 1389; Tr. VI 1662; Tr.
VII 1878-82, 1892-93, 1990-92); (9) Petitioner’s threat
to Rob (Tr. VII 1858-60; Tr. XI 2848); (10) Petitioner’s
statements to multiple people in Fall of 2001 that his stint
in the Special Forces required him to kill people (Tr. VI
1597-98, 1653; Tr. XI 2838-39); (11) evidence that Brenda
had Petitioner following Rob in late October 2001 (Tr.
X 2567-68, 2574); (12) Brenda’s anger in November 2001
about Rob having custody of the Andrew children over
the Thanksgiving holiday (Tr. V 1375-77; Tr. VI 1473-74);
(13) Brenda’s possessiveness over the Andrew children
and the fact she did not want Rob to visit the children
(Tr. VI 1451); (14) Brenda’s calm behavior at the crime
scene and in the hours immediately following the murder
(Tr. VI 1637-38; Tr. IX 2148-49, 2180-82, 2222-23; State’s
Exhibit 34); (15) evidence that the crime scene was staged
(Tr. IX 2170-75, 2178, 2183-85, 2189-97; Tr. XII 3184-89);
(16) evidence that it would not be possible for Brenda’s
gunshot wound to be self-inflicted (Tr. XII 3190); (17)
Brenda and Petitioner’s exchange of a large number of cell

432a
Appendix M
phone calls the day Rob’s brake lines were cut and the day
before the murder (Tr. VII 1944-67, 1970; State’s Exhibit
12-13); (18) Petitioner’s unannounced use of Janna Larson’s
car the day of the murder (Tr. XI 2854-59); (19) Larson’s
discovery of a live .22 caliber bullet on the floorboard of her
car after Petitioner returned the vehicle and Petitioner’s
command to Larson to throw the bullet away and not
tell anyone about it (Tr. XI 2867-68; Tr. XIII-A 3362-65;
State’s Exhibit 171); (20) Petitioner’s threat to Larson
the day after the murder that he would kill her if she told
anyone about Brenda’s previous request that Petitioner kill
Rob (Tr. XI 2855, 2862-64, 2865); (21) Brenda’s chipper
demeanor with Petitioner at the emergency room the day
after the murder (Tr. X 2470-74, 2478); (22) Petitioner’s
plan to flee to Argentina with Brenda and the Andrew
children to avoid arrest and prosecution for Rob’s murder
(Tr. XI 2876-77; Tr. XII 3088); (23) Petitioner’s attempt
after the murder to get Janna Larson to notarize Rob
Andrew’s forged signature on documents granting Brenda
permission to take the Andrew children out of the United
States (Tr. XI 2878-79, 2885-86; Tr. XIV-B 3464-66);
(24) Petitioner’s flight to Mexico with Brenda and the
Andrew children the day before Rob’s funeral, just five
days after the murder (Tr. XI 2886-89); (25) failure of
Brenda, Petitioner and the Andrew children to attend
Rob’s funeral (Tr. X 2597; Tr. XI 2737-38); (26) discovery
of the three .22 caliber bullets and a spent shotgun shell
in the Gigstad attic and spare bedroom--a residence to
which Brenda had a key (Tr. X 2598-2626; Tr. XI 2673-95,
2699, 2713-26; State’s Exhibits 134 & 137); (27) ballistics
evidence that the spent shotgun shells found at the crime
scene and in Gigstad’s spare bedroom were fired from

433a
Appendix M
the same shotgun and were 16 gauge Winchester shells
(Tr. IX 2249-50; Tr. XIII-A 3375-80; State’s Exhibit 43);
(28) ballistics evidence that the live ammo recovered from
the Gigstad’s attic and Larson’s car were .22 caliber long
rifle CCI rim fire bullets that were consistent in several
respects with the .22 caliber projectile found in the
Andrew’s garage door (Tr. IX 2265-67; Tr. X 2505-38;
Tr. XIII-A 3381-86; State’s Exhibits 134, 171, 183); (29)
Petitioner’s purchase of a .22 caliber long rifle revolver
six days before the murder that was capable of firing the
bullets used to shoot Brenda and the live ammo found in
Gigstad’s attic and in Larson’s car (Tr. X 2505-38. Tr.
XIII-A 3381-84; State’s Exhibits 134 & 171); (30) Brenda’s
possession of Rob’s 16 gauge shotgun and her refusal to
give it to him in the weeks leading up to the murder (Tr.
VI 1554-56; Tr. VII 1923-25); (31) Petitioner’s familiarity
with Rob’s 16 gauge shotgun (Tr. VII 1926-34; State’s
Exhibit 118); (32) Petitioner’s handwritten confession to
the murder of Rob Andrew (Tr. XII 3198-3209, 3213-3221,
3233-65; State’s Exhibit 222).
The above evidence, taken in the light most favorable
to the State, overwhelmingly establishes Petitioner’s guilt
under Oklahoma law for the first degree malice murder
of Rob Andrew. To summarize, the evidence shows that
Brenda wanted Rob dead so she could collect on his
$800,000 life insurance policy and start a new life with
Petitioner. On September 1, 2001, Brenda said that she was
“going to have [Rob] fucking killed.” Petitioner was also
overly possessive of her children and did not want Rob to
have visitation of the children over the Thanksgiving 2001
holiday. Petitioner and Brenda engaged in an extramarital

434a
Appendix M
affair in the months leading up to the murder. In early
October 2001, Brenda had Petitioner following Rob. In
late October 2001, Brenda asked Petitioner to murder
Rob. Petitioner and Brenda attempted to do just that by
cutting Rob’s brake lines on October 26, 2001, and then
creating a ruse designed to lure Rob onto an interstate
highway at high speeds with those sabotaged brakes. Both
Petitioner and Brenda actively attempted to defraud Rob
and Prudential Insurance over a period of several months
by forging a change of ownership form to the $800,000
life insurance policy that would make Brenda the owner.
Petitioner and Brenda both contacted the insurance
company to persuade it to recognize Brenda as owner of
the policy based on the forged document. On November
1, 2001, Brenda was “pissed” by a ruling in divorce court
that appointed her as trustee of the life insurance policy
for her two children. Petitioner took an overt act towards
commission of the murder by purchasing a .22 caliber
pistol on November 14, 2001, that was used in the murder
to stage Brenda’s gunshot wound. Brenda took an overt
act in furtherance of the conspiracy to commit the first
degree murder of Rob by luring Rob inside the garage
of the Andrew residence on the evening of November 20,
2001, under the guise of allowing him to take the Andrew
children for the Thanksgiving holiday and having him light
the pilot light to the heater. The pair then carried out the
murder and fled to Mexico to avoid arrest and prosecution.
The State presented strong circumstantial evidence
from which the existence of a conspiracy may by inferred
as well as actual commission of the murder by Petitioner
and Brenda Andrew. Recognizing the strength of

435a
Appendix M
the State’s evidence, the OCCA rejected Petitioner’s
evidentiary sufficiency challenge and, in the process, many
of the sub-arguments he now tenders on habeas in support:
¶ 36 Appellant claims there is no “physical
evidence” or “forensic evidence” linking him
to the crimes. He misapprehends the nature
of evidence long held to be admissible and
credible in a court of law. A fingerprint at a
crime scene may be considered “physical” or
“forensic” evidence, though it is not direct
evidence of a crime; rather, it is circumstantial
evidence from which a jury can infer (in light
of other circumstances) that the person with
that fingerprint was present and participated
in the crime. The same is true of DNA evidence.
Both are circumstantial in nature, requiring an
inference unnecessary for “direct” evidence,
such as a witness’s personal observation of
a crime. That both fingerprints and DNA
can be so compelling as evidence of guilt (or
exoneration) attests to the powerful effect
circumstantial evidence can have. See generally
Ex parte Jefferies, 7 Okl.Cr. 544, 548, 124 P.
924, 925-26 (1912). In fact, classic sources of
“direct” evidence-a confession, an eyewitness
identification, the testimony of an informant or
accomplice-are themselves the subject of special
cautionary instructions and corroboration
rules. In the end, the law makes no distinction
between direct and circumstantial evidence;
either, or any combination of the two, may

436a
Appendix M
be sufficient to support a conviction. Clark v.
State, 1983 OK CR 79, ¶ 8, 664 P.2d 1065, 1066;
OUJI-CR (2nd) No. 9-4. The jury may consider
all competent evidence, along with rules of law
and basic common sense, in reaching a verdict.
¶ 37 Although Brenda Andrew was an eyewitness
to her husband’s murder, the State obviously
did not believe that her account of two masked
assailants was true. The State thus relied on
evidence that Appellant and Brenda Andrew
had several motives to murder Rob Andrew
(money, dissolution of the Andrew marriage,
control over the Andrew children), all related to
the illicit affair that Appellant never disputed
having with Brenda.
¶ 38 But the State’s evidence demonstrated
much more than motive. There was, in fact,
a considerable amount of physical evidence,
including bullets, shotgun shells, and forged
documents, which linked Appellant to the
murder and a pre-existing plan to get away with
it. The testimony of Janna Larson, Appellant’s
daughter, helped to show that Appellant and
Brenda had planned to harm Rob Andrew for
some time, and that the failure of their first
attempt (by cutting the brake lines on his car)
only emboldened them. Larson also related
a number of incriminating statements from
both Appellant and Brenda. Larson may not
have been an eyewitness to the murder itself,
but she was certainly an eyewitness to many

437a
Appendix M
overt acts of the two conspirators, and to
their preparations for flight after the murder.
The State also presented the letter written
by Appellant from jail, wherein he admitted
complicity in the murder but attempted to
exculpate Brenda. Both parties rejected the
letter as an accurate version of what happened,
although obviously for different reasons. While
the letter may have borne some relevance to
show Appellant’s complicity, it was perhaps
more relevant to show how jealousy and greed
can disfigure the human mind. Add to this
the numerous other witnesses who spoke with
and observed Rob Andrew, Brenda Andrew,
and Appellant, as their relationships with one
another evolved. In short, the evidence against
Appellant was largely circumstantial, but that
is not unusual in any kind of criminal case.
What may be unusual was how large a quantity
of circumstantial evidence the State was able
to present.
¶ 39 All of the evidence presented at trial, when
considered together, formed an intricate web
of proof, from which any rational juror could
find Appellant guilty of conspiring to murder
Rob Andrew and consummating the murderous
plan. Plantz v. State, 1994 OK CR 33, ¶ 39, 876
P.2d 268, 280. The evidence was sufficient to
support both of Appellant’s convictions. This
proposition is denied.
Pavatt, 159 P.3d at 284-85 (footnote omitted).

438a
Appendix M
The Tenth Circuit has recognized that a federal
habeas court’s review under Jackson is “sharply limited,
and a court faced with a record of historical facts that
supports conflicting inferences must presume–even if
it does not affirmatively appear in the record–that the
trier of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.” Boltz v.
Mullin, 415 F.3d 1215, 1232 (10 th Cir. 2005). Additionally,
federal review “is even more limited given that AEDPA
governs this issue.” Id. The Tenth Circuit has referred to
the standard of review regarding evidentiary sufficiency
challenges under AEDPA as “deference squared.” Young
v. Sirmons, 486 F.3d 655, 666 n.3 (10 th Cir. 2007). See also
Knowles, 129 S. Ct. at 1420 (state court’s application of
general standard entitled to doubly deferential judicial
review under AEDPA).
To the extent Petitioner complains that no physical
or forensic evidence was presented to support his
conviction, and that his third-party perpetrator evidence
was omitted at trial, he is not entitled to relief. “Jackson
does not require such evidence to sustain a criminal
conviction.” Matthews, 2009 WL 1927051, at *8 (citing
Desert Palace, Inc. v. Costa, 539 U.S. 90, 100 (2003) (“we
have never questioned the sufficiency of circumstantial
evidence in support of a criminal conviction, even through
proof beyond a reasonable doubt is required”)). Further,
“the focus of a Jackson inquiry is not on what evidence
is missing from the record, but whether the evidence
in the record, viewed in the light most favorable to the
prosecution, is sufficient for any rational trier of fact to

439a
Appendix M
find the defendant guilt beyond a reasonable doubt.” Id.7
And as noted by the OCCA, the prosecution did present
“a considerable amount of physical evidence” which linked
Petitioner to the conspiracy and murder. Pavatt, 159 P.3d
at 285. Petitioner’s attempt to discount certain portions
of the State’s evidence (like Petitioner’s handwritten
letter and evidence establishing Petitioner was having
an affair with Brenda Andrew) simply ignores Jackson’s
requirement that the record evidence be taken in the light
most favorable to the State.
To the extent Petitioner cites alleged evidentiary error
and alleged juror bias from other grounds in his § 2254
petition as a reason for finding insufficiency of evidence
as to his conviction, he is not entitled to relief. Those
particular claims must stand or fall on their own merits.
7. Incidentally, the “opinion” testimony of Agent Kurt Stoner
that Petitioner is so concerned about, Doc. 42 at 73-75, is not record
evidence at all because the trial court sustained an objection to
the testimony and admonished the jury to disregard it. Pavatt,
159 P.3d at 290-91; (Tr. XII 3065). Petitioner fails to present the
full story about this testimony. The prosecution did not introduce
this evidence to “shore-up any failure in the [State’s evidentiary]
presentation” as Petitioner claims, but rather, as discussed more
fully in connection with Ground Seven below, in response to defense
counsel’s repeated improper elicitation of opinion testimony during
cross-examination of Janna Larson “that she did not believe her
father was actually complicit in Rob Andrew’s murder.” Id. at 290.
The OCCA reasonably concluded that the opinions of Larson and
Stoner did not leave a serious impression on the jury in light of
the trial court’s admonishment. Id. at 291. “A jury is presumed
to follow its instructions.” Weeks v. Angelone, 528 U.S. 225, 234
(2000). But again, this issue will be discussed more fully below in
connection with the substantive claim.

440a
Appendix M
Evidentiary sufficiency review is not an opportunity for
a habeas petitioner to bootstrap voluminous alleged trial
errors into the Jackson analysis. The focus is on the record
evidence and whether, when viewed in the evidence most
favorable to the State, any rational trier of fact could have
found the essential elements of the crime(s) charged–not
alleged evidentiary and trial errors committed by the
trial judge. This is true even where some erroneous
government evidence was admitted at trial. In such
instances, a reviewing court considers both the properly
admitted evidence as well as that deemed improperly
admitted in making the Jackson inquiry. Lockhart v.
Nelson, 488 U.S. 33, 40-42 (1988). See also United States
v. Mejia, 545 F.3d 179, 202 (2d Cir. 2008); United States v.
Lopez-Medina, 461 F.3d 724, 749-50 (6 Cir. 2006); United
States v. Wood, 958 F.2d th 963, 970 n.9 (10th Cir. 1992);
Pemberton v. Collins, 991 F.2d 1218, 1224 (5th Cir. 1993);
Tate v. Armontrout, 914 F.2d 1022, 1026 (8th Cir. 1990).
The State will therefore respond to the procedural and
substantive merits of Petitioner’s individual claims of trial
error as they arise in Petitioner’s § 2254 petition, not as
part of a Jackson evidentiary sufficiency analysis.
All things considered, habeas relief must be denied.
The OCCA’s adjudication of the claim was wholly
reasonable in light of the record evidence. 28 U.S.C.
§ 2254(d).

441a
Appendix M
IV.
THE OCCA’S REJECTION OF PETITIONER’S
THIRD-PARTY PERPETRATOR EVIDENCE WAS
WHOLLY REASONABLE AS SAID EVIDENCE
WAS WHOLLY UNRELIABLE.
In Ground Four, Petitioner complains that his
constitutional right to present a defense was violated,
along with his Eighth Amendment right to a reliable
sentencing proceeding, when the trial judge excluded
unreliable third-party perpetrator evidence relating to
an Oklahoma County Jail inmate named Zjaiton Wood.
Doc. 42 at 79-92.
A. 	Exhaustion.
Petitioner raised this claim on direct appeal and
the OCCA rejected it on the merits. Pavatt, 159 P.3d at
285-89. It is therefore exhausted for purposes of federal
habeas review.
B. Standard of Review.
In an extended analysis, the OCCA found no error
stemming from the trial court’s rejection of the Zjaiton
Wood third-party perpetrator evidence. A lthough
ultimately denying admissibility of this evidence under
Okla. Stat. tit. 12, § 2804(B)(3), Oklahoma’s provision
relating to admission of statements against penal interest
offered to exculpate a criminal defendant, the OCCA
expressly cited, and applied, pertinent Supreme Court

442a
Appendix M
cases relating to the Sixth Amendment right to present a
defense vis-a-vis state evidentiary rules, including Holmes
v. South Carolina, 547 U.S. 319 (2006), Crane v. Kentucky,
476 U.S. 683 (1986),
***
X.
THE OCCA’S REJECTION OF PETITIONER’S
EVIDENTIARY SUFFICIENCY CHALLENGE
TO THE ESPECIALLY HEINOUS, ATROCIOUS
OR CRUEL AGGRAVATOR WAS WHOLLY
REASONABLE.
In Ground Ten, Petitioner alleges that insufficient
evidence was presented at trial to support the jury’s
finding of the especially heinous, atrocious or cruel
aggravator. Doc. 42 at 147-57.
A. 	Exhaustion.
This claim was raised on direct appeal and the OCCA
rejected it on the merits. Pavatt, 159 P.3d at 294-95. It is
therefore exhausted for purposes of federal habeas review.
B. Standard of Review.
The OCCA’s rejection of this claim rests on substantive,
not procedural, grounds. The OCCA recited and applied
the standard of review mandated by Lewis v. Jeffers,
497 U.S. 764, 781-83 (1990) for evidentiary sufficiency

443a
Appendix M
challenges to aggravating circumstances. Pavatt, 159
P.3d at 294. In conducting this analysis, the state court
discussed Oklahoma’s requirements for satisfying this
aggravator as well as the record evidence supporting it. Id.
at 294-95. The OCCA clearly applied federal law in denying
Petitioner’s constitutional challenge to the sufficiency of
the evidence supporting the especially heinous, atrocious
or cruel aggravator. Thus, this constitutes an adjudication
on the merits to which AEDPA deference applies.
Matthews v. Workman, 2009 WL 1927051, at *6 n.3 (10th
Cir. July 7, 2009).
C. Merits.
The Supreme Court held in Lewis v. Jeffers that, with
regard to the sufficiency of the evidence for aggravating
circumstances, the standard of review set forth in Jackson
v. Virginia, 443 U.S. 307 (1979)—whether any rational trier
of fact, viewing the evidence in the light most favorable to
the State, could have found the essential element of the
crime beyond a reasonable doubt—is applicable. Jeffers,
497 U.S. at 781-82. Although aggravating circumstances
are not “elements” of any offense, the standard of review
for determining whether evidence is sufficient to convict
is equally applicable to protecting a defendant’s Eighth
Amendment right to be free from the arbitrary and
capricious imposition of the death penalty. Id. at 782.
Like factual findings, state court findings of aggravating
circumstances often require a sentencer to “resolve
conflicts in the testimony, to weigh the evidence, and to
draw reasonable inferences from basic facts to ultimate
facts.” Id. See also Boltz v. Mullin, 415 F.3d 1215, 1232

444a
Appendix M
(10th Cir. 2005); Fields v. Gibson, 277 F.th 3d 1203, 1220
(10th Cir. 2002). The Tenth Circuit has recognized that a
federal habeas court’s review under Jackson is “sharply
limited, and a court faced with a record of historical facts
that supports conflicting inferences must presume–even
if it does not affirmatively appear in the record–that the
trier of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.” Boltz,
415 F.3d at 1232. Additionally, federal review “is even
more limited given that AEDPA governs this issue.” Id.
The Tenth Circuit has referred to the standard of review
regarding evidentiary sufficiency challenges under
AEDPA as “deference squared.” Young v. Sirmons, 486
F.3d 655, 666 n.3 (10th Cir. 2007).
Petitioner fails to show that the OCCA’s adjudication
of his sufficiency of the evidence claim was either contrary
to, or an unreasonable application of, Jackson or that it
was based on an unreasonable determination of the facts.
28 U.S.C. § 2254(d). Brown v. Sirmons, 515 F.3d 1072,
1089 (10th Cir. 2008) (quoting Maynard v. Boone, 468 F.3d
665, 673 (10th Cir. 2006)) (“[s]ufficiency of the evidence on
a habeas petition is a mixed question of law and fact. We
ask whether the facts are correct and whether the law was
properly applied to the facts, ‘which is why we apply both
28 U.S.C. 2254(d)(1) and (d)(2) when reviewing sufficiency
of the evidence on habeas.’ In light of the presumption of
correctness afforded by 28 U.S.C. § 2254(e), we must defer
to any determination of a factual issue by the state court”)
(internal citations omitted). This Court looks to Oklahoma
law in determining the substantive requirements of the
great risk of death aggravator. Id.

445a
Appendix M
In rejecting this claim, the OCCA found as follows:
¶ 75 In Proposition 14, Appellant claims the
evidence was insufficient to support the jury’s
finding that the murder of Rob Andrew was
especially heinous, atrocious, or cruel. To
establish this aggravator, the State must
present evidence from which the jury could find
that the victim’s death was preceded by either
serious physical abuse or torture. Evidence
that the victim was conscious and aware of the
attack supports a finding of torture. Davis v.
State, 2004 OK CR 36, ¶ 39, 103 P.3d 70, 81;
Black v. State, 2001 OK CR 5, ¶ 79, 21 P.3d 1047,
1074 (evidence that victim consciously suffered
pain during and after stabbing was sufficient
to support this aggravating circumstance); Le,
1997 OK CR 55 at ¶ 35, 947 P.2d at 550; Romano
v. State, 1995 OK CR 74, ¶ 70, 909 P.2d 92, 118;
Berget v. State, 1991 OK CR 121, ¶ 31, 824 P.2d
364, 373. Our evaluation is not a mechanistic
exercise. As we stated in Robinson v. State,
1995 OK CR 25, ¶ 36, 900 P.2d 389, 401:
As much as we would like to point to specific,
uniform criteria, applicable to all murder
cases, which would make the application of
the “heinous, atrocious or cruel” aggravator
a mechanical procedure, that is simply not
possible. Rather, the examination of the
facts of each and every case is necessary in
determining whether the aggravator was

446a
Appendix M
proved. Unfortunately, no two cases present
identical fact scenarios for our consideration,
therefore the particulars of each case become
the focus of our inquiry, as opposed to one case’s
similarity to another, in resolving a sufficiency
of the evidence claim supporting the heinous,
atrocious or cruel aggravator.
¶ 76 The evidence presented at trial showed
that Rob Andrew suffered numerous wounds
resulting from two shotgun blasts, which
damaged his internal organs. The medical
examiner testified that either wound would have
caused sufficient blood loss to be independently
fatal, but that death was not instantaneous.
When emergency personnel arrived, Andrew
was still clutching a trash bag full of empty
aluminum cans, which reasonably suggested
that he either tried to ward off his attacker or
shield himself from being shot. Brenda Andrew
called 911 twice after the shooting; together,
the two calls spanned several minutes. During
the second call, she claimed that her husband
was still conscious and attempting to talk to
her as he lay bleeding to death on the garage
floor. All of these facts tend to show that Rob
Andrew suffered serious physical abuse, and
was conscious of the fatal attack for several
minutes. See Ledbetter v. State, 1997 OK CR 5,
¶ 53, 933 P.2d 880, 896 (evidence that murder
victim was likely aware that she was about to
be assaulted because defendant had attempted

447a
Appendix M
to kill her one week earlier, that she tried to
defend herself from the fatal attack, and that
she attempted to communicate with a neighbor
after the attack was sufficient to show that the
murder was especially heinous, atrocious or
cruel).
¶ 77 A fter finding that the murder was
accompanied by torture or serious physical
abuse, the jury may also consider the attitude
of the killer and the pitiless nature of the crime.
Lott, 2004 OK CR 27 at ¶ 172, 98 P.3d at 358;
Phillips v. State, 1999 OK CR 38, ¶ 80, 989
P.2d 1017, 1039. That the victim was acquainted
with his killers is a fact relevant to whether
the murder was especially heinous, atrocious,
or cruel. In finding the murder in Boutwell v.
State, 1983 OK CR 17, ¶ 40, 659 P.2d 322, 329 to
be especially heinous, atrocious, or cruel, this
Court observed: In this case the killing was
merciless. The robbers planned well in advance
to take the victim’s life. Even more abhorrent
and indicative of cold pitilessness is the fact that
the appellant and the victim knew each other.
¶ 78 We find the situation in the present case
even more pitiless. Rob Andrew correctly
suspected his wife of having an affair with
a man he trusted as his insurance agent. He
correctly suspected his wife and her lover of
trying to wrest control of his life insurance
away from him. He correctly suspected his wife

448a
Appendix M
and her lover of attempting to kill him several
weeks before by severing the brake lines on
his car. He confided in others that he was in
fear of his life. Having separated from his wife,
Rob Andrew was murdered as he returned to
the family home to pick up his children for the
Thanksgiving holiday. From the evidence, a
rational juror could have concluded, beyond a
reasonable doubt, that Rob Andrew had time
to reflect on this cruel state of affairs before he
died. The evidence supported this aggravating
circumstance, and this proposition is denied.
Pavatt, 159 P.3d at 294-95.
The OCCA’s finding that sufficient evidence supported
this aggravator was wholly reasonable in light of the
governing law and facts. The State presented evidence
at trial that Rob Andrew was conscious before, during
and after the infliction of the two shotgun wounds.
Brenda Andrew told the 911 operator that her husband
was breathing, conscious and trying to talk to her after
being shot (Tr. IX 2148-49; State’s Exhibit 34). He was
discovered by emergency personnel clutching a garbage
bag full of empty aluminum cans. See, e.g., (Tr. IX 2178,
2295, 2305, 2306, 2308; State’s Exhibits 41, 64, 66, 73).
Rob suffered two shotgun wounds to the neck and chest.
The medical examiner testified that Rob was hit with
multiple shotgun pellets from the two shotgun blasts. The
shotgun pellets were spread across Rob’s body because
the shotgun was not fired at close range. The shotgun
pellets damaged Rob’s liver, right lung and aorta (Tr.

449a
Appendix M
X 2434-55, 2459; State’s Exhibit 75-77, 106-112). Even
though both shotgun wounds were independently fatal,
the victim could have sustained life after being shot for
“[l]ess than ten” minutes (Tr. X 2457). Death would not
have been instantaneous (Tr. X 2463). However, the victim
would have lost consciousness before he died because he
was bleeding to death both from his external wounds and
the injuries suffered to his internal organs (Tr. X 245859, 2465). Loss of consciousness would have occurred in
less than five (5) minutes (Tr. X 2461-62). The medical
examiner testified that the shotgun wounds would have
been painful and that the victim could have suffered and
experienced pain in the process of dying (Tr. X 2464,
2466-67).
Taking this evidence in the light most favorable to
the prosecution as this Court must, sufficient evidence
was presented to establish serious physical abuse and,
in particular, conscious physical suffering by the victim.
Brenda Andrew placed two (2) 911 calls to police after
the shooting. Both calls totaled six (6) minutes. Brenda
told the 911 operator during the second 911 call that Rob
was breathing, conscious and trying to talk to her (Tr.
IX 2149; State’s Exhibit 34). This evidence shows that
Rob was alive for a significant period of time, suffering
all the while from the extensive shotgun wounds spread
across his body.
Petitioner argues that Brenda Andrew’s statements to
the 911 operator simply cannot be believed. But that was
an issue for the jury, not this Court on collateral federal
challenge. “As an appellate court on collateral review,

450a
Appendix M
[this Court is] not allowed to ‘weigh conflicting evidence
or consider the credibility of witnesses.’” Matthews, 2009
WL 1927051, at *6 (quoting Valdez v. Bravo, 373 F.3d
1093, 1097 (10 th Cir. 2004)). Here, this Court must take
the evidence in the light most favorable to the State and
presume that the jury accepted as true Brenda Andrew’s
statements to police that the victim was conscious as late
as the second 911 call. All Petitioner’s argument proves
“is that a rational juror might not accept” her statements
on this point as true; “it doesn’t show that a rational
juror could not accept it, which is the question on which
a sufficiency challenge necessarily must focus.” Id. at *7.
To the extent Petitioner cites a 911 call log not made
part of the record to support his evidentiary challenge,
he is not entitled to relief. Doc. 42 at 152. “[T]he focus
of a Jackson inquiry is not on what evidence is missing
from the record, but whether the evidence in the record,
viewed in the light most favorable to the prosecution, is
sufficient for any rational trier of fact to find” existence of
the aggravating circumstance beyond a reasonable doubt.
Matthews, 2009 WL 1927051 at *8.
Petitioner’s comparison of his case to the application
of this aggravator in other capital murder cases is of
no consequence. These cases are not Supreme Court
cases, but rather, decisions from the OCCA and the
Tenth Circuit. They are therefore not an independent
basis for relief under AEDPA. To the extent Petitioner
suggests, by citing to these other cases, that the OCCA’s
application of the especially heinous, atrocious or cruel
aggravator in this case renders it unconstitutional, he is
not entitled to relief. As noted by the Supreme Court, the

451a
Appendix M
question whether state courts have properly applied an
aggravating circumstance is separate from the question
whether the circumstance, as narrowed, is facially valid.
Arave v. Creech, 507 U.S. 463, 476-77 (1993). Such analysis
represents little more than a proportionality review of
the state’s application of the aggravating circumstances.
Walton v. Arizona, 497 U.S. 639, 655-56 (1990). Oklahoma
law does not authorize proportionality review for death
sentences, see Okla. Stat. tit. 21, § 701.13(C) (describing
mandatory sentencing review factors) & Mann v. State,
749 P.2d 1151, 1161 (Okla. Crim. App. 1988), and there
exists no federal constitutional entitlement to such review.
Walton, 497 U.S. at 655-56 (“proportionality review is
not constitutionally required”). In Lewis v. Jeffers, the
Supreme Court held:
Our decision in Walton thus makes clear that if
a State has adopted a constitutionally narrow
construction of a facially vague aggravating
circumstance, and if the State has applied
that construction to the facts of the particular
case, then the “fundamental constitutional
requirement” of “channeling and limiting ...
the sentencer’s discretion in imposing the death
penalty,” Cartwright, 486 U.S., at 362, has been
satisfied.
Id., 497 U.S. at 779. See also Moore v. Gibson, 195 F.3d
1152, 1176 (10th Cir. 1999).
To be constitutional, an aggravating circumstance
may not apply to every defendant convicted of a murder;
it must apply only to a subclass of defendants convicted

452a
Appendix M
of murder. It must not also be unconstitutionally vague.
Tuilaepa v. California, 512 U.S. 967, 972 (1994). “If
the sentencer fairly could conclude that an aggravating
circumstance applies to every defendant eligible for the
death penalty, the circumstance is constitutionally infirm.”
Arave, 507 U.S. at 474 (citing Maynard v. Cartwright,
486 U.S. 356, 364 (1988) (invalidating aggravating
circumstance that “an ordinary person could honestly
believe” described every murder)). Where, as here, the
OCCA applied an interpretation of this aggravator that
has previously been found constitutional, see Wilson v.
Sirmons, 536 F.3d 1064, 1108 (10th Cir. 2008) (noting
Tenth Circuit has routinely upheld Oklahoma’s heinous,
atrocious or cruel aggravator even where jury instructions
did not specifically include the “conscious suffering”
requirement), a habeas petitioner’s constitutional
challenge to that aggravator is at an end. Jeffers, 497
U.S. at 779. Nothing about the OCCA’s discussion of the
legal or factual basis for its conclusion here in any way
suggests an overbroad or erroneous interpretation, let
alone application, of Oklahoma’s heinous, atrocious or
cruel aggravator.
Petitioner’s suggestion that the governing standard
of review should require a finding that “[a]ll of the facts
and circumstances, taken together, must be inconsistent
with any reasonable theory or conclusion other than the
existence of the aggravating circumstance”, Doc. 42 at
148 & 149, is of no consequence. Petitioner ignores that
under AEDPA, the OCCA’s adjudication of this claim is
only to be compared to clearly-established Supreme Court
precedent, Williams v. Taylor, 529 U.S. 362, 412 (2000)

453a
Appendix M
(O’Connor, J., concurring), not state-law standards of
review. Matthews, 2009 WL 1927051, at *6 n.4 (rejecting
habeas petitioner’s claim that reasonable hypothesis test
applied to sufficiency of evidence challenge to conviction);
Romano v. Gibson, 239 F.3d 1156, 1164-65 (10th Cir.
2001) (applying Jackson standard instead of “reasonable
hypothesis” standard applied by OCCA). The Supreme
Court has expressly rejected the “reasonable hypothesis”
standard, Holland v. United States, 348 U.S. 121, 139-40
(1954), instead opting for Jackson’s rational trier of fact
standard. Jackson, 443 U.S. at 318 n. 9 (citing Holland,
348 U.S. at 140). See also Desert Palace, Inc. v. Costa, 539
U.S. 90, 100 (2003) (citing Holland, 348 U.S. at 140) (“we
have never questioned the sufficiency of circumstantial
evidence in support of a criminal conviction, even though
proof beyond a reasonable doubt is required”). See also
Corbin v. United States, 253 F.2d 646, 648-49 (10 th Cir.
1958) (requirement that court of appeals find facts in
circumstantial evidence case are inconsistent with any
reasonable hypothesis of innocence runs contrary to
Holland). Hence, the appropriate standard of review on
habeas is supplied by Jackson. Romano, 239 F.3d at 116465. Moreover, Brenda Andrew’s statements to the 911
operator constitute direct evidence regarding conscious
physical suffering.
The OCCA also reasonably concluded that, having
found that the murder was accompanied by torture or
conscious physical abuse, evidence establishing the cruel
and pitiless nature of the crime also supported a finding
of this aggravator. Pavatt, 159 P.3d at 295. As discussed at
length in the statement of facts and Section III above, the

454a
Appendix M
record evidence established that in the weeks leading up
to the murder, the victim feared for his life. Rob Andrew
correctly believed Petitioner and his wife were trying to
kill him, in part, over the Prudential life insurance policy
which had been a major point of contention during the
ongoing divorce proceedings. The brake line incident, in
which Petitioner and Brenda Andrew attempted to lure
him onto an interstate highway at high speeds in a car with
no brakes, only heightened the cruel state of affairs this
victim suffered in the weeks leading up to the murder. In
light of this evidence, the OCCA reasonably found that “a
rational juror could have concluded, beyond a reasonable
doubt, that Rob Andrew had time to reflect on this cruel
state of affairs before he died.” Id. Taken in the light
most favorable to the State, this evidence too supported
the heinous, atrocious or cruel aggravating circumstance.
All things considered, Petitioner fails to show that the
OCCA’s decision on this issue falls into the category of the
most serious misapplication of Supreme Court precedent.
House v. Hatch, 527 F.3d 1010, 1019 (10th Cir. 2008)
(quoting Maynard v. Boone, 468 F.3d 665, 671 (10th Cir.
2006) (“only the most serious misapplications of Supreme
Court precedent will be a basis for relief under § 2254”).
That is especially so considering that the state court is
essentially applying a general standard in assessing this
evidentiary sufficiency challenge, thus allowing even
more leeway for the state court’s decision. See Knowles
v. Mirzayance, __U.S.__, 129 S. Ct. 1411, 1420 (2009).
Habeas relief should therefore be denied.

455a
Appendix M
XI.
PETITIONER’S CHALLENGE TO THE UNIFORM
INSTRUCTION GIVEN TO HIS JURY FOR THE
ESPECIALLY HEINOUS, ATROCIOUS OR CRUEL
AGGRAVATOR IS UNEXHAUSTED.
In Ground Eleven, Petitioner challenges Instruction
No. 5, the uniform Oklahoma instruction defining the
especially heinous, atrocious or cruel aggravator, which
was given to his jury during penalty phase deliberations
(O.R. 2052). Petitioner complains that this instruction did
not advise the jury that it must find Rob Andrew’s death
was preceded by conscious physical abuse or torture
as required by Oklahoma case law interpreting this
aggravator. Doc. 42 at 157-62.
A. 	Exhaustion.
Petitioner did not raise this claim at any point in
state court. It is therefore unexhausted and procedurally
barred from habeas review on independent and adequate
state law grounds
****

456a
Appendix NOF PETITION FOR
Appendix n — EXCERPTS
WRIT OF HABEAS CORPUS in the united
states DISTRICT COURT FOR THE WESTERN
DISTRICT OF OKLAHOMA, FILED APRIL 1, 2009
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
No. CIV-08-470-R
JAMES DWIGHT PAVATT,
Petitioner,
vs.
MARTY SIRMONS, Warden,
Oklahoma State Penitentiary,
Respondent.
PETITION FOR WRIT OF HABEAS CORPUS
BY A PERSON IN STATE CUSTODY
PURSUANT TO 28 U.S.C. § 2254
Prisoner’s Name: JAMES DWIGHT PAVATT
Prisoner’s DOC Number: 455677
Place of Confinement: Oklahoma State Penitentiary
McAlester, Oklahoma

457a
Appendix N
Robert R. Nigh, Jr., OBA #11686
BREWSTER & DEANGELIS
2617 East 21st Street
Tulsa, Oklahoma 74114
(918) 742-2021 – Telephone
(918) 742-2197 – Facsimile
rnigh@brewsterlaw.com
And

April 1, 2009

Patti Ghezzi, OBA #6875
215 Dean A. McGee
Suite 707, Old Post Office Building
Oklahoma City, OK 73002
(405) 609-5975 – Telephone
(405) 609-5976 – Facsimile
Patti_p_ghezzi@fd.org
COUNSEL FOR PETITIONER
JAMES PAVATT
***
CONCLUSION

Mr. Pavatt was deprived of a fair trial and a fair
sentencing hearing by the blatant use of gruesome, crime
scene photographs and the use of images of Rob Andrew
in life at both stages of his trial. There was no relevant
evidentiary purpose to the use of such photographic
evidence. Mr. Pavatt’s constitutional rights to due process
of law and a fair and reliable sentencing trial under
the Eighth amendment to the U.S. Constitution were

458a
Appendix N
infringed. Accordingly the writ should issue, and/or the
Court should grant Mr. Pavatt a new trial, or alternatively,
vacate his death sentence.
GROUND TEN
PETITIONER’S SENTENCE DOES NOT COMPORT
W I T H T H E EI GH T H A ND F OU R T EEN T H
A M ENDM EN T S T O T H E U NI T ED STAT E S
C ONST I T U T ION BECAUSE T H ER E I S
INSUFFICIENT EVIDENCE TO SUPPORT THAT
THE MURDER WAS “ESPECIALLY HEINOUS,
ATROCIOUS, OR CRUEL.”
Here, the evidence was insufficient to support the
jury’s finding that this murder was an “especially heinous,
atrocious, or cruel” one. The undeniable facts are that
Rob Andrew was shot twice with a shotgun, both shots
hitting vital internal organs. Thus, either shot would have
resulted in Andrew going into shock, losing consciousness,
and bleeding to death within minutes. However, the
combination of both shots would have sped up the bleeding
process, revealing that Rob Andrew clearly died where
he fell on the garage floor.
These facts should have clearly shown that this
murder was not especially heinous, atrocious, or cruel.
Yet, because the court was able to determine otherwise,
the OCCA applied an incorrect standard of review when
addressing this claim. The OCCA concluded that the
following “facts tend to show that Rob Andrew suffered
serious physical abuse:” 1) there were numerous wounds

459a
Appendix N
from the two shotgun blasts that damaged Andrew’s
internal organs; 2) both wounds caused sufficient blood
loss to be independently fatal, but the death was not
instantaneous; 3) Andrew was still clutching a trash bag
full of empty aluminum cans, which reasonably suggests
that he either tried to ward off his attacker or shield
himself from being shot; and 4) in Brenda Andrew’s second
call to 911, she claimed that her husband was still conscious
and attempting to talk to her as he lay bleeding to death
on the garage floor. Pavatt v. State, 2007 OK CR 19, 159
P.3d 272, 294 (Okla.Crim.App 2007).
Though the Oklahoma court concluded that “these
facts tend to show Rob Andrew suffered serious physical
abuse,” the court failed to identify what serious physical
abuse occurred, beyond what naturally occurs in any
shooting. Thus, when the jury was instructed that “[a]ll
of the facts and circumstances, taken together, must be
inconsistent with any reasonable theory or conclusion other
than the existence of the aggravating circumstances,”
and each of the facts cited by the Oklahoma court was
consistent with a reasonable theory or conclusion that
the murder was not an “especially heinous, atrocious, or
cruel” one, there should have been a matching finding.
See OUJI B CR (2d) 4-77. See also (O.R. Vol. 11 at 2055).
This truth becomes clear upon even a cursory review
of the facts. Specifically, the facts showed that 1) the
“numerous wounds” occurred almost simultaneously and
did not contribute to an inordinate amount of conscious
pain prior to death; 2) the quick loss of blood from both
wounds resulted in shock and a loss of consciousness
within one minute; 3) the clutching of the plastic trash

460a
Appendix N
bag was meaningless in determining whether Rob
Andrew consciously suffered and that it was reasonable
to conclude that he was holding the trash bag when shot,
or that he instinctively grabbed for it as he fell; and 4) it
was reasonable to conclude that Rob Andrew was dead
when Brenda Andrew made her 911 calls, and her report
of Rob Andrew being conscious, breathing, and attempting
to talk was simply poor acting.
Yet, as stated above, instead of applying this
“reasonable hypothesis” standard of review to the claim,
the court evaluated whether a rational juror, considering
the evidence in the light most favorable to the state, could
have found the aggravating circumstance to exist beyond a
reasonable doubt. Pavatt, 159 P.3d at 294. By so evaluating
the claim, the court concluded that the jury could have
found the aggravating circumstance beyond a reasonable
doubt because Rob Andrew had time to reflect on the cruel
state of affairs before his death. Id. at 295.
Regardless of the standard, however, there was
simply not enough evidence to establish that this murder
was either especially heinous, atrocious, or cruel. Indeed,
this is not a case where the only material question is
whether the victim was conscious during a severe beating,
which itself clearly amounts to “serious physical abuse.”
Thomas v. Gibson, 218 F.3d 1213, 1227 (10th Cir. 2000)
(finding insufficient evidence that victim consciously
suffered during beating, stabbing, and strangulation,
which caused multiple bruises, lacerations, fractures, and
hemorrhaging). And, this is not a case where there is ample
evidence that the victim consciously suffered physical

461a
Appendix N
abuse while trying to ward off his attacker. Brown v.
Sirmons, 515 F.3d 1072, 1090 (10th Cir. 2008) (revealing
victim was bound prior to attack with baseball bat and
had defensive wounds on hands, fingers, and wrist and
a hinge from handcuffs embedded in his skull). Instead,
this is a case where there is no serious physical abuse. The
“numerous wounds” referred to by the Oklahoma court
are wounds caused by pellets from the same shell, shot
at the same time, from the same gun. All of the “wounds”
occurred instantaneously with the firing of the shotgun.
None of the other “facts” cited by the Oklahoma court
remotely relate to whether there was “serious physical
abuse.” Therefore, there was no reason for the OCCA to
conclude that this was an especially heinous, atrocious,
or cruel murder.
The OCCA’s error becomes clear in light of Tenth
Circuit holdings. When the Tenth Circuit has upheld
findings of “especially heinous, atrocious, or cruel” crimes
in shooting deaths showing “serious physical abuse,”
there has been severe pain and suffering and a lingering
death. In McCracken v. Gibson, 268 F.3d 970, 982 (10th
Cir. 2001), serious physical abuse existed where the
third victim, who was shot at a bar, was conscious and
complaining of pain to police and emergency medical
technicians who treated her, only for her to later die at
the hospital. The circuit court recognized that whether
the fourth shooting victim suffered serious physical
abuse was the more difficult question. The fourth victim
was alive and convulsing at the bar, after being shot. He
had vomited on himself and was described as being in
a “semi-conscious state” and later died at the hospital.

462a
Appendix N
However, the court found it unnecessary to consider the
constitutional sufficiency of this evidence as to the fourth
victim because it concluded the evidence was otherwise
constitutionally sufficient to support a finding that the
death was preceded by extreme mental cruelty. In Toles
v. Gibson, 269 F.3d 1167, 1183 (10th Cir. 2001), the circuit
court found the evidence sufficient to support a finding that
the murders were especially heinous, atrocious, or cruel
where one victim continued to physically struggle with
the killer after having been shot in the arm and the chest
with a .22 caliber firearm. He slowly suffocated from the
internal bleeding caused by the chest wound. The other
victim did not lose consciousness immediately from the
shot to the back of his head, but moved from where he
was shot to his bedroom, where he was heard crying and
gasping for air. He died after being taken off life support,
which had been administered by the paramedics upon
their arrival at the scene. See also Robinson v. Gibson,
2002 WL 13158 (10th Cir 2002) (finding evidence sufficient
to establish claim where killer shot at victim’s feet as he
ran, then shot him twice in the back; victim remained
conscious, asking bystanders to call an ambulance for
him and posing questions to the killer; victim was shot
two more times in the heart and lungs, and yet, remained
conscious requesting an ambulance before he finally lost
consciousness and died). Each of these cases reveals that
there was something substantially more than simply the
typical wounds resulting from two shotgun shots.
In Mr. Pavatt’s case, it is disturbing to imagine that
the constitutional sufficiency of the evidence of a critical
aggravating circumstance rests upon gross speculation

463a
Appendix N
concerning why Andrew was gripping a trash bag of
aluminum cans when he died, or upon Brenda Andrew’s
words in her second 911 call a call which is promoted by
the prosecution as false in all other aspects. A timeline
of Rob Andrew’s death reveals that Ron Stump received
a phone call from Rob Andrew at approximately 6:00
p.m. and was told Brenda needed more time to have the
children ready so they would not be ready until 6:15 p.m.
(Tr. Vol. 6 at 1551). Rob Andrew waited in the driveway
while on the phone with Stump. (Tr. Vol. 6 at 1551-1553).
The log for Brenda Andrew’s 911 calls shows that the first
call was recorded at 6:19:44 p.m. and lasted 2 minutes,
36 seconds. It ended at 6:22:19 p.m., and her second call
was received seven (7) seconds later at 6:22:26 p.m. (Post
Conv. Ex. 9). According to the prosecution’s theory, Rob
Andrew was shot prior to the first 911 call, and Brenda
Andrew was shot between the two calls. (Tr. Vol. 14B at
3611). Only in the second call did Brenda say anything
about Rob Andrew still breathing and trying to talk to
her. In fact, in Brenda Andrew’s statement to Sergeant
Frost and later to Detective Garrett, after Rob Andrew
and she were shot, she says she went into the home to
retrieve the phone and to check on the children in the
master bedroom. After this sojourn, she returned to the
garage to wait for the paramedics and law enforcement
officers while making her phone calls to 911. According to
Tom Bevel, however, there was no trail of blood consistent
with Brenda Andrew’s claim that she went inside the
home for the phone after she’d been shot. (Tr. Vol.12, at
3186-87) Sergeant Roger Frost, who was patrolling the
neighborhood, arrived at the Andrew home within one
minute of the call going out over the radio. He and two

464a
Appendix N
other officers arrived at the same time and found Rob
Andrew dead on the garage floor, and Brenda Andrew
sitting in the garage by the door leading into the home.
(Tr. Vol. 9 at 2169-71). She’d been on the phone with the
911 operator when the officers arrived. (State’s Ex. 34). In
the first 911 call, Brenda Andrew said nothing about Rob
Andrew being dead or alive. She simply told the operator
that she couldn’t tell where Rob has been shot, but that it
looked like his shirt has been ripped. She repeated that
there was “blood everywhere,” and that Rob Andrew had
“blood all over him.” She said nothing about whether he
was conscious, breathing, or talking.
It was not until the second 911 call, the one relied upon
by the prosecution and the OCCA to conclude that Rob
Andrew consciously suffered “serious physical abuse prior
to his death,” that the 911 operator asked Brenda Andrew
if her husband was conscious, and Brenda responded
“Rob? Yeah, he’s conscious.” Brenda Andrew later said,
“Rob, come on, wake up. He’s breathing. He’s fine. He’s
fine.” When the operator told her to try to get him to talk
to her by telling him a story, Brenda said “Rob, tell me a
story. Rob, talk to me. Rob, talk to me. He’s trying to talk
to me. Come on Rob.” Brenda Andrew repeatedly said,
“He’s breathing. He’s breathing.” She told the operator
that he was “bleeding bad though, with blood everywhere,”
but when the operator asked her if she had tried to apply
any kind of bandage to the wound, she responded “No.
No.” She was repeating that Rob Andrew was breathing
when the officers first arrived at the scene. (State’s Ex.
34). The entire length of the two 911 calls was 6 minutes.
(Tr. Vol. 9 at 2149). Clearly, Rob Andrew was not breathing

465a
Appendix N
when the officers and paramedics arrived at the scene.
Rob Andrew’s death was recorded at 6:20 p.m. before
the second 911 call was initiated. (Tr. Vol. 10 at 2433). It
is a reasonable hypothesis that Brenda Andrew’s act of
trying to minister to her dying husband was done for the
benefit of the 911 operator and not because Rob Andrew
was still alive during the calls. In fact, no rational juror
could have determined otherwise.
Petitioner recognizes that Rob Andrew’s death was
not instantaneous, but it is not reasonable to conclude
that Andrew remained conscious while his wife wernt into
the home, retrieved the phone, checked on the children,
returned to the garage, and made the two 911 phone calls,
and yet, stopped breathing immediately upon the arrival
of the officers and the paramedics. Rob Andrew was dead
when Brenda Andrew made her first call.
As with the Tenth Circuit, Oklahoma courts have
found this aggravating circumstance unsupportable even
in light of such facts when shooting deaths have not been
instantaneous. The death of Karl Myers’ victim was not
instantaneous. Myers v. State, 133 P.3d 312, 332 (Okla.
Crim. App. 2006) (centering around a rape victim who had
multiple lacerations, abrasions, and contusions, in addition
to the wounds from five gunshots, the fatal wound being
one to the chest, which ruptured the aorta but with one
of the head wounds probably rendering her unconscious
before her death). The death of William Keith Cudjo’s
victim was not instantaneous. Cudjo v. State, 1996 OK CR
43, 925 P.2d 895, 901 (Okla. Crim. App. 1996) (involving a
victim shot in the head after he asked the defendant not

466a
Appendix N
to shoot, but who remained coherent at the scene, later
experiencing nausea, vomiting, shortness of breath, and
his head hurting, only to die later after being transported
to one hospital and then flown to another). The death of
Garry Michael Cheney’s victim was not instantaneous.
Cheney v. State, 1995 OK CR 72, 909 P.2d 74, 81 (Okla.
Crim. App. 1995) (stemming from an initial confrontation
in a parking garage where victim maced her husband and
Cheney ran after his wife and shot her repeatedly, with
five of the shots being fatal and two of the shots capable
of rendering her immediately unconscious). The death of
Ralph A. Brown’s victim was not instantaneous. Brown v.
State, 1998 OK CR 59, 753 P.2d 908, 912 (finding that after
Brown shot his wife seven times, with one fatal shot going
through the heart and another fatal shot going through the
aorta, she would have survived a few minutes). The death
of B.J. Stouffer’s victim was not instantaneous. Stouffer v.
State, 1987 OK CR 166, 742 P.2d 562, 563-64 (Okla. Crim.
App. 1987) (showing that victim, who was asleep on couch
and was shot twice in the head, died within minutes at
the scene). The death of Huey Don Odom’s victim was not
instantaneous. Odum v. State, 1982 OK CR 148, 651 P.2d
703, 707 (Okla. Crim. App 1982) (revealing victim shot
once in the neck from close range died within minutes of
asphyxiation). In all of the cases cited above, OCCA found
that the evidence that the murder was especially heinous,
atrocious, or cruel, to be wholly insufficient.
These findings are in accord with the Tenth Circuit’s
holding that for the “especially heinous, atrocious, or
cruel” aggravator to be constitutionally supported, “the
evidence must support anguish that goes beyond ‘that

467a
Appendix N
which necessarily accompanies the underlying killing.’”
Hamilton v. Mullin, 436 F.3d 1181, 1195 (10th Cir. 2006)
(citing Jones v. Gibson, 206 F.3d 946, 953 (10th Cir. 2000)).
And, the district courts have followed suit. In Nuckols v.
Reynolds, 970 F.Supp. 885 (W.D. Okla. 1983), the federal
district court found that the evidence did not support a
constitutionally narrowed construction of the aggravator
even though the decedent suffered a severe beating and
attempted to get up after the first blow from a ball peen
hammer. A similar conclusion was reached by the Tenth
Circuit in Thomas v. Gibson, 218 F.3d 1213, 1227 (10th Cir.
2000), where the evidence was insufficient to determine
whether the victim was conscious during a severe beating,
strangulation, and stabbing.
Here, the Oklahoma court’s approach of finding
“serious physical abuse” on the basis of Brenda Andrew’s
unbelievable 911 call and on the fact that Rob Andrew
was gripping a bag of aluminum cans when he died,
simply does not comport with the narrowing process
that the Constitution requires. Further, compounding
the departure from controlling authorities was the
court’s notation of additional “facts” to support the vague
definitions for the “especially heinous, atrocious, or cruel”
aggravator, including that Rob Andrew knew his attacker
and had time to reflect on the cruel state of affairs. While
the OCCA was satisfied that its finding of “serious physical
abuse” was supported by the jury’s determination, the
jury never knew of the requirement of conscious suffering.
See Ground Eleven, infra. Thus, the court’s statement that
its theory of the evidence supported the jury’s finding is
purely speculative. Without direct evidence of conscious

468a
Appendix N
suffering and additional acts of gratuitous violence beyond
the shooting itself, it is impossible to have any confidence
in the jury’s application of this problematic aggravator.
In the end, the State’s evidence failed to prove beyond
a reasonable doubt that Rob Andrew suffered either
torture or serious physical abuse prior to his death. Rob
Andrew was killed with two blasts from a shotgun, dying
where he fell within minutes of being shot. There were no
additional acts, no gratuitous violence, which bring this
murder into the exceptional category of an “especially
heinous, atrocious, or cruel” murder. Even if Andrew
experienced “some conscious physical suffering,” he was
clearly not tortured, and there was no physical abuse
beyond that accomplished with all murders. See Cudjo,
925 P.2d at 901-02 (“the aggravator ‘applie[s] only to that
class of murders which is most egregious.’ [T]he manner
of [ ] killing did not involve any acts of injury or cruelty
beyond the scope of the act of killing itself.”). Thus, it was a
reasonable hypothesis based upon the facts presented that
Mr. Andrew died within minutes of being shot, and that his
murder, while tragic, was not the “most egregious” kind
of murder that would set it apart from other murders. Mr.
Pavatt’s death sentence must be vacated, as the evidence
relating to the only other aggravator found is completely
different than that relevant to whether the murder
was “especially heinous, atrocious, or cruel.” Brown v.
Sanders, 546 U.S. 212, 126 S. Ct. 884, 163 L.Ed.2d 723
(2006)

469a
Appendix N
GROUND ELEVEN
FA I L U R E T O P R OV IDE A N A DE Q U A T E
INST RUCTION TH AT IN FORMS TH E J U RY
THAT IT MUST FIND “CONSCIOUS PHYSICAL
SUFFERING” AS A FACT BEYOND A REASONABLE
DOUBT BEFORE CONCLUDING THAT A MURDER
WAS “ESPECIALLY HEINOUS, ATROCIOUS, OR
CRUEL” DEPRIVES PETITIONER OF HIS SIXTH
AMENDMENT RIGHT TO A FAIR TRIAL, HIS
EIGHTH AMENDMENT RIGHT TO A RELIABLE
SEN T ENCING DET ERMINATION, A ND HIS
FOURTEENTH AMENDMENT RIGHT TO DUE
PROCESS OF LAW.
The OCCA concluded that the evidence at Mr. Pavatt’s
trial “tended” to show that Rob Andrew suffered serious
physical abuse and that he was conscious for several
minutes prior to death. However, there is no assurance
that the jury reached a similar conclusion beyond a
reasonable doubt. The jury had no guidance from the trial
court that “conscious physical suffering” was a required
element of the aggravating circumstance “especially
heinous, atrocious, or cruel.” In fact, the jury was given no
instruction defining what is required for “serious physical
abuse” to exist. And, without a narrowing instruction to
sufficiently channel the sentencer’s discretion, there is a
grave risk of
****

470a
O
Appendix o Appendix
— excerpts
of first
application for post-conviction relief
IN THE OKLAHOMA COURT OF CRIMINAL
APPEALS, FILED APRIL 17, 2006
IN THE COURT OF CRIMINAL APPEALS
THE STATE OF OKLAHOMA
Oklahoma Co. District Court
Case No. CF-2001-6189
Court of Criminal Appeals
Direct Appeal Case No.
D-2003-1186
Post Conviction Case No.
PCD-2004-25
JAMES DWIGHT PAVATT,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent,

471a
Appendix O
COURT OF CRIMINAL APPEALS FORM 13.11A
ORIGINAL APPLICATION FOR POSTCONVICTION RELIEF—DEATH PENALTY CASE
PART A: PROCEDURAL HISTORY
Petitioner, James Dwight Pavatt, through undersigned
counsel, submit his application for post-conviction relief
under Section 1089 of Title 22. This is the first time an
application for post-conviction relief has been filed.
The sentence from which relief is sought is:
Death
Pursuant to Rule 9.7A(3)(d), 22 O.S. Ch. 18, App., a
copy of the Judgment and Sentences and Death Warrant
entered by the District Court are filed herewith and
attached to this Application as Exhibits 1-2, Appendix of
Exhibits to Original Application For Post-Conviction
Relief
***
misconduct on the part of the assistant district attorney
throughout an individual trial and allowed by the trial
court regardless of whether or not the defense objects is
a structural defect and should not be subject to harmless
error analysis.

472a
Appendix O
4.	Conclusion.
Appellate counsel were ineffective for not sufficiently
raising the issue of prosecutorial misconduct. Strickland
v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984), Evitts v. Lucey, 469 U.S. 387, 105 S.Ct. 830, 83
L.Ed.2d 821 (1985), Garrison v. State, 2004 OK CR 35,
103 P.3d 590. Mr. Pavatt should receive a new trial.
I.	Insufficient Evidence to Suppor t the T wo
Aggravators Alleged by the State and Found by the
Jury that the Murder Was Heinous, Atrocious, or
Cruel, and that the Murder Was for Remuneration.
1.

Heinous, atrocious, or cruel. 25

Although appellate counsel argued that there was
insufficient evidence for the jury to find that Rob Andrew’s
murder was heinous, atrocious, or cruel for a page in the
brief in chief, appellate counsel failed to show this Court
why there is insufficient evidence. Appellate counsel were
ineffective.
In order for an heinous, atrocious, or cruel aggravator
to withstand an insufficiency of evidence challenge, this
Court reviews the evidence in the light most favorable
to the State and looks to see if there was any competent
evidence for the aggravator. Myers v. State, 2006 OK CR
12, __¶ 75, __ P.3d __. In this case, there is no competent
evidence for the aggravator. Dr. Jeffrey Gofton, the
25. Aplt. Brf., at 47.

473a
Appendix O
medical examiner, testified that either of the two shotgun
blasts to Rob Andrew’s body would have been fatal
within a matter of minutes and that once Rob Andrew
was shot, he would have been unconscious. After losing
consciousness, Rob Andrew died. (Tr. Vol. X at 2457-2458;
2461-2462, 2466). Rob Andrew’s death was recorded as
6:20pm. (Tr. Vol. X at 2433).
In closing argument for the second stage, the
prosecution argues that Rob Andrew was conscious and
knowing of his impending death. (Tr. Vol. XV at 37413742). The prosecution argues that Brenda Andrew while
on the phone to 911 states that Rob is alive and breathing
and is trying to get him to talk and that Brenda Andrew
is shot in between the two 911 calls. (Tr. Vol. XIV Part B
at 3611)(Tr. Vol. XV at 3741). Yet, the print out time log
of 911 calls, 26 only seven (7) seconds occurred between
the two 911 calls. (Exh. 9, Appendix). In addition, the
police arrived while Brenda was still on the phone to
911 saying Rob is breathing. State’s Exhibit 34 admitted
through Joseph Hill, the 911 records custodian showed
Brenda called 911 at 6:20pm. The exact time recorded for
Rob Andrew’s death. (Tr. Vol. X at 2433). Ronald Stump
testified he was on the phone with Rob approximately at
6:00pm the night he is murdered until the garage door of
Brenda’ s house went up sometime after that. Ron Stump
and Ron Stump’s son were doing a Bible study with Rob
while Rob waited in the driveway. (Tr. Vol. VI at 155126. The print out time log for 911 calls shows a call from 6112
Shaftsbury Road at 6:19:44 pm which lasted 2 minutes 36 seconds.
It ended at 6:22:19 pm The second call was received at 6:22:26 pm.
There were only 7 seconds between the calls. (Exh. 9, Appendix).

474a
Appendix O
1553). Throughout Mr. Pavatt’s trial, the State provided
the jury with numerous lies of Brenda Andrew including
showing that what happened in the garage at 6112
Shaftsbury was inconsistent with the evidence. Brenda
Andrew was lying about how Rob Andrew was shot; and
yet while she is on the phone to 911, she was telling the
truth? Reasonably doubtful, especially in light of the fact
that the Medical Examiner said his time of death was
at the exact same time Brenda called 911. Rob Andrew
was dead within a matter of moments just as the medical
examiner testified; and thus, his death was not preceded
with torture or serious physical abuse. His death was not
heinous, atrocious or cruel.
Just recently, this Court reiterated its prior holdings
on the heinous, atrocious, or cruel aggravator in Myers v.
State, 2006 OK CR 12, ¶ 74 __ P.3d __.
This Court has limited the heinous, atrocious, or
cruel aggravating circumstances to those cases
where the State proves beyond a reasonable
doubt that the murder of the victim was
preceded by torture or serious physical abuse,
which may include the infliction of either great
physical anguish or extreme mental cruelty.
Cheney v. State, 1995 OK CR 72, ¶ 15, 909 P.2d
74, 80.
Similarly to the Myers case, the evidence in this case does
not prove beyond a reasonable doubt that Rob Andrew
was conscious and suffering in pain after he was shot.
In Cheney v. State, 1995 OK CR 72, 909 P.2d 74, 80, this

475a
Appendix O
Court held that evidence necessary to prove the heinous,
atrocious, or cruel aggravator encompasses:
that the murder of the victim was preceded by
torture or serious physical abuse, which may
include the infliction of either great physical
anguish or extreme mental cruelty. Absent
evidence of conscious physical suffering of the
victim prior to death, the required torture or
serious physical abuse standard is not met. As
to the extreme mental cruelty prong of this
aggravating circumstance, torture creating
extreme mental distress must be the result of
intentional acts by the defendant. The torture
must produce mental anguish in addition to that
which of necessity accompanies the underlying
killing. Analysis must focus on the acts of the
defendant toward the victim and the level of
tension created. (footnote cites and internal
quotation marks omitted).
In the Cheney case, the victim had a protective order
against the defendant and the defendant. In addition, the
defendant physically struggled with the victim and he
had a gun one month before her murder. Cheney at 78.
This Court found insufficient evidence to prove heinous,
atrocious, or cruel aggravator beyond a reasonable doubt.
Id. at 79.
In contrast, in Hain v. State, 1996 OK CR 26, 919
P.2d 1130, 1146, the aggravator of heinous, atrocious, or
cruel was upheld when evidence by the medical examiner
showed that the victims died from thermal bums and

476a
Appendix O
smoke inhalation. The victims died suffering painful burns
while starving for oxygen. Hain at 1147.
The Tenth Circuit has held “[w]e have previously
stated that the evidence must support anguish that
goes beyond ‘that which necessarily accompanies the
underlying killing.’ Jones v. Gibson, 206 F.3d 946, 953
(10th Cir.2000).” Hamilton v. Mullin, 436 F.3d 1181, 1195
(10th Cir. 2006). Rob Andrew was killed with a shotgun.
He was not killed while suffering severe mental anguish
because he was about to be killed or because others were
about to be killed. 27 “Conscious[ness] ... is the critical
inquiry in determining whether a murder was especially
heinous, atrocious or cruel.” Spears v. State, 1995 OK CR
36, 900 P.2d 431, 443. Rob Andrew was only conscious a
few minutes, at best, after he was shot. His murder was
not heinous, atrocious, or cruel. This aggravator cannot
stand against Mr. Pavatt.
2. For remuneration aggravating circumstance. 28
In addition to the jury improperly finding that Rob
Andrew’s murder was heinous, atrocious, or cruel, the
27. In Hamilton v. Mullin, Mr. Hamilton was convicted of
killing four (4) people by shooting them in the back of their heads.
The heinous, atrocious, or cruel aggravator was upheld because the
individuals were forced to kneel in the back room uncertain of their
fate, while each but the first listened to his co-workers being killed.
Hamilton, 937 P.2d at 1014. Accordingly, [t]he evidence substantially
supports the finding of the four aggravators. Id. 436 F.3d 1181, 11941195 (10th Cir. 2006). (Internal quotations omitted).
28. Aplt. Brf., at 48-50.

477a
Appendix O
jury also concluded that the murder was committed
for remuneration. The statute says “[t]he person
committed the murder for remuneration or the promise of
remuneration or employed another to commit the murder
for remuneration or the promise of remuneration;” 21 O.S.
§ 710.12(3). Although Mr. Pavatt was having an affair with
Brenda Andrew, the estranged wife of the victim, and
although there was evidence presented suggesting that
a life insurance policy worth
****

478a
P OF BRIEF OF
Appendix p —Appendix
EXCERPTS
APPELLANT in the oklahoma COURT OF
CRIMINAL APPEALS, FILED JANUARY 31, 2005
D-2003-1186
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
District Court of Oklahoma County
Case No. CF-2001-6189
JAMES DWIGHT PAVATT,
Appellant,
-vsTHE STATE OF OKLAHOMA,
Appellee.
BRIEF OF APPELLANT
***
PROPOSITION XIV
THERE WAS INSUFFICIENT EVIDENCE TO
SUPPORT THE “ESPECIALLY HEINOUS,
ATROCIOUS OR CRUEL” AGGRAVATING
CIRCUMSTANCE.

479a
Appendix P
There was insufficient evidence to support the
heinous, atrocious or cruel aggravating circumstance.
See Thomas v. Gibson, 218 F.3d 1213 (10th Cir. 2000)
(Evidence was insufficient to support heinous, atrocious
or cruel aggravating circumstance); Donaldson v. State,
722 So.2d 177 (Fla. 1998); Jones v. Gibson, 206 F.3d 946,
953 (10th Cir. 2001)(“We agree with petitioner and the
federal district court that the record does not support
the Oklahoma Court of Criminal Appeals’ finding that
the victim pleaded for his life”).
The evidence does not support the fact that the murder
was “especially” heinous, atrocious or cruel. As defense
counsel said during closing argument, “To some degree
I suppose all homicides are heinous, atrocious or cruel. I
think that’s the reason why our legislature has inflicted
the term especially to that phrase.”
Interestingly, the State attempts to prove the
existence of the aggravating circumstance on the basis
of the information provided by Brenda Andrew in her
911 call to the police. (Tr. 3763) The medical examiner’s
testimony was that either of the two wounds could have
been fatal. Death occurred in a matter of minutes. The
medical examiner could not tell how long Mr. Andrew was
conscious. (Tr. 3764)
****

